<html>
<title> - H.R. _, RESTORING HEALTHY FORESTS FOR HEALTHY COMMUNITIES ACT; H.R. 1294, SELF-SUFFICIENT COMMUNITIES LAND ACT; H.R. 818, HEALTHY FOREST MANAGEMENT AND WILDFIRE PREVENTION ACT; H.R. 1345, CATASTROPHIC WILDFIRE PREVENTION ACT OF 2013; H.R. _,  DEPLETING RISK FROM INSECT INFESTATION, SOIL EROSION, AND CATASTROPHIC FIRE ACT OF 2013; AND H.R. 1442, DEPLETING RISK FROM INSECT INFESTATION, SOIL EROSION, AND CATASTROPHIC FIRE ACT OF 2013.</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




   H.R. _, RESTORING HEALTHY FORESTS FOR HEALTHY COMMUNITIES ACT; 
   H.R. 1294, SELF-SUFFICIENT COMMUNITIES LAND ACT; H.R. 818, HEALTHY 
FOREST MANAGEMENT AND WILDFIRE PREVENTION ACT; H.R. 1345, CATASTROPHIC 
 WILDFIRE PREVENTION ACT OF 2013; H.R. _,  DEPLETING RISK FROM INSECT 
INFESTATION, SOIL EROSION, AND CATASTROPHIC FIRE ACT OF 2013; AND H.R. 
   1442, DEPLETING RISK FROM INSECT INFESTATION, SOIL EROSION, AND 
                    CATASTROPHIC FIRE ACT OF 2013.
=======================================================================
 
                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, April 11, 2013

                               __________

                            Serial No. 113-9

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-441                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott Tipton, CO                     Pedro R. Pierluisi, PR
Raul Labrador, ID                    Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                


                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 11, 2013.........................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................    16
        Prepared statement of....................................    17
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................    12
        Prepared statement of....................................    14
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
        Prepared statement of....................................     3
    Labrador, Hon. Raul R., a Representative in Congress from the 
      State of Idaho.............................................    26
        Prepared statement of....................................    27
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     6
        Prepared statement of....................................    11

Statement of Witnesses:
    Brandt, Hon. Skip, Commissioner, Idaho County, Idaho.........   101
        Prepared statement on H.R. 1294..........................   103
    Campbell, Hon. Ray, Commissioner, Okanogan County, Washington    63
        Prepared statement on H.R. _, (Hastings).................    65
    Dozier, Hon. Cindy, Commissioner, Hinsdale County, Colorado..   119
        Prepared statement on H.R. 818...........................   120
    Groseta, Andy, Public Lands Council, Arizona Cattle Growers' 
      Association................................................   138
        Prepared statement on H.R. 1345..........................   140
        Response to questions submitted for the record...........   144
    Horngren, Scott, Staff Attorney, American Forest Resource 
      Council....................................................    70
        Prepared statement on H.R. _, (Hastings).................    71
        Response to questions submitted for the record...........    75
    Kulakowski, Dominik, Ph.D., Assistant Professor, School of 
      Geography, Adjunct Assistant Professor, Department of 
      Biology, Clark University..................................   162
        Prepared statement on H.R. 1442..........................   164
    Maisch, John ``Chris,'' State Forester & Director, Alaska 
      Department of Natural Resources, Division of Forestry......   105
        Prepared statement on H.R. 1294..........................   107
        Response to questions submitted for the record...........   110
    Martin, Hon. John, County Commissioner, Garfield County, 
      Colorado...................................................   116
        Prepared statement on H.R. 818...........................   117
    Martin, Tommie, District 1 Supervisor and Vice Chair, Gila 
      County, Arizona............................................   131
        Prepared statement on H.R. 1345..........................   133
    Morris, Judy, Supervisor, District 2, Trinity County, 
      California.................................................    79
        Prepared statement on H.R. _, (Hastings).................    81
    Robertson, Hon. Doug, Commissioner, Douglass County, Oregon..   152
        Prepared statement on H.R. _, (DeFazio, Schrader, Walden)   153
    Schrader, Hon. Kurt, a Representative in Congress from the 
      State of Oregon............................................    23
        Prepared statement on H.R. _, (DeFazio, Schrader, Walden)    25
    Sibold, Jason S., Ph.D., Assistant Professor of Geography, 
      Department of Anthropology, Colorado State University......   121
        Prepared statement on H.R. 818...........................   123
    Tidwell, Hon. Tom, Chief, Forest Service, U.S. Department of 
      Agriculture................................................    28
        Prepared statement on H.R. 818, H.R. 1294, and H.R. 1345.    29
        Response to questions submitted for the record...........   173
    Tuchmann, Tom, Forestry and Conservation Finance Advisor, 
      Office of Governor John A. Kitzhaber.......................   154
        Prepared statement of Governor John A. Kitzhaber, MD, on 
          H.R. _, (DeFazio, Schrader, Walden)....................   155
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................    19
        Prepared statement on H.R. _, (DeFazio, Schrader, Walden)    21
    Wood, Justin, Vice President, Fish Construction, NW, Inc., on 
      behalf of the National Association of Home Builders,.......    67
        Prepared statement on H.R. _, (Hastings).................    68

Additional materials supplied:
    List of documents retained in the Committee's official files.   179
    U.S. Department of the Interior, Statement submitted for the 
      record on H.R. 818 and H.R. 1345...........................     7
                                     



LEGISLATIVE HEARING ON H.R. _, ``RESTORING HEALTHY FORESTS FOR HEALTHY 
COMMUNITIES ACT''; H.R. 1294, ``SELF-SUFFICIENT COMMUNITIES LAND ACT''; 
 H.R. 818, ``HEALTHY FOREST MANAGEMENT AND WILDFIRE PREVENTION ACT''; 
 H.R. 1345, ``CATASTROPHIC WILDFIRE PREVENTION ACT OF 2013''; H.R. _, 
      ``DEPLETING RISK FROM INSECT INFESTATION, SOIL EROSION, AND 
 CATASTROPHIC FIRE ACT OF 2013''; AND H.R. 1442, ``DEPLETING RISK FROM 
 INSECT INFESTATION, SOIL EROSION, AND CATASTROPHIC FIRE ACT OF 2013.''

                              ----------                              


                        Thursday, April 11, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on NaturalResources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Young, Lamborn, 
McClintock, Lummis, Tipton, Labrador, Daines, LaMalfa, 
Hastings; Grijalva, DeFazio, Holt, Horsford, and Garcia.
    Also Present: Representatives Walden, Thompson, Gosar, 
Herrera Beutler, Southerland, Mullin; Schrader and Huffman.
    Mr. Hastings [presiding]. The hearing will come to order. I 
will note that the Subcommittee Chairman, Mr. Bishop from Utah, 
is normally here, but he has a conflict, which happens a lot 
this time of the year. So I get the privilege of chairing this 
Subcommittee today. And the Chair notes the presence of a 
quorum.
    The Subcommittee on Public Lands and Environmental 
Regulation is meeting today to hear testimony on three bills. 
Under the rules, opening statements are limited to the Chairman 
and Ranking Member of the Subcommittee. However, I ask 
unanimous consent to include any Member's opening statement in 
the hearing if submitted to the Clerk by the end of business 
today.
    [No response.]
    Mr. Hastings. And without objection, so ordered. I also ask 
unanimous consent that Members that are not on the full 
Committee or this Subcommittee be allowed to sit at the dais--
and there are several Members that wanted to do that--to take 
part in these proceedings.
    [No response.]
    Mr. Hastings. And without objection, they will be seated.
    Today's hearing will consist of several panels. On the 
first panel we will hear testimony from the sponsors of the 
bills that I mentioned today, and we will go into that as soon 
as--I see several of the Members are here, and we will start 
with that.
    I will now recognize myself for 5 minutes for my opening 
statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Today the Subcommittee will hear testimony on 
a number of bills to address the management stalemate that 
afflicts millions of acres of our Federal forests. Amongst 
those is a proposal I recently announced, the Restoring Healthy 
Forests for Healthy Communities Act. This draft legislation is 
intended as a starting point as we work toward a long-term 
solution to provide a stable revenue stream for rural counties 
and schools.
    Forested counties, including many in the Northwest, have 
long depended on a Federal promise of revenue from timber sales 
to help fund vital services, such as education and roads. Over 
a century ago, the Federal Government pledged to actively 
manage our forests and provide 25 percent of their revenues for 
counties that have national forest lands. The Federal 
Government, in my view, has failed to uphold this commitment.
    The Secure Rural School Program was designed to be a short-
term solution to continued funding after timber sales 
dramatically declined due to Federal over-regulation and 
harmful lawsuits. With a national debt approaching $16.8 
trillion, and billions of dollars more added every day, it is 
becoming increasingly difficult to finance a program that costs 
nearly $400 million, while ignoring the real consequences of 
poor management of our national forests.
    We need a new approach right now that renews the Federal 
Government's commitment to manage resources for the benefit of 
forested counties and their schools. Restoring active 
management of our national forests, as this legislation does, 
would ensure a stable, predictable revenue stream for counties 
and schools. Active management would promote healthier forests, 
reduce the risk of wildfires, and decrease our reliance on 
foreign countries for timber and paper goods.
    One need look no further than my State of Washington to 
witness the dichotomy of how poorly managed Federal forests 
impact both forest health and revenues.
    In my State of Washington, the Forest Service is 
responsible for managing over 9 million acres of forest land 
within seven different national forests. The Forest Service 
harvests only 2 percent of the new growth in Washington, and 
that yields about a half-a-million dollars a year in revenue.
    In contrast, the State of Washington, which manages about a 
quarter of that, 2.2 million acres compared to 9, they produce 
about 1,200 times more revenue per acre than does the Forest 
Service. So, to me, the evidence is clear: Better management 
yields more and is being done right now in the States.
    But even more disturbing, millions of acres of our Federal 
forests are consumed by wildfire each year. Last year's 
wildfires burned 9.3 million acres, nationwide. Now, to make a 
comparison, the U.S. Forest Service had only harvested 
approximately 200,000 acres, nationwide. This means that 44 
times as many acres burned than were responsibly managed.
    A further comparison. In Okanagan, Wenatchee, and Colville 
Forest in Eastern Washington, in my State, more than 300,000 
acres burned. That is more than was harvested, nationwide.
    The overgrowth and fuels-loading of these forests will 
either be reduced by catastrophic wildfire or by active 
management that we could implement to remove excessive growth 
and effectively and responsibly manage these forests.
    So, the draft legislation and the other bills before the 
Subcommittee today seek to positively reverse these trends that 
I outlined. I commend my colleagues for the legislation they 
have introduced to help achieve these goals. As the clock ticks 
on the expiration of the Secure Rural Schools Program, and as 
the wildfire season rapidly approaches, these bills would 
require the Forest Service to more actively manage our national 
forests.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Today the subcommittee will hear testimony on a suite of bills to 
address the management stalemate that afflicts millions of acres of our 
federal forests. Amongst those is a proposal I recently announced, the 
Restoring Healthy Forests for Healthy Communities Act. This draft 
legislation is intended as a starting point as we work towards a long-
term solution to provide a stable revenue stream for rural counties and 
schools.
    Forested counties, including many in the Northwest, have long 
depended on a federal promise of revenue from timber sales to help fund 
vital services such as education and roads. Over a century ago the 
federal government pledged to actively manage our forests and provide 
25 percent of revenues for counties containing National Forest Lands. 
The federal government has failed to uphold this commitment.
    The Secure Rural Schools program was designed to be a short-term 
solution to continue providing funding after timber sales dramatically 
declined due to federal overregulation and harmful lawsuits. With the 
national debt approaching $16.8 trillion, and billions more added every 
day, it is becoming increasingly difficult to finance a program that 
costs nearly $400 million in annual spending, while ignoring the real 
consequences of poor management of our national forests.
    We need a new approach--right now--that renews the federal 
government's commitment to manage resources for the benefit of forested 
counties and their schools.
    Restoring active management of our national forests, as this 
legislation does, would ensure a stable, predictable revenue stream for 
counties and schools. Acting management would promote healthier 
forests, reduce the risk of wildfires, and decrease our reliance on 
foreign countries for timber and paper goods.
    One need not look further than the State of Washington to witness 
the dichotomy of how poorly managed federal forests impacts both forest 
health and revenues.
    In Washington, the Forest Service is responsible for managing over 
9 million acres of forest land within seven different national forests. 
The Forest Service harvests only about 2 percent of the amount of new 
growth in Washington, yielding about a half million dollars last year 
in revenue.
    In contrast, the State of Washington, which manages about a quarter 
of the amount of forest lands of those managed by the Forest Service, 
produces 1,200 times more revenue per acre than the forest service. The 
evidence is clear: better management yields more and it is being done 
right now by states.
    Even more disturbing, millions of acres of our federal forests are 
consumed by wildfire each year. Last year, wildfires burned 9.3 million 
acres nationwide. To make a comparison, the U.S. Forest Service only 
harvested approximately 200,000 acres. This means that 44 times as many 
acres burned as were responsibility harvested.
    A further comparison, in the Okanogan, Wenatchee and Colville 
National Forests, more than 300,000 acres of forests burned. That is 
more acres than the Forest Service harvested nationwide.
    The overgrowth and fuels-loading of these forests will either be 
reduced by catastrophic wildfire, or active management could be 
implemented to remove excess forest growth effectively and responsibly.
    This draft legislation and other bills before the Subcommittee 
today seek to positively reverse these trends. I commend my colleagues 
for the legislation they have introduced to help achieve these goals. 
As the clock ticks on the expiration of the Secure Rural Schools 
Program and as the wildfire season rapidly approaches, these bills 
would require the Forest Service to more actively manage our national 
forests.
    With that, I thank our witnesses for being here and I look forward 
to their testimony.
                                 ______
                                 
    Mr. Hastings. And with that, I want to thank the witnesses. 
And so we will start today with the members of the Committee 
who have sponsored legislation.
    And I see--oh, I am sorry, Mr. Grijalva first. I forgot 
about that. You are recognized for 5 minutes.
    Mr. Grijalva. Thank you. And that is why I miss Mr. Bishop 
on occasion.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me thank you, Mr. Chairman, for holding 
this hearing today. I want to thank the witnesses, as you did, 
for coming, many from the West Coast and on short notice.
    There is a crisis in our forests. No one disputes this 
simple fact. From Arizona and Colorado to Puerto Rico and 
Florida, forest fires have become a far-too-present reality. 
The administrative and on-the-ground challenges that come with 
managing 193 million acres of forest are not the only reason 
for the severity of fires that we are seeing over the past 
several years. Climate change is driving up the frequency and 
severity of forest fires, and this is a reality that has not 
been ignored by the Forest Service and other management 
agencies.
    But we have to do more. All of us sitting in this room 
agree. We have to deal with forest management, but it isn't 
just forest conditions that are in crisis. The institutions 
responsible for the oversight and care of these national 
treasures are also in the midst of a serious crisis. And I am 
not just pointing the finger at the Forest Service. The crisis 
of confidence in the agency responsible for managing national 
forests isn't really the issue.
    Chief Tidwell has been a great leader. But there are 
serious budget issues and management challenges that make the 
agency's work more difficult.
    Congress also bears serious responsibility. As legislators, 
we are also in a crisis. In the middle of the wildfire season 
last year, we held several hearings on forest management. 
Despite nearly universal agreement that we should extend 
stewardship contracting and authorize good neighbor authority, 
we failed to get those two simple things done. We failed to 
have a serious conversation about the future of management and 
what it should look like.
    When we asked the Majority if Democrats could be included 
in crafting the Chairman's bill, we were not included. Instead, 
we have bills before us today that attempt to address forest 
management concerns by skirting public input and mandating 
timber harvest levels. These proposals jeopardize Federal 
commitments to all Americans, and this is grandstanding and not 
legislating.
    There are wildfires burning now, and more on the horizon 
this summer. The time for political posturing is over. I am 
ready to sit down with my colleagues and try to work out 
something that has a realistic chance of becoming law. As we 
will hear today from Supervisor Morris, incredible things can 
happen if you just sit down and have a conversation.
    By engaging all of the concerned stakeholders, from the 
timber industry to conservation advocacy groups, the Forest 
Service is learning about collaboration and how it works. Maybe 
it is time the people in this room learn the same lessons, 
lessons that are outside the beltway, and apply those to the 
work we have to do in this room.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation

    Thank you for holding this hearing today. I want to thank our 
witnesses for coming--many from the West Coast on short notice.
    There's a crisis in our forests. No one disputes this simple fact. 
From Arizona and Colorado to Puerto Rico and Florida, forest fires have 
become a far too present reality.
    The administrative and on-the-ground challenges that come with 
managing 193 million acres of forest are not the only reason for the 
severity of fires we've seen over the past several years. Climate 
change is driving up the frequency and severity of forest fires, and 
this is a reality that has not been ignored by the Forest Service and 
other land management agencies.
    But we have to do more. All of us sitting in this room agree; we 
have to deal with forest management. But it isn't just forest 
conditions that are in crisis.
    The institutions responsible for the oversight and care of these 
national treasures are also in the midst of a serious crisis, and I'm 
not just pointing a finger at the Forest Service.
    The crisis of confidence in the agency responsible for managing 
National Forests isn't really the issue. Chief Tidwell has been a great 
leader, but there are serious budget issues and management challenges 
that make the agency's work difficult.
    Congress also bears serious responsibility. As legislators, we are 
also in a crisis. In the middle of the wildfire season last year, we 
held several hearings on forest management. Despite nearly universal 
agreement that we should extend stewardship contracting and authorize 
Good Neighbor Authority, we failed to get those two simple things done.
    We've failed to have a serious conservation about what future 
management should look like.
    When we asked the Majority if Democrats would be included in the 
crafting of the Chairman's bill, we were told no.
    Instead, we have bills before us today that attempt to address 
forest management concerns by skirting public input and mandating 
timber harvest levels. These proposals jeopardize federal commitments 
to all Americans and are simply grandstanding--not legislating.
    There are wildfires burning now and more on the horizon this 
summer. The time for political posturing is over. I'm ready to sit down 
with my colleagues and try to work on something that has a chance of 
being enacted into law.
    As we will hear today from Supervisor Morris, incredible things can 
happen if you just sit down and have a conversation. By engaging all of 
the concerned stakeholders--from the timber industry to conservation 
advocacy groups--the Forest Service is learning that collaboration 
works.
    Maybe it is time the people in this room learn some lessons from 
outside the Beltway and apply those to the work we do in this room.
    Thank you
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his statement and I 
will recognize the sponsor of H.R. 818.
    Mr. Tipton from Colorado is recognized to speak on his 
legislation.

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Chairman Hastings. I appreciate you 
for today's hearing and for including my legislation, H.R. 818, 
the Healthy Forest Management and Wildfire Protection Act. I 
would also like to thank Commissioners John Martin and Cindy 
Dozier, who were willing to make the trip out from Colorado to 
be able to speak on an issue that they know as well as anyone. 
I would also like to thank my fellow members of the Natural 
Resources Committee, members of the Colorado Delegation, who 
have dedicated their time to working with me on this critical 
piece of legislation.
    I also think it is important to take a moment to thank our 
Nation's wildland firefighters and first responders. I had the 
privilege of meeting some of these brave men and women a few 
weeks ago in Craig, Colorado. I think it is important to 
acknowledge the efforts of these folks and their colleagues. 
Regardless of the differences we may have on forest policy, I 
know that everyone on this Committee appreciates their efforts 
in fighting forest fires and being able to protect property.
    The Bark Beetle epidemic, rampant drought, and 
deteriorating forest health conditions have increased the 
propensity for devastating wildfires throughout the western 
United States. According to the National Interagency Fire 
Center, last year more than 9.3 million acres of land burned. 
This is an area approximately the size of Rhode Island, 
Delaware, the District of Columbia, and Massachusetts, 
combined. These fires tragically claimed 13 lives, destroyed 
more than 2,000 homes, and led to hundreds of millions of 
dollars in damages. While the Bark Beetle outbreak and other 
hazardous forest health conditions have affected State and 
private lands, hazardous conditions are most often heavily 
concentrated on Federal lands, where there is a lack of active 
forest management. And this has allowed the epidemic to be able 
to spread to catastrophic levels.
    Of the 6.6 million acres infested by the Mountain Pine 
Beetle in Colorado, over 4 million acres, an area larger than 
Connecticut, are on Federal forest lands. Federal efforts to 
responsibly manage our forests and prevent the conditions for 
fires that have raged across Colorado and other western States 
have hampered an unwieldy and regulatory framework that 
systematically prevents a program toward healthy forests.
    H.R. 818 gives greater control to States and communities 
most directly affected by these conditions, and provides a 
pathway for comprehensive landscape level planning with a local 
emphasis. Tools that give greater voice to local communities 
and decision-making have historically been among the most 
effective and broadly supported land management measures. And 
this very notion is at the heart of this bill.
    The community-centric focus of this legislation builds on 
the bipartisan Healthy Forest Restoration Act of 2003 by 
empowering States, counties, and Tribes to have a more active 
role in addressing these emergency circumstances. We can 
proactively manage our forests, reduce future destruction from 
wildfires, and safeguard water supplies and species habitat and 
promote healthy natural environments. Using the tools of the 
Healthy Forest Restoration Act, which have proven to be 
effective, the Healthy Forest Management and Wildfire 
Prevention Act can help reduce the cost imposed on taxpayers 
due to litigation, expedite emergency mitigation procedures, 
and restore our forests before they go up in flames, when the 
costs are far greater.
    H.R. 818 prioritizes conservation, and will help reduce the 
investment required of taxpayers by making public-private 
partnerships more feasible. Healthy Forest Management and 
Wildfire Prevention Act is the result of years of Committee 
work, meeting with the Forest Service, Bureau of Land 
Management, and other agencies, meeting with county and State 
officials, and with constituents, as well as congressional 
hearings on forest management. Everyone we have talked to 
agrees that more needs to be done to be able to manage our 
Federal forests. This legislation is the outgrowth of that 
stakeholder engagement. This is further beared out by the 
groundswell of support that we have received for this 
legislation from groups on both sides of the political 
spectrum.
    This bill allows those who are most directly impacted by 
wildfire to take proactive measures to be able to address the 
problems and mitigate the root cause of catastrophic wildfire. 
The status quo is no longer good enough. The status quo has 
given us decades of declining forest health. The status quo has 
given us years of increasing catastrophic wildfire. The status 
quo puts people, communities, and the ecosystems at risk. It is 
time to take a stand. And it is time for action.
    I urge my colleagues to join an already strong coalition of 
support for this common-sense bill that takes steps to be able 
to address the critical state of western forests. I am proud to 
have the support of a multitude of State and national forester 
associations, conservation districts, sportsmen's groups, 
traditional and renewable energy developers, fish and wildlife 
agencies, and numerous counties across the State of Colorado 
and elsewhere in the West.
    And without objection, Mr. Chairman, I would like to be 
able to request that we submit their letters of support into 
the record.
    Mr. Hastings. Without objection, they will be part of the 
record.
    [The statement submitted for the record by Mr. Tipton from 
the Bureau of Land Management follows:]

   Statement Submitted for the Record by the U.S. Department of the 
     Interior on H.R. 818, Healthy Forests Management and Wildfire 
  Prevention Act; and H.R. 1345, Catastrophic Wildfire Prevention Act

Introduction
    Thank you for the opportunity to provide the Department of the 
Interior's views on H.R. 818, the Healthy Forests Management and 
Wildfire Prevention Act, and H.R. 1345, the Catastrophic Wildfire 
Prevention Act. The Department received its invitation to testify on 
three bills less than seven days before the hearing, and is only able 
to provide views on the two bills that had been introduced as of the 
date of the invitation.
    H.R. 818 and H.R. 1345 attempt to reduce the risk of catastrophic 
damages resulting from wildland fire by defining new forest and fuels 
treatments policies on public lands managed by the Bureau of Land 
Management (BLM) and on National Forest System lands managed by the 
U.S. Forest Service. The Department of the Interior supports the goals 
of enhancing restoration for public forests and rangelands and 
mitigating the risks of wildland fire by working more effectively with 
our partners, and supports Good Neighbor and Stewardship Contracting 
authorities. However, the Department cannot support measures that 
expedite restoration treatments, as well as commercial grazing and 
timber harvest, at the expense of appropriate environmental review and 
public involvement in federal actions, and therefore opposes H.R. 818 
and H.R. 1345.
Background
    The BLM is committed to sustaining the health, diversity, and 
productivity of forests and woodlands, which together comprise 58 
million acres of public lands managed by the BLM. The mounting effects 
of insect infestations, disease outbreaks, prolonged drought, climate 
change, invasions of harmful non-native species, and the accumulation 
of fuels generate increased risks of catastrophic losses, including 
risks to life and property that may result from wildfire. These 
increasing pressures, coupled with increasing demands for uses of the 
public lands, may also result in the loss of natural and cultural 
resources, loss of wildlife habitat, and loss of recreational 
opportunities on the public lands.
    Guiding all of the BLM's management actions--including forestry and 
fuels management--is the agency's land use planning process. This is an 
open, public process in which the agency's proposals for managing 
particular resources are made known to the public in advance of taking 
action. The BLM's plans are reviewed and analyzed by members of the 
public and stakeholders, including state, tribal, and local agencies, 
and the BLM must address all comments on agency proposals and make its 
responses available to the public.
    Similarly, the BLM is committed to providing the full environmental 
review, including analysis of alternatives, and public involvement 
opportunities required by the National Environmental Policy Act (NEPA) 
for all agency proposals for BLM-managed lands. NEPA emphasizes public 
involvement, giving Americans a role in decisions that impact lands and 
resources over which Federal agencies exercise management and 
stewardship responsibilities. America's economic health and prosperity 
are inextricably linked to the productive and sustainable use of our 
natural resources. The NEPA process remains a vital tool as we work to 
protect our Nation's environment and revitalize our economy.
Fire
    The Department, through the Office of Wildland Fire, coordinates 
fire prevention, mitigation, and response both within the Department 
and with external federal and non-federal partners. The National 
Cohesive Wildland Fire Management Strategy is an unprecedented 
collaborative planning and risk analysis that builds on successes of 
the past while incorporating a new collaborative approach to restoring 
and maintaining resilient landscapes, creating fire adapted 
communities, and managing wildfire response in a complex environment. 
The Department's approach to hazardous fuels reduction is integrated 
and coordinated across vegetation types, types of insect infestation 
and disease, and land ownership. The Department employs an integrated, 
multi-agency approach to wildland fire management, and looks forward to 
working with the Committee, the States, and at-risk communities to 
restore public forests and rangelands and mitigate the risks of 
wildland fire.
Forest Restoration
    The Healthy Forests Restoration Act of 2003 (HFRA) provides 
authority for hazardous fuels treatments and other forest and rangeland 
restoration treatments. In FY 2012, the Department of the Interior 
completed about one million acres of hazardous fuels reduction 
treatments. Over 468,000 acres of these treatments were conducted by 
BLM, including thinning, salvage, and prescribed burns. The mountain 
pine beetle epidemic is estimated by the BLM to affect forests on up to 
1.7 million acres of BLM-managed public lands, changing the character 
and increasing the complexity of the restoration treatments that the 
BLM applies. The BLM takes seriously its responsibilities for 
protecting people, property, and resources from wildland fire, and uses 
a proactive approach to treat hazardous fuels.
    Because the factors that cause increasing hazardous fuel loads 
cross jurisdictional boundaries, the BLM has increasingly adopted a 
landscape approach to resource conservation and hazardous fuels 
treatments. The BLM routinely works with partner agencies, 
organizations, and landowners to engage in land and watershed 
restoration and hazardous fuels reduction activities on federal, state, 
and private lands.
Stewardship Contracting
    Stewardship contracting authority, established for the BLM in the 
FY 2003 Omnibus Appropriations Act, allows the BLM to award contracts 
for fuels treatment and removal, for a period of up to ten years, and 
to use the value of timber or other forest products removed as an 
offset against the cost of services received. The BLM has enjoyed many 
successes in using stewardship contracting authority, accomplishing 
goals for hazardous fuels reduction, habitat restoration, jobs and 
revenue growth for local communities, and protection of local 
communities from wildland fire. From 2003 through 2012, the BLM offered 
over 400 stewardship contracts on over 112,000 acres of BLM-managed 
lands. The BLM's future strategy for stewardship projects includes 
increasing the size and duration of these projects. The 2014 
President's Budget proposes to permanently authorize stewardship 
contracting authority for the Forest Service and BLM.
Good Neighbor Authority
    Currently, the BLM is authorized through a pilot authority to enter 
into Good Neighbor agreements and contracts with the Colorado State 
Forestry Division to perform watershed restoration and protection 
services on BLM lands in the State of Colorado when similar and 
complementary work is being performed on adjacent state lands. This 
authority has been extended until September 30, 2013. All Good Neighbor 
projects must comply with applicable environmental laws and 
regulations, including the appropriate level of environmental review 
under NEPA, and must be consistent with the applicable land use plans. 
BLM field units are encouraged to use the Good Neighbor Authority as a 
tool to achieve resource work identified through the regular land use 
planning processes.
H.R. 818
    H.R. 818 declares the bark beetle epidemic, drought, and 
deteriorating forest health conditions on National Forest System lands 
and public lands to be an ``imminent threat'' and empowers the 
Governors of states, in addition to the Secretaries of Agriculture and 
of the Interior, to designate ``high-risk'' areas on these federal 
lands, and to propose and require the appropriate Secretary to 
implement emergency hazardous fuels reduction projects within 
designated ``high-risk'' areas. The bill applies several HFRA 
authorities--reduced environmental analysis, special administrative 
review, and reduced judicial review--to the emergency hazardous fuels 
reduction projects as defined in H.R. 818. The bill expands Good 
Neighbor Authority and Stewardship Contracting Authority. The 
Department of the Interior supports Good Neighbor Authority and 
Stewardship Contracting and is committed to protecting lives, public 
land resources, and property from wildland fire. However, the 
Department opposes H.R. 818 because it restricts opportunities for 
public review and environmental analysis and because it would transfer 
authority to state Governors to direct federal resource management 
actions on federal lands.
Analysis
    The bill's definition and designation of ``high-risk'' areas is 
exceedingly broad. With no limitations on the size, location, or 
present condition of such designations, the bill provides nearly 
unlimited authority for state Governors or the Secretary to establish a 
new designation without review, analysis, or public input. The bill 
requires Governors to consult with county governments and affected 
Indian tribes, but does not require consultation with the Federal land 
management agency. Additionally, the inclusion of a future risk of 
insect infestation or disease as a criterion for identifying ``high-
risk'' areas makes the designation meaningless, as virtually all public 
lands with forests or vegetation could be classified as potentially at 
future risk of insect infestation or disease. The BLM opposes allowing 
state Governors (or the Secretaries) to designate management treatments 
on Federal lands outside of the land use planning process--which 
provides for public notification, public involvement, the input of 
stakeholders, consideration of sound science, and the analysis of 
alternative management options to inform federal agency land and 
resource management decisions.
    The bill requires that initial ``high-risk'' areas be designated 
within 60 days of enactment of the Act. This short time frame would not 
provide the BLM sufficient time to analyze the effects of designations 
or consider input from the public, including ranchers, industry 
representatives, recreationists, and property owners. All of these uses 
could be affected by the designation of an area as ``high risk,'' yet 
the bill's strict deadlines limit opportunities for those who use 
public lands to make their concerns known. The bill provides that 
``high-risk'' areas will be designated for 20 years, which, in effect, 
prioritizes this work over all other work during this time frame. This 
long time period fails to provide opportunities to adjust course during 
the 20 year period to respond to new circumstances or information, 
emerging threats, or to unanticipated impacts or changes in resource 
conditions. For example, the current mountain pine beetle outbreak had 
not been projected 20 years ago.
    Of serious concern, the bill (Sec. 6) also requires the Secretaries 
to implement within 60 days projects proposed by a state Governor (or 
Secretary) for ``high-risk'' public lands, notwithstanding the outcome 
of the review, analysis, and public participation provisions of the 
bill (Sec. 7) or the availability of resources. Requiring immediate 
implementation of projects, without consideration or analysis of 
impacts or public input, prevents an open, public process and precludes 
effective environmental analysis. The authority provided to Governors 
in this provision presents additional concerns, essentially shifting 
the authority for resource management decisions and activities on 
federal lands to individual state Governors. The shift would occur 
without regard to national objectives or interests. In addition, 
requiring immediate implementation of these projects would place a 
serious burden on available agency funding and resources, impacting the 
BLM's ability to implement other BLM priorities, which include 
conventional and renewable energy development, other leasing and 
permitting activities, and existing priority restoration work.
    The bill also limits environmental analysis of emergency hazardous 
fuels reduction projects and opportunities for public input into agency 
decisions on those projects through the NEPA process. In particular, 
the bill limits agencies' alternatives analysis under NEPA to the 
proposed agency action, a ``no action'' alternative, and any 
recommendations of an at-risk community's community wildfire protection 
plan. Moreover, the bill categorically excludes eligible wildfire 
prevention projects from NEPA analysis in certain circumstances, an 
exclusion that the Department believes may be too broadly applicable on 
public lands.
    Finally, the bill excludes designated Wilderness and National 
Monuments from designation as ``high-risk'' areas. However, many other 
BLM lands include resources protected by federal law, including 
National Conservation Areas, National Scenic and Historic Trails, 
National Wild and Scenic Rivers, and Wilderness Study Areas. State 
Governors choosing to designate such areas as high risk areas would 
limit the BLM's ability to comply with its obligations to protect such 
resources under federal law. For example, under federal law (P.L. 105-
83), the BLM has particular obligations to preserve and protect forest 
in the Headwaters Forest Reserve in California. State designation of 
this area as a ``high-risk'' area would severely curtail the BLM's 
ability to manage for resources protected by federal law.
H.R. 1345
    H.R. 1345 reauthorizes and expands Stewardship Contracting and Good 
Neighbor Authority and provides that 25 percent of stewardship contract 
timber sale receipts be paid to counties. The legislation also requires 
the implementation of eligible wildfire prevention projects in forests 
and in threatened and endangered species habitat. The bill provides for 
a reduced period for environmental analysis for such projects, and 
establishes expedited administrative and judicial review. The 
Department of the Interior supports Good Neighbor Authority and 
Stewardship Contracting and is committed to protecting lives, public 
land resources, and property from wildland fire. However, the 
Department opposes H.R. 1345, because it limits public involvement in 
the land use planning and environmental analysis processes.
Analysis
    The goals of H.R. 1345 are to provide tools for reducing wildfire 
potential and to mitigate the risk of catastrophic damages from 
wildfire. The BLM supports the extension of Stewardship Contracting 
Authority, but would like to discuss with the committee the impact of 
requiring 25 percent of stewardship contracting receipts be paid to 
counties. In addition, changing the requirement to obligate 
cancellation costs upfront sets up a process different than other 
contracting activities and could potentially lead to an inability to 
pay if unobligated funds are inadequate to cover cancellation costs at 
the time of cancellation. The BLM supports the extension and expansion 
of Good Neighbor Authority.
    However, the Department does not believe that H.R. 1345 will help 
achieve the intended mitigation efforts as the bill does not reflect 
BLM's most current methods for conducting assessments and determining 
management practices. It would curtail the BLM's ability to use its 
public land use planning process to inform decision-making. The BLM 
uses science-based tools for assessing conditions, establishing 
utilization standards, and analyzing alternatives, and values both its 
ability to conduct science-based analyses and the input it receives 
from the public on the agency's proposed actions for managing 
particular resources.
    The bill also amends the purpose of the FLAME Act to provide that 
FLAME funds shall be available not only for large or complex fire 
events but also for burn area responses, including flood prevention. 
Expanding authorized use of FLAME funds would reduce the amount of 
funds available for fire suppression. In addition, there are other 
programs that support burned area rehabilitation activities.
    H.R. 1345 allows fuels reduction projects, including timber 
harvest, in Wilderness Study Areas (WSAs). The BLM opposes this 
provision. The BLM has developed a non-impairment criterion to meet the 
requirements in the Federal Land Policy and Management Act (FLPMA) that 
WSAs not have their suitability for wilderness designation impaired. 
H.R. 1345, if enacted, could result in the loss of suitability for 
wilderness designation in WSAs that the BLM has managed for 
nonimpairment since FLPMA was enacted.
    The bill imposes strict deadlines for public review and 
environmental analysis and deems a project NEPA compliant if the agency 
does not meet the deadlines. The 60- and 90-day deadlines for 
environmental analysis provided for in the bill would limit the BLM's 
ability to perform important analyses that inform its decisions and 
would not permit a considered response to all substantive comments 
received during the mandatory public comment period for draft 
environmental impact statements.
    The bill also eliminates the alternatives analysis, which lies at 
the heart of NEPA and is critical in informing agency decisions. In 
addition, the bill categorically excludes eligible wildfire prevention 
projects from NEPA analysis in certain circumstances; the Department 
believes such a categorical exclusion may be too broadly applicable on 
public lands. The BLM gains important information about public and 
stakeholder perspectives and performs important analyses during its 
NEPA process. The BLM opposes provisions limiting public participation 
through the land use planning and NEPA analysis processes.
    Furthermore, the bill provides a procedure for agencies to seek 
approval of alternative arrangements from the White House Council on 
Environmental Quality in cases where a categorical exclusion is 
unavailable for a proposed eligible wildfire prevention project. Under 
existing regulations, agencies can work expeditiously with CEQ in 
emergency situations where potential impacts appear significant. This 
provision in H.R. 1345 is therefore not needed and may, in cases where 
emergency circumstances exist and environmental impacts of a proposed 
wildfire prevention project are not believed to be significant, prevent 
agencies from rapidly completing an Environmental Assessment for the 
project, thereby delaying on-the-ground action.
                                 ______
                                 
    Mr. Tipton. Thank you, and I yield back.
    [The prepared statement of Mr. Tipton follows:]

     Statement of The Honorable Scott R. Tipton, a Representative 
                 in Congress from the State of Colorado

    Thank you Chairman Hastings for holding today's hearing and for 
including my legislation, H.R. 818, the Healthy Forest Management and 
Wildfire Prevention Act. I also want to thank Commissioners John Martin 
and Cindy Dozier who were willing to make the trip out from Colorado to 
speak to an issue they know as well or better than any. I would also 
like to thank my fellow members of the Natural Resources Committee and 
members of the Colorado Delegation who have dedicated their time to 
working with me on this critical legislation.
    I would also like to take a moment to thank our Nation's wildland 
fire fighters and first responders. I had the privilege of meeting some 
of these brave men and women a few weeks ago in Craig, Colorado. I 
think it is important to acknowledge the efforts of these folks and 
their colleagues. Regardless of the differences we may have on forest 
policy, I know that everyone on this committee shares this 
appreciation.
    The bark beetle epidemic, rampant drought, and deteriorating forest 
health conditions have increased the propensity for devastating 
wildfires throughout the Western United States. According to the 
National Interagency Fire Center, last year more than 9.3 million acres 
of land burned. That is an area approximately the size of Rhode Island, 
Delaware, the District of Columbia and Massachusetts combined. These 
fires tragically claimed thirteen lives, destroyed more than 2,000 
homes and led to hundreds of millions of dollars in damages.
    While the bark beetle outbreak and other hazardous forest health 
conditions have affected state and private lands, hazardous conditions 
are often most heavily concentrated on federal lands where a lack of 
active forest management has allowed the epidemic to spread to 
catastrophic levels. Of the 6.6 million acres infested by the mountain 
pine beetle in Colorado, over 4 million acres--an area larger than 
Connecticut--are on federal forest lands. Federal efforts to 
responsibly manage our forests and prevent the conditions for the fires 
that have raged across Colorado and other Western states have been 
hampered by an unwieldy regulatory framework that systemically prevents 
progress toward healthy forests.
    H.R. 818 gives greater control to states and communities most 
directly affected by these conditions, and provides a pathway for 
comprehensive, landscape level planning with a local emphasis. Tools 
that give greater voice to local communities in decision making have 
historically been among the most effective and broadly supported land 
management measures, and this very notion is at the heart of this bill.
    The community centric focus of this legislation builds on the 
bipartisan Healthy Forests Restoration Act of 2003 by empowering 
states, counties, and tribes to have a more active role in addressing 
these emergency circumstances, we can proactively manage our forests, 
reduce future destruction from wildfires, safeguard water supplies and 
species habitats, and promote a healthy natural environment.
    Using the tools in Healthy Forests Restoration Act which have 
proven to be effective, the Healthy Forest Management and Wildfire 
Prevention Act can help reduce the cost imposed on taxpayers due to 
litigation, expedite emergency mitigation procedures, and restore our 
forests before they go up in flames, when the costs are far greater. 
H.R. 818 prioritizes conservation and will help reduce the investment 
required of taxpayers by making public private partnerships more 
feasible.
    The Healthy Forest Management and Wildfire Prevention Act is the 
result of years of committee work, meetings with the Forest Service, 
Bureau of Land Management and other agencies, meetings with county and 
state officials, and with constituents; as well as Congressional 
hearings on forest management. Everyone that we talked to agreed that 
more needs to be done to manage our federal forests. This legislation 
is the outgrowth of that stakeholder engagement. This is further bared 
out by the groundswell of support that we have received for this 
legislation from groups on both sides of the political spectrum.
    This bill allows those who are most directly impacted by wildfire 
to take proactive measures to address the problem and mitigate the root 
causes of catastrophic wildfire. The status quo is no longer good 
enough. The status quo has given us decades of declining forest health, 
the status quo has given us years of increasingly catastrophic 
wildfires, the status quo puts people, communities and ecosystems and 
risk. It's time to take a stand, it's time for action. I urge my 
colleagues to join an already strong coalition of support for this 
common sense bill that takes steps to address the critical state of 
Western Forests.
    I'm proud to have the support of a multitude of state and national 
forester associations, conservation districts, sportsman groups, 
traditional and renewable energy developers, fish and wildlife 
agencies, and numerous counties across the state of Colorado and 
elsewhere in the West, and without objection I request to submit their 
letters of support for the record.
    Thank you.
                                 ______
                                 
    Mr. Hastings. The gentleman yields back his time.
    I would now like to recognize the gentleman from Arizona, 
Mr. Gosar, the sponsor of H.R. 1345. The gentleman is 
recognized.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman, for holding today's hearing 
on the Catastrophic Wildfire Prevention Act and a variety of 
other proposals to promote active forest management.
    There is an emergency situation in our communities, and we 
must act. Due to redistricting in my State, I have represented 
nearly all of rural Arizona over my past 2\1/2\ years in 
Congress. Those areas contain over 48,000 square miles of land 
administered by the Federal Government, including 14,000 square 
miles of forest lands in Coconino, Apache Sitgreaves, Prescott, 
Tonto, and the Kaibab National Forest.
    The region is the epicenter of our Nation's forest health 
emergency. Over the last 20 years, the frequency of fires and 
the magnitude of the acreages burned have increased strikingly. 
In the 1960s, a fire of several thousand acres was considered 
large. Today we measure the destruction in hundreds of 
thousands of acres. The five largest wildfires in my State's 
history have been in the last 10 years. They are destroying our 
national treasures and livelihoods.
    The fires are burning so hot they are sterilizing soil. 
Much of this damage will take decades to naturally repair 
itself, if ever. In 2 of the aforementioned Arizona fires, we 
have lost over 20 percent of the Mexican Spotted Owl nests that 
exist in the world.
    We could talk for hours about the circumstances that have 
led to this emergency situation. In fact, we have spent hours 
in this Committee conducting much-needed oversight. But we are 
all here today to talk about potential solutions.
    The current Federal system continues to prioritize fighting 
fires. Although the need to suppress fires is never going to go 
away, we must shift our priority toward proactive management of 
our public lands. If we don't, we are going to bankrupt our 
Federal and local governments, lose the natural treasures many 
of us hold dear, and cause a rural way of life to go extinct.
    That is why I support Arizona's Collaborative Landscape-
Scale Restoration Project, commonly known as the Four Forest 
Restoration Initiative, or 4FRI, and have introduced the 
Catastrophic Wildfire Prevention Act to help.
    First, I would like to briefly touch on the 4FRI. This is 
the first of its kind. Large-scale treatment will reduce 
damaging wildfire impacts as well as provide forest jobs, 
markets for wood products, and ecological restoration. It 
focuses on 2.4 million acres of Ponderosa Pine forest in 
Arizona's national forests, 50,000 acres per year over a 20-
year span. This unique collaborative project has garnered my 
support, as well as many of my colleagues in the Arizona 
Delegation, like the Ranking Member, our Governor, the affected 
counties and cities, and an unprecedented range of 
environmental groups and industry partners. I am committed to 
doing anything needed here in Congress to ensure the 4FRI's 
success.
    This leads me into the legislation we are considering 
today, H.R. 1345. Instead of relying on the Forest Service to 
pay all of the cost for restoration and thinning, the 4FRI 
recognizes the fiscal reality of today, and allows the Feds to 
partner with private industry to restore proper forest healthy.
    But, as you know, the agency's authority to enter into this 
public-private partnership expires this September. It is also 
important to note that 4FRI is one of the Forest Service's 
flagship collaboration projects. Many others and States that 
badly need large-scale treatment hope to pursue similar 
initiatives. My bill renews and reforms this important tool so 
that these types of initiatives are primed for success.
    These landscape-scale restoration projects are a key 
component of our long-term plan. But we have an emergency 
situation now. Projects that will conclude two to five decades 
from now, if they aren't litigated to death, will not alleviate 
today's immediate danger.
    That leads to the other components of my legislation. It 
provides the land-management agencies a variety of other tools 
to conduct smaller projects now. It expands the Good Neighbor 
Authority, a tool that allows the Feds to partner with State 
foresters to treat our forests. Since 2000, Colorado has used 
this authority to carry out over 40 projects. Utah was granted 
similar authority in 2004 and has used it to carry out 15 
projects on 2,800 acres of public land.
    The pilot was a success, and should be expanded to all 
States. It provides a variety of alternative expedited 
arrangements to streamline thinning and grazing projects needed 
in immediate at-risk areas like our forest communities, 
critical water delivery, and electrical infrastructures, and 
our schools. While long-term active forest management will 
protect all of us over the long run, we have to protect our 
people and our assets today. My bill provides for that 
immediate relief.
    H.R. 1345 has garnered bipartisan support here in Congress, 
cosponsored by 14 Members from 10 different States. 
Additionally, it has strong support among stakeholders, 
including the Cattlemen, the Natural Resources Conservation 
Districts, and the Farm Bureau. I would like to submit a 
comprehensive letter of support for the record.
    Mr. Hastings. Without objection, it will be part of the 
record.
    [NOTE: The list of documents retained in the Committee's 
official files can be found on page 174.]
    Dr. Gosar. Our forests and natural resources are a way of 
life in Arizona. I remain saddened by what has happened to our 
constituents that have been adversely affected by wildfire. 
That suffering is avoidable, if we look forward, work 
collaboratively in stewardship, and address the desperate 
forest maintenance crisis and other natural resources-related 
issues facing our State. Remember, ``no'' is no longer an 
answer. It is time to have so-called skin in the game for 
everyone.
    Thank you, Mr. Chairman, for your leadership on this issue, 
and I look forward to working with you on my bill and other 
proposals that will restore the environment, improve public 
safety, save the taxpayer dollars, and put people back to work. 
Thank you.
    [The prepared statement of Dr. Gosar follows:]

      Statement of The Honorable Paul A. Gosar, a Representative 
                 in Congress from the State of Arizona

    Thank you Mr. Chairman for holding today's hearing on the 
Catastrophic Wildfire Prevention Act and a variety of other proposals 
to promote active forest management. There is an emergency situation in 
our communities and we must act.
    Due to redistricting in my state, I have represented nearly all of 
rural Arizona over my past two and a half years in Congress. Those 
areas contain over forty-eight thousand square miles of land 
administered by the federal government--including fourteen thousand 
square miles of forest lands in Coconino, Apache-Sitgreaves, Prescott, 
Tonto and Kaibab National Forests.
    The region is the epicenter of our nation's forest health 
emergency. Over the last twenty-years, the frequency of fires, and the 
magnitude of the acreage burned, has increased strikingly. In the 
1960's a fire of several thousand acres was considered large. Today we 
measure the destruction in hundreds of thousands of acres. The five 
largest wildfires in my state's history have all occurred in the last 
ten years. They are destroying our natural treasures and livelihoods.
    The fires are burning so hot, they are sterilizing soil. Much of 
this damage will take decades to naturally repair itself, if ever. In 
two of the aforementioned Arizona fires, we have lost over 20 percent 
of the Mexican spotted owl nests that exist in the world.
    We could talk for hours about the circumstances that have led to 
this emergency situation--in fact we have spent hours in this committee 
conducting much needed oversight. But we are all here today to talk 
about potential solutions.
    The current federal system continues to prioritize fighting fires. 
Although the need to suppress fires is never going to go away, we must 
shift our priority towards pro-active management of our public lands. 
If we don't, we are going to bankrupt our federal and local 
governments, lose the natural treasures many of us hold dear, and cause 
a rural way of life to go extinct.
    That is why I support Arizona's collaborative, landscape-scale 
restoration project, the Four Forest Restoration Initiative or 4FRI, 
and have introduced the Catastrophic Wildfire Prevention Act.
    First I'd like to briefly touch on the 4FRI. This first of its kind 
large-scale treatment will reduce damaging wildfire impacts, as well as 
provide forest jobs, markets for wood products, and ecological 
restoration. It focuses on 2.4 million acres of ponderosa pine forests 
in Arizona's national forests--50,000 acres per year over a 20-year 
span.
    This unique collaborative project has garnered my support, as well 
as many of colleagues in the Arizona Congressional Delegation like the 
Ranking Member, our governor, the affected counties and cities, and an 
unprecedented range of environmental groups and industry partners. I am 
committed to doing anything needed here in Congress to ensure the 
4FRI's success.
    This leads me to into the legislation we are considering today--the 
Catastrophic Wildfire Prevention Act (H.R. 1345).
    Instead of relying on the Forest Service to pay all of the costs 
for restoration thinning, the 4FRI recognizes the fiscal reality of 
today and allows the feds to partner with private industry to restore 
proper forest health. But as you know, the agencies' authority to enter 
into these public-private partnerships expires this September. It is 
also important to note that the 4FRI is one of the Forest Service's 
flagship collaboration projects--many others in states that badly need 
large-scale treatment hope to pursue similar initiatives. My bill 
renews and reforms this important tool so that these types of 
initiatives are primed for success.
    These landscape-scale restoration projects are a key component of 
our long-term plan, but we have an emergency situation now. Projects 
that will conclude two to five decades from now, if they aren't 
litigated to death, will not alleviate today's immediate danger.
    That leads to the other components of my legislation. It provides 
the land management agencies a variety of other tools to conduct 
smaller projects now.
    It expands ``the Good Neighbor Authority--a tool that allows the 
feds to partner with State Foresters to treat our forests. Since 2000, 
Colorado has utilized this authority to carry out over 40 projects. 
Utah was granted similar authority in 2004 and has used it to carry out 
15 projects on 2,800 acres of public land. The pilot was a success and 
should be expanded to all states.
    My bill also provides a variety of alternative expedited 
arrangements to streamline thinning and grazing projects needed in 
immediate at-risk areas, like our forest communities, critical water 
delivery and electrical infrastructures, and our schools.
    While long-term active forest management will protect all of us 
over the long-run, we have to protect our people and our assets today. 
My bill provides that immediate relief.
    The Catastrophic Wildfire Prevention Act has garnered bipartisan 
support here in Congress--cosponsored by 14 members from ten different 
states. Additionally, it has a strong support among stakeholders 
including the Cattlemen, the Natural Resources Conservation Districts, 
and the Farm Bureau. I would like to submit a comprehensive letter of 
support for the record.
    Our forest and natural resources are a way of life in Arizona. I 
remain saddened by what has happened to our constituents that have been 
adversely affected wildfire. That suffering is avoidable if we look 
forward, work collaboratively in stewardship, and address the desperate 
forest maintenance crisis and other natural resources-related issues 
facing our states. No is not an answer. It is time to have so called 
skin in the game from everyone.
    Thank you Mr. Chairman for your leadership on this issue. I look 
forward to working with you on my bill and the others proposals that 
will restore the environment, improve public safety, save the taxpayer 
dollars, and put people back to work.
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his statement.
    I will now recognize the gentleman from Oregon, Mr. 
DeFazio, who, along with his two colleagues from Oregon--did I 
say Idaho? I knew it was Oregon. They have bipartisan 
legislation on something that is unique. As a matter of fact, 
from forest lands, the O&C issue in Oregon. So the gentleman 
from Oregon, Mr. DeFazio, is recognized for 5 minutes.

  STATEMENT OF THE HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman, and thanks to you and 
Chairman Bishop for this opportunity by granting the request to 
myself, Representative Schrader, and Walden for a legislative 
hearing on the O&C Trust, Conservation, and Jobs Act discussion 
draft.
    This Subcommittee will spend most of its time today talking 
about challenges facing national forest lands, lands managed by 
the Forest Service. But my testimony in this afternoon's panel 
will focus on a unique set of lands that are found only in 
Western Oregon. The O&C lands are not national forest lands, 
not managed by the Forest Service; they are managed by the BLM. 
They are lands that were revested to the Federal Government. 
They were previously privately held. They are governed by a 
unique statute, the O&C Act of 1937, which mandates these 
lands--again, only found in Western Oregon--will be managed for 
a permanent sustainable timber production for the benefit of 18 
Oregon counties, you know, substantially different than the 
mandate that is put upon the forest lands by our national 
enabling statutes.
    They are legally unique. They have been at the center of 
tremendous controversy, lengthy and ongoing litigation: one 
case before the Supreme Court, two more are pending right now 
in the D.C. Circuit Court. And they could well end up before 
the Supreme Court again. These lands are unique and they 
require a unique solution. And that is what Representative 
Schrader, Walden, and I have written.
    In short, our bipartisan solution would designate younger, 
previously managed timber stands for sustainable timber 
production to be managed by a public board under Federal laws, 
as they apply to private and State forests. The rest of the O&C 
lands, old growth, sensitive lands not suitable for logging, 
would be transferred to the Forest Service, set aside for 
conservation. All the lands would remain in Federal ownership.
    But there is one point about this that I think should 
achieve broad support beyond Oregon among my colleagues on both 
sides of the aisle, which is when this legislation is fully 
implemented, it will save the Federal Government up to $100 
million a year, which is what we are paying today not to manage 
the O&C lands through the Department of the Interior. And we 
would pay an additional $10 million a year for the privilege of 
managing these lands.
    The discussion draft before the Subcommittee today has been 
publicly available for more than a year. I have been taking 
public comments on that. I have discussed it publicly at dozens 
of town halls. I have met with a very diverse array of 
constituency groups to hear their perspectives, learn their 
concerns, and discuss possible modifications.
    The Governor of our State moved forward and established a 
stakeholder group of conservationists, industry, and county 
commissioners, to study this problem, and they came up with a 
range of seven options. Bottom line, we have had plenty of 
study, it is time to move forward with some action.
    The timing is very important. I have a number of counties 
in Western Oregon that are on the brink of insolvency. They 
cannot afford to provide for State-mandated critical services: 
law enforcement, jails, other things. I have very large rural 
counties with no rural law enforcement, none whatsoever. They 
are forming posses to try and take care of themselves. And 
there are incredible levels of poverty in these counties, over 
20 percent chronic unemployment. One-fifth of the people in 
Jackson and Josephine are eligible for and receiving food 
stamps.
    We need to provide for a sustainable solution that serves 
our forests, our communities, and our counties better. And that 
is what we have attempted to do with this discussion draft. It 
acknowledges the reality, I think, and offers a realistic plan 
for helping the county solve some, not all, of their 
challenges, this is not a panacea for these counties, it will 
never take them back to the revenue levels they had in the 
past, but it will give them enough to meet some of these basic 
mandates.
    We also have major conservation victories in here to 
permanently protect the remaining old growth, to protect clean 
water, healthy fish populations, and to preserve some 
absolutely remarkable areas, the Rogue River area, Devil's 
Staircase, Chetco, in addition to the old growth.
    The discussion draft is not a perfect bill. There are parts 
I would change. There are parts that Representative Schrader 
and Walden would change. There are provisions the conservation 
community, the timber industry, the counties, Tribes, 
recreation community would change. That is why we are having a 
hearing. That is the legislative process. I look forward to 
discussing ways to improve and strengthen the discussion draft 
with the witnesses.
    The bottom line is doing nothing is not an option. It is 
time for action. It is time to stop talking about principles 
and concepts, and start moving forward with specific 
legislative ideas. That is the legislative process. You put 
something forward, you hear concerns, you modify it, and then 
you move toward enacting a law.
    It is time to have this conversation, and I appreciate the 
opportunity the Chairman has given to us today to begin that 
conversation in earnest.
    [The prepared statement of Mr. DeFazio follows:]

   Statement of The Honorable Peter A. DeFazio, a Representative in 
                   Congress from the State of Oregon

    I want to thank Chairman Hastings and Chairman Bishop for this 
opportunity and for granting my request--and the request of Rep. 
Schrader and Rep. Walden--for a legislative hearing on the O&C Trust, 
Conservation, and Jobs Act Discussion Draft. This is an important and 
timely opportunity for the Oregon Delegation, for rural communities and 
counties in Western Oregon, and for moving forward in finding a long-
term solution for the statutorily unique O&C Lands.
    Today, the subcommittee will spend most of its time talking about 
management challenges facing national forest lands--lands managed by 
the Forest Service. But my testimony and this afternoon's panel will 
focus on a unique set of lands found only in Western Oregon--the O&C 
Lands. The O&C Lands are not national forest lands and are not managed 
by the Forest Service. They are managed by the Bureau of Land 
Management.
    O&C Lands are governed by a unique statute--the O&C Act of 1937. 
The Act mandates that these lands--again, found only in Western 
Oregon--be managed for permanent, sustainable timber production for the 
benefit of 18 Oregon counties. This is a different mandate than 
national forest lands. By law, these counties also receive 50 percent 
of revenues produced from the O&C Lands instead of 25 percent of 
revenues produced from other federal forests.
    The O&C Lands are legally unique and have been at the center of 
expensive and complex legal challenges--including a case that was heard 
before the U.S. Supreme Court--for more than a century. Today, there 
are two pending cases in the D.C. Circuit Court relating specifically 
to the O&C Lands--both of which could also end up in front of the U.S. 
Supreme Court.
    The O&C Lands are geographically unique. They are scattered 
throughout Western Oregon in a ``checkerboard'' pattern where a square 
mile of O&C land--the black square on a checkerboard--is intermingled 
with a square mile of private land--the white square on a checkerboard. 
You can imagine the management challenges associated with this 
configuration.
    The unique O&C lands require a unique solution. That's exactly what 
Rep. Schrader, Rep. Walden, and I have produced. In short, our 
bipartisan solution would designate younger, previously managed timber 
stands for sustainable timber production to be managed by a public 
board and under federal laws as they apply to private and state 
forests. The rest of the O&C Lands--old growth and sensitive lands not 
suitable for logging--would be transferred to the Forest Service and 
set aside for conservation. All lands would remain in federal 
ownership.
    Here's something this committee, and Congress more broadly, should 
really like about our bipartisan proposal: during a time of crushing 
federal debt and deficits our proposal would save the federal 
government $110 million every year, or more than $1 billion over a 
decade. And instead of providing federal support payments to 18 Oregon 
counties, our proposal would help make Western Oregon counties self-
sufficient and actually require the public board to pay the U.S. 
Treasury $10 million per year for the privilege of managing a portion 
of the O&C Lands. That's a pretty good deal for the American taxpayer.
    The discussion draft before the subcommittee today has been 
publicly available for more than a year. I have accepted public 
comments on that draft for more than a year. I have talked about the 
proposal publicly at dozens of town halls I held over the last year. 
And I have met with a diverse array of constituency groups to hear 
their perspectives, learn about their concerns, and to discuss possible 
modifications.
    Governor Kitzhaber also convened a stakeholder group to discuss and 
study this issue in greater depth. While the group could not come to a 
consensus on a final plan, the governor produced a substantive report 
that provides detailed analyses of multiple policy options. Bottom 
line: there has been no shortage of studies, robust debate, and public 
dialogue on this issue and the seeds of a long-term solution are in the 
governor's report and the bipartisan O&C Trust, Conservation, and Jobs 
Act.
    The timing of this hearing is also important. Right now, multiple 
counties in my district and in Western Oregon are approaching 
insolvency and will not be able to provide basic state-mandated 
services to its residents--such as law enforcement. Many of these 
counties have real unemployment at or above 20 percent. Poverty is 
widespread and crippling. Consider, for example, that in Josephine and 
Jackson counties alone more than 65,000 people--or one out of every 
five people in the two counties including children--are on food stamps.
    The hard truth is that the federal government will not be able to 
bail these counties out, at least not at a funding level needed to 
sustain basic services in rural Oregon. The Secure Rural Schools and 
Community Self-Determination Act has expired. The last payments have 
been sent out--and even sequestered. While we need to reauthorize the 
critical program--a program I have strongly supported and worked hard 
to extend--these support payments are not a sustainable, long-term 
solution for Western Oregon.
    The bipartisan solution I negotiated with Rep. Walden and Rep. 
Schrader acknowledges this reality and offers a realistic plan for 
helping rural Oregon counties solve some--not all--of their financial 
and economic challenges--challenges that have major consequences for 
public safety, education, transportation, and other critical government 
services and functions.
    Our proposal would also offer major conservation victories to 
protect the values that Oregonians care about: clean water, healthy 
fish populations, and preservation of some of the most remarkable 
natural features in the State of Oregon such as the iconic Rogue River, 
Devil's Staircase, the Chetco River and a million acres of mature and 
old growth forest.
    I will be the first to admit the discussion draft is not a perfect 
bill. There are parts that I would change. There are parts 
Representatives Schrader and Walden would change. There are provisions 
that the conservation community, the timber industry, the counties, the 
tribes, and the recreation community would change. That's why we are 
having this hearing. I look forward to discussing ways to improve and 
strengthen the discussion draft with the witnesses.
    The fact is, there is no silver bullet to solve this complex set of 
challenges. But consider this: has there ever been a legislative 
solution for the O&C Lands that is bipartisan, would help the 18 O&C 
Counties provide critical government services like keeping criminals in 
jail and sheriffs on the roads, that would create thousands of private 
sector jobs, and responsibly protect the environment all while saving 
the federal government $1 billion? The answer is no. Not until the O&C 
Trust, Conservation, and Jobs Act.
    It is time for action. It's time to stop talking about 
``principles'' and ``concepts'' and to start moving forward with 
specific, legislative ideas. And it's time to have a serious, robust 
conversation about the difficult choices Congress will eventually have 
to make. Thank you, Chairman, for allowing that conversation to move 
forward in this Committee.
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his statement.
    I will recognize another gentleman from Oregon, Eastern 
Oregon, Mr. Walden.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. I thank you very much, Mr. Chairman, and I want 
to thank you for holding this hearing, and to Mr. Grijalva, as 
well.
    This is really important and timely. I am encouraged by the 
Committee's keen interest in identifying long-term solutions 
for our Federal forest counties and the hard-working people who 
live there. I recognize my colleagues from Oregon, Peter 
DeFazio and Kurt Schrader, for working together with me and 
others, as we work to deal with this problem. We all agree that 
the status quo serves no one well.
    Later today you will hear from Commissioner Doug Robertson, 
Chairman of the O&C Counties Association, and Tom Tuchmann with 
the Governor's office. I am very pleased the Committee called 
on these two individuals, given their combined wealth of 
knowledge on the issues before us today. It is time for real 
change.
    Let me be clear about what our forested communities face. 
And my colleague and friend from Southern Oregon has talked 
about this. Since 1990, the timber harvest from Federal forest 
lands in Oregon has dropped by more than 90 percent. Sixty 
percent of Oregon's forest lands are owned by the Federal 
Government, but contribute only 12 percent to the State's total 
timber harvest. The economic picture in Oregon's rural forested 
communities is just as bad.
    Of the 14 forested counties I represent, 10 currently face 
double-digit unemployment. Eight of these counties over the 
last 5 years have had an average poverty level of 14 percent or 
greater. How could we let this happen to our rural forested 
communities? There appears to be a direct connection between 
the loss of mills and jobs and the substantial increase in 
poverty.
    Harney County in 1989 had 3 operating mills and a poverty 
level of 10.6 percent. The county no longer has a single mill, 
poverty level is 18.6 percent, 60 percent of the school 
children in the county qualify for free or reduced lunch--60 
percent. Harney County has seen the effects of one large 
catastrophic wildfire after another, and a total loss of their 
mill infrastructure. All this while surrounding them are 
hundreds of thousands of acres of Federal forests in desperate 
need of treatment, treatments that could provide a community 
with family wage jobs to people who really need them, and 
better habitat and less cost as we treat forest fires. This is 
ridiculous, and I am unwilling to say that we cannot fix it.
    The Oregon Employment Department understood this connection 
of the loss of mill infrastructure and impact on the community. 
In 2007, after mills closed in John Day, Wallowa, and Hines, a 
report was issued which said the job losses across these three 
communities was the equivalent to 26,000 people losing their 
jobs in the more metropolitan area of Oregon. What would the 
outcry be if suddenly the Portland area companies like Intel or 
Nike just simply shut down? Well, just ask people who live in 
John Day, Wallowa, or Hines. They will tell you. It is 
devastating.
    I think we can all agree the status quo just doesn't work, 
and won't work, going forward. Our communities don't even want 
the status quo. They don't want the hand-out that has made them 
dependent on the Federal Government. They want jobs. They want 
healthy forests. They are tired of the catastrophic fire and 
bug infestations, they are sick of the budgeting uncertainty. 
They want to take care of themselves.
    The O&C counties sent the Oregon Delegation a letter to 
this effect on March 11th. I would like to enter it into the 
record, with your permission, Mr. Chairman.
    Mr. Hastings. Without objection, it will be part of the 
record.
    [NOTE: The list of documents retained in the Committee's 
official files can be found on page 174.]
    Mr. Walden. Thank you. Other Oregon county governments are 
crying out for change. And I would like to enter into the 
record a letter sent by the Association of Oregon Counties this 
week.
    I would also like to now enter into the record a report 
prepared in December of 2012 for Governor Kitzhaber which 
contains some remarkable and telling facts about the current 
ecological and economic conditions of forest lands and 
communities.
    Across Southern, Central, and Eastern Oregon there are 
approximately 19.8 million acres of forest land. Approximately 
9.2 million is available for active management. Seventy-eight 
percent of this ground is significantly at risk of crown fire, 
78 percent is ready to go up in smoke with crown fire, a most 
devastating type of wildfire. Forest management activities like 
commercial timber harvest, stewardship contracts, and watershed 
restoration are conducted on 1.4 percent of the entire 9.2 
million acres. That is 129,000 acres a year, 1.4 percent is all 
we are treating.
    Given the paltry amount of activity, it is not surprising 
that nearly one in five people in the study area live in 
poverty, the highest rate in Oregon. Not only are the forests 
unhealthy, so are the rural forested communities, and it does 
not have to be this way.
    I highlight all of these points, because this is exactly 
the same story which is playing out across western forests. 
President Theodore Roosevelt, the father of our great forest 
system, would be horrified at the condition of our forests and 
our rural communities. And I assure you he would charge forward 
with a fix to this problem, as we are proposing.
    It is clear the status quo is not working, and we need to 
get our rural communities working again. Momentum is building 
for change, from county commission chambers to committee rooms 
in the State legislature to these very halls of Congress, we 
can do this. We can put people back to work in the woods. We 
can create prosperous communities and healthy forests. We can 
provide certainty for teachers and law enforcement officers, 
and we can better manage these forests. This is our opportunity 
to make Federal forest policy work for Oregon and our county 
and our country, and I look forward to being part of the 
effort.
    And, Mr. Chairman, I thank you so very much for scheduling 
this hearing, and the incredible work you are doing on this 
issue.
    [The prepared statement of Mr. Walden follows:]

       Statement of The Honorable Greg Walden, a Representative 
                  in Congress from the State of Oregon

    Chairman Bishop and Ranking Member Grijalva,
    This is an important and timely hearing and I'm encouraged by the 
House Natural Resources Subcommittee on National Parks Forests and 
Public Lands interest in identifying a long-term solution for our 
federal forest counties and the hardworking people who live there.
    I recognize my colleagues from Oregon, Representatives Peter 
DeFazio and Kurt Schrader, for working with me and many other 
Oregonians who agree that the status quo serves no one well.
    Later today you will hear from Oregon's Douglas County Commissioner 
Doug Robertson who also chairs the Oregon & California Counties 
Association (O&C Counties) and Tom Tuchmann, Oregon Governor John 
Kitzhaber's Forestry and Conservation Advisor. I am very pleased that 
the Committee called on these two individuals given their combined 
wealth of knowledge on the issues before us today. It's time for real 
change.
    Let me be clear about what our forested communities face--since 
1990 the timber harvest from federal timber lands in Oregon has dropped 
by more than 90 percent--in fact 60 percent of Oregon's forestland is 
owned by the federal government but contributes only 12 percent to 
Oregon's total timber harvest. The mortality rates are above 19 percent 
on federal lands and we have endured hundreds of thousands of acres 
lost to wildfire, bug infestations, and disease. That's not a healthy 
picture.
    The economic picture in Oregon's rural forested communities is just 
as bad. According to the Oregon Employment Department, of the 14 
forested counties I represent, 10 currently face double digit 
unemployment. If this wasn't shocking enough, consider that eight of 
these same counties over the last five years have had an average 
poverty level of 14 percent or greater. How could we let this happen to 
our rural forested communities?
    Remember from 1980 to today, Oregon went from 405 open mills to 
just 106 open mills--a 74 percent decrease in capacity available to do 
work in the woods. We went from 45,778 mill jobs to 15,706 in that 
time--a 66 percent drop.
    There appears to be a direct connection between the loss of mills 
and jobs and the substantial increase in poverty--consider this, Harney 
County in 1989 had three operating mills and a poverty rate of 10.6 
percent. The county no longer has a single mill and a poverty rate of 
18.6 percent. According to the Oregon Department of Education, nearly 
60 percent of school children in the county qualify for free and 
reduced lunch.
    Harney County have seen the affects of one large catastrophic 
wildfire after another and a total loss of their mill infrastructure 
while hundreds of thousands of acres of forest surrounding them are in 
desperate need of treatment . . . and hundreds of people in the 
community are in desperate need of a good, family wage job.
    This is a ludicrous situation and I am unwilling to say that we 
can't fix this!
    The Oregon Employment Department understood this connection to the 
loss of mill infrastructure and impact on the community, when in 2007 
after mills closed in John Day, Wallowa, and Hines, a report was issued 
which said the job losses across the three communities was the 
equivalent to the Portland metro area of suddenly having over 26,000 
additional people out of work. What this means is that a job in one of 
Oregon's rural forested community has the potential local economic 
impact as 139 jobs in one or Oregon's metropolitan areas.
    What would the outcry be if suddenly Portland-Beaverton-based Intel 
and Nike just shut down . . . what would the impact be on schools, 
business, churches..the community? Well just ask people who live in 
John Day, Wallowa, and Hines . . . they will tell you it's devastating.
    I think we can all agree that the status quo doesn't work, and 
won't work going forward.
    Our communities don't even want the status quo. They don't want the 
handout that's made them dependent on the federal government. They want 
jobs. They want healthy forests. They're tired of the catastrophic fire 
and the bug infestation. They're sick of the budgeting uncertainty that 
comes with not knowing if Uncle Sam will pay his fair share.
    The O&C Counties sent the Oregon delegation a letter on March 11 
that I would like to enter into the record. In it they make statements 
like ``The O&C Counties are not interested in legislation that only 
pretends to solve the problem'' . . . are ``seeking meaningful relief 
from the unacceptable status quo'' . . . and that they (the O&C 
Counties) ``remain steadfastly supportive of the O&C Lands Trust, 
Conservation and Jobs Act'' as currently proposed by myself and 
Representatives DeFazio and Schrader. Counties and forested communities 
are calling on the congress to provide them the ability to pursue the 
American ideal of self-reliance once more.
    I would like to now enter into the record a report prepared in 
December for Oregon Governor John Kitzhaber and members of the Oregon 
legislature titled the ``National Forest Health Restoration--An 
Economic Assessment of Forest Restoration on Oregon's Eastside National 
Forests'' which contains some remarkable and telling facts about the 
current ecological and economic conditions of forest lands and 
communities.
    It is important to note the diverse and knowledgeable group that 
made up the steering committee--Association of Oregon Counties; Ochoco 
Lumber Company; Office of Governor John Kitzhaber; Oregon Business 
Council; Oregon Department of Energy; Oregon Department of Forestry; 
Oregon Forest Resources Institute; Oregon Solutions; Oregon State 
University; Oregon Watershed Enhancement Board; Sustainable Northwest; 
The Nature Conservancy; and the Forest Service.
    As stated from the report ``The purpose of this study is to provide 
an accurate economic impact assessment of forest health restoration on 
Oregon's eastside National Forests.'' The basic takeaways of the report 
are that reduced forest management activity in eastern, southern, and 
central Oregon has decreased timber supply and hurt many families.
    The report clearly states that between 2006 and 2011, annual food 
stamp use and welfare payments in these areas tripled to nearly $300 
million, and in 2010, Oregon distributed $470 million in unemployment 
insurance claims to 29,000 people in the study area.
    The report underscored the fact that in these rural forested 
communities, nearly 1 in 5 people live in poverty, the highest rate in 
Oregon. Not only are the forests unhealthy, so are these rural forested 
communities. It doesn't have to be this way.
    Oregon's county governments are crying out for change. I would like 
to enter into the record a letter sent by the Association of Oregon 
Counties this week which states:
    ``We are faced with two dire problems in the vast stretches of 
Oregon dominated by national and O&C forests:
        1.  The forests are sickly, crowded, dead, dying, and burning 
        up; and
        2.  Surrounding and dependent communities are in deep economic 
        dysfunction.
    Both problems can be addressed through active management of our 
federal forests.''
    To underscore this call for change, consider that across southern, 
central, and eastern Oregon that there are approximately 19.8 million 
acres of forestland--11.3 million of which is administered by the 
Forest Service.
    Approximately 9.2 million acres of this ground is available for 
management or, in other words, not excluded by congressional action 
from forest management activities. A key fact in the Governor's report 
is that 78 percent of this 9.2 million acres, or 7.1 million acres, are 
at significant risk of crown fire, a most devastating type of wildfire.
    Remarkably, the Forest Service is only able to conduct forest 
management activities--commercial timber harvest, stewardship 
contracts, watershed restoration, hand piling, etc--on 1.4 percent of 
the entire 9.2 million acres--just 129,000 acres each year. Are you 
kidding me!
    We all know that each year the federal government spends a 
tremendous amount of money on fighting wildfires. The Governor's report 
stated:
    ``From 2007 to 2011, large fires annually burned an average of 
56,000 acres of national forestland in eastern Oregon, which cost $43.6 
million, on average. Based on these five-year averages, the USFS spends 
an estimated $780 per acre on expenses related to fire suppression each 
year. These costs include the cost to suppress and contain the fire as 
well as any rehabilitation of fire suppression activities.''
    According to the Oregon Department of Forestry, over a 20 year 
period from 1980 to 2000 wildfires in eastern Oregon burned 
approximately 553,000 acres with an average fire size of 26,000 acres. 
Over the last 10 years wildfires in the same area has burned a total of 
1 million acres averaging 93,000 acres.
    Now here's the real kicker--from 2007 to 2011, fires east of the 
Cascades larger than 100 acres burned an estimated 279,000 of federal 
forest lands costing $218 million in suppression costs. The Governors 
report sums up this situation, stating:
    ``At current levels, the USFS spends $40.8 million dollars each 
year to treat 129,000 acres. Based on the average fire suppression cost 
of $780 per acre, the USFS would incur approximately $100 million in 
fire suppression costs each year if 129,000 acres were left untreated 
and burned by wildfire. The difference between the cost of implementing 
restoration and incurring fire suppression costs represents a potential 
$59.2 million annual savings for the USFS. In other words, for every $1 
the USFS spends on forest restoration, the agency avoids a potential 
loss of $1.45.''
    Remember, the current forest management footprint across southern, 
central, and eastern Oregon is only conducting projects on 1.4 percent 
of the 9.2 million acres. As outlined in the report, ``in order to 
treat all the available acres at least one time during a 20 year time 
period, the Forest Service will need to reach an annual pace of 5 
percent.'' No part of the study area even comes close to conducting 
projects at this level.
    In fact, if we doubled the amount of acres treated every year to 
258,000 acres, we would still fall 202,000 acres less than what is 
needed to achieve a 5 percent accomplishment rate of 460,000 acres a 
year!
    I highlight all of these points because this is the exact same 
story which is playing out across our western forest reserves. 
President Theodore Roosevelt, the father of our great forest system, 
would be horrified at the conditions of our forest and rural 
communities. I assure you that he would charge forward to fix this 
problem.
    It's clear the status quo isn't working. We need to get our rural 
communities working again.
    I would like to enter into the record a joint Oregon Senate-House 
legislative resolution (SJM10) sponsored by Republicans and Democrats, 
including the state Senate President and Speaker of the Oregon House. 
The resolution urges Congress to transfer management of Oregon and 
California Railroad grant lands to newly established board of trustees 
consisting of representatives from local government, environmental 
organizations and timber industry.''
    Momentum is building for change--from county commission chambers, 
the committee rooms of the state legislature, and the halls of 
Congress. We can do this. We can put people back to work in the woods. 
We can create prosperous communities and healthy forests. We can 
provide certainty for teachers and law enforcement officers. We can 
better manage our forests.
    This is our opportunity to make federal forest policy work for 
Oregon. I look forward to being a part of this effort.
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his comments, and I 
will recognize another gentleman from Oregon, from the 
northwestern part, north-central-western part of Oregon. You 
know where you are from, anyway.
    [Laughter.]
    Mr. Hastings. Mr. Schrader, you are recognized.

   STATEMENT OF THE HON. KURT SCHRADER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Schrader. You did a great job, Mr. Chairman. Thanks for 
the opportunity to testify this morning on behalf of this 
bipartisan proposal that my colleagues and I have put forth. I 
will try and keep my remarks fairly brief, and ask that my full 
testimony be submitted for the record.
    Mr. Hastings. It will be made part of the record.
    Mr. Schrader. The financial problems our counties are 
facing in Oregon are unlike anything we have seen in recent 
history. The likelihood of bankruptcy for my rural timber-
dependant Oregon counties is closer than ever, as we have 
heard, some facing possible bankruptcy within the year. Other 
parts of the country are recovering, and unemployment rates are 
dropping. The unemployment rates in many rural counties, as you 
have heard, including Oregon, remain in the double digits.
    Unemployment isn't the only problem that they are facing. 
Due to extreme budget cuts, counties are unable to pay for 
basic services their citizens rely on, like public health, 
education for the children, and basic public safety. One of our 
rural counties, as Congressman DeFazio alluded to, Josephine 
County, the citizens have actually resorted to arming 
themselves--some have never worn a gun before--because of 
increased thefts and looting that has gone on in the counties 
because they have had to cut back their public service--their 
public safety agency so dramatically.
    In Polk County, in my district, they have also gone through 
another round of cuts to law enforcement officers and 
prosecutors. The county is currently at a minimum staffing 
level for county jail and sheriff patrol, no longer able to 
provide 24-hour service. And sheriff deputies are now being co-
opted by the county judges to assist in court proceedings, 
rather than be on patrol, so the judges can meet their needs. 
These examples are not unique, though, just to these two 
counties. Budgets are being cut, workers being laid off, 
schools are closing, crime is increasing. We cannot expect 
these communities to live with this uncertainty any longer.
    With a 90 percent decline in timber harvest on public land 
since 1990, our forests have become increasingly unhealthy. 
Without active management, forests have become overgrown, 
leaving them extremely susceptible not only to the catastrophic 
wildfire Congressman Walden alluded to, but disease like Swiss 
Needle Cast and Sudden Oak Death, and insect infestation from 
Bark Beetles.
    These extreme events can and often result in diminished 
water quality, habitat loss, and significant harm to our 
environmental and ecological attributes the forest ecosystem 
needs to be sustainable. While most western States hold a 
significant amount of public land, the unique Oregon and 
California grant land system, commonly known as O&C lands, are 
only found in Oregon. These lands have a unique mandate very 
different than a lot of BLM lands. In the 1937 Act, it states 
that the timber land shall be managed for permanent forest 
production, and the timber thereon shall be sold, cut, and 
removed in conformity with the principle of sustained yield for 
the purpose of providing a permanent source of timber supply.
    Fifty percent of the revenue generated off these lands goes 
directly to county payments, which the O&C counties had 
heretofore relied on for their livelihoods. The problems facing 
O&C lands which are currently under BLM jurisdiction, that have 
been managed more like National Forest system rather than their 
original intention, deserve a unique solution. That is what we 
are asking for here. I appreciate the opportunity to be part of 
this bill.
    Our proposal received endorsements, as you have heard, from 
the Oregon State Senate, the Oregon House of Representatives, 
and the Governor's office. Based on a recent model I asked 
Governor Kitzhaber's O&C Committee to run, our proposal would 
only harvest less than half of what the lands are capable of 
producing, which is still a third less than the average harvest 
levels back in the 1990s. The bill we have proposed will 
protect nearly half of the lands for old growth, critical 
habitat for species and aquatic protections for fish and 
drinking water, along with additional protection for Oregon's 
special places, such as the Molalla River in my home district.
    We think this is a great, balanced approach, fair, end to 
the timber wars, and hopefully the resurrection of rural timber 
counties across this country, and particularly in our State.
    We thank you, Mr. Chairman, for the opportunity to testify. 
I yield back.
    [The prepared statement of Mr. Schrader follows:]

               Statement of The Honorable Kurt Schrader, 
         a Representative in Congress from the State of Oregon

    Mr. Chairman, thank you for the opportunity to testify this morning 
on behalf of the bipartisan proposal my colleagues and I have put 
forth.
    The financial problems our counties are facing are unlike anything 
we've seen in recent history. The likelihood of bankruptcy for my rural 
Oregon counties is closer than ever, some facing possible bankruptcy 
within the year. While other parts of the country are recovering and 
unemployment rates are dropping, the unemployment rates in many rural 
counties, including Oregon counties, remain in the double digits.
    Unemployment isn't the only problem counties are facing. Due to 
extreme budget cuts, counties are unable to pay for basic services 
their citizens rely on, like public health, education for our children, 
and public safety.
    In the case of one rural Oregon County, some residents living in 
Josephine County have resorted to arming civilians for a community 
watch program because so many law enforcement officers have been laid 
off and so few jail beds remain open for those officers still at work.
    Another example is in Polk County, Oregon, which is in my district, 
where they recently went through another round of cuts to law 
enforcement officers and prosecutors. The county is currently at a 
minimum staffing level for the county jail and sheriff patrol and is no 
longer available to provide 24-hour service to its citizens. Sheriff 
Deputies are being required by county judges to assist in court 
proceedings rather than being on patrol in lieu of staff layoffs.
    These examples unfortunately are not unique to those two counties. 
Budgets are being cut, workers are being laid off, schools are closing, 
and crime is increasing. We cannot expect these communities to live 
with this uncertainly any longer.
    The problems facing Oregon are not solely revolved around county 
funding. With the 90 percent decline in timber harvest on public lands 
since 1990, our forests have become increasingly unhealthy. Without 
active management, forests have become overgrown, leaving them 
extremely susceptible not only to catastrophic wildfire but disease 
like Swiss needle cast and sudden oak death, and insect infestation 
from bark beetles. These extreme events can and often do result in 
diminished water quality, habitat loss, and significant harm to other 
environmental and ecological attributes the forest ecosystem needs to 
be sustainable. These issues not only threaten the vitality of public 
lands themselves, but also the surrounding private forest lands, rural 
communities, and environmental treasures that deserve special 
protection.
    Not only does the decline in timber harvest effect the health of 
our national forests, but also creates strain on local mills and timber 
companies. Too many mills have had to face closure due to the dwindling 
amount of harvest available off public lands. Many small business mills 
do not own their own forest land and rely solely on public lands to 
purchase timber to keep their mill operating. Jobs in the woods are few 
and far between, adding to the unemployment rates in rural American.
    While most western states hold significant amounts of public land, 
the unique Oregon & California Railroad Grant Lands system, commonly 
known as O&C lands, are only found in my home state of Oregon. These 
lands have a unique mandate within the O&C Act of 1937 which states 
that the timberlands shall be managed for permanent forest production, 
and the timber thereon shall be sold, cut, and removed in conformity 
with the principle of sustained yield for the propose of providing a 
permanent source of timber supply, protecting watersheds, regulating 
stream flow, and contributing to the economic stability of local 
communities and industries, and providing recreational facilities. 
Fifty percent of revenue generated off of these lands goes directly to 
county payments, which the O&C counties rely on for their livelihoods.
    The problems facing O&C lands, which are under currently under BLM 
jurisdiction but have been managed more like a National Forest System 
rather than their original intention, deserve a unique solution, which 
is what my colleagues Congressman DeFazio and Congressman Walden and I 
have proposed.
    Our proposal has received endorsements from the Oregon State Senate 
and Oregon State House of Representatives, the Oregon State Sheriffs 
Association, the League of Oregon Cities, Oregon State Treasurer Ted 
Wheeler, 15 Oregon Counties, along with Oregon specific and national 
timber associations. Governor Kitzhaber has expressed support for a 
sustainable solution which is why he created an O&C Committee comprised 
of county officials, timber industry representatives, and key members 
of the conservation community to work together to find common ground 
and sustainable solutions to the problems our state is facing.
    Based on a recent model I asked Governor Kitzhaber's O&C Committee 
to run, our proposal would only harvest less than one-half of what the 
lands are capable of producing when modeling the harvest using Oregon 
Forest Practice Act management criteria, which is still one-third less 
than average harvest levels prior to 1990. The bill we have proposed 
would protect nearly half of the lands for old growth, critical habitat 
for species, and aquatic protections for fish and drinking water, along 
with additional protection for Oregon's special places such as the 
Molalla River in my home district.
    Increasing harvest and county funding while protecting 
environmental quality and special places are not mutually exclusive 
ideas. While there may be no perfect solution that will satisfy every 
stakeholders concern, I believe we all can agree that the status quo is 
no longer acceptable. We must act to ensure our counties are 
financially stable, our communities are secure, and our schools are 
productive. We must act to ensure our forests are healthy and managed 
in sustainable ways so they will be available to current and future 
generations. We must act to create and bring back jobs that have been 
lost over the past two decades and to ensure mills have enough timber 
supply to stay in business.
    Thank you again, Mr. Chairman, for the opportunity to testify.
                                 ______
                                 
    Mr. Hastings. Thank you very much for your testimony.
    And last I will recognize the gentleman from Idaho, Mr. 
Labrador, who is the sponsor of H.R. 1294.

  STATEMENT OF THE HON. RAUL R. LABRADOR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Labrador. Thank you, Mr. Chairman. Thank you, Ranking 
Member Grijalva, for convening this hearing today. I would like 
to welcome a distinguished guest that we have from Idaho today 
who will be on the next panel, Commissioner Skip Brandt, who is 
testifying at this hearing. Commissioner Brandt has been a 
critical component to the legislation from its initial 
inception.
    Mr. Chairman, the concept of H.R. 1294, the Self-Sufficient 
Community Lands Act, was brought to me by a bipartisan group of 
county commissioners in my State. We worked closely with them 
to develop this legislation, and I believe it will prove to be 
a viable solution to the Secure Rural Schools, SRS, program.
    In Idaho the economies of rural communities once relied 
upon the timber industry for job creation and tax revenues. 
Over the last several decades, radical environmental groups 
have hindered the ability to develop timber from our public 
lands. Counties that were once dependent upon timber receipts 
to fund schools, roads, and daily operations were left desolate 
and broke. I am pleased to introduce legislation to help 
counties make up for lost timber revenue and help replace the 
SRS program.
    In a time of record deficits, we must stop providing short-
term fixes to our financial woes, and concentrate on a long-
term solution. Rural timber communities in Idaho have been 
operating in an environment of uncertainty for decades. Many 
public lands have been inaccessible due to Federal policies and 
tedious litigation. We must find a long-term solution to 
empower rural counties and remove the uncertainty these 
communities are facing by allowing local management of forest 
lands.
    If you compare the stewardship of State lands in Idaho to 
adjoining Federal lands, the difference is astonishing. This 
past fire season shows the disparity. In 2012, a record fire 
year, 20 percent of the national acreage burned was in Idaho. 
Of the approximately 1.5 million acres burned in Idaho, only 
4,674 acres burned on State-managed lands. The remainder was on 
Federally managed lands.
    As we look to the reauthorization of county payments to 
SRS, the House continues to push for firm management of our 
public lands as a factor in the equation. I commend the 
Chairman for his work on this issue, and I look forward to 
working with you as we advance legislation. Thank you.
    [The prepared statement of Mr. Labrador follows:]

             Statement of The Honorable. Raul R. Labrador, 
          a Representative in Congress from the State of Idaho

    Good morning and thank you, Chairman Bishop and Ranking Member 
Grijalva, for convening this hearing today.
    I would like to welcome two distinguished guests from Idaho, 
Representative Lawrence Denney & Commissioner Skip Brandt who are both 
testifying at this hearing. Representative Denney sponsored a similar 
resolution to my bill which successfully passed the Idaho Legislature. 
Commissioner Brandt has been a critical component to the legislation 
from its initial inception.
    Mr. Chairman, the concept for H.R. 1294 the Self-Sufficient 
Community Lands Act, was brought to me by a bipartisan group of county 
commissioners in my state. We worked closely with them to develop this 
legislation and I believe it will prove to be a viable solution to the 
Secure Rural Schools (SRS) program.
    In Idaho, the economies of rural communities once relied upon the 
timber industry for job creation and tax revenues. Over the last 
several decades, radical environmental groups have hindered the ability 
to develop timber from our public lands. Counties that were once 
dependent upon timber receipts to fund schools, roads, and daily 
operations were left desolate and broke.
    I am pleased to introduce legislation to help counties make up for 
lost timber revenue and help replace the Secure Rural Schools (SRS) 
program. In a time of record deficits, we must stop providing short-
term fixes to our financial woes and concentrate on a long-term 
solution. Rural timber communities in Idaho have been operating in an 
environment of uncertainty for decades. Many public lands have been 
inaccessible due to federal policies and tedious litigation. We must 
find a long-term solution to empower rural counties and remove the 
uncertainty these communities are facing by allowing local management 
of federal forests.
    If you compare the stewardship of state lands in Idaho to adjoining 
federal lands, the difference is astonishing. This past fire season 
shows the disparity. In 2012, a record fire year, twenty percent of the 
national acreage burned was in Idaho. Of the approximately 1.5 million 
acres burned in Idaho, only 4,674 acres burned on state managed lands, 
the remainder was on federally managed lands.
    As we look to the reauthorization of county payments [SRS], the 
House continues to push for firm management of our public lands as a 
factor in the equation.
    I commend the Chairman for his work on this issue and I look 
forward to working with you as we advance legislation.
    Thank you.
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his statement. I 
want to thank all the Members for their opening statement on 
this. If there is one thing I have heard from all of the 
sponsors of the proposed legislation we have today, either 
directly said or alluded to, was that time for talk has ended, 
time for action is now. I just want to advise Members that, as 
Chairman of the Committee, I certainly want to move legislation 
because I too believe that the time for action is now.
    With that, I am going to deviate just a bit from our 
schedule and ask Chief Tidwell from the Forest Service to come 
forward.
    He has not submitted testimony on all of the bills, but I 
think it would be worthwhile, in view of some past events, like 
the event yesterday of the budget as one issue, for Chief 
Tidwell to testify.
    And so, I would like to welcome you here. You have 
testified in front of this Committee before, and you know how 
the rules work.
    Your full testimony will be made part of the record. And I 
would like to keep your oral remarks to 5 minutes. When the 
green light is going you are doing very well. When the yellow 
light comes on it means--well, as Chairman Bishop says, it is 
like going through a red light or traffic light, you speed up 
before the red light comes on.
    So, at any rate, Chief Tidwell, welcome to the Committee, 
and you are recognized for 5 minutes.

STATEMENT OF TOM TIDWELL, CHIEF, UNITED STATES FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Well, Mr. Chairman, members of the 
Subcommittee, I want to thank you for the opportunity to be 
here today to present the views of the Administration regarding 
H.R. 818, H.R. 1294, and H.R. 1345.
    Mr. Chairman, I appreciate the interest from this 
Subcommittee to help us address the problems, the conditions we 
have on our national forests. And I agree with many of the 
goals of the bills being addressed today concerning restoring 
our forest resiliency to withstand disturbances from wildfire, 
Bark Beetle, and other disturbances, while reducing the threat 
of wildfire to communities. However, the Administration opposes 
all three bills.
    Now, we have been clear on the challenge to restore the 
resiliency and the forest health on over 65 million acres of 
our national forest, and this is why last year we started our 
accelerated restoration strategy to increase restoration by 20 
percent by 2014, which includes increasing key outputs such as 
timber harvest to 3 billion board feet, addressing hundreds of 
miles of stream restoration, and overall improving watershed 
improvement.
    It is essential that we restore and maintain the watershed 
health that 60 million Americans rely on every year for clean 
water, to maintain the quality recreation settings that 173 
million visitors enjoy every year, and continue the multiple-
use benefits from our national forests and grasslands that 
contribute over 36 billion to our GDP and support over 450,000 
jobs.
    While my written testimony provides specific comments on 
the introduced bills, I believe the best opportunity to 
increase restoration of our national forests is by focusing on 
the following.
    We have identified there are 12 million acres of national 
forest where we need to use timber harvest to restore the 
resiliency. We need to maintain the support for our 
collaborative processes, like the CFLR projects that commit 
resources to restore over a million acres. I think we have to 
require public involvement to ensure successful implementation 
of these projects. We need to be consistent with the forest 
plan direction that is based on what the public--how the public 
wants their national forest managed.
    I would ask for your support for the replacement of our 
appeals process with the objection process that we are 
implementing that I believe better supports collaboration, 
provides for more meaningful public involvement, and expedites 
project decisions.
    I want to thank you for your support for reauthorizing 
stewardship contracting that many of these bills address. 
Without any question, stewardship contracting can help provide 
the certainty that the industry needs to justify new 
investments while creating dependable economic activity that 
right now supports over 7,000 jobs.
    I also appreciate the support for landscape-scale analysis, 
and Mr. Gosar, for your support for the 4FRI initiative. It is 
an example where--looking at doing the analysis on over 750,000 
acres with 1 EIS.
    Another example is what we are doing on the Black Hills, 
where we are using an adaptive EIS that we just completed to 
address what we need to do, the work that we need to do on 
248,000 acres with just 1 EIS.
    The other thing I want to thank you for is your interest to 
expand the Good Neighbor Authorities, which I believe will help 
us build more capacity, be able to do more integrated projects 
along larger landscapes.
    And the other thing I want to strongly encourage you to do 
is to continue the support for multiple-use management of the 
public's national forests. Now, I fully understand the 
importance of providing stable, guaranteed county payments. And 
that is why the Administration supports reauthorization of 
Secure Rural Schools and the Community Self-Determination Act, 
that will provide this mandatory funding, especially in this 
time where we have some of the lowest stumpage values on 
record. It is essential that I think we be able to continue 
this to continue to provide the bridge that has been so 
essential to our communities and our counties.
    We are making good progress on accomplishing our 
restoration goals that are so essential to restore the millions 
of acres of national forest, to reduce the threat of wildfire 
to our communities, while maintaining these quality recreation 
experiences. And I look forward to working with the Committee 
to support restoration of our national forests and support 
dependable economic activity that is essential for rural 
communities.
    Again, thank you for the opportunity to testify today, and 
I will be pleased to answer any questions you have.
    [The prepared statement of Mr. Tidwell follows:]

          Statement of Thomas Tidwell, Chief, Forest Service, 
                     U.S. Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
(USDA) regarding H.R. 818, the ``Healthy Forest Management and Wildfire 
Prevention Act of 2013'', H.R. 1294, the ``Self-Sufficient Community 
Lands Act'', and H.R. 1345 ``The Catastrophic Wildfire Prevention Act 
of 2013''.
    USDA will not be testifying today on the draft bills ``Restoring 
Healthy Forest for Healthy Communities Act'', ``O&C Trust, Conservation 
and Jobs Act'', and ``Depleting Risk from Insect Infestation, Soil 
Erosion, and Catastrophic Fire Act of 2013''. USDA reserves the right 
to provide written testimony after the bills are introduced.
    The Forest Service agrees with many of the goals of the bills being 
addressed today. We support protecting forest lands from excessive 
impacts of wildfire, bark beetle, and other disturbances. Many of the 
restoration initiatives and programs we are implementing are designed 
to address these concerns.
    The national forests and grasslands were established to protect the 
land, secure favorable conditions of water flows, and provide a 
sustainable supply of goods and services. National Forest System (NFS) 
lands are managed using a multiple-use approach with the goal of 
sustaining healthy terrestrial and aquatic ecosystems while addressing 
the need for resources, commodities, and services for the American 
people. Rural and urban communities depend on the forests for a variety 
of resources, commodities, and services, but for the rural communities 
in particular, national forest management can impact local economic and 
social conditions. With our many partners, the Forest Service is 
working to maintain the functions and processes characteristic of 
healthy, resilient forests and watersheds, and through delivery of our 
programs, maintain and enrich the social and economic environment of 
our local communities.
    Our forests are important to all of us, and people understand that 
forests provide a broad range of values and benefits, including 
biodiversity, recreation, clean air and water, forest products, erosion 
control, soil renewal and more. Forests, which cover a third of the 
country's landmass, store and filter more than half of the nation's 
water supply and absorb 20 percent of the country's carbon emissions. 
Our mission of sustaining the health, resilience, and productivity of 
our nation's forests is critically important to maintaining these 
values and benefits. Restoring the health and resilience of our forests 
generates important amenity values. A study by Cassandra Moseley and 
Max Nielson Pincus has shown that every million dollars spent on 
activities like stream restoration, hazardous fuels reduction, forestry 
or road decommissioning generates from 12 to 28 jobs. For example, 
implementation of projects under the Collaborative Forest Landscape 
Restoration Program--which relies heavily on stewardship contracting--
has created or maintained 1,550 jobs through 2011.
    The Forest Service recognizes the need for a strong forest products 
industry to help accomplish forest restoration work. The best 
opportunity for reducing the cost of these restoration treatments is 
through timber harvest and stewardship contracting.
    The benefits of maintaining a robust forest products industry flow 
not only to local communities and the nation but also to the Forest 
Service itself as the agency relies on local contractors and mills to 
provide the workforce to undertake a variety of restoration activities. 
The industry's workforce is larger than either the automotive or 
chemical industries, currently employing nearly 900,000 workers. 
Fortunately, recent upturns in the housing market and lumber prices 
have contributed to higher demand and prices for sawtimber. The 
capacity exists within current infrastructure to meet this increased 
demand for lumber through adding extra shifts, reopening mills, and 
gains in efficiency. The higher demand and prices for timber will 
enable the Forest Service (FS) to complete more restoration treatments.
    Stewardship contracting is a critical tool that allows the Forest 
Service to more efficiently complete restoration activities. 
Permanently reauthorizing stewardship contracting and expanding the use 
of this tool is crucial to our ability to restore landscapes 
collaboratively at a reduced cost to the government by offsetting the 
value of the services received with the value of forest products 
removed. In fiscal year 2012, approximately 25 percent of all timber 
volume sold on NFS lands was under a stewardship contract. Under the 
stewardship contracting authorities, the Forest Service has carried out 
watershed and wildlife habitat improvement projects, invasive species 
control and removal, road decommissioning, and hazardous fuels 
reduction activities.
    To accomplish more effective vegetation management, the Forest 
Service is fostering a more efficient National Environmental Planning 
Act (NEPA) process by focusing on improving agency policy, learning, 
and technology. These NEPA process improvements will increase decision-
making efficiencies and public engagement, resulting in on-the-ground 
restoration work getting done more quickly and across a larger 
landscape. In addition to the Forest Planning rule, the agency has 
initiated a NEPA learning networks project to learn from and share the 
lessons of successful implementation of efficient NEPA analyses. The 
goal of this effort is to maintain decision making transparency for the 
public and ensure that the Agency's NEPA compliance is as efficient, 
cost-effective, and up-to-date as possible. Specifically we are looking 
at expanding the use of focused Environmental Assessments (EAs), 
iterative Environmental Impact Statement documentation (EISs), 
expanding categories of actions that may be excluded from documentation 
in an Environmental Assessment (EA) or an Environmental Impact 
Statement (EIS), and applying an adaptive management framework to NEPA.
    Our landscape-scale NEPA projects will also increase efficiencies. 
For example, our Mountain Pine Beetle Response Project on the Black 
Hills National Forest is implementing a landscape-scale adaptive 
approach for treating current and future pine beetle outbreaks. We are 
also implementing the Four Forest Restoration Initiative (4FRI) project 
in the Southwest, as well as other landscape-scale forest restoration 
projects such as the 5-Mile Bell project in Oregon. The Draft EIS for 
the first 4FRI area covers about one million acres. All of our efforts 
are aimed at becoming more proactive and efficient in protecting the 
nation's natural resources, while providing jobs to the American 
people.
    The National Cohesive Wildland Fire Management Strategy is another 
important strategy in addressing the nation's wildfire problems by 
focusing on three key areas: 1) Restore and Maintain Landscapes, 2) 
Fire Adapted Human Communities, and 3) Response to Fire. This 
collaborative process has the benefit of active involvement of all 
levels of government and non-governmental organizations, as well as the 
public, to seek national, all-lands solutions to wildland fire 
management issues. We are now moving into Phase III where a tradeoff 
analysis of national risk will be conducted. We expect one result will 
be a better understanding of how the Forest Service can play a larger 
role in restoring and maintaining fire-adapted ecosystems and 
landscapes within an all-lands context. This understanding should help 
focus and support efforts for restoring landscapes.
    Using these tools, and more, we are working toward accelerating our 
restoration activities on the ground to restore the functions and 
processes characteristic of healthy, resilient ecosystems. Our goal is 
to sustain and restore ecosystems that can deliver all the benefits 
that Americans want, need, and deserve. Due to changing climate, we may 
not be able to restore them to their original condition, but we can 
move directly toward resilience and health directly on the lands we 
manage, and indirectly through collaboration with others on state and 
private lands. The Forest Service recognizes that increasing the pace 
and scale of restoration and active management of the National Forests 
is critically needed to address these threats to the resiliency of our 
forests and watersheds and the health, prosperity, and safety of 
America's forest-dependent communities.
H.R. 818 ``Healthy Forest Management and Wildfire Prevention Act''
    The Department opposes H.R. 818.
    The purpose of H.R. 818 is to address the bark beetle epidemic, 
drought, deteriorating forest health conditions, and high risk of 
wildfires on NFS land and public land under the jurisdiction of the 
Bureau of Land Management in the United States. The bill contains 
provisions that would:
        <bullet>  Provide a Congressional declaration that the bark 
        beetle epidemic, drought, and deteriorating forest health 
        conditions on NFS lands and public lands are an ``imminent 
        threat'' within the meaning of section 36 CFR 294.12(b)(1) in 
        effect since 2002. That regulation provided for road 
        construction or reconstruction in an inventoried roadless area 
        upon a determination that ``a road is needed to protect public 
        health and safety in cases of an imminent threat of flood, 
        fire, or other catastrophic event that, without intervention, 
        would cause the loss of life or property.''
        <bullet>  Allow a Governor to designate high-risk areas of NFS 
        and public lands, outside of Wilderness and National Monuments, 
        to address deteriorating forest conditions and future risks, 
        after consultation with county governments and affected Indian 
        tribes.
        <bullet>  Allow the Secretary of Agriculture or the Secretary 
        of the Interior to designate high-risk areas of NFS and public 
        lands, outside of Wilderness and National Monuments, to address 
        deteriorating forest conditions and future risks after 
        consultation with Governors, county government, and with 
        affected Indian tribes.
        <bullet>  Provide for the use of emergency hazardous fuel 
        reduction projects in areas designated as high-risk.
        <bullet>  Require the Secretary to implement emergency 
        hazardous fuels reduction projects within 60 days of the date 
        the Secretary receives the proposal from the Governor.
        <bullet>  Provide that emergency hazardous fuels reduction 
        projects in designated high-risk areas shall be subject to the 
        expedited procedures in Title I of the Healthy Forest 
        Restoration Act (HFRA) of 2003, including expedited 
        requirements for environmental analysis under NEPA, pre-
        decisional administrative review, and the application of these 
        expedited procedures to high-risk areas that are outside the 
        Wildland Urban Interface (WUI).
        <bullet>  Establish a categorical exclusion from the 
        requirement to prepare an environmental assessment or an 
        environmental impact statement under NEPA for hazardous fuels 
        projects in high risk areas within 500 feet of utility or 
        telephone infrastructure, campgrounds, roadsides, heritage or 
        recreation sites, schools or other infrastructure.
        <bullet>  Expand Good Neighbor Authority nationally and include 
        the Bureau of Land Management.
        <bullet>  Extend Stewardship Contracting from 2013 to 2017 and 
        increase maximum contract length to 20 years.
    Consistent with the purposes of H.R. 818, USDA supports Forest 
Service efforts to increase the amount of forest restoration work on 
NFS lands. USDA opposes the enactment of H.R. 818 except for sections 8 
and 9, which respectively expand Good Neighbor Authority and 
reauthorize Stewardship Contracting Authority. For those sections, we 
support the expansion of the Good Neighbor Authority and 
reauthorization of stewardship contracting, but have some minor 
technical suggestions. However, the Department cannot support a bill 
that would remove the authority vested in the Secretary of Agriculture 
to manage NFS lands by authorizing Governors to designate high risk 
areas of NFS lands and propose projects for those areas, and requiring 
projects to be implemented within 60 days of the date on which the 
proposal is finalized. Many conditions, including weather, economics, 
contractual requirements, availability of workforce, and other 
priorities can influence the timing of a project. We also have concerns 
with other provisions of H.R. 818 including the effect of the bill on 
designated roadless areas, as well as the costs of implementing the 
bill.
H.R. 1294 ``Self Sufficient Community Lands Act''
    While USDA appreciates the Committee's interest in collaborative 
management of NFS lands, the Department opposes this legislation.
    H.R. 1294 would:
        <bullet>  Require the Secretary of Agriculture to establish 
        community forest demonstration areas comprised of NFS lands at 
        the request of a Board of Trustees appointed by the Governor of 
        the State in which the lands are located.
        <bullet>  Provide for the establishment of a community forest 
        demonstration area if the Secretary determines that the area 
        contains at least 200,000 acres of NFS land and that the State 
        has a law or regulatory structure providing for forest 
        practices applicable to State or privately owned forest land.
        <bullet>  Provide that the Board of Trustees would manage NFS 
        lands that are established as community forest demonstration 
        area in accordance with the bill and applicable State law.
        <bullet>  Provide that Federal laws would apply but only to the 
        extent that laws would apply to State administration and 
        management of forest lands. Treatments, such as timber harvest, 
        would be subject to Federal environmental laws only to the 
        extent that State lands are subject to those laws.
        <bullet>  Provide that receipts from activities would be 
        retained by the Board and be used to fund administration and 
        management of the community forest demonstration area and that 
        any remaining funds would be distributed to counties.
    USDA supports efforts to increase the amount of forest restoration 
work on NFS lands. I, and past Chiefs have testified on numerous 
occasions that this work is one of our highest priorities. However, 
USDA opposes this bill because it would remove the authority vested in 
the Forest Service to manage NFS lands by authorizing a Board of 
Trustees nominated by the Governor to manage the land and resources of 
the community forest demonstration areas under laws and regulations 
applicable to management of State forest lands.
    While USDA appreciates the provisions allowing time frames to be 
extended for public involvement, ultimately we support the right of 
citizens to be involved in the management of their forests as 
demonstrated in our new Forest Planning Rule.
    USDA appreciates state and local community interest in the 
management of the National Forests. However, this bill limits the 
ability of American citizens to participate in an open decision making 
process and leaves many fundamental questions of responsibility 
unanswered.
H.R. 1345 ``Catastrophic Wildfire Prevention Act of 2013''
    The Department opposes H.R. 1345.
    USDA supports the purposes of H.R. 1345 to address the risks to 
forest health, public safety, and wildlife habitat posed by wildfire. 
In general, we support Title I of the bill, which would reauthorize and 
amend the Stewardship Contracting Authority and the Good Neighbor 
Authority. We would like to work with the committee to address some 
technical concerns. In addition, we would like to discuss the impact of 
the requirement of paying 25% of stewardship contracting receipts to 
counties. Furthermore, changing the requirement to obligate 
cancellation costs upfront sets up a process different than other 
contracting activities and could potentially lead to an inability to 
pay if unobligated funds are inadequate to cover cancellation costs at 
the time of cancellation. Expanding authorized use of FLAME funds would 
reduce the amount of funds available for fire suppression. In addition, 
there are other programs that support burned area rehabilitation 
activities. We do not support Title II of H.R. 1345, which would 
provide for an expedited process for carrying out certain projects. 
Specifically, the Department opposes this bill because it would remove 
the authority vested in the Secretary, shortchange the environmental 
review process, cut out public engagement and collaboration, give the 
agency targets it can't accomplish, and override roadless protections.
    Specifically, Title I contains provisions that would:
        <bullet>  Extend the Stewardship Contracting Authority from 
        2013 to 2023; increase maximum contract length to 20 years; 
        change the funding obligations to cover the cost of the 
        cancelling or terminating a contract; and require that 25 
        percent of the receipts from a contract or agreement be paid to 
        the county in addition to payments made under PILT.
        <bullet>  Extend the Good Neighbor Authority nationally and 
        authorize the Bureau of Land Management to utilize the 
        authority.
        <bullet>  Amend the purpose of the FLAME Act to provide that 
        FLAME funds shall be available not only for large or complex 
        fire events but also for burn area responses, including flood 
        prevention.
    Title II contains provisions that would:
        <bullet>  Require the Secretary to implement eligible wildfire 
        prevention projects in at-risk forests and in threatened and 
        endangered species habitat. Eligible wildfire prevention 
        projects would include livestock grazing and timber harvests.
        <bullet>  Provide that an Environmental Assessment (EA) or an 
        Environmental Impact Statement (EIS) would only need to study, 
        develop, and describe the proposed action and the no action 
        alternative. Without this language, NEPA would require the 
        development of other reasonable alternatives to the proposed 
        action.
        <bullet>  Require completion of an EA within 60 days of 
        commencement of preparation and an EIS within 90 days; projects 
        would be deemed compliant with NEPA if these deadlines were not 
        met.
        <bullet>  Provide that an EA under the bill would be deemed to 
        be sufficient for purposes of NEPA for 10 years if the eligible 
        wildfire prevention project involves livestock grazing and 20 
        years if the project involves timber harvest.
        <bullet>  Establish a Categorical Exclusion from the 
        requirement to prepare an EA or EIS for certain eligible 
        wildfire prevention projects.
        <bullet>  Require the Secretary to pursue alternative 
        arrangements under the Council on Environmental Quality (CEQ) 
        regulations if the county in which the eligible wildfire 
        prevention project is to be carried out declares an emergency 
        because of wildfire or the threat of wildfire; establish 
        procedures for requesting the alternative arrangements; direct 
        the Secretary to carry out the project without regard to NEPA 
        if CEQ fails to comply with the 15-day deadline for submitting 
        the alternative arrangement; and provide that actions taken 
        would not be subject to notice and comment or judicial review.
    In addition, we have concerns the provisions of Title II that 
provide for timelines for environmental analysis and timelines and 
requirements for alternative arrangements. More specifically:
        <bullet>  Section 203(a)(1) requires either an EIS or an EA for 
        the proposals, leaving out the possibility for using existing 
        categorical exclusions.
        <bullet>  Section 203(a)(3) sets deadlines that make it 
        impossible to comply with NEPA on most projects and would in 
        effect result in the projects being exempted from NEPA.
        <bullet>  Section 203(a)(4) would deem an EA to be sufficient 
        for 10 or 20 years depending on the type of project and despite 
        the changes that may likely occur within that timeframe that 
        would otherwise trigger the need to update the EA.
        <bullet>  Section 203(f) requires the Secretary to request 
        alternative arrangements with the Council on Environmental 
        Quality and lays out a number of requirements for that request. 
        The request alone would take field resources otherwise 
        committed to the emergency situation when alternative 
        arrangements may not even be necessary. Additionally, given the 
        timeframes imposed by the bill for completing and EA or EIS, 
        alternative arrangements may not be necessary.
SUMMARY
    The Department recognizes the important role of the timber industry 
in maintaining rural communities; particularly in light of the urgent 
forest restoration needs many areas face with the beetle epidemic and 
the ongoing needs to reduce the risk of uncharacteristic wildfire 
effects--especially in the wildland-urban interface. The Department 
wants to work closely with the Committee on these bills to enhance our 
ability to get more restoration work done.
    This is also why the Forest Service is investing considerable 
effort in finding ways to maximize the effectiveness of our 
collaborative management procedures: in streamlining our implementation 
of NEPA to anticipate the needs of large landscapes and watersheds; in 
maximizing the use of special authorities such as pre-decisional 
administrative review and stewardship contracting; and in exploring 
ways to make more efficient use of scarce budgets. Collaborative 
efforts such as these must be fostered and broadened if local 
communities are to reap increasing benefits from their National 
Forests.
    In summary, the Forest Service continues to work toward 
accomplishing restoration objectives, providing information, research 
and quality recreation experiences, all linked to healthy rural 
communities. I want to thank the Committee for its interest, 
leadership, and commitment to our national forests and their 
surrounding communities. I would be pleased to answer any questions you 
may have.
                                 ______
                                 
    Mr. Hastings. Thank you, Chief Tidwell, for your testimony 
today. You mentioned a common issue in your testimony about 
Secure Rural Schools. And my first question--I will recognize 
myself for 5 minutes for questions.
    A few weeks ago I, along with 30 of my colleagues, in a 
bipartisan manner, sent a letter to Secretary Vilsack and the 
acting director of OMB regarding the Forest Service's, March 
20th letter asking SRS recipients to refund $18 million that 
was already paid to those counties. Can you explain the legal 
justification for that action?
    Mr. Tidwell. Mr. Chairman, it is my understanding, after 
numerous discussions with some of our attorneys, is that, 
according to the Control Budget Act, that it applies to all the 
outlays that would occur during this fiscal year. And because 
even--we make the payments, we try to get them out in December, 
this year we got them out in January--because they were made 
during this fiscal year, that that sequester bill applies to 
those payments.
    I regret that we had to send that letter out. The one thing 
that we did do is offer to the counties that do have Title 2 
funding to give them the option to use Title 2 funding so there 
wouldn't be any impact on the schools and roads programs. I 
regret having to do that. I wish there was another way around 
it. And I tell you, I pursued every avenue I could find to be 
able to find a different solution. But with that----
    Mr. Hastings. Well, I am not sure I totally agree with your 
response. And, by the way, for the record, I have yet to 
receive a response from Secretary Vilsack. If you have any 
influence on the Secretary, tell him in a public hearing I 
asked you to ask him to respond in writing why he did exactly 
what he did.
    I just find it absolutely ironic, when we hear testimony 
from Members that represent counties that receive these 
payments, and the hardships they are facing, this to me is a 
classic example of this Administration trying to illicit as 
much hardship on something that they proposed 2 years ago, 
namely the sequestration. I mean you knew it was coming.
    So, I guess my message is you will carry a message back to 
the Secretary saying I would like to have a response in a 
timely manner. If you would do that.
    One other issue. The budget came out yesterday, and 
obviously we are going through that budget. In looking at the 
budget, we see that there is virtually, on every line item, on 
virtually every line item, multiple-use management was reduced 
in the proposed budget. And yet, the land acquisition part was 
increased by 10 percent.
    Now, when you have a huge backlog in management of our 
lands, how--I guess explain that. Explain the multiple use part 
of it, which is part of what management is all about, was 
decreased virtually across the board, and acquisition was 
increased. Explain that.
    Mr. Tidwell. Well, Mr. Chairman, I wish that we could have 
asked for a higher amount of funding. But everyone in this room 
is aware of the----
    Mr. Hastings. Well, no. You asked for a higher amount of 
funding in land acquisition. When we are talking here--and it 
is well know, it is well recognized that the active management 
of forest lands are not adequate, and yet that is all cut. Why 
would you put an emphasis on more acquisition and less on 
management is what my question really is.
    Mr. Tidwell. OK. The request, the budget request for land 
acquisition, is based on what we hear from the public. In 
almost every one of these cases, by acquiring these key parcels 
from willing sellers, we actually reduce the cost of 
administration. It allows us to do more landscape-scale 
projects, it reduces all the time and expense we have to deal 
with boundaries.
    The other part of why we had to request a lower amount of 
money in so many of the budget line items you mentioned is that 
to be able to meet the agreement to have the 10-year average 
for fire suppression, we had to move $134 million from other 
programs to put it into our suppression account. That is where 
we had to make the shifts to be able to continue that agreement 
that we have for the 10-year average. But those are the reasons 
why you see the reductions. And the land and water conservation 
funding request is based on what we are hearing from the public 
about how important that program is.
    Mr. Hastings. Well, Chief Tidwell, you based your answer on 
hearing from the public. Haven't we heard from the public that 
our forest lands are badly managed, and yet you are cutting 
them? I mean why would you make a determination that buying 
more is more important than managing what you have? That is 
really what the question is.
    My time has expired and I will recognize the distinguished 
Ranking Member, Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    Chief, many of the bills before the Committee today are 
based on an assumption. The assumption is that appeals and 
litigation are an impediment to the Forest Service doing more 
work on the ground. The solution to this problem, as presented 
in some of these bills, is to curtail NEPA and the Endangered 
Species Act protections.
    My questions is what percentage of Forest Service projects 
are appealed and litigated, and the second one, does that 
figure include projects that are not eligible for the post-
decision appeal process, projects that are not subject to 
appeals because they are carried out under categorical 
exclusion?
    Mr. Tidwell. With the projects that are subject to appeals, 
on average there are about 6 percent of those projects 
appealed. And on average, about 2 percent of our projects are 
litigated.
    I want to stress that reflects the collaborative efforts 
that are going on across the country to be able to work out 
agreement on the type of work that needs to be done so we can 
actually successfully implement that work.
    Mr. Grijalva. Let me ask you about Mr. Labrador's 
legislation, H.R. 1294. A basic question, because it is part of 
the premise of the legislation or rationale. What is the 
difference between managing national forests and managing State 
forests?
    Mr. Tidwell. Well, the national forests are managed based 
on a set of laws that have been passed that reflect, I believe, 
how the public wants those lands to be managed, and to provide 
assurances about how they would be managed. The key thing there 
is with the Multiple-Use Sustained-Yield Act, because one of 
the things that drives--for us to find that mix of uses, that 
balance of uses on our national forests that reflect everything 
that the public would like to see off of those lands.
    We are not managed to maximize revenues. Some States 
definitely have that responsibility to do what they can to 
generate revenues for school trust lands. And so, that is one 
of the differences. But it is driven by what we hear from the 
public and our forest plans. It is what is reflected in the 
laws that govern these lands. And that is how we try to carry 
out the management, based on what we believe is how the public 
wants these lands managed.
    Mr. Grijalva. OK. And what portion of the national forest 
land would qualify as commercial forest land if the metric for 
commercial timber land is land capable of producing 20 cubic 
feet per year?
    Mr. Tidwell. Congressman, I will have to get back to you 
with the exact number. We do have that from our plans, and I 
will have to get back to you.
    But there is a significant amount of our national forests 
that produce that amount of growth every year without any 
question. It is one of the reasons why we recognize we need to 
do more work out there. That is why we are moving forward to 
actually restore more of these lands. And if you look at what 
is going on in the country today, there is more and more 
support for us to work through these collaborative processes to 
actually implement projects.
    That is one of the reasons why I put out that accelerated 
restoration strategy. And it was without any expectation of a 
budget increase. It was because what we are seeing across the 
country, where people want to come together, reach agreement on 
the type of work that we can go forward with, and you are 
seeing it with these large landscape projects.
    I mean we used to spend a lot of time looking at 1,000 
acres here, 2,000 acres there. Today we recognize we need to be 
looking at hundreds of thousands of acres with one analysis to 
be able then to move forward, do what needs to be done on that 
land to be able to restore those forests.
    Mr. Grijalva. Thank you. Last question. Does the Forest 
Service support allowing commercial logging in roadless areas 
or national monuments?
    Mr. Tidwell. No, we do not.
    Mr. Grijalva. OK.
    Mr. Tidwell. As I mentioned earlier, we have over 12 
million acres of roaded national forests, where we know we need 
to use timber harvest to restore those lands. I will tell you. 
That is more work than under any scenario we can get 
accomplished in the foreseeable future. That is what we need to 
focus on, is to be able to get that done, to be able to move 
forward, to restore that, to produce the saw timber that can 
come off of those lands. That is where I feel that we need to 
continue to be focused on.
    Mr. Hastings. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Colorado, Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. Chief Tidwell, thanks 
for being here. Would you agree that responsible treatments in 
our forests reduce fire severity, or mitigate insect 
infestation?
    Mr. Tidwell. Yes. We have numerous examples--and you have 
seen them in your State--where, by thinning out these forests, 
we can reduce the severity of the wildfire, and make it a lot 
easier for our brave fire fighters to get in there and suppress 
these fires and keep them from coming into our communities.
    Mr. Tipton. So that responsible treatment is a positive 
move that we need to be making.
    Mr. Tidwell. Yes.
    Mr. Tipton. Can you tell us how much was spent last year on 
fire suppression versus mitigation?
    Mr. Tidwell. We spent $1.4 billion last year with fire 
suppression. I would have to get back to you with the actual 
number, but it was probably more around--about maybe $600 or 
$700 million on restoration efforts. But I will get back to you 
with the accurate number.
    Mr. Tipton. So, effectively, what that is telling us is we 
have it backwards, given your previous comment. We need to be 
spending more on the front end, in terms of actually going in, 
treating these forests, to be able to reduce the threat of 
fire, to be able to protect our habitats, to be able to protect 
the species, to be able to protect our watersheds. Is that 
accurate?
    Mr. Tidwell. It is. And if you look at what has happened 
over the last 12 to 14 years, you have seen a significant 
reduction in the number of employees that we have that do the 
restoration work, that put up the timber sales--in some cases, 
they are up to almost 49 percent reduction. You have seen the 
funding go down over 30 percent over the last 10 years. The 
reason for this is to be able to meet the 10-year average. We 
have to continue to shift funds from these other key programs 
to be able to have the funds available for----
    Mr. Tipton. Let's keep that funding in mind for just a 
moment. But I would like to be able to move to another question 
I would ask.
    We have a pilot project in Southwest Colorado, Pagosa 
Springs.
    Mr. Tidwell. Yes.
    Mr. Tipton. We have proven that going in and being able to 
manage these forests and to be able to treat it--we have 
actually increased ground water, the trees recover to a healthy 
state within 2 weeks, according to the forester that I visited 
with. And moving dollars into those areas, you would agree, 
would be the better thing to do?
    Mr. Tidwell. Yes.
    Mr. Tipton. Great. Now, going back to the budget end of it, 
following up on Chairman Hastings' question in terms of land 
acquisition, why would you make the choice, then, to spend more 
on land acquisition--because I didn't hear the answer to this--
saying you heard public comment, when public comment is saying, 
``Protect our forests, make healthy habitat,'' and work with 
that, work with those dollars? Why are the choices not made in 
that direction?
    Mr. Tidwell. The budget request reflects a balance of all 
the things that we hear from the public about the different mix 
of benefits----
    Mr. Tipton. Don't you have a job, though, truly, to manage 
the forests? If they burn, there is nothing to manage.
    Mr. Tidwell. Well, that is one of the reasons why we have 
increased our request for suppression, increased our request 
for preparedness----
    Mr. Tipton. And increased your acquisition. That is really 
the point.
    Mr. Tidwell. And we have also----
    Mr. Tipton. From a management decision, shouldn't we 
prioritize, in tough economic times, where those dollars are 
really going? And rather than asking for more land to manage 
when we are saying we can't manage the land we currently have, 
let's apply those dollars to truly manage the forests that we 
have.
    Mr. Tidwell. Well, our budget request is a balanced 
approach. It is something we are putting forward for your 
consideration.
    The other thing I would want to point out, we have also 
increased the request in our integrated resource restoration 
budget line item that provides the funding to do the 
restoration work, too.
    Mr. Tipton. And----
    Mr. Tidwell. So, it is a balanced request for your 
consideration.
    Mr. Tipton. I appreciate that. But I think we are still 
continuing to go around the issue. Tough economic times, 
families, businesses are all facing strategic decisions that 
have to be made. And this doesn't seem to be a good strategic 
plan, when the evidence that is coming out of the Forest 
Service itself indicates that we ought to be moving to actually 
get in, treat these forests, to be able to address the Bark 
Beetle kill, and to be able to protect these individual areas.
    And so, I would really encourage you to revisit that 
particular portion of what you are doing, in terms of the 
budget requests, as we move forward.
    And on the collaborative process, would you believe it is 
an important thing to get these county commissioners and our 
States involved when we are talking about public process?
    Mr. Tidwell. I do. In fact----
    Mr. Tipton. Great.
    Mr. Tidwell [continuing]. Some of our most successful 
collaboratives are when we have had the county commissioners 
dedicate, devote their time to be part of those collaborative 
efforts.
    Mr. Tipton. Great. We will look for your support on H.R. 
818, my bill. Thank you.
    Mr. Hastings. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I 
participated in the--I mean, Chief--the passage of HFRA. And as 
far as I know, it has been implemented with very little 
controversy, despite the controversy during its adoption.
    But given the fact you have that tool, what is the greatest 
restraint on you conducting forest health fuel reduction 
projects? Is it environmental law constrains, given the fact 
you have the HFRA tools, or is it budgetary constrains?
    Mr. Tidwell. Well, it is a capacity issue right now, and 
that is----
    Mr. DeFazio. So it is a budgetary constraint. You don't 
have enough money to do the projects, projects that you could 
do under the existing laws with no changes, particularly if you 
used the authority of HFRA. Is that correct?
    Mr. Tidwell. Yes, and that is why we are moving forward to 
look at ways to be able to expand markets, to be able to create 
more economic value in this material so that, like with the 
stewardship contract, we can then use that value to be able to 
get more work done.
    Mr. DeFazio. OK. Have you looked at--and I have spoken with 
previous people in your position and previous Administrations 
about providing for longer-term contracts, particularly if you 
are looking at biomass utilization off of these forests. It 
would probably take longer than 10 years for someone to fully 
amortize their investment in a biomass facility, but that would 
also lower your per-acre treatment costs, because they get some 
value out of what is being removed. Is that correct?
    Mr. Tidwell. Yes, we are interested in looking at the 
possibility of--if we can get stewardship contracting 
reauthorized, to be able to look at opportunities to extend 
that, because of the points you just raised.
    Mr. DeFazio. OK. And have you heard anything from EPA, we 
had a little bit of a tussle with them. They started off in a 
misguided attempt to classify biomass the same as coal. Kind of 
odd. And now they have pulled back. Have you heard anything 
about when they are going to put forward a decision on biomass?
    Mr. Tidwell. I have not.
    Mr. DeFazio. OK. All right. Just one other question. What 
is the average cost per acre of treatment, manual treatment, as 
opposed to burning?
    Mr. Tidwell. You know, it depends on----
    Mr. DeFazio. Terrain and--yes.
    Mr. Tidwell. You know, a range is probably anywhere from 
$200 to $300 an acre.
    Mr. DeFazio. Really? That low? Because I saw a study on the 
Klamath that said it would be $2,000 an acre.
    Mr. Tidwell. Well, you asked for an average.
    Mr. DeFazio. Yes, OK. All right. Depending upon the terrain 
and the forest and what has to be removed.
    Yesterday we saw the President's budget, and they 
rhetorically extended the Secure Rural Schools payment. 
Unfortunately, either there is a misprint or a disconnect, 
because the table doesn't have a number for extension. It has 
zero. There is no mention of it in the actual number tables, 
but there is a rhetorical commitment. Can you straighten that 
out for me? I mean is the Administration proposing an extension 
that says they are proposing a 5-year extension, but there are 
no numbers in the budget?
    Mr. Tidwell. It is my understanding that, yes, we support 
reauthorization of Secure Rural Schools for a 5-year period.
    Mr. DeFazio. OK, at an unspecified number with an 
unspecified revenue source?
    Mr. Tidwell. The only specification, as I understand, we 
are supportive of mandatory funding for this program, so that 
the counties do not have to worry about it each year, whether 
there is going to be funding made available.
    Mr. DeFazio. OK. We will need a little more clarification 
about that, because I was very puzzled when I read the budget, 
and I read the rhetoric, and I said, ``That's great,'' and I 
looked at the table and I went, ``Oops.'' So we need to get 
some consistency there.
    Thank you, Mr. Chairman.
    Mr. Hastings. Will the gentleman yield just for a moment? I 
would just like to make a point. I suppose at some time the 
argument could be made that our national forest was the basic 
raw material for coal, but I think that is a bit of a stretch.
    The Chair recognizes the gentleman from Florida, Mr. 
Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. First of all, I 
want to just thank you for this hearing today. As someone who 
has a national forest in their district, this topic is 
critically important to me. I am amazed that in the 
Apalachicola National Forest we harvest less than 7 percent. We 
have small rural counties that are dying.
    And, Mr. Tidwell, I want to say thank you for coming to my 
office and meeting with me. I want to be very clear today. I 
think you mean well, and I think you are a very nice man. And I 
feel sorry that you have to step before us today and tote the 
water for an Administration who just doesn't get it. And so I 
want to separate you personally from the way I feel right now, 
because it would be wrong of you to think that my aggravation 
is directed at you. I don't know what they pay you, but it is 
not enough.
    [Laughter.]
    Mr. Southerland. OK? To do this job. I mean, you have 
Secretaries that won't even answer our letters--talk about 
thumbing their noses at the American people. This is an 
embarrassment. And I wish that I could take you down to these 
poor rural counties, real people, real people that are trapped. 
And, quite honestly, you are the cause. Not you, but this 
Department is the cause. OK? They don't want to depend on you.
    Just a few moments ago you made a statement they want to 
know that this money is coming--no, no, no. They want to 
control their future. They want to take ownership. They don't 
want you to control their future. Let them work. Get your foot 
off their neck. It is sinful, what I am seeing.
    And the one thing that this hearing has done today is it 
has shown me that there is agreement on both sides of the aisle 
on this issue. These people don't want a handout, they want a 
future. This is sinful, and it is so aggravating to me. And I 
come in here over and over and over again in the last 2\1/2\ 
years, and you want more. To whom much is given, much is 
expected. And what these people want is they want to make a 
bright future for themselves, their children, and their 
grandchildren. And they are trapped in these rural counties, 
and they go to bed every night praying that lightning does not 
strike. Because if it does, what little bit they have is going 
to be taken away from them.
    This is a disgrace in every way. I have questions that I 
need to ask you. But you know what? Nothing seems more 
important than bringing the heart of my people to this 
Committee and letting you know. The questions? They are 
technical.
    This Administration says they care about people. Quit 
talking about it and show us. Let our people work. They are 
willing to put calluses on their hands. Let them control their 
future in a responsible way. And I want you to hear my heart, 
and I want you to hear the heart of the people that I love, I 
have been living in this district, our family has been living 
in our district for 200 years. It is home. Hard-working, God-
fearing people. Benevolent, giving, loving. And my heart breaks 
for them, and it breaks for every district in this country who 
have people just like our people.
    I want to know that you all get it. And again, this is not 
directed to you. You are a nice man. I am separating you--you 
are toting the message here. And I have to tell you something, 
man. I don't know how you do this, but it is not working. It is 
not working. And that is a statement, that is not a question.
    And, Mr. Chairman, I had to get that off my chest and 
express my heart. And I think that is indicative and a 
reflection of all of our hearts around the country. Thank you, 
and I yield back.
    Mr. Hastings. I thank the gentleman for his----
    Mr. Tidwell. Mr. Chairman, I would like to respond, please.
    Mr. Hastings. Go ahead.
    Mr. Tidwell. Mr. Southerland, I do hear you, and I 
understand that. I mean that is where most of our people, our 
employees, they live in rural America. I understand the 
challenges. It is one of the things why our folks are working 
so hard to be able to get more work done. It is one of the 
reasons why that even without--understanding the need to have a 
flat or declining budget for a lot of good reasons, we have 
been able to increase the amount of work that we are getting 
done. We have been able to increase our efficiencies, reduce 
our fixed costs. And that over this time, even with declining 
budgets, we have also reduced the average cost to get a timber 
sale out at the same time. It is because our employees, I can 
tell you they care just as much as you do to be able to----
    Mr. Southerland. Now, Mr. Tidwell, let me ask you this. I 
know of a company that comes into the national forest to bid on 
property, and they want to do an assessment, OK? They want to 
cruise to get a cost. They are not allowed to cruise that 
timber on a four-wheeler, because your people say that that is 
going to damage the forest.
    Now, it is on a block of timber that we are going to cut 
and we are going to have loader skidders and bunchers on there, 
but they have to walk in order to cruise that timber? Now, I 
got to tell you. That would just stick in my craw.
    Mr. Hastings. The time of the gentleman has expired. I feel 
the passion, but we do have a lot of Members that want to ask 
questions.
    Mr. Southerland. Yes, sir. Thank you.
    Mr. Hastings. The Chair recognizes the gentleman from 
Nevada, Mr. Horsford.
    Mr. Horsford. Thank you very much, Mr. Chairman. And to my 
colleague, as he indicated, many of us on this Committee 
represent very diverse districts and have degrees of experience 
with the Forest Service. And, Chief, I want to thank you for 
being here and for, Mr. Chairman, this legislation, because I 
think it provides for the opportunity for a lot of these issues 
to be debated.
    I represent a large part of rural Nevada. And our national 
forest unit, the Humboldt-Toiyabe, is very different from 
forest units in places like Washington State or Oregon and 
Idaho. So, I have to ask as it pertains to my district, what is 
the outcome for counties in Nevada if they are unable to 
produce sufficient revenue from timber sales because of the 
uniqueness of our forest compared to others that might be 
targeted in this legislation?
    Mr. Tidwell. Well, Congressman, in your State and your 
district, the revenues that are produced off those national 
forests come from recreation, grazing, and mining. And there is 
very--a little bit of timber harvest that is driven by the need 
to be able to restore Sage Grouse habitat, et cetera. But those 
are not timber-producing forests that you have in your 
district.
    Mr. Horsford. And so, what would the effect to the rural 
counties be if the legislation applies broadly to a county in 
rural Nevada that wouldn't have the same benefit as a place 
like Washington State or Oregon and Idaho or others in the 
country?
    Mr. Tidwell. Well, if you are referring to some of the 
bills that are being discussed today, it would have little 
effect in your county with the need to reauthorize, address 
Secure Rural Schools, that would be able to continue the level 
of payments, similar to what your counties have received in the 
past.
    Mr. Horsford. And that is the KV Fund, correct?
    Mr. Tidwell. Well, it is actually the Secure Rural Schools. 
The KV Fund is a fund that we use that is part of the receipts 
from timber sales that we use to be able to do work, any type 
of work from restoration work to be able to come in and do that 
type of work. So it is an authority that we have had for many 
years, part of our timber sale contracts.
    Mr. Horsford. So, just so I understand, only 25 percent of 
the revenues under the proposed legislation generated would go 
to rural counties. Is that correct?
    Mr. Tidwell. Yes, that is under the 25 percent fund that we 
have been operating under before we had the Secure Rural 
Schools Act.
    Mr. Horsford. And then the remaining would go to KV Fund or 
the Salvage Sale Fund. How much of those proceeds support rural 
communities?
    Mr. Tidwell. Well, those funds, they support rural 
communities because they create jobs. Because of the work that 
needs to be done, it creates jobs. So that is where the 
support--and also then gets the restoration work done that is 
on the national forest.
    And then there is a portion of the timber receipts that 
also go back to the treasury.
    Mr. Horsford. But is it directly allocated to the rural 
communities, or does it indirectly benefit those communities, I 
guess is my question.
    Mr. Tidwell. The portion of the receipts that go into the 
KV Fund, it would be an indirect benefit to the counties. The 
25 percent of the funds are what goes back to the States, and 
they distribute it to the counties.
    Mr. Horsford. All right. I want to just ask just about the 
whole outdoor recreation industry, generally. It directly 
supports about 6 million jobs and contributes over $646 billion 
annually to the U.S. economy, including about $40 billion to 
State and local revenues. These businesses also employ a range 
of skilled workers, including sport and commercial fishermen.
    According to the National Forest Service, visitors spending 
in nearby communities supported over 200,000 jobs. But people 
do not want to recreate in industrial, clear-cut areas. So how 
do you reconcile that conflict?
    Mr. Tidwell. Well, we deal with that through our forest 
planning process, where the public has the opportunity to be 
able to express their desires about how different parts of the 
forest need to be managed to be able to find that balance the 
areas where we need to manage for commercial timber harvest, or 
where we need to manage more for certain recreational quality 
settings, so that we can support that full balance of uses out 
there. And a lot of it is driven by what the public wants, how 
the public wants their national forest managed.
    Mr. Horsford. Thank you, Mr. Chairman.
    Mr. Hastings. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Oklahoma, Mr. Mullin.
    Mr. Mullin. Mr. Chairman, thank you for this opportunity to 
sit in here. And, really, I have more of a statement than I do 
a question. I have already had the displeasure of speaking with 
the U.S. Forest Service multiple times in Atlanta. And I can 
tell you every time I hang up the phone I am more frustrated 
than I was when I picked up the phone. And mainly it is because 
of their lack of understanding.
    If I am understanding it correctly, the U.S. Forest Service 
was designed to protect our forests for the next generation and 
preserve it for our kids to enjoy. And instead, what they 
continue to do is hold our forests hostage. And now they are 
starting to hold our communities hostage by demanding 
repayments of the SRS. And our communities are already 
strangled enough.
    In these hard economic times, it seems as though--that the 
U.S. Forest Service has completely thrown that out the window. 
And now it is demanding our schools to repay something that 
they are already using. The money has already been given to 
them. They are already using the money, they are depending on 
the money. Because of the lack of management that the U.S. 
Forest Service has done with the forests surrounding these 
communities because of their bad decisions, now they are 
continuing to hold our schools hostage.
    My frustration comes in from the fact that there is no 
common sense that goes into the U.S. Forest Service. And I know 
that is a rarity inside Washington, D.C. But as you stated, Mr. 
Tidwell, the gentlemen working for the U.S. Forest Service live 
in these communities. Well, if that was true, then they should 
have a little bit of common sense. And that has completely been 
washed out.
    I went to a park recently in Shady Lane, which is outside 
of Heavener, Oklahoma, that half the park flooded, half the 
park flooded once in 50 years. And the U.S. Forest Service has 
it shut down. And when I went to that park, a convoy of U.S. 
Forest Service employees showed up. I showed up there with 
three people, and all of us rode in my truck. A convoy of 
individuals showed up all driving brand new Ford Explorers. And 
now they are asking for 10 percent--or more money to acquire 10 
percent more forest land which they are not even funding--or 
they are not even managing properly right now. And now you are 
asking our schools to repay the money when you guys have 
mismanaged your money to begin with.
    When does it stop? The insanity continues to go farther and 
farther down the line. And if they continue to hold--if the 
U.S. Forest Service continues to hold our communities hostage, 
and they are continuing to hold my kids hostage, my kids' 
future hostage, and most people's in here's kids hostage, I can 
tell you it is going to become my mission to expose the U.S. 
Forest Service at every turn.
    If you can't manage it, then give it back to the States. I 
am so tired, as a land owner myself, having the Federal 
Government walk on our properties and walk on the lands that 
generations that I come from--I am Cherokee. I understand how 
to take care of our lands. We take pride in our lands. And yet 
we can't even take care of the community we live in because of 
some people in Atlanta making bad decisions. Common sense does 
play a part in it. And if Atlanta can't make the decisions, 
then give those that work in those areas the authority to make 
common-sense decisions.
    Mr. Chairman, I yield back the rest of my time.
    Mr. Hastings. The gentleman yields back?
    Mr. Mullin. Yes.
    Mr. Hastings. OK. The gentleman from California, Mr. 
Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. I just have one 
question. The Chief started to respond to a very passionate 
series of remarks we heard earlier about the Forest Service and 
its view toward rural America. I too think you are a nice guy, 
Chief Tidwell, so I want to give you a chance to finish the 
remarks that you started before you were interrupted. And I 
will yield the balance of my time for that purpose.
    Mr. Tidwell. Well, thank you for that. I wanted to also 
stress besides the U.S. Forest Service, throughout the U.S. 
Department of Agriculture Secretary Vilsack has made it very 
clear that the reason we come to work every day is to do 
everything we can to help rural America. And you will see many 
of the programs in USDA are focused on that. And specifically 
with the Forest Service.
    When you look at the things that we have been trying to 
move forward with--and I will just share, Mr. Chairman, I tell 
you, I have been doing this for 35, 36 years. And I have seen 
so many different approaches. And where we are today, over the 
last few years, about being able to embrace these collaborative 
efforts, to be able to bring people together and reach 
agreement and then move forward with the type of work that 
needs to be done on these national forests, this is the first 
time where I have actually been able to feel good about, yes, 
we are going to be able to move forward and we are going to be 
able to do it in a way with understanding the budget situations 
we are in in this country.
    So, we have to find different ways to build capacity to be 
more efficient. And I will tell you. Through these landscape-
scale approaches that we are implementing today, you see that 
is increasing our efficiencies and that we are moving forward 
and getting more work done. I wish that we didn't have the 
softwood markets that we have had to deal with the last few 
years. Luckily, they are starting to increase. If that 
increases, it will allow us to be able to have more value from 
our stewardship contracts, would allow us to get more work 
done. So there are several things that are lined up for us.
    But I think, throughout my career, this is the first time 
when I felt positive that we can really move forward and 
address the conditions on our national forests and put people 
back to work.
    There is just no question we need the timber industry. If 
we lose the timber industry, there is nobody to do the work. 
And where we have tried to restart that, to re-establish that 
industry, it is so expensive. So we are focused on doing 
everything we can. That is why, if you look at our track record 
over the last 5 or 6 years, we have done everything we could to 
be able to re-appraise timber sales, to be able to extend 
timber sale contracts, to make sure we are doing everything we 
can to keep that industry in place. Those are some of the 
differences.
    It was mentioned earlier about why are national forests 
managed differently from States. Well, that is one of the 
things that is different, is our timber sale contract. It is 
based on sharing the risk with our purchasers. And I understand 
the States have their contracts. And together it provides a 
balance, because our purchasers know that they have a much 
longer period of time. And so they--based on where the market 
is, they can determine when they need to harvest that timber. 
That is one of the reasons why we have 4.5 billion board feet 
under contract today, is because--partly because of the poor 
market conditions. I am optimistic that we will see a lot more 
of that harvested this coming year, which will create more 
jobs, create more revenues, and hopefully allow us to be able 
to build on these collaborative efforts.
    So, thank you for your time.
    Mr. Hastings. Will the gentleman yield to me?
    Mr. Huffman. Yes.
    Mr. Hastings. Chief Tidwell, you mentioned collaborative 
efforts. And I recall when I first got here there was a huge 
collaborative effort in Northern California called the Quincy 
Library. And the beauty of that, if I recall, was that it was 
locally driven. Both sides--and there were some huge 
differences locally, both sides--they came together and came up 
with an agreement that was undone by litigation by a national 
group.
    Now, I just make that point because I think what we have to 
have is some clarification in statute to make sure that 
agreements like the Quincy one respects the local response, 
which I think the Quincy library one was.
    I thank the gentleman for yielding. I recognize the 
gentleman from California, Mr. LaMalfa, who has Quincy in his 
district, as a matter of fact.
    Mr. LaMalfa. Yes, sir. Thank you, Mr. Chairman. Thank you 
for recognizing that, as well. I would associate with some of 
the comments made by Mr. Southerland here. You are in a tough 
position here, Mr. Tidwell, but I do appreciate your being here 
and trying to help us work through this process here.
    We did have a good visit recently with some of your 
personnel in the Quincy area, and so we are working on that as 
a new Member here, to have this outreach and see what can we 
accomplish as conditions aren't likely to change a whole lot 
with politics and all that very soon. We need to be successful.
    But I can certainly echo some of the great amount of 
frustration, not just as members on this panel here, but from 
our constituents, as well. So when you speak of a balanced 
approach--and I would really hearken back to one of the worst 
fire seasons we had in California, North California, back in 
2008, where a big source of it was in Trinity County, for 
example, here, an area I had the opportunity to represent for a 
couple years in our State Senate and was in its congressional 
district until it shifted to my colleague from the other side 
of the aisle, and California has that now.
    But those folks were pleading for help, for long-term fire 
suppression. The Town of Weaverville, for example, practically 
burned in an area of, say, you know, 12 years ago, and then 
just a few years later, because nothing had been done with 
those public lands there to take care of the salvage and the 
brush and all that other waste that comes after a fire. It 
comes back through and burns again in 7 years. You can fly over 
the checkerboard of public versus private land, or even, in 
some cases, land that is managed by California, and see a 
dramatic difference post-fire, say 5 to 7 years of basically 
the private property has been recovered, it has been salvaged, 
it has been planted back. It is starting to look pretty good 
again, versus our Federal lands, which are still basically the 
same mess they were right after that previous fire, due to many 
reasons.
    I wonder. Why aren't we having a much more concerted effort 
to put aside the nonsense and only have an opportunity to do 
salvage, do it within that first 6 months or that first year, 
where there is still value out there, and the people in the 
private sector can come in and help make that a better 
situation, instead of the next tinderbox whenever--in just a 
few short years it may happen again.
    So, again, there is no balance out there. The people--this 
is 2008. I was a Sacramento legislator at the time. And the air 
that summer was brown all summer long, even 150 miles away from 
the Trinity County fire. I could point to my colleague. See all 
that? That is the poor forest management going on up in my 
neighborhood there, as well as the people that live there, the 
air quality. Their kids couldn't go outside even in my 
neighborhood, which is about 100 miles away, to play and do 
things in the summer air, like you normally would.
    And when it is 10 times the impact in Trinity County, I 
mean it is just flat unhealthy for all the different types of 
people there, lower-income folks, Tribes, everybody there that 
doesn't have a lot of options to move away because the Federal 
Government is not doing its job.
    And it is not going to come from an endless amount of money 
in the treasury to try and fix this. The Federal Government 
doesn't have the money to be out managing land. It needs to get 
the private sector as a partner to go out and help do this 
under carefully prescribed timber harvest plan measures, 
which--in California we have a timber harvest plan. I don't 
think they actually read it, I think they just weigh it 
compared to other surrounding States. But we have managed to 
move legislation on that. Again I thank my colleague on helping 
move that through our State committee. And I think it was on my 
birthday, I think, even we did one of those.
    But we have to do much better with getting the private 
sector, getting the local people, and having the true balance 
of the people that have to live and deal with this, rather than 
somebody thousands of miles away that thinks it is ideal 
somehow to be advocating for buying more land that can't be 
managed when we have so much that isn't managed now. It is 
really the height of insanity that people out here have to live 
with their poor communities, and the risk of their town burning 
down, and certainly of the health risk.
    So, I guess that is more of a statement, too. But we do 
want to work with the locals there, and we are going to have 
that positive dialogue. But we have got to have some real 
things come from the top down on doing much, much better, 
getting more sales out there to the private sector that can 
make this happen. We want timber products, we use wood products 
in California. Why should they not come from California or from 
their area of origin, instead of imported from out of the 
country?
    So, this is what we need big help on. And I will be patient 
for a while, but I might start getting a little more fired up 
like some of my colleagues here, because it is affecting my 
people and, really, all Americans. Thank you.
    Mr. Hastings. The time of the gentleman----
    Mr. LaMalfa. I yield back.
    Mr. Hastings. The time of the gentleman has expired. I 
recognize the gentleman from Montana, Mr. Daines.
    Mr. Daines. Thank you, Mr. Chairman. And thank you, Chief 
Tidwell, for coming here today.
    I just spent 3,000 miles traveling around the State of 
Montana, and I represent the second largest congressional 
district in America, behind Don Young's Alaska.
    We used to have 30 saw mills in our State; we are down to 
8. I am a fifth-generation Montanan. I grew up in the 1970s and 
1980s when we had the beetle kill there. And then I saw our 
timber harvests on Federal lands drop 90 percent since those 
times back in the 1970s and 1980s. There aren't too many saw 
mills left in my State to visit. But I went and visited most of 
them over the last 2 weeks, traveling around the State.
    Seventy percent of the harvestable timber that we have, 
looking forward, is on Federal lands in Montana. In fact, I was 
up--to Congressman Southerland's comments, I was with a family 
in Northwest Montana, as we are staring at these forests that 
are burning in the summer time. High unemployment rates, 
poverty levels, the testimony from the two gentlemen from 
Oregon was--I could have inserted the word ``Montana.'' I mean 
that is our story right now in our State. This young couple 
looked at me and they said, ``Steve, we have poverty with a 
view,'' as they stare at our timber that they can't harvest.
    My son plays high school football. In all my years growing 
up in Montana we canceled high school football games on Friday 
night lights because of air quality as we watched the forest 
burn.
    I am encouraged with your statement that you think there is 
hope in terms of some efforts to address what has been going 
on, and maybe in your 35 years of experience. But we are 
running out of logs. Last Friday I was at a saw mill. The only 
logs they had left they were cutting at this mill were burned 
logs from a forest fire last summer in Pine Creek that they got 
off of private land. They could hire 200 people tomorrow if 
they had the timber.
    I grew up in the home construction business. My dad is 
calling me up--he is still building at 74 years old--saying, 
``Steve, lumber prices are at an 8-year high. What is going 
on?''
    An elk hunter showed me a picture--I saw it in one of the 
mills--that had a--you see the section line running through the 
forest in Montana--it was from last year--of a dead and dying 
forest on Federal lands, red from the beetle kill, and then a 
managed forest that was just on the other side on some State 
land that was healthy and vibrant.
    So, as that as background, what are some of the biggest 
barriers--I mean the biggest barrier to the United States 
Forest Service to more actively manage our forests in the 
timber communities?
    Mr. Tidwell. Well, Congressman, first of all, I spent 
several years in the northern region, lived in Missoula. And 
you know, I have been to all those mills myself. And I will 
tell you. The folks there in Montana have been doing a great 
job to be able to move forward under these restoration 
principles, and we were making some very good progress up 
there. And then we did have a situation where we had a lawsuit 
that we lost, and had to go back and rework some of our 
projects there, and we are going to be able to move forward 
with those.
    I think the biggest barrier is--once again, is being able 
to continue this focus of bringing people together. And I know 
that we got a challenge in your State, and we are committed to 
be able to address that and continue to move forward. But we 
also have leaders in Montana, the folks that have stepped up to 
be able to show a better way.
    I think of the Blackfoot Challenge that you probably have 
heard about, about a group of folks that have come together to 
be able to show there is a way to be able to move forward and 
be able to manage timber, be able to graze livestock, and at 
the same time take care of grizzly bear, bull trout, whatever 
else. That is the thing we need to continue to work on.
    The thing that--and I appreciate your comment about the--it 
is encouraging to hear the price of lumber is going up. But we 
haven't seen that yet ourselves, and that is OK, because we do 
everything we can to be able to get the work done. And if that 
means keeping our stumpage values as low as possible, we are 
going to do that to be able to move forward with it. But those 
increased markets will help.
    Mr. Daines. Thank you. And I am running out of time. And 
can I just follow up with a question on that? And I think you 
were circling one of the issues that I think is very important, 
and that is litigation from extreme environmental groups that 
are shutting down timber harvests. And I saw it firsthand with 
a rule that came down from a judge, they had these small 
extreme groups that have three or four people that hire an 
attorney, and they are shutting down the harvest. Ninety 
percent of the timber sales scheduled in Fiscal Year 2012 east 
of the Continental Divide are in litigation.
    Mr. Tidwell. Well, we did have an adverse ruling up there 
in Montana on a timber sale where--but once again, the majority 
of our projects go forward. The majority of our decisions. 
There are very few lawsuits, with an understanding that when we 
do get an adverse ruling it often affects more than just that 
one project. And that, because of what the judge rules, we then 
have to address those issues and the next environmental impact 
statement. So there are additional impacts that go beyond just 
that one litigation.
    The other thing I wanted to point out----
    Mr. Hastings. The time of the gentleman has expired. We 
have a number of Members. Maybe the same question will be 
asked, Chief. I appreciate that.
    Mr. Labrador from Idaho.
    Mr. Labrador. Welcome, Mr. Tidwell. I know that, as an 
Idahoan, you do care about the forest. But I share the 
frustration that many of the members of this Committee--and, 
actually, it looks to be on a bipartisan basis--I share the 
same frustration everybody has here.
    You keep talking about how the Forest Service, and you in 
particular, are doing everything you can to help rural America, 
and ``We want to help.'' But it sounds to me like you want to 
help in a different way than rural America needs your help. You 
want to send us money. We don't need your money. We need you to 
get out of the way so we can make our own money. And I think 
that is what maybe you don't seem to understand, and the people 
in this Administration don't seem to understand. We don't need 
government dependence.
    See, when I talk to the county commissioners and the 
residents of these communities, they are sick and tired of 
waiting for that check to come to their communities, because 
they know that if they could manage these lands, if they could 
take care of these lands, they could actually make the money 
that would make the money that is coming from the Federal 
Government unnecessary.
    So, as an Idahoan, and as a proud Idahoan that I understand 
you are, can you understand why the people of Idaho are 
frustrated that we stay--they seem to think that the Federal 
Government is just wanting to give a hand out to them, instead 
of the Federal Government getting out of the way so they can 
actually make their own future and their own destinies? Can you 
address that a little bit?
    Mr. Tidwell. Well, Congressman, right in your district 
there with the Clearwater Collaborative is an example of the 
difference that we are making by allowing people to come 
together, including our county commissioners there that have 
helped provide leadership on that collaborative that is making 
a difference. There is more work, more restoration, there is 
more saw timber that has been coming off of that forest over 
the last couple years because of that.
    We understand we need to get more work done. I understand 
the benefits, the jobs. By supporting reauthorization of Secure 
Rural Schools, I believe it does provide a bridge in this time, 
especially with where the market is right now.
    Mr. Labrador. But SRS was supposed to be a temporary 
program. And now we are trying to make it a permanent program, 
and that is what this Administration and, frankly, other 
Administrations have done in the past.
    And I am glad you brought up the Collaborative, because I 
want to remind this Committee that we had a hearing several 
weeks ago on forest management. And we talked about my trust 
proposal and we also talked about the collaborative process. 
And I support the Clearwater Collaborative process. But in a 
question that I asked to the Nez Perce tribal chairman, Silas 
Whitman, I asked him what the collaborative process had 
actually done for Idaho. And he indicated that we had not yet 
seen any appreciable revenue result from the collaborative 
process. You keep touting it, but we haven't seen any 
appreciable result. And this is not me speaking, this is not 
even somebody who agrees with me on my policy. He disagreed 
with my proposal. But he said that he had not seen any 
appreciable revenue sources.
    How can you present, continue to present the collaborative 
process as the answer, when they are not really helping people 
on the ground yet? There are no jobs being created because of 
the collaborative process.
    I want to continue with the collaborative model, but 
clearly we need more. In Idaho--and I know the answer is pretty 
close to zero, how much we have received. And the national 
forest system, how much revenue is generated? How much revenue 
in the national forest system is actually generated from the 
collaborative process?
    Mr. Tidwell. I don't have the numbers from each of those 
efforts. I can produce----
    Mr. Labrador. Well, you keep touting it here as the answer.
    Mr. Tidwell. Well, I can tell you about, overall, on the 
national forest, there is about $800 million that is generated. 
A lot of that comes from mineral royalties.
    But I want to stress that our focus of our management is to 
be able to care for the national forests and manage it in a way 
that the public wants these lands cared for under multiple use. 
If we had the direction----
    Mr. Labrador. With all due respect, you keep saying that 
the public wants this. When you talk to the public on the 
ground, what public are you talking to? Are you talking to 
Washington, D.C.? Are you talking to the people of Idaho, to 
the people of Montana, to the people of California? Because 
when you talk to the people on the ground, they want to manage 
their lands, and they want to control their destiny.
    Mr. Tidwell. And that is why I think you are seeing the 
success out of the Collaborative that for years--for years, we 
were getting hardly anything done on those forests. Once we 
were able to bring that group of people together, the local 
people together they have been able to reach agreement about 
the type of work that has to be done.
    I will get back with you about the shifts and the program 
outputs that have occurred since we have started that 
Collaborative, because it is my understanding, especially after 
being up in that region and being in those communities, that 
there has been an increase. But if that is not the case, I 
definitely will get back to you on that.
    Mr. Labrador. Thank you very much.
    Mr. Hastings. The time of the gentleman has expired. The 
gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
holding this important hearing. And, Chief Tidwell, thank you 
for being here. You are getting a lot of questions, some hard 
questions, but we appreciate your answering and your being 
here.
    I represent Colorado Springs, and the Waldo Canyon fire was 
a horrific tragedy last year: 350 houses were destroyed, 2 
people died. And I would like to first ask you what lessons 
learned are there for the Forest Service that would help us, 
going forward, to either prevent a fire like that happening, or 
spreading so quickly after it does take effect?
    Mr. Tidwell. Well Congressman, I appreciate your engagement 
out there during the fire, and then also your continued 
interest on the restoration of that area.
    But the fire we had there is just indicative of the 
conditions that we have on the landscapes that--our fire 
seasons are 60 to 70 days longer than what they used to be, we 
have record temperatures every year, record low relative 
humidity. So what we are seeing is that when these fires get 
started, that if we do not suppress them during our initial 
attack, that they quickly become established and become very 
large fires. And then it is very difficult to suppress those 
fires.
    What we learned from there is another example of the need 
to be able to do the restoration, to do the thinning, 
especially around our communities, so that when a fire like 
that does burn into a community, it gives us a chance for our 
firefighters to be successful and be able to stop it.
    As you saw with that fire, that was the fire that was 
actually spotting out in front of itself a \1/4\ to \1/2\ 
mile--in some cases over a mile out in front of itself in 
establishing the fire. Those are the conditions that we have to 
deal with today. So it is essential that we do everything we 
can on the national forests adjacent to these communities, and 
then also on our private lands, to be able to work with the 
land owners so that they, too, are doing everything they can.
    And then the other thing we always learn is that when the 
sheriff gives the order for evacuations, we have to help our 
folks, our communities, understand they need to go. It is just 
so essential.
    So, those are some of the tough lessons that we continue to 
learn and want to apply in the future.
    Mr. Lamborn. OK, thank you. Now, that brings me to H.R. 
818, Scott Tipton's bill. And I see a lot of good in that bill. 
I know the Forest Service agrees with part of it. But what you 
don't agree with is maybe the most important part, and that is 
closer collaboration between Governors and local communities 
and the Forest Service.
    And apparently you object to that part of the bill, and I 
would just like to ask you why.
    Mr. Tidwell. Well, we are not going to be supportive of 
legislation that removes the authority vested in the Secretary 
of Agriculture for management of the national forests. I mean 
these are national lands.
    If there are things that we are not able to get 
accomplished, that is what I want to focus on, is to be able to 
move forward with that. I don't want to set up unrealistic 
timelines that are not going to be possible to be met.
    I also don't want to feed the controversy, the conflict, 
over natural resource management of these national forests. I 
have dealt with that my entire career. And once again, like I 
said earlier, this is the first time that I have really felt 
that there is a change in this country about the understanding 
of the type of work that needs to be done on our national 
forests. And that is what I want to continue to move forward 
with.
    So, those are some of the reasons that I want to work with 
the Congressmen on all these bills, to be able to move forward 
with what I think are some key concepts, and take advantage of 
this opportunity that I believe that, once and for all, we can 
reframe the debate around the management of our national 
forests, and do it in a way that will not only produce more 
jobs, more revenues, but it will improve the conditions of 
these lands that so many of our communities depend on.
    Mr. Lamborn. Well, I have to agree with that part of what 
you are saying. But I was hoping that after the Hayman fire in 
the early 2000s in Colorado we had learned more about the need 
for mitigation and thinning. And yet I don't see enough steps 
being taken to accomplish that.
    Mr. Tidwell. Well, we did learn from those situations, and 
we have continued to treat millions of acres every year. The 
challenge that we have is that, as I have already mentioned, 
and been very clear, there is tens of millions of acres that we 
need to do some restoration on. And that is why we need to 
continue to be able to move forward with our accelerated 
restoration strategy that I think is proving to be able to 
demonstrate that we can get more work done.
    Mr. Lamborn. OK. Well, thank you for being here. I will 
continue to want to work with you as much as possible. I do 
hope that with H.R. 818 we can get more of an agreement on 
that, going forward. Thank you.
    Mr. Hastings. The time of the gentleman has expired. The 
Chair recognizes the gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. My friend, 
colleague, and neighbor from Northern California said that he 
was going to be patient with you. That is what I felt 4 years 
ago. And for 4 years I have been to this dance over and over 
and over again: smarmy assurances that you are very sympathetic 
of the situation, you are very cognizant of the economic damage 
that is being done, and you are going to do everything possible 
to alleviate that, and nothing happens. A year goes by, we hear 
the same testimony, and nothing happens. A year goes by, we 
hear the same testimony, and nothing happens.
    Three or 4 years ago I gave a speech on the House floor, 
just a 5-minute speech, reflecting what I had been hearing from 
my constituents. I was absolutely stunned that 24 hours after 
this obscure 5-minute speech on C-SPAN we got over 500 
unsolicited emails from around the country saying, ``Right on. 
And by the way, you ought to hear what they are doing to us in 
our neighborhood.''
    Your management of the Forest Service, I think, has been 
just appallingly negligent. A forester years ago told me, ``You 
know, all that excess timber is going to come out of the forest 
one way or the other. It will either be burned out or it will 
be carried out. But it will come out of the forest.'' When we 
carried that excess timber out, we had healthier forests and a 
thriving economy.
    Since we have seen this management philosophy that I can 
only describe as benign neglect, we have seen a devastated 
economy, and we have seen much more frequent and ferocious 
forest fires, not just because of the damage this policy has 
done, but because of other highly questionable judgment calls 
that the Forest Service has made.
    Congressman Lamborn mentioned the fires in his area. To 
that I would add the Reading fire that the Forest Service 
deliberately allowed to get completely out of control. The 
local fire authoritiy's absolutely appalled by the terrible 
judgment being administered under your jurisdiction.
    And this itself is part of a much bigger picture of neglect 
and negligence. We are watching road access close throughout 
the national forests, mining efforts obstructed, just efforts 
to open up old mines that can produce some new revenues for 
these communities. Cattle grazing being forced off the lands, 
inflated fees that are forcing the abandonment of family cabins 
that have been held for generations, charging exorbitant new 
fees or closing down long-established community events upon 
which many of our small and struggling mountain towns depend 
for tourism.
    I am out of patience. It seems to me that a good first step 
are the bills that are presented before us today. A far better 
step would be a fundamental change in the attitude of the 
Forest Service management from top to bottom and, failing that, 
a change of the personnel from top to bottom. That will 
obviously have to wait on a future election.
    But I cannot begin to emphasize the enormous economic 
damage that you have done to these communities. I cannot begin 
to over-emphasize the damage that you have done to our Nation 
by the policies that you have pursued.
    I appreciate all of your assurances, once again, that you 
are really trying very hard to change these policies. But after 
4 years, I don't see it.
    I yield back.
    Mr. Hastings. The gentleman yields back his time. I 
recognize the gentleman from Arizona, Mr. Gosar.
    Dr. Gosar. Thank you, Mr. Chairman. Chief Tidwell, I really 
want to tell you thank you so very, very much, because you have 
been one of the stewards all the way through, trying to help 
out, mitigate issues of a bureaucracy that is pandemic in its 
size. I just have to share that with you. You have been there 
the whole way, and I want to applaud that.
    A couple questions. Hopefully we can keep them short in our 
answers, so we can get to a number of them. I am a science guy, 
so I set standards and parameters. You know me. And we want to 
set the bar and see where we have to strive for.
    First of all, the authorization of the stewardship 
contracting tool in my legislation is critical to the future 
success of the 4FRI in Arizona, correct?
    Mr. Tidwell. Yes.
    Dr. Gosar. So the Department is going to need this to 
implement the later stage of that project. Is that not true?
    Mr. Tidwell. Yes.
    Dr. Gosar. OK. In your testimony the Department expressed 
concern about my language pertaining to cancellation cost of 
the stewardship contracts. Former Arizona Senator Jon Kyl had 
worked on this issue before he retired, and it is an issue I am 
hearing a lot about from the industry, the stakeholders, and 
even some of the Forest Service folks in the field. What can we 
work together on to fix this problem? And kindly keep it brief.
    Mr. Tidwell. Well, Congressman, I appreciate your interest 
in helping us with that issue, and it is one of the things we 
continue to work on.
    One of the things right now, we are required to be able to 
set aside the cost of a cancellation if that is needed. And 
like with the 10-year contract, we have to set up the full 10--
--
    Dr. Gosar. Yes.
    Mr. Tidwell. You understand this. So it is one of the 
things that we need to work on to be able to find the 
flexibility, so that this does not limit our ability to do the 
stewardship contracting.
    So, this is something--I would like to work with you on 
some ideas about how we can maybe move forward to address this 
issue.
    Dr. Gosar. Sounds good. I would also like to touch briefly 
on the alternative arrangements with the CEQ portion of my 
bill. We have previously discussed these types of alternative 
arrangements for a landscape-scale project like 4FRI, which was 
the motivation for this section.
    If the Secretary was given the authority to request a type 
of alternative arrangement at his discretion, rather than 
requiring it, do you think this would be helpful and be 
utilized?
    Mr. Tidwell. Well, we currently have the authority to 
request alternative arrangements. And in a couple of situations 
we have over the years. But what I have also found, that even 
when we do that and we are granted that, we still have to go 
out and do the necessary surveys out on the land, do the 
inventory before we go through with the project. And so, often 
it doesn't really accelerate it.
    I look at a situation that we had following Hurricane 
Katrina a few years ago. In that region, they moved forward and 
harvested an additional 300 million board feet, and did all 
that work in, I think, in less than 12 months without 1 appeal, 
1 piece of litigation, by using our current authorities. And 
that was a situation we looked at. Well, is there a need for 
these alternative arrangements?
    So, that is the thing that--with alternative arrangements, 
it is a good tool, and it is available for us under certain 
situations, but it still doesn't eliminate the things that we 
need to do to make sure that, as we move forward with the 
project, that it is a good project.
    Dr. Gosar. Well, I am going to pitch you, then, something 
that may help us. We have been working with Embry-Riddle and 
Prescott and the unmanned aerials. And we worked with infrared. 
And I will tell you, it is staggering. Doing aerial photography 
with an unmanned, you can actually, with infrared, tell if a 
tree is dying. And it starts building the trust.
    So, we can do vast amounts of acreage, decide on templates, 
we can actually have environmental groups sitting there and 
actually authorizing this. Some of the things that we have been 
talking about in the past, where we have a discussion where we 
need to thin maybe bigger timber, but have to have the sign-off 
from all the parties. Here is something in real-time that can 
happen that speeds up the delivery, it actually works, it is 
scientifically based. And I would hope it would be something 
you would work with us on and even come out to visit. It is 
staggering.
    Students actually did this. They did a command center. It 
is pennies on the dollar from what we have done in the past. So 
the opportunity is there. But we need to speed this up. So I 
would hope that we could get that done.
    The second part is--and you know the urgency. I mean I want 
to reiterate real carefully the story of Springerville, 
Arizona. When I came to Arizona 28 years ago, it was a vibrant 
community. There were cattlemen, there were forests. I mean you 
cannot tell me in the environmental community we did not take 
care of that land. I mean it was vibrant. Today, a little over 
a year-and-a-half after the largest forest fire in Arizona 
history, we had yet to salvage one log, not one log here. It 
has got to work. Something has got to change.
    And you see the frustration here. And I know you are the 
messenger. And I've got to tell you, everything that you did 
over the last 2 years, I want to compliment you, because you 
have done the lion's share. The problem is the pandemic of the 
endemic problem of the bureaucracy in between. So I would hope 
that you would listen, start utilizing some of this authority 
if you have it, because this forest fire season is going to be 
an emergency situation.
    And you know what? Last, but not least, I said it in my 
statements. Who won here? When you look at 20 percent of the 
endangered Spotted Owl's habitat being lost in Arizona alone in 
the world, who won?
    And when we look at the schools, it is about time--I am 
tired of it. I am tired of the Federal Government paying us 
off. I want to sue saying, ``You know what? I get less than 
one-half of the money for schools west of the Mississippi than 
those in the East.'' I want to stand up for the schools and the 
proper management of our forests.
    Mr. Hastings. The time of the----
    Dr. Gosar. Thank you.
    Mr. Hastings. The time of the gentleman has expired. The 
gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Well, thank you, Mr. Chairman. I appreciate 
the opportunity to sit in on this important hearing. Chief, it 
is good to see you. I enjoyed our relationship working 
together. I certainly respect your leadership. Also thoroughly 
respect, though, the issues and difficulties that you have. So 
I have some specific questions I just want to get to.
    One is you talked a lot about public input, and about how 
that is driven. I have some concerns with the process. Maybe 
you could help alleviate my concerns in terms of definition of 
``public.'' My experience with the Allegheny National Forest, 
we have folks who are ``part of the public input'' that live 
from hundreds to thousands of miles away from the Allegheny 
National Forest, and all they want to do is to shut it down.
    And so, my question for you is pretty straight-forward. Do 
you prioritize public feedback to honor the original agreements 
when this land was taken out of the private sector and put into 
the public sector as national forest, in the input? Is the 
input of directly impacted local communities more heavily 
weighted in the public input process?
    Mr. Tidwell. Congressman, there is no weighting going on. 
We don't prioritize----
    Mr. Thompson. OK, good. Then why not? Because my 
predecessors 87 years ago, 88 years ago, the Allegheny National 
Forest--and I know it is puny compared to some of the ones you 
have worked at, 517,000 acres compared to out West--but when 
they sat at the table and there was a public trust of 
confidence that the Members of Congress then, the local folks 
working with--that the local communities would always be 
vibrant and healthy, just as our forests will. Why do we not 
more heavily weight?
    Because what we are talking about here are the negative 
consequences and impacts on these communities. And that is a 
part of the original agreement. Why not? And how can we help 
you with that?
    Mr. Tidwell. Well, Congressman, these are national forests, 
and everyone has----
    Mr. Thompson. But those were taken out of local 
communities. And there was a trust and a document and a 
confidence with those local communities. OK.
    Mr. Tidwell. Well, I would like to stress, though, that 
especially through these collaborative--I mean we get comments 
from people throughout the country. But the comments that we 
get from folks that are local, understand the situations, it is 
usually a much more informed comment that actually helps us to 
be able to move forward, versus a comment from somebody that 
has never been to your forest.
    So there is no priority setting, but it is more about what 
is the comment that is actually----
    Mr. Thompson. OK. Well, and let me move on to my next 
question, but just saying that there needs to be a weighting of 
priorities. That is a responsibility and a promise that we need 
to fulfill.
    I have to tell you, in my opinion, working in the Fifth 
District, when it comes to public input, it is the radical 
environmentalists who are nowhere close to living in the Fifth 
District that lawyer up. It seems like at least they have more 
influence in the process than the local folks.
    Now, you noted that funding was a problem. And I understand 
that. But then I am just baffled at this President's budget, 
which is not just a 10 percent increase in land acquisition, it 
is a 12 percent increase to the legacy fund, where we are 
looking at a 15 percent in timber harvesting.
    So my question is just pretty simple. Who had influence in 
that decision, and who made that decision?
    Mr. Tidwell. We submit our request, our budget, and it goes 
into the Office of Management and Budget.
    Mr. Thompson. So was that the request that you specifically 
made to the----
    Mr. Tidwell. I support the----
    Mr. Thompson [continuing]. To the President?
    Mr. Tidwell [continuing]. President's request.
    Mr. Thompson. I know you support it, but you just said that 
you submit--and I appreciate that, because with your experience 
they should be listening to you. I don't think they are. But I 
have a lot of respect for you, Chief, starting as a fire 
fighter, you understand this. You lived in many of these 
communities. Who influenced that? Was it you? Was that a 
specific input and recommendation that you made to the 
President's budget?
    Mr. Tidwell. I support the LWCF, by acquiring those lands 
we can reduce our administrative costs.
    And I wanted to point out that it is a $5 million increase. 
At the same time, with our integrated resource restoration, we 
had a much larger increase in our request in that fund to be 
able to get more work done. So, I think we need to keep this in 
balance.
    Mr. Thompson. Well, Chief, I didn't manage forests for 30 
years, but I did manage rehab and hospitals. And every time I 
added an apartment it added overhead costs that were new costs 
that were incurred. And when you are adding new land, it makes 
it a challenge.
    And I know I don't have time for my third question, but it 
really had to do with do we have the capacity--I am going to 
ask, anyway--do you have the capacity to be able to manage 
these forests in a healthy way? You talked about 12 million 
acres, so one simple question. The 12 million acres you are 
going to be able to do. And in your own words, you don't think 
you will have the resources, the ability to really address 
that.
    How much acreage, total, does the U.S. Forest Service 
manage?
    Mr. Tidwell. Well, we manage 193 million acres in total. 
And each year we have been doing close to 4 million acres of 
restoration work. A lot of that is through the use of fire, but 
also with mechanical treatment.
    The key for us to be able to do more work is to continue to 
find more efficiencies that we have been able to put in place 
over the last few years, and at the same time to be able to 
make this more economical.
    The other thing that we have been working on is our green 
building initiative. I mean in this country there is an 
opportunity to be building commercial buildings that go way 
beyond four stories with wood.
    Mr. Thompson. Yes, U.S. Forest Labs are doing a great job 
with that.
    Mr. Tidwell. We have.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Hastings. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Florida, Mr. Garcia.
    Mr. Garcia. I will pass, Mr. Chairman.
    Mr. Hastings. We have two other Members. This issue 
obviously has very, very broad interests, and we have two other 
of our colleagues that are not members of this Committee that 
have been waiting patiently, and I am going to allow them an 
opportunity to participate. And the first one will be my 
colleague from the State of Washington, Mrs. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. And I will be 
brief, because I have a couple points to make. And I am--
actually, I sit on the Interior Appropriations Committee, which 
is where we have met and will continue to meet. But this is of 
extreme interest to me.
    Just over a year ago, the Forest Service released a report 
entitled, ``Increasing the Pace of Restoration and Job Creation 
in our National Forests,'' in which the Agency committed to 
increasing timber sales to 3 billion board feet. The 
President's budget proposal, which you support and have called 
``balanced'' now several times, reduces that number to 2.38 
billion board feet. Isn't this a step backward? And is this 
your idea of balance?
    Mr. Tidwell. The projection in the timber harvest there is 
based on the level of funding. Just like--and last year we 
didn't have the level of funding to accomplish what we did.
    Ms. Herrera Beutler. I am going to stop you on that one, 
because we have had this conversation in Appropriations, where 
you have asked for more funding for fire suppression, which I 
support. I am with you on that. You are fighting enormous 
fires.
    But doesn't this beg the question that if--one of the 
things about the Forest Service that is unique, and over the 
past 20, 25 years, the Forest Service has supplemented its own 
budget through timber sales, timber harvest. I guess I would 
say that one of the areas, if you are talking about budget 
constraints, harvesting board feet is one of the ways that you 
bring money into the Forest Service. So why would this be the 
area you cut back, especially when you have used that number in 
this hearing? As other Members have brought this up to you, you 
keep saying ``3 billion, 3 billion, 3 billion,'' when you know 
yesterday the President cut that number down.
    Mr. Tidwell. Those are based on our projections, based on 
the current cost for us to put up a timber sale. But based on 
what we have been able to do in the past, and as we move 
forward with implementing more efficiencies, I am optimistic 
that we will be able to exceed that.
    The other thing that is factored into that is what happened 
this year. We had a significant reduction in the funding that 
was available for this year. The planning for next year's 
timber sales are done this year. So there is going to be an 
impact in 2014, based on this year's budget. So that also 
factors that in.
    That being said, we are committed to be able to continue to 
move forward. But with a reduction, for instance, a reduction 
in the funds for this year, there is an impact to that. Next 
year I request--and 2014 is actually an increase----
    Ms. Herrera Beutler. Well, I am aware of your budget 
request.
    Mr. Tidwell [continuing]. In our integrated resource 
restoration.
    Ms. Herrera Beutler. You make those requests, and I believe 
you will probably be coming back before the Appropriations 
Committee to make those requests, and I will bring this point 
up again then. When you harvest more timber, it is not just a 
benefit to your budget, it is a benefit to the communities, as 
we have heard here. But it is also a benefit to the 
environment. That is the one thing that has been completely 
absent in this conversation.
    I don't know how often you have been out to Washington 
State to the Gifford Pinchot National Forest. But the Northern 
Spotted Owl, for which we created a lot of these rules and 
regulations, is actually declining under your current forest 
policy. Three percent per year. And rather than going and 
saying, ``Why, is there something scientifically we should do 
to restore this ecosystem,'' we are doubling down on this 
horrible forest policy.
    So, I guess I would also like to ask you--and this is very 
important to me--would you be willing to come out and tour some 
pieces of the Gifford Pinchot in my district?
    Mr. Tidwell. Yes, I would like to do that.
    Ms. Herrera Beutler. Great. We will take you up on that.
    And one final thing. I think it is really important. You 
made the comment in response to a couple folks, you said, ``If 
there are things not being accomplished, I want to focus on 
that.'' You said, ``I don't want to feed the conflict.'' I 
would strongly urge you to look at these pieces of legislation 
and recognize us--the Members on both sides of the aisle are 
tired of waiting. And it is not just your Administration, we 
have had problems under every Administration. But you look over 
the last 15, 20 years, we can't wait any more.
    So, we have put these ideas on the table in good faith, and 
we are going to move forward with them. I would actually urge 
you, rather than sit down and say, ``the Administration 
blanketly opposes these three pieces of legislation,'' I would 
like you to find those things that you support within them and 
sit down and say that first. And then perhaps as this 
legislative process moves forward, we can find a place to work 
together.
    Because I, like everyone here, have rural communities that 
are dying on the vine. And they are dying as they are watching 
their resources die with them. And it is horrible. It is 
something this generation of policy-makers, Congress, or the 
agencies, we are going to carry that burden. And I hope it 
keeps us up until we fix it.
    So, with that, I yield back. Thank you.
    Mr. Hastings. I thank the gentlelady for her questions and 
her input on this. I recognize the gentleman from Virginia, Mr. 
Griffith.
    Mr. Griffin. Thank you, Mr. Chairman. I appreciate it. This 
has been very educational for me to sit in on this Committee, 
and I do appreciate it. And I know you have to be getting 
tired. It has been a long morning.
    That being said, I do have some concerns a little bit 
different than some of the others. I learned a lot about the 
West today. I have concerns because I represent Southwest 
Virginia and the Allegheny Highlands of that area. I represent 
22 counties. I have 17 counties: Allegheny, Bland, Carroll, 
Craig, Dickenson, Giles, Grayson, Lee, Montgomery, Pulaski, 
Roanoke, Scott, Smyth, Tazewell, Washington, Wise, and Wythe, 
that all have national forest lands in them and who are now 
being requested to have money taken back from the SRS program.
    And while we are not looking for a hand-out, I do think 
there was a deal made. And I don't know about the western 
lands, but certainly the eastern lands, there was a deal made 
that they would share in the benefits of preserving our forest, 
and that means that they have to have the ability to have some 
reasonable timbering.
    When I hear of industries in the area that say they can 
find the wood products they need but they are going further and 
further out, and that raises the cost of their product, which 
then makes their product less competitive, not only in the 
national market, but in the international market that raises 
concerns for me.
    I am also concerned about the schools in the area, because 
some of my counties are very small in population. They might 
have a lot of trees, but they don't have a lot of people. And 
as a result of that, when you all ask, as a part of the cut-
backs that every agency is having to look at, that you take 
that money out of the schools of a rural county with 4,000 
people, that is a serious blow. And one of the letters that I 
have signed on to has requested that you all give us some legal 
authority for that. I hope you will respond to that at another 
time.
    But I do hope you recognize these are not just western 
issues. A lot of these issues are also in the east. And it is 
difficult. When you hear folks say--because my district also 
has a section of it that has had its industry based on mining 
of coal--and then you hear folks say, ``Well, you have to 
transition to something else,'' well, we can't use our forests 
and we can't use our minerals, what are we going to transition 
to? And, as a result of those kinds of attitudes--and it is 
mostly coal; I don't want to say it is the Forest Service--but 
Dickenson County that I mentioned before, over the last 30 
years, their school-age population has dropped by two-thirds. 
We are depopulating in eight of my counties. This is not a good 
thing. Our communities are suffering, and you all can help.
    And then I would say that, in listening, I heard you say--
and I appreciate the comments of folks that I respect to say 
that you are trying to solve the problems, and I do appreciate 
that. But I also heard you say that you all were trying, and 
that you were working with the communities and so forth. But a 
lot of my folks, while they have some good people that they are 
working with, there are a lot of roads being closed down that 
they are used to hunting.
    Remember I said there was this deal that was made 
initially? Well, it may not be true for most of the country, 
but my people remember, because their granddaddy took their 
daddy who took them hunting on the lands that they now can't 
get to because they are closing down roads.
    Now, my folks aren't saying, ``Look, we don't recognize you 
all have a money problem.'' But one of the things you may want 
to look at is the fact that I have had people who have told me 
they will be glad to go out and grade the road if you don't' 
think it is graded right, or if you all don't think it is 
proper. And I know you have some liability issues. They would 
sign waivers. These are good, old-fashioned eastern mountain 
people. They will get the job done. You give them the ability 
to do it, they will go out there and make sure that road is 
open for hunting, I guarantee it. So see if you can work on a 
program for that to help us, as well.
    And then I would have to say to you I am very, very 
concerned that these communities that need the money from--
whether it is from the current program or the historic program 
doesn't matter. But if we are going to have a county that is 
maybe 50 or 60 percent national forest lands, we can't just say 
``Hey, we are taking that money back that we gave you already 
and we are not going to help you support your schools.''
    So I hope you will keep all that in mind as you go forward. 
And I appreciate the fact the Committee Chairman let me be here 
today, and I yield back.
    Mr. Hastings. I thank the gentleman for participating, and 
I thank him for his questions.
    Chief Tidwell, maybe you didn't anticipate that you would 
be here for an hour-and-a-half, but as you can see, there is a 
great deal of interest in the subject at hand. And there is a 
great deal of concern about how the Federal Government has 
managed our national forests. That came out in spades.
    And as I made an observation in my remarks, and other 
Members made an observation in their remarks, particularly 
those that were sponsors of the bill, the time for talk has 
ended, the time for action is now.
    And to pick up on what Ms. Herrera Beutler said, it would 
be more advantageous and more beneficial to Americans that live 
in these counties if we work together, rather than, obviously, 
saying, ``We don't like this or that,'' stake in the ground, 
that is it.
    So, I hope that you would take that into consideration, 
because we are going to move forward with legislation, and we 
obviously want to do it with as much input as we possibly can, 
because I, too, believe the time for action is here.
    So, with that, Chief Tidwell, thank you for coming, and you 
are excused from the panel. And while Chief Tidwell is leaving, 
I will like to ask the next panel to come forward: Ray 
Campbell, who is a commissioner in Okanogan County, Justin Wood 
from the National Association of Home Builders, Scott Horngren 
from the American Forest Resource Council, and Judy Morris from 
Trinity County in California.
    I want to, by way of introduction, introduce a colleague, a 
constituent of mine, Commissioner Ray Campbell from Okanogan 
County in Washington. A newly elected commissioner, he was 
elected last November, but he is a long-time resident of the 
Methow Valley part of Okanogan County, I know a lot of people 
don't know where Okanogan County is, but it is the largest 
county in Washington, and it is a very diverse county. So I 
very much appreciate your being here.
    For purposes of introduction, I want to yield to my 
colleague from Washington, Mrs. Herrera Beutler, for the 
purpose of introduction.
    Ms. Herrera Beutler. Thank you, Mr. Chairman, and I am 
really pleased to be joined by someone from my home area. It is 
my pleasure to introduce Justin Wood. Justin and his father-in-
law run a small home-building business in my neck of the woods, 
just outside of Vancouver. And it is in the shadow of the 
Gifford Pinchot National Forest in Southwest Washington, which 
is where Chief Forester Tidwell just said he is going to come 
out and tour. I am pretty excited.
    Justin has been building homes for more than 13 years, and 
through the tough times, which tells you they know what they 
are doing. A lot of the folks who kind of popped up in that 
time who we lost, Justin's family and his business was not one 
of those. So he knows the industry, and is very familiar with 
the challenges that are faced within the industry, and is the 
Vice President of Fish Construction, and a national director of 
the National Association of Homebuilders. He knows, as well as 
anybody, the importance of our forests in the everyday life of 
millions of Americans. I expect he will speak to us today a 
little bit about housing and the important role it plays in our 
recovery, and the need for access to these resources that we 
have at our fingertips.
    So, Mr. Wood, welcome, and thank you for making the long 
trip across the country. I look forward to hearing your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Hastings. I thank the gentlelady, and I want to 
recognize the gentleman from California, Mr. Huffman, who also 
has a constituent that he would like to introduce. Mr. Huffman, 
you are recognized.
    Mr. Huffman. Thank you. I want to thank you, Mr. Chair, and 
the Ranking Member, for including a witness from Trinity 
County, and for the courtesy of extending to me the opportunity 
to introduce her.
    Supervisor Judy Morris is with us today from Weaverville in 
Trinity County. And there is no easy way to get here from 
Trinity County. So I am especially grateful that she drove many 
hours to get to an airport and then flew to various places 
around our country, and eventually to Washington on very short 
notice to join this panel.
    She has represented District 2 on the Trinity County Board 
of Supervisors since 2009. The Board of Supervisors is 
important in Trinity County because they have no other local 
government. They have no incorporated cities. So the county 
supervisors really have a lot of important work to do.
    Trinity is a rural, forested county that is mostly 
comprised of Federally managed forests. Seventy-six percent of 
the land is Federal, which means they rely on the relationship 
with State and Federal land and resource management agencies in 
very important ways.
    She is also a small businesswoman, as well as a public 
servant, so she understands that stewardship of our natural 
resources is critical for local communities. And, as she will 
tell you, the future of Trinity County and places like it 
depends on our responsible and sustainable management of these 
lands. At a time when I think we hear too much pitting of the 
environment versus the economy, Supervisor Morris is going to 
talk about collaboration and about a success story, which I 
believe can be a model to guide our deliberations on these 
issues.
    Weaverville is home to the Weaverville Community Forest, a 
13,000-acre territory managed by the U.S. Forest Service and 
BLM for which Supervisor Morris herself has really been a 
champion. The Community Forest is showing how the responsible 
use of our natural resources can be good for the environment, 
the economy, and local communities.
    Thank you, Mr. Chair.
    Mr. Hastings. I thank the gentleman. And, Mr. Horngren, I 
feel very badly nobody is making an introduction of you in such 
a way. But rest assured the quality of your testimony will not 
be diminished by a lack of special----
    Mr. Horngren. I appreciate that, Mr. Chairman.
    Mr. Hastings. For those of you that are here for the first 
time, first of all, your full statement will be made part of 
the record. I would ask that you keep your oral remarks within 
the 5 minutes, and you have the timing lights in front of you, 
5 minutes. The first 4 minutes is the green light, and you are 
doing very well. When the yellow light comes on, it means that 
you have 1 minute left, and try to wrap up as much as you can. 
Or, as my colleague, Mr. Bishop says, get through the red 
light--or the traffic light as quickly as you can before the 
red light comes on.
    So, that is kind of the ground rules. And with that, Mr. 
Campbell, I recognize you for 5 minutes.

       STATEMENT OF THE HON. RAY CAMPBELL, COMMISSIONER, 
                  OKANOGAN COUNTY, WASHINGTON

    Mr. Campbell. Thank you, Chairman Hastings and members of 
the Committee.
    Mr. Hastings. Move the microphone closer to you.
    Mr. Campbell. My name is Ray Campbell. I am County 
Commissioner from Okanogan County, Washington, part of the 
Okanogan-Wenatchee National Forest. Our county alone has 1.9 
million acres of U.S. forest land. I am grateful for this 
opportunity to share my views on behalf of the national forest 
counties.
    Each of the bills before the Committee today are 
significant for my county in Washington State. They 
fundamentally address the failures of the U.S. Forest Service 
to actively manage our national forests, and they offer real 
hope to our historic timber-based communities for the first 
time in a generation.
    The Hastings draft, upon which I will focus, specifically 
proposes to put in place an emphasis on healthy forest 
management by requiring the timber to be cut in a time certain 
within identified areas of each national forest, where 
sustained growth is the most prolific. If enacted, the Hastings 
Active Management Forest bill will ensure continuation of our 
Secure Rural Schools payments until the new reforms are fully 
implemented, and our rural communities once again receive 
access to economic opportunity.
    I grew up in Okanogan County in an era when the U.S. Forest 
Service was allowed to manage their national forests in a 
productive, economically, and environmentally sound manner at 
which time the revenues generated from the harvesting of their 
renewable natural resources fully paid for the management of 
the forests, along with providing the funding, as they were 
required to, to the States and on down to the counties, which 
helped in the survival of our local communities here.
    The harvesting provided a secure industry for our counties 
at that time, along with the solid, high-paying jobs there. The 
mill that is operating in our county right now is the only one 
there. It is in the upper end of Okanogan County. By the way, 
Okanogan County is the largest county in the State of 
Washington. We are a northern tier county, we border Canada. 
There are four northern tier counties east of the Cascade 
Mountains. We are all timber-producing counties, encumbered--
now I call it encumbered by national forests there.
    At one time we had seven saw mills in the State of 
Washington, excuse me, in Okanogan County, and several small 
operations, and a variety of logging companies harvesting 
timber for mills and other employment created by lumber 
distribution wholesale and resale business. It is safe to say 
that the past timber-related jobs in Okanogan County numbered 
into the thousands.
    I would like to ask members of the Committee to recognize 
that this proposed fundamental paradigm shift to restore the 
health in the economy of our national forests is modeled after 
a very successful State of Washington Department of Natural 
Resources management plan. The lands owned by the people of the 
United States still hold the potential of generating revenue 
far beyond their current levels, and are capable of reducing 
the tax burden of all of our citizens, if they are but managed 
properly. This draft bill will help bring that about. There is 
no issue more important to our country's public land counties 
than this one.
    In closing, I want to emphasize again the successful track 
record of the accomplishments achieved by the Washington State 
Department of Natural Resources, in contrast with the abysmal 
record of the Federal Government there. The DNR has 
administrated responsibility for over 2.1 million acres of 
trust land, and provides for a fiscally responsible continued 
yield program of sustainable tree harvest.
    In 2011, State trust lands yielded a harvest of 560 million 
board feet of timber, which generated $220 million in revenue. 
By contrast, national forest lands in Washington yielded 129 
million board feet, generating a revenue of only $638,000 on 
9.3 million acres. Incredibly, the State produces 500 percent 
more actual timber revenue on less than one-quarter of the land 
base held by the U.S. Forest Service.
    Thank you for this opportunity to support the community's 
effort on behalf of our national forest counties. Thank you.
    [The prepared statement of Mr. Campbell follows:]

       Statement of The Honorable Ray Campbell, Okanogan County 
               Commissioner, Okanogan County, Washington

    Good Morning, Chairman Hastings, Subcommittee Chairman Bishop, 
Ranking members Markey and Grijalva and members of the committee.
    My name is Ray Campbell. I am a County Commissioner from Okanogan 
County, Washington, home of the Okanogan-Wenatchee National Forest. Our 
county alone has 1.5 million acres of U.S. Forest Service land.
    I am grateful to Congressman Hastings for this opportunity to share 
my views on behalf of National Forest counties.
    Each of the bills before the Committee today are significant for my 
county and for Washington state because they fundamentally address the 
failures of the U.S. Forest Service to actively manage our National 
Forests, and offer real hope to our historic timber-based communities 
for the first time in a generation.
    The Hastings draft, upon which I will focus, specifically proposes 
to put in place an emphasis on healthy forest management by requiring 
timber to be cut in a time certain within identified areas of each 
National Forest where sustained timber growth is the most prolific. If 
enacted, the Hastings Active Forest management bill will assure 
continuation of our Secure Rural Schools payments until the new reforms 
are fully implemented and our rural communities once again receive 
access to economic opportunities.
    I would ask members of the Committee to recognize that this 
proposed fundamental paradigm shift to restore the health and economic 
vitality of our National Forests is modeled after the very successful 
state of Washington DNR approach to forest management.
    The lands owned by the people of the United States hold the 
potential of generating revenues far beyond their current levels and 
are capable of reducing the tax burdens of all of our citizens, if they 
are but managed properly which this draft bill will help bring about.
    There is NO issue more important to our countries' public lands 
counties than this one.
    Let me briefly, in the time allotted, express why along with a few 
recommendations:
        1)  The Status Quo is unacceptable; the current trend of 
        increased spending on fire suppression and less spending on 
        management needs to be reversed. 74% of USFS holdings are in 
        serious fire danger. We need to make the commitment to change 
        the management paradigm. If we actively manage the land, the 
        value of the resources will create the revenue to do the job. 
        This will also create revenue for the federal treasury, state & 
        local economies.
        2)  National Forests are too dense resulting in unhealthy 
        trees, which are susceptible to fire, insect infestation and 
        disease. This threatens communities, fish & wildlife habitat, 
        recreational opportunities, water quality and quantity & air 
        quality.
        3)  Healthy Forest management will result in our U.S. Forest 
        Service managed lands becoming a beneficial and integral part 
        of our rural economies.
        4)  Fire damaged landscapes need to be restored. Catastrophic 
        fires emit 40-100 metric tons of pollutants per acre. If left 
        to rot after the fire, emissions are 3 times that amount.
        5)  We can actively manage our forests or continue to leave 
        them alone. The last 20-30 years has demonstrated leaving them 
        alone is not working.
        6)  This conflict has been going on too long. We need to set 
        aside conflict and take this opportunity to restore the health 
        of our rural communities and national forests.
        7)  States, like Washington state, have fiduciary 
        responsibilities to their taxpayers to not only protect the 
        environmental values of state forests but through wise 
        stewardship to generate revenues for the benefit of the schools 
        of the state. It is time the federal government, likewise 
        managed the American taxpayer's land accordingly. I am not 
        saying we need to cut 14 billion board feet (bbft) nationally 
        as we did twenty plus years ago, but last year's 2 (bbft) is 
        woefully low. Surely, there is an achievable middle ground.
        8)  Americans, living in the rural timber counties of the 
        western states, have come to know that lands owned by the 
        federal government are capable of producing far more revenue to 
        reduce their tax burden from the timber resources on the land 
        than is currently the case. The fact that private and state 
        foresters can conduct timber sales at far less cost than the 
        U.S. Forest Service is no excuse for the professional bean 
        counters at Office of Management and Budget (OMB) or the 
        Congressional Budget office (CBO) to assume that 
        environmentally sound forest management cannot similarly be 
        efficiently accomplished on National Forests. We may simply 
        have to retrain Forest Service employees how to efficiently 
        conduct a sale or absent that, have others with proven track 
        records of efficiency do the job.
        9)  Buried within the SRS reauthorization signed into law on 
        October 3, 2008 was language which changed the historic statute 
        (U.S.C. 500) how 25% revenues are shared with counties. 
        Specifically the Act changed annual 25% revenue sharing 
        requirements to the annual average of 25 percent of all amounts 
        received for the applicable fiscal year and each of the 
        preceding 6 fiscal years from each national forest. Section 
        403(b)(1-2) of PL 110-343 should be repealed to ensure 
        increased revenues from future production on NFS lands provide 
        immediate benefit to local governments. Counties nationwide 
        recommend the following language be added to any bill reported 
        out of this Committee:
                Excerpt from Section 403(b)(1-2) of PL 110-343
                   (b) FOREST RECEIPT PAYMENTS TO ELIGIBLE STATES AND 
                COUNTIES.--
                           (1) ACT OF MAY 23, 1908.--The sixth 
                        paragraph under the heading ``FOREST SERVICE'' 
                        in the Act of May 23, 1908 (16 U.S.C. 500) is 
                        amended in the first sentence by striking 
                        ``twenty-five percentum'' and all that follows 
                        through ``shallbe paid'' and inserting the 
                        following: ``an amount equal to the annual 
                        average of 25 percent of all amounts received 
                        for the applicable fiscal year and each of the 
                        preceding 6 fiscal years from each national 
                        forest shall be paid''.
                           (2) WEEKS LAW.--Section 13 of the Act of 
                        March 1, 1911 (commonly known as the ``Weeks 
                        Law'') (16 U.S.C. 500) is amended in the first 
                        sentence by striking ``twenty-five percentum'' 
                        and all that follows through ``shall be paid'' 
                        and inserting the following: ``an amount equal 
                        to the annual average of 25 percent of all 
                        amounts received for the applicable fiscal year 
                        and each of the preceding 6 fiscal years from 
                        each national forest shall be paid''
        10)  Counties surrounded by National Forests long for this 
        paradigm shift and are ready to embrace it, but they must have 
        bridge funding through continued SRS payments at 2008 levels, 
        not at ever declining levels, until such time as the National 
        Forests are once again, positively open for active forest 
        management. The Hastings bill and each of the other bills 
        before us today, move us in that direction.
    Before closing, I want to emphasize again, the successful track 
record of accomplishment achieved by the State of Washington's 
Department of Natural Resources (DNR) and contrast it with the abysmal 
record of the federal government.
    DNR has administrative responsibility over 2.1 million acres of 
land trusts and provides for a fiscally responsible continued yield 
program of sustainable tree harvests.
    In 2011, state trust lands yielded a harvest of 560 million board 
feet (MMBF) of timber, which generated $220 million in revenue. By 
contrast, National Forest lands in Washington state yielded 129 million 
board feet (MMBF) generating revenue of only $638 thousand on 9.3 
million Acres or one fifth of what the state produced on a quarter of 
the land base.
    Incredibly, the state produces 500% more actual timber revenue on 
less than one quarter of the land base of that held by the U.S. Forest 
Service.
    This comparison is even more striking when you look at the relative 
dollars generated per board foot; that is $308 per MBF on state land 
vs. $5.00 per MBF on Forest Service Land.
    Most telling of all: The entire U.S. National Forest system 
consists of 193,000,000 acres and in 2011 produced a paltry 
$180,000,000 of revenue for taxpayers. This is less that $1 per acre of 
revenue to the Federal Treasury--when potentially these forests across 
America could produce thousands of dollars per acre for taxpayers.
    Thank you for this opportunity to support this Committee's efforts 
on behalf of the nation's National Forest counties.
                                 ______
                                 
    Mr. Hastings. Thank you, Commissioner Campbell.
    Mr. Wood, you are now recognized for 5 minutes.

    STATEMENT OF JUSTIN WOOD, NATIONAL ASSOCIATION OF HOME 
             BUILDERS, FISH CONSTRUCTION, NW, INC.

    Mr. Wood. Chairman Hastings, Chairman Bishop, and Ranking 
Member Grijalva, and members of the Subcommittee on Public 
Lands and Environmental Regulation, thank you for this 
opportunity to testify before you today. And thank you, 
Congresswomen, Herrera Beutler, for your kind introduction. My 
name is Justin Wood, and I am Vice President of Construction 
for Fish Construction, Northwest, based in Portland, Oregon.
    Fish Construction is one of the more than 140,000 members 
of the National Association of Home Builders. Today I will 
direct my testimony to the relationship between Federal forest 
management policies and affordable housing.
    NAHB research shows lumber and wood products account for 15 
percent of the cost of construction for a single-family house. 
From framing lumber to hardwood floors and kitchen cabinets, to 
windows, closets, and patios, lumber is a critical component to 
the residential construction industry.
    At Fish Construction, my father-in-law and I build 
approximately 15 to 25 homes per year, of which over half of 
our homes are sold to families making less than the median 
family income. In my career, lumber has always been one of most 
volatile-priced products. We see wide swings over a short 
period of time, which has a direct effect on the affordability 
of our houses. For small home builders like Fish Construction, 
price volatility can have a dramatic impact on our business, 
and lead to fewer homes constructed.
    The prices of lumber have soared, as the housing recovery 
has gained momentum in 2012. For example, prices of oriented 
strand board, an engineered wood product, are up 92 percent. 
The price of OSB composite was $238 last April. This year it is 
$483. Framing lumber is also seeing price increases upwards of 
28 percent.
    The rising cost of materials drives up the cost of 
construction, which, in turn, drives up the price of a new 
home. The impact is of particular concern in the affordable 
housing sector, where relatively small price increases can have 
an immediate impact on low to moderate-income home buyers. NAHB 
research shows that, for every $1,000 price increase of a 
median-priced new home, over 232,000 families can no longer 
afford that home.
    Global demand for lumber has also grown, especially in 
China. And U.S. exports have doubled in the last 5 years. As 
the housing industry continues to recover, there will be 
additional upward pressure on prices, unless additional supply 
can be brought into the market.
    Federal forests supply a mere 2 percent of the wood used by 
the forest products industry, and it is important for Congress 
to take a deep look at what barriers the Administration is 
facing in pursuit of increased harvesting on our Federal lands.
    I grew up in Battle Ground, Washington, which is a small, 
rural, suburban town outside of Vancouver, near the Gifford 
Pinchot National Forest. My parents' home is in the forest 
foothills of the Cascade Mountains, just a few miles from the 
national forest. One observation I can share is that my family 
and neighbors do a good job of following county recommendations 
in trying to keep their canopy of trees and undergrowth as 
clean as possible from dead and diseased undergrowth to help 
reduce the risk of fire.
    Living where they do, there has always been a real concern 
that fires can destroy their neighborhood. The nearby Federal 
forest land is not managed, however, and it is very thick and 
overgrown with a lot of dead and decayed growth under the 
canopy. For people back east who do not understand, our Douglas 
Fir forests are very thick and very little sunlight reaches the 
ground. The undergrowth tends to get very dry in the summer, 
and can become fuel for forest fires. It is confusing to 
residents of the area that we follow these county 
recommendations, while the policies are not followed in the 
Federal forests just a few miles away.
    I commend the Committee for holding this hearing today to 
find out what barriers need to be addressed in order for the 
Administration to start actively managing these forests.
    Congress must take a deep look at these issues and 
determine what actions can be taken in an environmentally 
friendly way. Specifically, NAHB strongly supports Chairman 
Hastings' Restoring Healthy Forest for Healthy Communities Act, 
which requires the National Forest Service to actively manage 
its commercial timber lands and increase production of timber 
products into our market. Residential construction has finally 
turned the corner, and is contributing to, rather than 
subtracting from, gross domestic product growth, and the 
improving labor market. Any efforts to ease escalating price 
pressures, help rebuild the supply chain, and support a 
continuing housing recovery is smart economic policy.
    Thank you again for this opportunity to testify before you 
today.
    [The prepared statement of Mr. Wood follows:]

 Statement of Justin Wood, Vice President, Fish Construction NW, Inc., 
  on Behalf of the National Association of Home Builders, on H.R. __ 
 (Hastings), ``Restoring Healthy Forests for Healthy Communities Act''

Introduction
    On behalf of the more than 140,000 members of the National 
Association of Home Builders (NAHB), I appreciate the opportunity to 
testify today. My name is Justin Wood, and I am the Vice President of 
Construction for Fish Construction NW, Inc. in Portland, Oregon.
    NAHB represents builders and developers who construct housing 
ranging from single-family for-sale homes to affordable rental 
apartments and remodelers. Lumber is a critical component to the 
residential construction industry, and today, I will direct my 
testimony to the correlation between federal forest management policies 
and affordable housing.
    Few industries have struggled more during the Great Recession than 
the home building industry. The decline in home construction has been 
historic and unprecedented. Single-family housing production peaked in 
early 2006 at an annual rate of 1.8 million homes, but construction 
fell to 353,000 per year in early 2009, an 80% decline in activity. A 
normal year driven by underlying demographics should see 1.4 million 
single-family homes produced. If home building were operating at a 
normal level, there would be millions of more jobs in home building and 
related trades.
    The improvement in housing markets over the last year has been a 
welcome change for the economy. Improvements in home prices and 
building are widespread, with the NAHB/First American Improving Markets 
Index now standing at a count of 273 of 361 metropolitan statistical 
areas. NAHB expects new home sales to average 452,000 for 2013 as more 
consumers regain the confidence to purchase a home.
    Construction activities have positive impacts by creating ongoing 
beneficial impacts in communities as new home purchasers pay taxes and 
buy goods and services in the community. For example, NAHB estimates 
the first-year economic impacts of building 100 typical single family 
homes include $23.1 million in wage and net business income, $8.9 
million in federal, state and local taxes, and 305 jobs.
    Residential construction has finally turned the corner and is 
contributing to, rather than subtracting from, Gross Domestic Product 
growth and an improving labor market. Any efforts to ease escalating 
price pressures, help rebuild the supply chain, and support a 
continuing housing recovery is smart economic policy. For these 
reasons, NAHB fully supports multi-use forest management practices for 
national forests and an increase in the supply of federal timber 
products. Specifically, NAHB strongly supports Chairman Hastings' 
Restoring Healthy Forests for Healthy Communities Act, which requires 
the U.S. Forest Service to actively manage its commercial timber lands 
and increase production of timber products into the market.
The Lumber Market and the Housing Industry
    At Fish Construction NW, Inc., my father-in-law and I build 
approximately fifteen to twenty-five homes per year. In my career, 
lumber has always been one of our most volatile-priced products. We can 
see wide price swings over a short period of time, which has a direct 
effect on the affordability of our houses.
    NAHB research shows lumber and wood products account for 15% of the 
cost of construction for a single family house. The prices of these 
materials have soared as the housing recovery has gained momentum in 
2012. For example, prices of oriented strand board, an engineered wood 
product, are up 92 percent. Framing lumber is also seeing price 
increases upwards of 28 percent.
    The rising cost of inputs drives up the cost of construction, which 
in turn, drives up the price of a new home. The impact is of particular 
concern in the affordable housing sector where relatively small price 
increases can have an immediate impact on low to moderate income home 
buyers who are more susceptible to being priced out of the market. A 
2012 priced-out analysis done by NAHB illustrates the number of 
households priced out of the market for a median priced new home due to 
a $1,000 price increase. Nationally, this price difference means that 
when a median new home price increases from $225,000 to $226,000, 
232,447 households can no longer afford that home.
    Home builders are generally small business entrepreneurs. 82 
percent of home builders build fewer than 25 homes a year, and 60 
percent of NAHB's members build fewer than ten homes a year. Many of 
these small-volume builders and subcontractors do not have the capital 
to withstand price volatility in the market, and consequently, 
increases in building material costs lead to fewer homes constructed.
    Global demand for lumber has also grown, especially in China, and 
U.S. exports have doubled in the last five years. Consequently, there 
will be additional upward pressure on prices as the housing industry 
recovers unless additional supply can be brought into the market.
    According to the American Forest & Paper Association, one-third of 
the United States, or approximately 751 million acres of land, is 
forested. Privately owned forests supply 91 percent of the wood 
harvested in the United States, and U.S. State and tribal forests 
supply another 6 percent. Federal forests supply a mere 2 percent of 
the wood used by the forest products industry.
    In 2000, Congress passed the Secure Rural Schools and Community 
Self-Determination Act, which was created to provide transition 
payments to counties while Congress worked to increase timber 
production. Despite the law's passage, the federal government has 
failed to implement active forest management plans, and consequently, 
the federal timber lands have not been managed properly, nor has there 
been an increase in harvesting on federal lands.
    I live in Vancouver, Washington, which is approximately 10 miles 
from the Gifford Pinchot National Forest. In our wooded rural 
neighborhood, the county encourages land owners to remove dead and 
diseased trees, including dead undergrowth, to reduce the risk of 
forest fires. It is perplexing to the occupants of the area that we 
follow these recommendations, while the policies are not implemented in 
the federal forest just a few miles away.
    I commend Chairman Hastings for holding this hearing today and 
taking steps to discover what barriers the Administration is facing in 
its pursuit of active forest management plans. It is important for 
Congress to take a deep look at these issues and determine what actions 
can be taken in an environmentally-friendly way.
    NAHB strongly supports Chairman Hastings' Restoring Healthy Forests 
for Healthy Communities Act, which encourages increased production on 
the federal timber lands, and at the same time, remains mindful of 
important environmental considerations. This legislation will go a long 
way toward helping rebuild the supply chain and reviving local mills 
and timber companies, while also ensuring the continued recovery of the 
housing industry.
                                 ______
                                 
    Mr. Hastings. Thank you very much, Mr. Wood, for your 
testimony.
    And Mr. Horngren, you are recognized for 5 minutes.

         STATEMENT OF SCOTT HORNGREN, STAFF ATTORNEY, 
                AMERICAN FOREST RESOURCE COUNCIL

    Mr. Horngren. Good afternoon, Mr. Chairman, and members of 
the Committee. I am Scott Horngren, Staff Attorney and Forester 
for American Forest Resource Council, and I am also testifying 
this afternoon on behalf of the Federal Forest Resource 
Coalition. Collectively, the organizations provide over 350,000 
jobs and $19 billion in payroll in 27 States.
    We strongly support the Hastings draft's creation of a 
clear mandate to generate revenue for counties through active 
management on a distinctly identified land base of commercial 
forest land. We think this is a long-overdue, desperately 
needed common-sense approach to be applied to a segment of the 
public lands. After all, Congress and the President have taken 
millions of acres of public lands and dedicated them to 
wilderness, wild and scenic rivers, national monuments, 
national parks, and national recreation areas. These areas have 
a clearly defined purpose and are mapped so that everyone 
understands the management that should or should not occur on 
these acres.
    Identifying lands with a clear mandate to generate revenue 
through active management would accomplish at least three 
objectives. First, it would create jobs and provide a source of 
revenue for the counties. Second, it would create some 
certainty to provide a timber supply to maintain and recruit 
infrastructure vital to performing the forest restoration that 
we have been talking about today. Third, it would help reduce 
excessive fuel loads and create forest diversity for wildlife.
    I would like to particularly address the need for a certain 
and steady supply of timber and forest revenue to help mills 
plan investments and counties prepare dependable budgets. Any 
legislation must address both the analytical burden that 
represents about 70 percent of the cost of projects, and the 
never-ending onslaught of litigation.
    Among the various bills the Committee is considering, first 
do no harm. Some of the proposed legislation in the House and 
the Senate I have reviewed over the last year imposes new 
layers of analysis or requirements that will actually increase 
the cost and time needed to prepare projects, and provide new 
grounds for litigation. The Hastings draft avoids this problem.
    Second, legislation needs to recognize that the world has 
changed since laws like the National Environmental Policy Act 
and Endangered Species Act were enacted in the late 1960s and 
1970s. We are over 40 years removed from the enactment of the 
National Environmental Policy Act of 1969. We now live in an 
information age of rapidly changing knowledge, and it makes 
zero sense to cling to the old paradigm of taking 2 or more 
years to prepare an EIS for a project where the analysis is 
obsolete the day the Record of Decision is signed. 
Environmental analysis cannot be a Ph.D. dissertation, and the 
bill includes some common-sense provisions, like a page limit 
and a limit on alternatives, that recognize this. The bill 
needs to go further to provide that once a project is approved 
it doesn't need to be halted as it is being implemented every 
time a new report or a study is issued.
    Third, adopting modern-day efficiencies in response to 40 
years of agency experience in implementing these laws is a 
necessary and perfectly reasonable step. For example, the bill 
allows the Forest Service to assess whether a project could 
jeopardize a species, have the Secretary of the Interior and 
Commerce review that assessment, and, only if they disagreed 
with the Forest Service assessment of jeopardy, would formal 
consultation be necessary.
    Finally, legislation should require that plaintiffs who 
challenge agency projects put some skin in the game. The bill 
doesn't preclude judicial review of forest-reserved projects. 
In our view, the bill could go further to impose some common-
sense limits on lawsuits, such as allowing full judicial review 
of the forest plans, but limiting challenges to a project that 
implements a forest plan to the issue of whether the project 
complies with the plan. But the bill takes a big step in the 
right direction by requiring a plaintiff to post a bond, 
allowing the Secretary to recover the reasonable costs and 
attorney's fees incurred to defend a case if the plaintiff 
loses.
    I appreciate the opportunity to testify before you today.
    [The prepared statement of Mr. Horngren follows:]

 Statement of Scott Horngren, Staff Attorney, American Forest Resource 
 Council, on the Restoring Healthy Forests for Healthy Communities Act 
              and Other Federal Forest Reform Legislation

    Good morning Chairman Hastings, Ranking Member Grijalva, 
Congressman DeFazio and members of the Subcommittee. For the record my 
name is Scott Horngren and I am the Staff Attorney for the American 
Forest Resource Council (AFRC). AFRC is based in Portland, Oregon and 
represents nearly 60 forest products manufacturers in the states of 
Washington, Oregon, California, Idaho and Montana. Many of these 
companies depend heavily on the sale of timber from Forest Service and 
Bureau of Land Management forests for their survival. I am also here 
today speaking on behalf of the Federal Forest Resource Coalition 
(FFRC), a national coalition of forest products companies that rely on 
federal timber and collectively provide over 350,000 jobs and $19 
billion in payroll in 27 states.
    I appreciate the opportunity to appear before the Committee in 
support of legislation to promote active, sustainable forest management 
and restore the health of our federal forests and rural communities. 
While my testimony is primarily focused on Chairman Hastings' 
``Restoring Healthy Forests for Healthy Communities Act'', there are 
other concepts within the legislation before the Committee today that 
are also worthy of mention and support.
    I come before you as a forester and attorney with over 25 years of 
legal experience defending forest management projects from litigation 
across the West. I have represented industry, county governments, and 
other municipalities as they have been forced to intervene to help 
defend federal forest management projects from frequent environmental 
lawsuits. While I've been pleased to represent my clients in a number 
of landmark legal victories, I'm afraid the legal and administrative 
hurdles to implementing common sense forest management projects have 
become insurmountable in many parts of the country. The resulting 
paralysis threatens the future of our federal forests and our rural, 
forested communities.
The Health of our Federal Forests Continues to Decline
    It has been a decade since the passage of the bi-partisan Healthy 
Forests Restoration Act (HFRA). While the Act has yielded modest on the 
ground successes, I think we'd all concede that we haven't reversed the 
alarming forest health trends threatening our federal forests. In fact, 
the numbers tell us we are heading in the wrong direction. The sad 
reality is that 2013 was the sixth year since the passage of HFRA that 
we burned over 8 million acres (9.3 million acres were burned last 
year). Meanwhile, last year the federal government spent over $1.9 
billion in direct fire suppression costs, with the Forest Service alone 
spending $1.4 billion. This doesn't even account for other wildfire 
related spending, including preparedness, and rehabilitation and 
restoration of damaged lands.
    At least 73 million acres of the National Forest System are at a 
moderate or severe risk of catastrophic wildfire and the threat is 
growing. Entire forests are being lost to insect infestations and 
catastrophic wildfire. The Northern Spotted Owl recovery plan reports 
that the primary source of habitat loss for that species is 
catastrophic wildfire. It is hardly surprising, however, as annual 
forest growth has far exceeded removals (harvest) for many years now. 
The reality is that there is a direct correlation between the severe 
reduction in the Forest Service timber sale program over the past 20 
years and the ever-increasing acreage toll and fiscal cost of wildfire.
[GRAPHIC] [TIFF OMITTED] 80441.011


    .epsFortunately, I believe we can take action to reverse these 
trends, but we must act now to make necessary reforms. Many regions 
have lost the milling and logging infrastructure needed to restore the 
health of our federal forests. Other regions are on the brink of losing 
what remains of their forest products industry infrastructure. 
Ultimately these forests will only be restored if we provide certainty 
to the Forest Service, communities and private industry that these 
projects will be implemented. HFRA simply didn't go far enough to 
provide this level of certainty, which is essential to attracting 
investments in industry infrastructure and saving jobs in the woods. 
Responsible, sustainable forest management can restore the health of 
our forests and help enhance all the benefits we enjoy, including clean 
water, wildlife habitat, clean air, and recreation.
Our Rural, Forested Communities Continue to Suffer
    Since the early 1990's and the listing of the Northern Spotted Owl 
county governments and schools in the Pacific Northwest have been 
receiving subsidized federal payments to replace timber revenue sharing 
payments. The program was taken nationwide with the passage of the 
Secure Rural Schools and Community Self-Determination Act of 2000 
(SRS). However, these payments only partially masked the illness 
affecting many rural, forested communities with large swaths of federal 
forest land. The illness ultimately stems from a lack of private sector 
employment, not a lack of local government services, as important as 
those services might be. In my home state of Oregon, unemployment rates 
in these communities ranges from 10-13%, while the unemployment rate in 
the Portland metro area stands at 7.5%. These stubbornly high levels of 
unemployment result in all the predictable social ills, including 
substance abuse, domestic violence, poverty, and hunger. The same 
stories can be told in rural, forested communities across the country.
    As you well know, national SRS payment levels have been reduced by 
40% between 2008 and 2012. The cuts have been more acute in states 
where timber revenues used to be the highest. For example, counties in 
Washington State have seen payments decline by 53% since 2008. Many 
politicians have spent the better part of two decades championing these 
empty, dwindling federal payments as proof of their ``commitment'' to 
the communities surrounded by our federal forests. These handouts fall 
far short of the contract that was made to neighboring communities when 
the federal forest reserves were established. Gifford Pinchot, who 
often articulated the responsibility the Forest Service had to 
neighboring communities, would be embarrassed by what is now taking 
place in our National Forests and in these rural, forested communities. 
Now that these payments have again expired we have a chance to develop 
real solutions to meet the needs of our rural communities.
    As this Committee has explored in past hearings a number of states 
rely on sustainable timber management to generate substantial revenue 
for schools and other trust beneficiaries. The price received for state 
timber greatly exceeds the price received by the Forest Service because 
the states often have a clearer mandate for active forest management 
and their planning and project implementation costs are significantly 
lower. The Washington Department of Natural Resources is the best 
example and has consistently produced over $125 million for 
beneficiaries annually while still providing habitat for listed 
species, clean water, and recreational opportunities. The DNR's level 
of return is over ten times the return from the national forests in 
Washington which have millions of more productive forest acres that 
currently receive little management. There is no reason a modest 
portion of the National Forests couldn't be managed to yield similar 
results since there is often no fundamental difference between the 
actual forests being managed.
    Our domestic forest products industry is well positioned to help 
improve the health of our federal forests, create tens of thousands of 
new family wage jobs, and generate critical revenue for counties and 
the U.S. Treasury if current constraints on log supplies are relieved. 
The greatest constraint on most mills in the West is the lack of timber 
being offered by the Forest Service, which in many areas is the 
dominant land owner. Mills in these areas are often operating at 40-60% 
of capacity due to a lack of log supply, which puts them at a 
competitive disadvantage. Many mills would put on new shifts if they 
could secure additional supplies of logs. Many AFRC member companies 
currently struggle to survive by sourcing their raw materials from a 
250 mile working circle while they watch their neighboring national 
forests die and burn due to a lack of management. It shouldn't be this 
way.
    Meanwhile, lumber prices are currently over $400/thousand board 
feet and nearly double the prices experienced in 2009. Experts are 
projecting that the lumber market will only get hotter as housing 
starts are expected to see significant increases between now and 2017. 
Those same experts predict that this demand will outstrip North 
American supply by 2015, which would result in increased lumber imports 
from Europe unless we increase domestic production. It is hard to 
believe that we would watch as our federal forests burn, our rural 
communities wither away and lumber is imported from overseas when we 
have the opportunity to meet the needs of all through active, 
sustainable forest management.
    I respectfully offer the following recommendations for your 
consideration. Many of them are reflected in the legislation before the 
Committee today.
1.  Designate an adequate and appropriate land base with a clear 
        objective and mandate for active, sustainable timber 
        management.
    Managing a portion of the National Forests with a clear mandate to 
generate revenue for counties and jobs for local communities will help 
fulfill the promise that was made to our rural communities over a 
hundred years ago. It would also create more certainty in regards to 
timber supply, which is critical to maintaining and recruiting the 
forest products industry infrastructure needed to perform the 
restoration work required on the rest of the forest. Active forest 
management will also help reduce fuel loading, create strategic fuel 
breaks and create more diversity of wildlife habitat.
    It is critically important that these areas be clearly identified 
and mapped so that the Forest Service, local communities, potential 
litigants and the courts understand that they are distinct and have a 
specific purpose. In many cases these areas will have existing roads 
and will have been harvested in the past. It makes good economic and 
ecological sense to focus ongoing, active timber management in these 
areas. I also believe that many other uses of the forest, including 
outdoor recreation and hunting, will continue to be enjoyed in these 
areas and would likely see improved access and opportunity.
2.  Provide additional certainty to county governments, local 
        communities and industry by making modest legislative reforms 
        to address the analysis and legal paralysis crippling the 
        management of our federal forests.
    The legal and administrative hurdles to implementing sustainable 
timber management grow each and every year. It has become so 
complicated that 60-70% of the Forest Service's forest management 
budget is being spent on never ending analysis (i.e., paperwork) with 
little chance of mastering the legal gotcha game played by many 
litigants. Unless we reduce the amount of money the agency spends on 
analysis and process we will never restore the health of our federal 
forests or meet the needs of local communities. With the budget 
pressures currently facing the entire federal government, including the 
Forest Service, it is critical to creatively leverage the environmental 
analysis budget to go further.
    The Congress can and should make modest reforms to how these 
requirements are being implemented. In previous hearings this Committee 
has identified many areas where our federal environmental laws, all 
well-intentioned, are working and where they aren't. Despite the 
inevitable sky is falling claims to the contrary, it is incumbent on 
legislators and a natural progression of the legislative process that 
the implementation of laws will be adjusted and tweaked when, in time, 
their interpretation or everyday use become skewed. Such is the case 
with the current interpretations, abuses of litigation, and needless 
delays around the implementation of forest management projects under 
the National Environmental Policy Act (NEPA) and the Endangered Species 
Act (ESA).
    We can reform the most frequently abused gotcha games focused 
purely on process without weakening the substantive legal requirements 
for projects. This is accomplished in the legislation through the 
establishment of reasonable limits on the amount of analysis required 
to implement a project in a Forest Reserve Revenue Area. It also makes 
good sense to place reasonable time limits on agency consultations that 
can frequently stymie projects for years for no good reason. Finally, 
action should be taken to level the legal playing field for these 
projects by requiring litigants to post a bond equal to the taxpayer's 
cost of defending the project in court.
    The reforms included in the legislation are critical to provide 
additional certainty to local communities that forest management 
projects will actually be implemented while also maintaining our 
commitment to environmental analysis and species protection. Sound 
projects in designated areas should not be subject to years of 
planning, appeals and endless litigation over even the smallest of 
points.
3.  Identify and accelerate forest restoration treatments in critical 
        areas where insects, disease, and hazardous fuel accumulation 
        threaten entire forests and ecosystems.
    In forest stands outside of those areas designated for active, 
sustainable timber management, a narrower set of new authorities should 
be provided to the Forest Service to reduce the costs of implementing 
forest restoration projects. H.R. 818 seeks to do this by expanding the 
use of HFRA authorities beyond their current limited geographic scope. 
The House version of the Farm Bill last year also included a 
Categorical Exclusion for forests experiencing severe and emerging 
forest health challenges. As the health of our forests continues to 
decline it is clear we must take meaningful steps to increase the pace 
of forest health treatments.
4.  Explore alternative approaches for managing some federal forests, 
        including through the application of trust mechanisms and state 
        forest management.
    This Committee has clearly shown that state natural resource and 
forestry agencies are capably managing state forest lands for the 
multitude of benefits we've come to expect from our public forests. 
This experience can be brought to bear to help restore the health of 
our national forests, whether that is through a trust proposal similar 
to that found in H.R. 1294 or an expanded Good Neighbor Authority in 
other areas.
    The DeFazio-Walden-Schrader proposal for Bureau of Land Management 
(BLM) O&C forests in western Oregon also deserves your strong support. 
The Oregon and California (O&C) Grant Lands have a unique history 
having once been in private hands before being brought back under 
federal ownership. The O&C Act of 1937 directs that the over 2 million 
acres of these largely checkerboard forests be managed with timber 
production as the dominant use. This dominant use mandate was intended 
to provide revenue to local counties and raw materials to local 
industries through sustained yield timber management.
    Despite this very clear legislative mandate and the fact that these 
forests grow over 1.5 billion board feet of timber each year, timber 
harvests on these forests have ground to a near halt. Actual timber 
harvest levels on these lands have fallen from approximately 1.1 
billion board feet to less than 150 million board feet annually today. 
Administrative protests, litigation, and agency inaction have 
contributed to these severe reductions, which threaten county 
governments with bankruptcy and many of the remaining mills with 
permanent closure. Meanwhile, Secure Rural School payments to the O&C 
Counties, which are unique in that they help fund general government 
operations, have fallen from over $115 million in 2007 to roughly $36 
million in 2012. Prisoners are being released from county jails early 
due to budget cuts. Sheriff patrols have been cut to the point that law 
enforcement is non-existent in many areas. Desperation is setting in.
    The O&C legislation would put 1.5 million acres of the O&C lands 
into a public trust to be managed for sustained yield timber harvests 
to finally provide certainty to local communities. When enacted, the 
proposal is expected to annually generate over $100 million for county 
governments, over 500 million board feet of timber and thousands of new 
jobs in hard-hit counties throughout western Oregon. It has garnered 
significant support across Oregon, including from the Oregon 
Legislature, dozens of Oregon counties and many newspaper editorial 
boards. It also enjoys the support of our industry.
    Mr. Chairman, I appreciate the opportunity to appear before you 
today and would be happy to answer any questions from the Committee.
                                 ______
                                 

    Response to Questions Submitted for the Record by Scott Horngren

1.  How many times has AFRC sued the federal government under the 
        Endangered Species Act in the last decade?
     Answer: 4
2.  Roughly how many lawsuits you've filed against the federal 
        government over the last 10 years?
     Answer: 10
3.  How many active cases does AFRC have with claims under the 
        Endangered Species Act?
     Answer: 4
4.  Has AFRC requested to be compensated from the Judgment Fund--i.e. 
        from the taxpayers--for work that you performed while suing the 
        federal government?
     Answer: Yes
5.  How many times has AFRC requested attorneys' fees under the Equal 
        Access to Justice Act or the Endangered Species Act over the 
        last 5 years?
     Answer: We have recovered attorneys' fees for only one case in the 
past five years. In every case in which AFRC is a plaintiff, AFRC like 
other plaintiffs, plead in the complaint that it is entitled to 
attorney fees. Only if AFRC prevails in a case can it apply for 
recovery of attorneys' fees.
6.  How much has AFRC recovered under these provisions in the last 5 
        years?
     Answer: $5,000
   First, how many of these Endangered Species Act suits also involved 
        claims under the National Environmental Policy Act and the 
        Administrative Procedures Act? As a result, the legal documents 
        I have here show that AFRC has frequently made claims for 
        attorneys' fees under both the Endangered Species Act and the 
        Equal Access to Justice Act.
     Answer: See response to Question 5 regarding ``claim for 
attorneys' fees'' which is included in any complaint filed. Of the four 
Endangered Species Act cases, one has made claims under the ESA, NEPA 
and APA. Three have made claims under ESA and APA. AFRC's recovery of 
attorney's fees for ESA cases is only a fraction of the attorneys' fees 
paid out under the ESA, mostly to environmental plaintiffs. For 
example, from 2003 through 2011, about $30,000,000 dollars of 
attorneys' fees were paid by the federal government in ESA cases. A 
summary is attached with a file that breaks down the payments by year. 
AFRC would happily support legislation that would eliminate the 
provision in ESA for recovery of attorney fees.
7.  Unfortunately, many of these fees appear to be secret and hidden 
        from the public. Can you tell us how much in attorneys' fees 
        you received from one such case American Forest Resource 
        Council versus the Secretary of Interior, which was initiated 
        back in March 2000 and was concluded in 2007.
     Answer: $80,943.89. The recovery was a combined total recovery for 
two cases, the second of which is the Western Council of Industrial 
Workers v. Interior discussed below. (This is the same case that you 
ask about in Question 10).
8.  How much did you receive in attorneys' fees in that case?
     Answer: $80,943.89. This was a combined amount for attorneys' fees 
in AFRC v. Sec. of Interior and Western Council of Industrial Workers 
v. Interior.
9.  How much did you initially request in attorneys' fees?
     Answer: We don't have a record of the initial fee request because 
fees were negotiated before a formal filing had to be made before the 
court.
10.  I want to ask you about one other case in which you sued for 
        attorneys' fees, Western Council Industrial Workers v. 
        Interior.
    According to this stipulation, the plaintiffs received $80,943.89 
        collectively in attorneys' fees and only your organization 
        alone among the plaintiffs requested attorneys' fees.
    Can you tell us how much you initially sought in attorneys' fees in 
        this case? Was it over $150,000?
     Answer: We don't have a record of the initial fee request because 
fees were negotiated before a formal filing had to be made before the 
court. However, the initial fee request would likely have been greater 
than the $80,943.89 settlement amount.
11.  You make the claim in your testimony that ``there is a direct 
        correlation between the severe reduction in the Forest Service 
        timber sale program over the past 20 years and the ever 
        increasing acreage toll and fiscal cost of wildfires.'' In 
        Latin the phrase is, cum hoc ergo propter hoc--with this, 
        therefore because of this. Are you also making the claim that 
        there is a casual relationship?
     Answer: AFRC does maintain that there is a correlation between the 
excessive fuel loads accumulating on national forests from reduced 
timber harvest and the increase in wildfires on the national forests. 
As a GAO report concluded, ``The most extensive and serious problem 
related to health of national forests in the interior West is the over-
accumulation of vegetation, which has caused an increasing number of 
large, intense, uncontrollable and catastrophically destructive 
wildfires.'' General Accounting Office. 1999. Western national forests: 
A cohesive strategy is needed to address catastrophic wildfire threats. 
GAO/RCED-99-65, p. 3. A U.S. Forest Service white paper on the same 
subject similarly concluded, ``Heavy fuel accumulation and altered 
vegetation composition along with sustained drought have increased fire 
intensity, spread, and resistance to control, particularly in the 
West.'' Fire and Fuels Buildup at p.1, available at http://
www.fs.fed.us/publications/policy-analysis/fire-and-fuels-position-
paper.pdf which is submitted as an attachment.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 80441.013
                                 
                                 .eps__
                                 

                         Fire and Fuels Buildup

What is the fire and fuels problem?
    Recent history has seen an increasing trend of record-breaking 
wildfires on public forests and grasslands. In 2002, wildfires burned 
7.2 million acres in seven Western states, 23 firefighters died, and 
815 structures were damaged. That year, the USDA Forest Service, Bureau 
of Land Management, and other federal and state agencies spent more 
than $1 billion for fire suppression. Average fire suppression costs 
during the 1990s were about one-half that figure.
    Why so many large fires? ``The most extensive and serious problem 
related to health of national forests in the interior West is the over-
accumulation of vegetation, which has caused an increasing number of 
large, intense, uncontrollable and catastrophically destructive 
wildfires,'' according to the General Accounting Office (1999). During 
the past 10,000-15,000 years, North American forests have evolved under 
the influence of humans and natural fire.(USDA Forest Service 2003) 
Indigenous people harvested timber and used fire for thinning and land 
clearing to meet their needs for shelter, hunting, gathering, and 
protecting their communities. In the arid West, where moisture is too 
scarce to support fungal decay, fire is the primary mechanism for 
removing dead trees and limbs from the forest floor. Climate factors 
and widespread wildfire suppression efforts, which became effective 
after World War II, have contributed to overgrown conditions over the 
past 75 years. Many forests now require hands-on active management to 
restore fire-adapted ecosystems (Sebellius and Rosen, 2003).
    All vegetation--live and dead--on forested lands (tree branches, 
twigs, cones, snags, moss, and tall brush) serves as fuel for fires. 
Heavy fuel accumulation and altered vegetation composition along with 
sustained drought have increased fire intensity, spread, and resistance 
to control, particularly in the West. The problem is compounded by 
urban sprawl and conversion of large ranches to small ranchettes and 
urban subdivisions that are adjacent to or intermingled with public 
lands. This results in more homes and structures near areas where large 
wildland fires occur. As a result, firefighters who are trained for 
wildland fire suppression must focus more effort protecting homes and 
human lives.
    An estimated 190 million acres (Schmidt and others 2002) of all 
federal forest and range lands (including BLM, National Forest, 
National Park and National Wildlife Refuges) are at increased risk of 
catastrophic wildfire. These acres are in a condition class described 
as ``significantly altered from the normal range,'' which is the most 
severe of three fire-hazard classes. The other two classes are lands 
within ``historic range'' and at ``moderate risk'' for wildland fire. 
National efforts to map fire risk have determined that about two-thirds 
of National Forest System lands are in the two categories outside of 
their historic range (USDA Forest Service 2000). Many millions of acres 
of state-managed and privately owned lands adjacent to public lands are 
also at high or moderate risk of fire.
    The areas that are called moderate to high risk are prone to large 
intense fires that overwhelm suppression efforts. These large areas are 
in danger of losing key ecosystem components. For example, losing large 
areas of open-fire dependent Western ponderosa pines, along with 
associated plants and wildlife, is a distinct possibility.
    Remaining lands have a lower risk of wildfire damage but may 
require periodic treatment of fuels to maintain this status. This is 
particularly true in the Southeast, where historic fire return 
intervals are as short as 3-5 years. Effective fuel treatment will 
require some mix of treating different land classes as forest and range 
ecosystems change over time.
What can we do about it?
    Some 73 million national forest acres and 397 million acres across 
all ownerships have been identified as high-priority treatment areas 
(USDA Forest Service 2000). The Forest Service's ``Cohesive Strategy'' 
for addressing fire-adapted ecosystems outlined an approach to the 
fuels management challenge. One option is a 15-year treatment schedule 
that includes fuels treatments of 4.2 million acres per year. Some 
treatments would be made on lands in all three conditions classes. The 
strategy would not attempt to treat all acres at risk. Research shows 
that by strategically placing fuel treatments to impede fire spread, 
only 30 to 40 percent of lands need treatment to significantly reduce 
the size and cost of severe fires (Finney 2001). Conversely, a one time 
treatment of all high fire risk areas would not fully address the fuels 
problem, as landscapes continue to change over time and fuels would 
build up on many lands currently in historic condition, without 
periodic maintenance treatments (Beighley).
    Federal land management agencies developed a National Fire Plan to 
effectively (1) target resources for fire suppression; (2) reduce 
hazardous fuels on federal and adjacent land, and restore land health 
in fire prone areas; and (3) work directly with communities to ensure 
adequate protection and to provide effective community assistance. The 
plan emphasizes cooperation among federal and state, tribal and local 
organizations and communities. It aims to restore fire-adapted 
ecosystems as the best long-term solution to reduce risk to 
communities, provide for public and firefighter safety, and ensure 
sustainable resources.
How effective is fuel reduction in reducing catastrophic fire?
    The 2002 Hayman Fire, which burned 138,000 acres in Colorado, 
provided the first large-scale study with comparisons of fuel 
treatments (Graham 2003). A team of 60 researchers and resource 
professionals evaluated fire behavior, the effects of fuel treatments 
on burn severity, home destruction, post fire rehabilitation 
activities, and social and economic issues. They concluded that some 
recent prescribed burns appeared to stop the fire locally while other 
areas modified fire behavior but did not stop the fire. In areas with 
moderate conditions, recent burns appeared to have lower fire severity 
than older burns. Removal of surface fuels alone can dramatically alter 
fire behavior within one year of treatment.
Fuel Reduction Treatments and Costs
    Fuel treatments include (1) biological methods such as prescribed 
fire (a management-ignited fire under certain, predetermined conditions 
to meet specific objectives) and grazing; (2) chemical use 
(herbicides); (3) mechanical thinning (using saws, tractors, and 
chippers to cut up and remove woody materials); or (4) a combination of 
these methods. In high risk areas, some fuels often must be removed 
mechanically to reduce fuel loading before it is possible to use 
prescribed fire.
    Particularly in the southeast, many forests within the historic 
range condition are periodically burned to limit rapidly growing 
vegetation. Recouping costs associated with forest restoration is a 
management difficulty.
    The cost for implementing the 15-year option is projected at $825 
million per year for a total of $12.4 billion to treat 73 million high 
priority national forest acres (USDA Forest Service 2000). Of course, 
this figure is only an estimate and (averaging about $170/acre) 
includes routine maintenance thinning of stands within historic range. 
It does not include planning and overhead costs and focus only on a 
portion of the lands in overall need of treatment (USDA Forest Service 
2000). Forest Service and DOI agencies were allocated $400 million in 
2002 for fuel treatment.
    There is great variation in estimated costs depending on the types 
of stands to be treated. Gross costs for mechanical treatment of 
overgrown (high risk of fire) stands have been cited at $500-$1,000 per 
acre, stands at moderate risk could cost up to $400 per acre, and 
maintenance treatments for stands within their historic range should 
cost $50 to $100 per acre (Beighley 2003).
    These treatments will not easily pay for themselves. Although high 
commercial value of large logs can fund a timber-harvest operation, 
vegetation removed for fuel hazard reduction is not so marketable. 
Small-diameter trees currently are in low demand, and the market values 
are low in some areas of the country. In the Interior West, the demand 
for small diameter trees and other material is among the lowest and the 
need to remove such trees is among the greatest.
    Currently the technologies and the economic incentive for using 
these small diameter trees are minimal, and often the cost of 
transportation exceeds the market value of the material. Researchers, 
rural development specialists and forest managers are seeking new 
utilization options for small diameter timber such as development of 
value-added products and bioenergy. One National Forest demonstration 
project has used a special bundler for binding thinned woody material 
into tightly strung bales that are easily stored and transported to 
bioenergy facilities. Researchers also are developing cleaner and more 
efficient processes for product conversion, and better performing wood 
products, to support small log markets.
Working With Communities
    The National Fire Plan also sets goals for working with 
communities, using the Forest Service's Economic Action Programs (EAP). 
These assistance programs provide grants and technical assistance for 
developing new or expanded forest technologies, products and markets. 
EAP provides technology transfer needed to apply research knowledge to 
develop new methods to utilize and market small diameter trees and 
other fuels. For example, small diameter trees, which were formerly 
unmerchantable, can be processed into flooring or other marketable 
products, or used in their round form in other structures. Fine fuels, 
also called small woody biomass, are being used in small-scale 
community renewable energy systems. EAP grants are funding rural 
community-based projects directly and indirectly for hazardous fuel 
reduction as ecosystem restoration.
Not only a public lands problem
    The Forest Service, BLM and other federal and state agencies do not 
``own'' the problem of excess fuels and fire risk alone. Many acres of 
private lands are also at high or moderate fire risk.
    Many communities and their watersheds are intermingled with 
undeveloped wildland, a situation called the wildland-urban interface. 
The federal agencies are working with state, tribal, and local public 
officials to help prioritize fuels treatment within the wildland-urban 
interface.
    The National Fire Plan also designated $11 million for fiscal years 
2001-2003 for developing ``Firewise,'' an educational program for 
landowners and communities to learn effective fire prevention. The 
Firewise vision is homes designed, built, and maintained in order to 
survive wildfires without the intervention of the fire department.
    Firewise targets homeowners, firefighters, builders, landscapers, 
insurance companies, and public officials and helps to facilitate 
community safety. It includes technical assistance to communities and 
national recognition for communities that improve planning and 
mitigation of fire hazards. Firewise shows homeowners how to reduce 
fuel buildup and more effectively fireproof their homes. More 
information is listed on the website firewise.org.
International Context
    International programs have focused on two areas: where land 
management alters ecosystems from their historical fire regime and 
climatic events that affect catastrophic wildfires. In many countries 
besides the U.S., historical land management in some ecosystems has led 
to buildup of fuels and increased risk of catastrophic fire. Widespread 
logging and forest conversion for agriculture in some tropical areas 
has opened the canopy, allowing moist forests to dry out and become 
prone to unnaturally widespread forest fires. Climatic events including 
extreme El Nino events in 1997-98 have sparked large-scale wildfires 
that overwhelm local fire suppression. The Forest Service is working on 
several large scale international collaborative efforts in fire and 
fuels management and also has worked with other government and 
international agencies (including USAID) to provide fire suppression 
capabilities and disaster response support.
References
Beighley, M. 2003. Personal communication. USDA Forest Service, WO, 
        Fire and Aviation Management. October, 2003.
Finney, M. 2001. Design of regular landscape fuel treatment patterns 
        for modifying fire growth and behavior; Forest Science 47: 2.
General Accounting Office. 1999. Western national forests: A cohesive 
        strategy is needed to address catastrophic wildfire threats. 
        GAO/RCED-99-65, p. 3.
Graham, R.T. 2003. Hayman Fire Case Study: Summary. RMRS-GTR-115. USDA 
        Forest Service Rocky Mountain Research Station. pp 10-15.
Schmidt, K.M.; Menakis, J.P.; Hardy, C.C.; [and others]. 2002. 
        Development of coarse-scale spatial data for wildland fire and 
        fuel management. GTR RMRS-87. USDA Forest Service Rocky 
        Mountain Research Station. 41 p.
USDA Forest Service. 2000. Protecting people and sustaining resources 
        in fire-adapted ecosystems: A cohesive strategy. Forest Service 
        management response to General Accounting Office Report GAO/
        RCED-99-65. October 13, 200.
USDA Forest Service Research and Development, 2003. ``Forest Products 
        Utilization: Use of Forest Biomass Critical to Forest 
        Management,'' Resource Use and Valuation Research Program, R&D 
        Accomplishment Report.
White House, Office of the President of the United States. 2002. 
        ``Healthy forests: An initiative for wildfire prevention and 
        stronger communities, August 2002.
                                 ______
                                 
    Mr. Hastings. Thank you very much, Mr. Horngren.
    And last, but certainly not least, Supervisor Morris, you 
are recognized for 5 minutes.

   STATEMENT OF JUDY MORRIS, SUPERVISOR, DISTRICT 2, TRINITY 
                       COUNTY, CALIFORNIA

    Ms. Morris. Thank you, Chairman Bishop, honorable Committee 
members, my Congressman, Jared Huffman, and the Congressman on 
the other side of my county, Congressman LaMalfa, who is very 
familiar, as well, with our county.
    I am comforted to know and hear all the descriptions that 
have been placed on forested communities. We, of course, are 
going through the same thing that we have heard today. I am 
also happy to hear the collaborative process is working well 
for many communities, and also support for the stewardship 
contracting.
    And I hope I am not offending anybody, but I am not a 
lawyer and I am not a forester. That was not to say that they 
don't make a contribution here. I just wanted to make sure--I 
am coming from, really, feet on the ground, as someone of a 
governing body in a forested county. Lawyers and foresters all 
make a very good contribution here. As Congressman Huffman has 
indicated, I have been a member of the Board of Supervisors 
since January 2009.
    The only mill that is left in our county sits in my 
district. Many of you might know it did burn down a couple 
years ago, first year I took office, and is a big supplier to 
our job creation in our county. We are so grateful they did 
rebuild, the county and the community are very protective of 
this mill and the infrastructure it provides for the area and 
region.
    I think one thing we didn't talk a lot about is possible 
infrastructure loss in the area as a result of some action not 
being done. I think we all agree action needs to happen. To 
what degree it needs to take place, that is still up for 
discussion, but I have heard some really great ideas here.
    As you know, Trinity is a rural forested county, with 76 
percent of our 2 million acres being managed by the U.S. Forest 
Service and Bureau of Land Management. Less than 5 percent is 
suitable and available for private land development. If Trinity 
County were a State, it would have the third highest percentage 
of public land, behind Alaska and Nevada. By necessity, the 
county must rely on its relationship with the State and Federal 
land and resource management organizations to provide 
opportunities for economic development.
    My home town is not Trinity County, or even California. I 
grew up in Detroit, Michigan. As a child of the Motor City and 
the automotive production center of the universe, I saw the 
rise and fall of the American auto industry firsthand. I know 
the value of what real jobs can provide and have on a 
community, and the lack of those jobs and the negative impact 
it can have.
    A little bit about Trinity County. Through the 19th and 
most of 20th century, the dependance on public lands resources 
worked out fine, thanks to a colorful history in gold mining, 
logging, timber products, and ranching. However, for a variety 
of economic and social reasons, including the need for 
environmental protections, these prosperous days are gone, and 
Trinity County's economic data looks like hundreds of rural 
areas that we heard of today.
    There are few places in the West with economies that are 
more resource-dependant and includes local government. As a 
public lands community, Trinity County lacks a robust tax base. 
This further complicates local government's challenge to 
provide critical services such as law enforcement and social 
services.
    Something I did not hear today that I really wanted to 
throw out, of course, local government's law enforcement are 
further impacted by the rural areas that I live in, in terms of 
foreign nationals' growing marijuana. It has become a huge 
safety issue, along with the other health and safety issues we 
heard today, which further impacts our law enforcement and the 
lack of money to help support that.
    Stewardship of these resource is imperative, not only to 
the small communities nestled in mountainous valleys, but to 
the State and national communities as critical ecosystem 
services such as biodiversity, water resources, carbon 
sequestration are provided by the Trinity forest and its 
watersheds. Silicon Valley was built on water and power from 
the places like Trinity County and other rural forested 
communities in the West.
    One of the shining examples in Trinity County has been the 
Weaverville Community Forest that started out as 800 acres from 
BLM land and then U.S. Forest Service joined us with another 
12,000 acres. As a result of that, we received in 2009 a 
Partners in Conservation Award by the Secretary of the 
Interior.
    I know I see my time wrapping up. In conclusion, I would 
really encourage everyone to support the collaborative process. 
We have now taken on a second phase in expanding our 
collaborative efforts, support stewardship contracting, and 
also, while we work out some of the finer points in what our 
next steps would be, Secure Rural Schools will be important to 
extend while we make the transition into some more self-
management processes.
    So, thank you for this opportunity. I hope I covered it 
all. Thank you.
    [The prepared statement of Ms. Morris follows:]

    Statement of Judy Morris, Supervisor, Trinity County, California

    Chairman Bishop and Honorable Committee Members,
    I'm not a lawyer and I'm not a forester, but I am here before you 
today as a problem solver from a rural forested western county and as a 
member of the Trinity County, CA Board of Supervisors where I've served 
since January of 2009.
    Trinity is a rural forested county, with 76% of our 2 million acres 
being managed by the U.S. Forest Service and Bureau of Land Management. 
Less than 5% of Trinity County's land mass is suitable, and available 
for private development. If Trinity County were a state, it would have 
the 3rd highest percentage of public land, behind Alaska and Nevada.
    By necessity, the county must rely on its relationship with the 
state and federal land and resource management organizations to provide 
opportunities for economic development.
    My hometown is not in Trinity County, or even California. I grew up 
in Detroit, Michigan. As a child of the Motor City, what was then the 
automotive production center of the universe, I saw the rise and fall 
of the American auto industry first hand. I know the value that real 
jobs can have on a community.
About Trinity County
    Through the 19th and most of the 20th century the dependence on 
public land resources worked out fine, thanks to a rich and colorful 
history in gold mining, logging, timber products, and ranching that 
utilized those lands.
    However, for a variety of economic and social reasons, including 
the need for environmental protections, those prosperous days are gone 
and Trinity County's economic data looks like hundreds of other rural 
areas across the country, both in privately owned areas like the mid-
West and in the public land areas of the West.
    There are few places in the west with economies that are more 
resource dependent and this includes local government. As a public 
lands community, Trinity County lacks a robust tax base. This further 
complicates the local government's challenge of providing critical 
services, such as law enforcement and social services to its far flung 
citizens.
    Stewardship of these resources is imperative not only to the small 
communities nestled in its mountainous valleys, but to the state and 
national communities, as critical ecosystem services such as 
biodiversity, water resources and carbon sequestration are provided by 
the Trinity forest and its watersheds. Silicon Valley was built on the 
water and power from places like Trinity County and other rural 
forested communities in the west.
Success In Collaboration 
    One of the shining successes from Trinity County has been the 
Weaverville Community Forest. This 13,000 acre territory comprised of 
both USFS and BLM managed lands and guided by a collaborative community 
group and supported by the Stewardship Contracting tool.
    Although the economics to date have been small, the trust that has 
built through the development of this award-winning project is a 
bankable commodity in and of itself, which will guarantee much faster 
movement on future projects. I'm proud to say the in 2009 the Community 
Forest was awarded one of the 2009 Partners In Conservation Awards by 
then Secretary of Interior Salazar.
    Using this model as a springboard, the Trinity County Board of 
Supervisors has entered into a government to government with our 
federal agency partners and are working on a ``Forest Management 2.0'' 
model and is moving forward with a countywide collaborative with the 
goal of replicating the success of the Weaverville Community Forest at 
a countywide scale.
    As you know, there are a number of other successful collaborative 
efforts underway across the west including Idaho's Clearwater 
Collaborative, Washington's Pinchot Partners and others.
How To Move Forward--Retain and Support What Works 
    Stewardship Contracting--Currently allows the Forest Service and 
Bureau of Land Management (BLM) to enter into long-term contracts (up 
to 10 years) to meet land-management objectives (for example, to reduce 
wildland fire risk and improve forest and rangeland health). The 
reauthorization of this authority that is expiring in September of this 
year is crucial to Trinity County's next steps. This has an important 
tool for our community in our efforts in the Weaverville Community 
Forest and other projects.
    Secure Rural Schools--Until an alternate revenue model is 
developed, I agree that at least a one year extension is crucial, just 
to maintain baseline funding for these resource rich/revenue poor 
counties. Trinity County prides itself that the forest projects that 
have resulted from current Trinity County Resource Advisory Committee 
has been one of, if not the most, effective RAC associated with the 
Secure Rural Schools funding with significant work in fuels reduction 
and watershed protection and no lawsuits on any project.
    Support Collaboration with Tools and Options, including 
Environmental Protections Collaboration has worked for Trinity County 
but only because unique conditions and goals existed.
        1.  Multiple Objectives--We value economic goals and 
        environmental protections
        2.  Good Things Take Time--We know that we're in a marathon, 
        not a sprint
        3.  Big Success Is Built On Small Success--We celebrate 
        successes, like the Weaverville Community Forest, that support 
        our evolving relationship with our federal agency partners
           Just as the U.S. auto industry has finally enlisted 
        leadership from executives and innovators from around the world 
        to support their recovery, so must the forested public lands 
        communities across the country.
Be Careful About Going from 0-100 mph
    As a self-labeled problem solver, I understand that process can be 
frustrating. However I would caution putting the gas pedal to the floor 
on a new set of rules (or lack thereof). Focus on what's working and 
enhance it.
    Retaining tools like stewardship contracting is vital but so is 
recruitment of the scientific community, encouraging natural resource 
based entrepreneurs and expanding high speed internet infrastructure 
and renewable energy development.
A New Paradigm Is Needed 
    Trinity County's forest and water resources must be managed in a 
manner that will transition society and the ecosystem into a new era. 
We must shift from seeking to restore to a historical condition, to a 
new paradigm aimed at managing for realistic and probable future 
conditions.
    Although the conditions for each county, and each set of ecologic 
challenges will be different, the tools and support mentioned above are 
a great place to start.
More information on Weaverville Community Forest:
    http://www.tcrcd.net/wcf/index.htm
    http://centerforhealthreporting.org/article/could-other-north-
state-communities-follow-example-weaverville-community-forest
    http://www.redding.com/news/2009/oct/07/timber-group-drops-
objections-to-weaverville/?print=1
More information on Natural Resource Planning in Trinity County, CA: 
    http://www.mfpp.org/wp-content/uploads/2012/03/Trinity-
County_CA_Forest-and-Water_Climate-Adaptation-Plan_2011.pdf
[GRAPHIC] [TIFF OMITTED] 80441.009

.epsWhere is Trinity County?
    Located in far Northern California, Trinity County's land mass is 
approximately 2 million acres, one and \1/2\ the size of the state of 
Delaware with a population of around 14,000. Trinity County's 
population has not seen a significant shift in the last 40 years. 
Trinity County is the only county in California without a stoplight and 
one of three counties in California without an incorporated city.
How Is Trinity County Different 
    From Agricultural Rural Communities? 76% of Trinity County is 
federal land, approximately 72% managed by the USFS and 4% by the BLM. 
Of the remaining 24%, due to ownership patterns and topography, less 
than 5% is available for active human development. Thus, by necessity, 
the county must rely on its relationship with the state and federal 
land and resource management organizations to provide opportunities for 
economic development. If Trinity County were a state, it would have the 
3rd highest percentage of public land, behind Alaska and Nevada.
    Through the 19th and most of the 20th century the dependence on 
public land resources worked out fine, thanks to a rich and colorful 
history in gold mining, logging, timber products, and ranching that 
utilized those lands.
[GRAPHIC] [TIFF OMITTED] 80441.010

    .epsHowever, for a variety of economic and social reasons, 
including the need for environmental protections, those prosperous days 
are gone and Trinity County's economic data looks like hundreds of 
other rural areas across the country, both in privately owned areas 
like the mid-West and in the public land areas of the West.
    One of the keys to Trinity County's future is finding the right 
balance of utilization and protection of these public land resources, 
including the water, renewable energy and carbon sinks that are natural 
products of these resource rich forested lands.
History
    Trinity County, which was one of the original 26 counties prior to 
California becoming a state in 1850, has seen wave after wave of boom-
and-bust industries. Gold mining reshaped the rivers and the mountains 
themselves; later ranching and then logging would leave their mark on 
the coniferous forests providing positive economic support, while also 
impacting other environmental resources with unsustainable timber 
practices.
    Trinity Dam was authorized in 1955 as part of the Trinity Division 
of the Central Valley Project, bringing another temporary boom, along 
with the flooding of thousands of acres of prime agricultural land and 
the loss of one of the most magnificent mountain valleys in the U.S. 
For 50 years the diversion of most of the water from the Trinity County 
watershed to the central valley has furnished billions of dollars worth 
of hydroelectric power and water for the use of the citizens of 
California.
    Most recently, a new ``green rush'' (the influx of people coming to 
Trinity County to grow marijuana) is having a significant impact on the 
ecosystem and the local culture of Trinity's rural communities, the 
lasting effects of which remain to be seen.
    Not only is Trinity County's employment base natural resource 
dependent, but the tax base for local government is as well. As a 
public lands community, Trinity County is hard pressed to provide 
critical services, such as law enforcement and social services, to its 
far-flung citizens.
Demographics
        <bullet>  Poverty: Like many rural communities across the 
        country Trinity County suffers from high poverty rates (2nd 
        poorest in California) with 15.1% below poverty level. Over 60% 
        of children are on free and reduced lunch programs.
        <bullet>  Unemployment: Current rate--13.1% January of 2010--
        22.2% peaking at above 30%
        <bullet>  Aging Population: Changing age characteristics 
        (Trinity is the oldest county in California--Median age of 50), 
        along with high poverty and unemployment rates, compound the 
        economic challenges that are presented by a very small property 
        tax base. With retirees accounting for a larger percentage of 
        the population, there are direct impacts to our schools' 
        reimbursement rates, local business and entrepreneurial 
        activity, and quality and quantity of available workforce.
        <bullet>  Political Trends: Historically, Trinity County has 
        been a mixed bag of political sentiments and trends (the only 
        county in California that voted for Ross Perot in 1992) and 
        that continues to be the case. While Trinity voted for 
        President Obama in 2008, and narrowly voted for Mitt Romney in 
        2012 (55 vote margin), Trinity's maverick anti-government 
        spirit is still alive and well. This is reflected with a number 
        of different individuals and groups who have been quite vocal 
        regarding the federal influence over public lands management 
        and the impact on Trinity County's citizens. Another recent 
        development comes with the recent redrawing of Congressional 
        Districts in California, moving Trinity to the Coastal District 
        which will be represented by Jared Huffman (D-Marin) starting 
        in 2013.
        <bullet>  Racial Demographics: U.S. Census numbers indicate the 
        following: White 88.5%, Hispanic 7.4%, Native American 5.2% 
        (some overlap) with smaller percentages of other minority 
        groups.
        <bullet>  More Leadership Roles for Women: Although they 
        reflect the electorate's wide range of political views 
        mentioned above, there has been an emergence of women in 
        elected and executive roles within the county. Our Board of 
        Supervisors currently has a 4-1 women majority, TPUD has 2 
        women on their 5 member board, TCRCD has 2 women on their 5 
        member board, the County Administrative Officer, elected 
        Auditor, elected Treasurer and appointed Clerk Recorder are all 
        women. Lastly, this November, Trinity County elected the first 
        female Superior Court Judge in the county's history.
What Sets Trinity County Apart from other Rural Forested Communities?
    The citizens of Trinity County have a demonstrated history of 
working together collaboratively for the good of the community and we 
are poised to do that again with your help. Some examples of this 
success include:
Forestry and Fire
        <bullet>  Weaverville Community Forest--Nationally recognized 
        Community managed forest partnering w USFS/BLM
        <bullet>  Community Fire Safe Councils--Developed here first 
        for the state and others
        <bullet>  Volunteer Fire Departments--All volunteer fire 
        department protection
        <bullet>  Trinity River Lumber Co rebuild--Local mill owner 
        invests $ 20 million to rebuild facility after 2009 fire.
        <bullet>  Trinity County Resource Advisory Committee--Most 
        effective RAC associated with the Secure Rural Schools funding. 
        No lawsuits on any project.
        <bullet>  Many other projects in this category
Health Care
        <bullet>  Mountain Communities Health Care District (Trinity 
        Hospital)--In the time when other rural communities were losing 
        their healthcare infrastructure, MCHCD was formed in 2006 by a 
        vote of the people with a supporting local tax measure which 
        was reapproved in 2010 with another successful election.
        <bullet>  Southern Trinity Health Clinic--Serving primary the 
        area in the southern part of the county.
Technology
        <bullet>  Highway 36 Fiber Optic Line--This recently 
        implemented fiber optic line was completed in conjunction with 
        a regional consortium. This regional group is now looking for 
        additional funding sources for a parallel line serving the more 
        populated Hwy 299 corridor.
Energy
        <bullet>  Trinity PUD--Locally organized Public utility 
        district delivers 100% carbon-free power generated by Trinity 
        Dam as part of 1955 legislation Congress authorized when the 
        Trinity Division was added to the Central Valley Project.
        <bullet>  Renewable Energy Development--A number of projects, 
        including biomass and small hydro, continue to be analyzed for 
        potential development. Regarding biomass, there are a number of 
        studies documenting that facilities ``right sized'' for the 
        resources available can be economically viable, promote forest 
        health and reduce the threat of catastrophic wild fire.
Locally Supported Restoration and Resource Protection Projects
        <bullet>  Trinity River Restoration Program--National model for 
        river restoration with a team of local, state and federal 
        partners including U.S. Forest Service membership on the 
        governing board and NRCS membership on the supporting Federal 
        Advisory Committee.
        <bullet>  5 Counties Program (part of the RC&D Council)--
        Innovative regional program that works on infrastructure 
        improvements and watershed restoration to stave off additional 
        endangered species listings
        <bullet>  Trinity Alps Wilderness--Converted from Primitive 
        area to the largest wilderness area in California @ 500,000 
        acres--Congressionally approved with the help of intense local 
        involvement in 1984.
    Many of these successes and natural resource assets also provide an 
extensive menu of recreational opportunities including: Steelhead and 
salmon fishing, rafting and kayaking on the Wild and Scenic Trinity 
River, camping, boating and fishing within the Trinity and Lewiston 
Lake National Recreation Area, hiking and backpacking in the Trinity 
Alps Wilderness and many more.
What's next?
    For good reasons Trinity County is very proud of its history, its 
spectacular natural beauty, and our ``can do'' and ``find solutions'' 
attitude. As explained above, we have a proven record of bringing 
divergent interests together for the common good. We also have immense 
public resources surrounding us, the national forests being the most 
prominent. We are poised to take the next step to become a model of 
environmental stewardship, renewable energy production, public land 
management, sustainable forestry and idea incubator for successful 
forested communities nationwide.
    Some data and text for this brief were taken from Forest and Water 
Climate Adaptation: A Plan for Trinity County, CA. Model Forest Policy 
Program in association with The Watershed Research and Training Center 
and Cumberland River Compact. Sagle, ID. Medley-Daniel, M. & Thaler, 
T., Griffith, G., Crossett, T., (Eds). 2011.
                                 ______
                                 
    Mr. Hastings. Thank you, Supervisor Morris, for your 
testimony. And I want to thank all of you for your testimony.
    I will recognize myself now for 5 minutes. I have a few 
questions.
    Commissioner Campbell, you alluded to this in your 
statement, where you talked about the number of saw mills. And 
my understanding is the Washington State Department of Natural 
Resources indicated 20 years ago that there were 21 saw mills 
that were operating in Eastern Washington. And I think at that 
time there were four of them in Okanogan County. Now--and you 
mentioned this--there is only one operating in Okanogan County, 
although the other one, I think, is--the Tribe is thinking 
about opening that again.
    Can you just describe in the last 20 years what that 
decline in mills has done to the economy in Okanogan County?
    Mr. Campbell. The economy in Okanogan County is a resource-
based economy there. And when the timber industry went out like 
it did, we went from over 1,000 jobs there down to--right now 
the mill that we have provides 29 to maybe 40 jobs per year.
    So, the economic base of Okanogan County went upside down. 
We have gone from a proud, family oriented community to now 
looking at our children leaving the area. The ones that don't, 
we--it has caused an input on our social structure, the cost of 
our sheriff, our courts. Our welfare system is now ramping up 
to take the place of what, at one time, was a proud county 
there, and citizens, that are now poor. So----
    Mr. Hastings. You kind of answered this, and I want to ask 
a follow-up. You kind of answered this in your first remark, 
because the whole idea of the Secure Rural Schools program and 
the payments was a temporary program to be a bridge from the 
economy that you had to a new economy.
    Now, you alluded to the fact that you haven't developed a 
new economy. I guess my question is what prospects for a new 
economy exist in Okanogan County, other than resource economy.
    Mr. Campbell. Well, Okanogan County does have some 
recreation benefit to it. But it is a small portion of what the 
resource community had at one time.
    Mr. Hastings. Nothing to replace the promised 25 percent of 
revenues that would come from timber harvest, for instance.
    Mr. Campbell. Not even close to it, no.
    Mr. Hastings. And the last question I have--and this, 
again, was mentioned by several of my colleagues--in the 
President's budget he calls for a reauthorization for 5 years 
of promised payments for Secure Rural Schools. Given the choice 
between developing your own resources and governing them 
locally, or waiting for a check to come from the government, 
which option would you choose?
    Mr. Campbell. I would choose the ability to go out and make 
a living for ourselves, beyond the welfare program that we are 
now on presently in our county, our State, and this Nation. I 
listen to the idea that the Forest Service now wants to buy 
more land, and still isn't programmed to generate its own 
revenue there.
    I am a rancher. If I go to my banker and say, ``By the way, 
I am broke, but I want more money because I want to buy more 
land,'' he would laugh me out the door. And that is what I am 
looking at our Forest Service doing right now.
    Mr. Hastings. Well, I think you were sitting through the 
first panel testimony. I think you heard that type of 
observation expressed a number of times by my colleagues that 
are here. There is a tremendous amount of interest in this 
legislation, and rightfully so, because this promise of sharing 
revenue by multiple use of our resources, that promise was made 
over 100 years ago, and it certainly has gone by the wayside in 
the last quarter of a century or so.
    So, I thank you very much for your testimony, and I will 
yield back my time and recognize the Ranking Member of the 
Subcommittee, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Commissioner 
Campbell, just a clarification for myself and for the record. 
By ``forest counties,'' when you say ``forest counties,'' are 
you testifying on behalf of the National Forest Counties School 
Coalition, or the Partnership for Rural America?
    Mr. Campbell. The National Forest Counties Coalition, 
there. I----
    Mr. Grijalva. Thank you very much. I appreciate it. If I 
may, just a couple of quick questions.
    Mr. Wood, thank you. In your testimony the discussion was 
about the jobs and the economic issues that you brought up. Do 
you or the National Association of Home Builders, as you 
indicated the prices for wood, support an end to the export of 
raw logs from our Federal lands, and just keep them here, 
domestically?
    Mr. Wood. I can't speak on behalf of the Association on 
that issue. I just know that we need a better supply of lumber 
into our market to try to keep our lumber prices down.
    Mr. Grijalva. Well, that was my same point. If the issue is 
the price and the importation because of lack of harvest, then 
if we are harvesting Federal land, shouldn't that stay for 
domestic use?
    Mr. Wood. That would lead--in my opinion, I would believe 
that to be correct.
    Mr. Grijalva. I appreciate that. Mr. Horngren, in your 
testimony lawyering came up from my colleagues, and radical 
environmental extremist lawsuits, and all that stuff came up in 
the course of this conversation today. In your testimony you 
use the word ``litigants'' a lot. I am assuming you primarily 
are talking about environmental groups that litigate.
    Mr. Horngren. Yes.
    Mr. Grijalva. Has your organization been involved in any 
litigation against the Federal Government? They have----
    Mr. Horngren. Yes, we have, and we have also been involved 
in administrative appeals. But our litigation isn't to stop 
projects, it is to help the Forest Service do their job.
    Mr. Grijalva. OK. But let me finish.
    Mr. Horngren. Sure.
    Mr. Grijalva. So, your organization has, from our records, 
sued the Federal Government under the Endangered Species Act 
numerous times in the last decade--I think seven examples that 
we found over the last 10 years. And so, roughly how many 
lawsuits have you filed against the Federal Government over the 
last 10 years? Under 25? Over 50?
    Mr. Horngren. Probably about seven is accurate, and----
    Mr. Grijalva. And are you actively involved in more than 
one lawsuit against the Federal Government under the Endangered 
Species Act, as we speak?
    Mr. Horngren. Yes, we are. And an example Congressman 
Herrera Beutler mentioned, the Agency is----
    Mr. Grijalva. OK.
    Mr. Horngren [continuing]. Down on the amount of critical 
habitat, and we think that is going to keep the Forest Service 
from doing the restoration job they need. And so we have 
challenged that decision.
    Mr. Grijalva. And the organization which is also part of 
the point that you made about bonding, that it would limit 
that, has your organization requested to be compensated from 
the judgment fund--i.e., the taxpayers--for the work that you 
performed suing the Federal Government, whether it was under 
the Equal Access to Justice Act or the Endangered Species Act, 
let's say, over the last 5-year period?
    Mr. Horngren. If we would prevail in a case, yes, we seek 
our attorneys fees if it turns out the government was wrong.
    Mr. Grijalva. Well, unfortunately, the fees are under seal 
and the public can't get to that amount. But would you be 
willing to say how much your organization has recovered under 
those provisions in the last 5 years?
    Mr. Horngren. I don't know the answer to that. But in terms 
of the recovery of fees, we support the provisions of the bill 
that would require the losers, including us or anybody else who 
sues the government, to reimburse the government for defending 
these cases.
    Mr. Grijalva. Well, if you suggest as a solution to the 
problem of the--I think it is the legal ``gotcha'' game, where 
needless delays happen because of litigation, that you post a 
bond equal to the taxpayer cost of defending the project in 
court. What would be enough?
    Mr. Horngren. Well----
    Mr. Grijalva. In terms of the cases you filed.
    Mr. Horngren. Yes. The way the bill is written is the judge 
would be the gatekeeper on that. The Forest Service would come 
to the judge and say, ``We are going to spend this much on 
attorneys fees,'' or, ``We have spent this much on attorneys 
fees. We won''----
    Mr. Grijalva. OK.
    Mr. Horngren [continuing]. ``Case, and we want to be 
reimbursed.''
    Mr. Grijalva. Did the American Forest Resource Council or 
the Federal Forest Resource Coalition assist in the development 
of the legislation?
    Mr. Horngren. We didn't write the bill. We would have loved 
to write the bill, and we converse with House and Senate 
Members about what we think is needed to solve----
    Mr. Grijalva. Did you extend the courtesy to the Minority 
on this Committee?
    Mr. Horngren. We have talked to Minority Members, 
Congressman DeFazio and----
    Mr. Grijalva. Thank you, sir. I yield back.
    Mr. Daines [presiding]. OK, thank you. The Chair now 
recognizes the distinguished gentleman from Alaska for 5 
minutes.
    Mr. Young. Thank you, Mr. Chairman, and I will be short. 
First, I want to thank the panel. And it is about rural schools 
and being reimbursed under a program that is, very frankly, now 
being failed. And that is the fault of this Congress and the 
Administration. But it is just not this Administration.
    When I first came here, we had a pretty viable timber 
industry, nationwide. And I have seen in 40 years a decline to 
a very minimal amount because of bad management and big fires. 
Last year we had 9,300,000 acres burn. And, according to my 
statistics, that is about 100 barrels of fuel per acre. And if 
you add that up, that is 930 million barrels of fuel that went 
into the sky, which probably is equal to all of Los Angeles, 
San Francisco, Miami, all of the other areas burning fossil 
fuels.
    We could have managed that timber, managed it so we didn't 
have those fires, and put the corn in the cow's bellies and 
people's bellies, instead of using ethanol from corn.
    And I wish I was here, I had another appointment--when the 
Forest Service--the Forest Service is no longer managing 
timber. That is the sad part. I am involved with American 
Indians now on reservations. They are managing their timber 
very well. But you go right across the street and you have a 
Federal forest, it is a terrible thing to watch, which could 
potentially cause harm to the Reservation timber because they 
are not managing it correctly.
    I am one that watched--when I was in Alaska 40 years ago, 
or actually a little longer, we had 15,000 high-paying, family 
jobs. And we passed the Alaska National Lands Act. We have 
maybe 40, maybe 50, and trees dying all over. ``We want to save 
the trees.'' And I made a prediction 100 years from now when we 
will be long gone. There is going to be people looking at our 
national forests and saying, ``What the hell were they 
thinking?'' It is going to be a desert. Dead trees burnt down, 
wasted, and communities dead.
    And why the Forest Service--again, it is just not this 
Administration. I will give you an example, if I can. I am on 
my soap box, right now. And here is an example why we should 
harvest old trees. The Forest Service itself is made of old 
people and young Greenies that don't understand taking a tree 
down that can be replaced is like harvesting corn.
    I mean I sit here every day and watch this Nation go in the 
tank because no one wants to change anything. Leave it as it 
is. The truth of the matter is, if we don't manage these trees, 
God will. And he will burn them to the ground, polluting the 
air. The same Greenies that don't want to cut down trees are 
saying we can't burn fossil fuels. And it all goes into the 
sky, pollutes the air. That is going on year after year after 
year in the last 40 years.
    So, we have a challenge. And I feel bad for the 
communities. I have been in some of these communities that were 
thriving towns and, like you say, family oriented. Nothing now. 
So again, I don't know what is going to happen, realistically. 
This is trying to expose to the American public just how bad 
the government is managing these natural resources on public 
lands under the guise of protecting the environment. I just 
hope that the American people wake up.
    And it goes back to exporting logs, the gentleman talked 
about exporting logs. Under our Constitution, I thought we were 
supposed to get the best return on logs. If you understand, we 
sell a tree, we are supposed to get the best return back to the 
taxpayer. If this is abroad, then let that be so. If it is 
here, you can make that timber more realistic for the harvester 
to make a profit, and a profit is something we should have. If 
you can't hire people you don't make a profit.
    So, I commend the panel. And I say respectfully, Mr. 
Chairman, we, as a Congress, and the President, as the 
President, are supposedly the managers of the forests. Either 
give the land back to the States, all of it, as they were 
promised at one time, or give the communities the right to 
manage the timber around those communities that make a sound 
investment and keep those communities alive. We don't do that, 
shame on us and shame on the President. I yield back.
    Mr. Daines. Thank you. The Chair now recognizes Mr. Huffman 
of California.
    Mr. Huffman. Thank you, Mr. Chair. My question is directed 
to Supervisor Morris. And, Supervisor, I want to thank you and 
I want to thank all of the panelists for their testimony today. 
But I especially want to thank you because in a conversation 
that, frankly, I think has involved far too much scapegoating 
and endless conflict and pitting environmentalists against 
foresters, even man against God, I want to thank you for 
steering clear of that and focusing in a much more constructive 
way on some things that we can do together.
    And in that spirit, I want to ask--and going back to the 
Weaverville Community Forest model and the work that you have 
been involved in, what do you see as indicators of success 
through that collaboration? How do you think we can best 
measure how it is going?
    And what are the challenges that you have had to overcome, 
or that still may be at issue for the success of that 
collaboration?
    Ms. Morris. Well, I think we didn't get here overnight, the 
issues that we are discussing. And it is certainly not going to 
be solved overnight. And in the meantime, we at the local 
level, citizens in the community, environmentalists, industry, 
sat down and said we need to do something. And that started 
with the Weaverville Community Forest. We had in mind the mill 
in our focus. That was our goal, to keep jobs going, to keep 
the mill supplied, and of course, fuels reduced. We saw that 
accomplished.
    And I think what doesn't get put on paper is that we had 
some serious trust-building between all parties involved. That 
has led us to move forward. And this last winter, the winter 
prior, I was requested by the businesses in my district who 
said, ``What can we do now, we are still worried about the 
economy, what can we take from the Weaverville Community Forest 
and scale up?''
    So, with that, we have embarked on our new collaborative 
effort. I have met with Chief Tidwell, Secretary Vilsack. They 
are aware of our success and what we intend to do. And again, 
take it to another level. So I think that is a great indicator 
that we are able to move forward. Is it easy? Is it pretty all 
the time? No. There is a lot of negotiation. But we all have 
one interest at heart, and that is our community. And it gives 
us some local control. We are able to go to the agencies and 
say, ``You know, this really isn't working.'' All parties 
involved are in agreement.
    So, it is certainly not the end-all-be-all tool, but it 
helps us in the meantime keep restoration efforts going, 
watersheds open, and logs to the mill. And so, to us, we have 
had success and we look forward to more success.
    Mr. Huffman. Thank you.
    Mr. Daines. Thank you. The Chair now recognizes the 
gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Thank you to all of you for being here again.
    Commissioner Campbell, I appreciate you being here. 
Congressman Hastings asked you several questions, and I think 
he did that because he is the only one left in this room that 
can pronounce Okanogan County. Was I even close to that?
    Mr. Campbell. You hit it right on.
    Mr. Bishop. That will be the last time. Anyway, I 
appreciate you being here, and for your testimony on the 
significance of this.
    Mr. Wood, I have a couple of questions for you, if I could, 
since you are in the industry. Many people will simply say that 
we should not increase the amount of wood that we are 
developing on public lands because there is not a market for 
that. Is there indeed a market for potential growth in the wood 
and timber industry?
    Mr. Wood. Yes, I believe so, because during our down time 
we have been building less than 500,000 new homes a year, and 
we are projected to be over a million homes this year. And that 
number has continued to grow back to the standard levels, about 
1.4 million new homes created every year.
    Mr. Bishop. All right. So let me interrupt there. If the 
amount of--during the boom, the amount of timber produced on 
public lands fell to its lowest level and it has bottomed out 
since then, if we now have an increase in the amount of housing 
that is taking place, from whence will that wood come, or what 
does that mean to the cost of houses?
    Mr. Wood. I believe that what is coming off a lot of the 
private lands, as we have heard, is being shipped overseas and 
other places. And so, as the market gets more constrained here 
with what is available to our market, it just increases the 
cost of our housing. And as I said, every $1,000 increase just 
raises the price so that puts many middle-class families out of 
being able to buy a new home.
    Mr. Bishop. And I understand where you live you have both 
private forest lands and public--Federal forest lands at the 
same time. You indicated there was a difference in the way they 
were managed. Can you just tell me about the underbrush control 
for fire management, what the difference between those two 
types of lands are?
    Mr. Wood. Well, it is very similar to what the private 
citizens do, as well. They try to go through and clean out any 
dead, diseased, fallen trees or dead underbrush that has grown, 
because that just creates fuel for forest fires. And when 
something sparks, that takes off and goes.
    The private lands are managed really well and taken care 
of, whereas on the Federal lands are not. And so the Federal 
lands, you just have that fuel ready to go if it gets any 
spark.
    Mr. Bishop. OK. I appreciate you sharing the nexus between 
the cost of housing, as well as the amount of timber that is 
available, and as how much goes into that. I appreciate that. 
Let me come back to you a little bit later.
    But Mr. Horngren, did I pronounce----
    Mr. Horngren. Yes.
    Mr. Bishop. I can't even see your name. Even with glasses I 
can't see it.
    Last year--I mean the Forest Service has listed as part of 
their accomplishments that they harvested a total of 200,000-
plus acres from the 109 million that they have, and that was 
one of the pluses. In Washington last year, 300,000 acres 
burned in just 2 months that cost us about $114 million. In the 
President's budget that he released on timber harvest, they 
have lowered their own goal for timber harvesting by 15 percent 
and cut funds used to treat hazardous fuels by 37 percent.
    In your view, is that the way we should be prioritizing the 
way we handle our Federal forest lands?
    Mr. Horngren. The experts in the medical field know that 
money spent on prevention and maintaining health translates 
into significant savings in avoiding the need for emergency 
treatments. And I believe the same principle should be applied 
to the forests, and that budget doesn't reflect that principle.
    Mr. Bishop. All right. We use that same question for our 
Medicaid problem, as well. So----
    Mr. Horngren. OK.
    Mr. Bishop [continuing]. Good answer.
    [Laughter.]
    Mr. Bishop. In your testimony you talked about frequently 
abused Gotcha Games. Could you just, in a couple of seconds, 
tell me what you mean by Gotcha Games, or----
    Mr. Horngren. I will give you two examples.
    Mr. Bishop. OK.
    Mr. Horngren. One is on the Shasta Trinity National Forest, 
the Algoma Project there. When critical habitat for Spotted Owl 
was listed a few months ago, on a particular timber sale 
project that represented about half that sale volume they 
actually reduced the amount of critical habitat. Yet the 
project had to be stopped to reconsult on the effect of that 
change that actually reduced it.
    One other example is that the environmental organizations 
have these propaganda factories dressed up as science reports. 
And every time a new report comes out, the agency needs to take 
a look at that and stop its project.
    Mr. Bishop. OK. Let me ask--I am going to run out of time 
here. Commissioner Morris, if there is another round, I will 
get to you. But let me ask one last question, Mr. Horngren, and 
I have got, like, 30 seconds to do all this, including the 
answer.
    There has been some attention devoted recently to the 
increased demand for logs. How does this impact the domestic 
timber industry? You got 20 seconds.
    Mr. Horngren. It hurts--the prices go up. Rough and Ready 
Lumber Company in my State has curtailed in the last few weeks 
because they don't have enough volume from these Federal lands. 
One last point in my 8 seconds, we do not export raw logs from 
the Federal lands, and the record needs to reflect that. There 
is no export of raw logs from Federal lands.
    Mr. Bishop. Only from private lands, which, I guess, goes 
back to Mr. Wood. That is where the pressure for the cost will 
increase if we don't increase what is taken off Federal lands.
    Sorry, 10 seconds over, my mistake.
    Mr. Daines. Well done, Mr. Bishop. The Chair now recognizes 
the gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. Commissioner 
Campbell, could you repeat the comparison that you made between 
the management of State lands and the management of adjoining 
Federal lands? I thought that was a stunning figure.
    Mr. Campbell. Just a minute here, let me find my figures 
here. In 2011, OK, our State DNR lands are over 2.1 million 
acres, relatively there. And in 2011 the State trust lands 
yielded a harvest of 560 million board feet of timber, which 
generated $220 million in revenue. The national forests in the 
State of Washington yielded 129 million board feet, generating 
$638,000 in revenue on 9.3 million acres of land.
    Mr. McClintock. The 2.1 million acres of land managed by 
the State which produced 560 million board feet, $220 million 
of revenues for the people of Washington State.
    Mr. Campbell. Correct.
    Mr. McClintock. And 9.3 million acres of Federal land, more 
than 4 times that amount of land, produced 129 million board 
feet, roughly one-fifth of what the State was producing, and 
only produced $630,000 worth of revenues?
    Mr. Campbell. Correct.
    Mr. McClintock. Now, how could the State harvest $220 
million worth of revenues off of the timber that they produced, 
and yet the Federal Government, even though it is one-fifth the 
actual harvest--five times the land, but one-fifth the 
harvest--could only muster less than \1/2\ of 1 percent of the 
revenues that the State generated for their taxpayers?
    Mr. Campbell. You are going to have to ask the national 
forest that. I can't answer that question.
    Mr. McClintock. Could it possibly be that much of the 
timber that they harvest out of the national forests is not 
commercially viable?
    Mr. Campbell. They don't harvest timber out of the national 
forest. They harvest small poles out of the national forest 
there.
    Mr. McClintock. Exactly. You heard Chief Tidwell equate 
fire destruction with forest restoration. What are your 
thoughts on that governing philosophy of the National Forest 
Service?
    Mr. Campbell. Well, we do need fire protection monies, I 
agree. But when they reduce the funds to go out and actively 
manage their forests for the fire protection, it doesn't make 
sense. The industry can take care of itself if it is opened up 
and let do so.
    Mr. McClintock. Mr. Horngren, does your industry have any 
estimates of how much money would be generated from the 
National Forest Service if we restored the same kind of sound, 
sustainable forest management practices as Commissioner 
Campbell has just described the State of Washington performs?
    Mr. Horngren. I would imagine a hundredfold or more. I 
don't have an estimate, no. I am sorry.
    But if they were to take out--if they would identify what 
your committee is struggling with, or is addressing, a clear 
mission for these lands, identify an area where revenues could 
be produced for the counties, we believe that there would be 
enough to offset Secure Rural Schools payments.
    Mr. McClintock. Oh, I think not only enough to offset 
Secure Rural Schools payments, you wouldn't need Secure Rural 
Schools payments, because these communities would once again be 
economically thriving, thousands and thousands of families that 
are out of work would find work again in thriving saw mills. I 
mean that was the experience of the mountain communities in the 
Sierras when we practiced sustainable forest management, and 
they have been absolutely devastated economically by the 
policies that are now in place at the National Forest Service.
    Mr. Horngren. You are absolutely right. You will have that 
economic----
    Mr. McClintock. Could you provide us with an estimate of 
how much revenue the Forest Service is costing the people of 
the United States by failing to abide by the same practices as 
Commissioner Campbell just noted that the State of Washington 
is performing for their taxpayers?
    Mr. Horngren. We can get you an estimate. And it is equal 
to the Secure Rural Schools, and then many, many times more 
than that. That is revenue that would go to the treasury, it is 
economic activity that you mentioned that would help the 
communities without any government payments, because it would 
be private activity.
    Mr. McClintock. And when you think of the countless 
thousands of acres of our forest land that now lies in ash, and 
realize if just a tiny fraction of those trees that have now 
been destroyed had been harvested for productive use, what that 
could have done to provide for the management of the entire 
Forest Service.
    Mr. Horngren. You are absolutely right.
    Mr. Daines. Thank you. The Chair now recognizes the 
gentleman from Colorado, Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I appreciate you all 
being here, and I have probably just more of a comment. I 
certainly want to applaud Chairman Hastings in regards to this 
bill, listening to your comments, and then just even the 
questions. Irrespective of party, I think there is a real 
recognition that our communities need to be able to play a 
vital role in terms of restoring health, not only to our 
forests, but being able to address the importance of school 
funding, as well. And this is something that can work hand in 
hand.
    And, Mr. Horngren, you might want to talk to the guy that 
is right over your right shoulder when you are talking about 
actually looking at some scientific methods to be able to look 
at some habitat. We have issues with Sage Grouse out in 
Colorado that we are seeing massive amounts of land. And in 
Garfield County they went through, with real science that they 
had paid for, reduced the potential habitat area from better 
than 500,000 acres down to 15,000 acres. To be able to achieve 
a win-win----
    Mr. Horngren. And the win-wins are there, and you are 
absolutely right. It shouldn't be Groundhog Day every time the 
Forest Service goes to do a new restoration project and 
spending 70 percent of their budget on preparing these 
projects. They have successes, they have collaboration. And we 
ought to be able to gain some efficiencies in doing what we are 
doing so we can do more of it with either reduced funds like 
the Forest Service wants, or the same funds, or hopefully, 
increased funds, and ramp up and leverage that money to go 
further than it is so far.
    Mr. Tipton. You know, that is really true. And I think that 
we ought to all start probably from the premise that we all 
like clean air, we all like clean water. We see some value in 
the endangered species end of it.
    That being said, I was a little curious, really, from some 
of the other questions that were going on in regards to 
lawsuits that are holding up responsible development of 
resources and treatments that are going in, do you know how 
many--you have talked about the seven lawsuits. How many on the 
other side to be able to--you want to be able to create 
development?
    Mr. Horngren. Right.
    Mr. Tipton. How many lawsuits have been issued on the other 
side. Do you have any number? I am just curious.
    Mr. Horngren. Hundreds. And let me give you one example. 
The Beaver Slide lawsuit in Trinity County, where they had some 
collaborative agreement on a project, was filed 2 years ago.
    And Trinity River Lumber Company cannot harvest its timber 
sale because of that lawsuit. And it thins the forest, 60 
percent of the canopy is retained. That lawsuit is now in the 
ninth circuit. And I can cite you five others--I will be happy 
to submit it for the record.
    Mr. Tipton. So you had seven suits that you participated in 
versus--to try and create responsible development, versus 
hundreds trying to inhibit----
    Mr. Horngren. Yes.
    Mr. Tipton [continuing]. Responsible development.
    Mr. Horngren. Yes.
    Mr. Tipton. OK. I thought that was just interesting. So, 
with that, Mr. Chairman, I yield back. Thanks.
    Mr. Daines. Thank you. The Chair now recognizes the 
gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. I appreciate that. 
My first question is for--Mr. Campbell was a commissioner, 
Board of Commissioners. The question in my exchange I had with 
the Forest Chief--obviously you weigh in on behalf of the 
citizens in your communities that you represent, when there is 
opportunity, with the Forest Service.
    In terms of the outcomes that you have seen, how much is 
the opinion of the local folks who have everything at stake--is 
that taken into account? Do you see it as a value? Do things 
tend to go your way, in terms of the whole scheme of ``public 
input''?
    Mr. Campbell. Well, thank you for that question. I have sat 
in on quite a few meetings with the U.S. Forest Service on 
issues there, and I feel like I am talking to the trees. I feel 
like the opinions and the concerns of my county are ignored, on 
the most part, with the Forest Service there.
    In my county there are two different districts or two 
different areas. We have the Twisp District there and the 
Tenaska District there. And I sat down with members of both, 
and it feels like I am getting the run-around there. So the 
answer is no, not so good.
    Mr. Thompson. Not so good. And, unfortunately, a lot of 
folks in the communities--and I didn't point out a lot of folks 
here from western States, I want to make this clear. This is a 
bipartisan group, because I am from the eastern part of the 
country, from Pennsylvania. But with the national forests I 
have in the four counties, and they are involved with that, we 
see similar.
    Now, Mr. Campbell, you mentioned in your testimony that 20-
plus years ago we were harvesting 14 billion board feet from 
our national forests, yet last year we only produced 2 billion. 
What do you believe is the middle ground, as you put it?
    Mr. Campbell. You know, 20 years ago the harvest was 
probably up at the top of the line there. We are not ready to 
go to that level at this time. I would say somewhere in between 
would be a good starting point there.
    Mr. Thompson. OK. Now, do you have any forest land in your 
county that is managed by the private sector at all? And how 
does that compare with what the Forest Service is doing? And 
you may not, I don't know.
    Mr. Campbell. We do have some private-sector land. It has 
been a while since they have been logging that there. The 
distance to the market now is quite a ways off.
    Mr. Thompson. With the mills that are being closed.
    Mr. Campbell. Yes, our mills are being closed. So the 
revenue generated off that land at this time isn't--does 
justify the cost of getting to the market, from the most part, 
there. So----
    Mr. Thompson. Yes. So that is the chronic impact of not 
really managing up toward sustainable rates.
    I know in the Fifth District of Pennsylvania it was about 
120,000 acres that are adjacent to the Allegheny National 
Forest. Collins pines, they have been around since the Civil 
War. And their production annually on 120,000 acres equals the 
just-under-500,000 acres of forest that the ANF does.
    And so, that is part of innovation. That is part of looking 
to see what the private sector is doing and how do we replicate 
that? How do we get that kind of production which is good for 
our forests and good for, quite frankly, for our rural 
communities, to make them vibrant?
    Mr. Wood, you suggested that despite the passage of the 
Secure Rural Schools program in 2000, the Federal Government 
has failed to implement active forest management plans, Federal 
timberlands have not been managed properly, nor has there been 
an increase in harvesting on Federal lands. Why do you believe 
we still are having fundamental challenges in harvesting the 
necessary levels of timber from Federal lands?
    Mr. Wood. I would say why we are not getting enough from 
the Federal timber lands is just all the different restrictions 
that are in place, from all the different Federal policies. 
While I am not a forester, I understand that there are 
environmental concerns and different issues, from stormwater to 
healthy forests. But I think that one of the challenges of this 
Committee is to try to look at those challenges and to figure 
out a way that we can reach resolution to them.
    Mr. Thompson. Yes. And as I close out my remaining--I am a 
fan of the United States Forest Service. And most professionals 
I talk to, including the Chief, they just want to do their job, 
do what is right for the forest, and do what is right for the 
rural communities. And there been a lot of problems with these 
lawsuits, and we need to make sure that we are alleviating some 
of those burdens so they can do their jobs. Forests benefit if 
they are fully able to do that capacity, and our rural 
communities definitely benefit.
    And, Chairman, I appreciate it. I am out of time.
    Mr. Daines. Thanks much for your comments. The Chair 
recognizes himself here for 5 minutes.
    Again, back to Montana questions. Our forests are infected 
by beetles, over 2 million acres. Fire prevention, we have 
talked about that. Football games were canceled last fall 
because of air quality, we have talked about that. Yet loggers 
are struggling to find work.
    This would be a question for Mr. Horngren. You mentioned 
hundreds of lawsuits, potentially, that are holding up 
responsible timber harvest. Would a short-term moratorium on 
lawsuits for high-risk timber or insect-infested timber--and, 
by the way, ``insect-infested timber'' is D.C.-speak for dead 
trees. We call them standing dead out where I come from. Would 
that be valuable to our struggling mills?
    Mr. Horngren. That would be helpful, and you have a case 
that was mentioned, I think, earlier today, the Colt Summit 
Project in Montana on the Lolo National Forest that was held 
up, a forest restoration project. Plaintiffs only were 
victorious on one of their eight claims, but it had to be 
stopped, and they went back and redid that.
    And so, if there is some things short of completely banning 
lawsuits that you could do that would help move projects 
forward, I agree with you.
    Mr. Daines. Do you have thoughts on what a policy might be 
for a short-term moratorium?
    Mr. Horngren. A short-term moratorium might say that you 
could only bring a suit challenging whether the particular 
project is consistent with the terms of the Act you passed. You 
may have particular requirements for these types of things in 
saying you can't bring every claim under the sun, but you can 
challenge it if it doesn't follow the Act. And so that is an 
option and a way to do it.
    Mr. Daines. Thanks much for your comments.
    Mr. Wood shared his testimony about the price of lumber. 
And I am a kid who grew up the son of a home builder. My dad 
has been building houses for 40 years. I have packed a lot of 2 
by 4s and 2 by 6s over my lifetime. We share your frustration 
of what is going on here right now with prices, and how it 
affects middle-class families who are trying to perhaps maybe 
buy their first home.
    Additionally, a point you made in your testimony that 
struck me and is very telling about how our forests are 
managed, Federal forests--Federal forests, 91 percent of our 
harvest comes from private land, just 6 percent from State and 
tribal lands, 2 percent from Federal lands. So, maybe this is a 
question, perhaps, for Mr. Campbell.
    Could you expand on the drastic differences on management 
on private versus State versus Federal lands?
    Mr. Campbell. Well, on private lands in Okanogan County 
there is a small amount of private timber lands left in 
Okanogan County. There is one section between the mountains, 
between the valley I live in, the Methow Valley, and the 
Okanogan that is private lands. And they did go through and 
harvest their timber over the years there, and have kept an 
ongoing renewal process there. And if you drive through that 
country now you see lush green meadows and pasture for the 
cattle and new trees coming up. The forest is spread out to 
where it is a healthy forest and managed correctly. The State 
DNR is up to speed on doing the same thing. They still have a 
few hurdles yet to go, so they are not perfect yet.
    You cross the Okanogan River and you are into the Colville 
Indian Reservation. And you can tell a distinct difference 
between the national forest lands and the Colville Indian 
Reservation. They again have had an active management program 
going on on their lands. And the forests are spread out, there 
is grass, there is not brush underneath them, the trees there. 
It is very well managed there.
    And that is one reason that there is hope now for one of 
our mills to start back up that is on the Colville Reservation, 
by the way. But they also have hopes of getting resources from 
our Federal lands, also.
    Mr. Daines. So from where you sit as a Commissioner, what 
would you say is the number one issue holding up harvesting of 
Federal lands?
    Mr. Campbell. Litigation. The Forest Service is afraid to 
make a move to do anything for fear of litigation. The process 
that they have to go through, the personnel that is in the 
office now aren't foresters. They are biologists, they are 
grant-writers, and they are personnel that are going through 
their environmental impact statements over and over with a 
fine-toothed comb to be sure that, whatever they do, they are 
not going to get sued on.
    Mr. Daines. OK. My time has expired. The Chairman now 
recognizes the distinguished Ranking Member from Arizona, Mr. 
Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman. 
Commissioner Campbell, you referenced--and I think others on 
the panel did, I think--the excellent job Washington State does 
with forest management, and that was a response to the last 
question, as well. From what I have learned, the habitat 
conservation plan that allows the States to manage their lands 
for placing a priority on timber production. That plan relies 
on the habitat protections, watershed protections on the 
Federal lands. So we follow the logic that has been talked 
about here on occasion, and remove those protections from the 
Federal lands, doesn't that hurt the State lands?
    Mr. Campbell. I am not following your question there. Are 
you saying that to remove the habitat protection off the 
Federal lands----
    Mr. Grijalva. Remove the Federal protections because the 
management plan for the State lands is based on those Federal 
protections being in place on those Federal lands. You take out 
habitat protection, you take out watershed protection, just 
remove them. Now what happens to the State lands?
    Mr. Campbell. The State lands are also working under the 
habitat protection of their lands, also, and the watershed 
protections there. We are under the----
    Mr. Grijalva. I think the--well, Mr. Commissioner, I think 
the interface is much, much more distinct than just by 
coincidence.
    Mr. Campbell. Are you trying to imply that because the 
Federal lands are supposedly managing their habitat, that is 
having a positive effect on the State there?
    Mr. Grijalva. No, I am not even implying that. I am stating 
that because of the management protections on the Federal land, 
and the restrictions on the Federal land, it has given extra 
freedom for the State lands to be managed with different 
priorities. That is what I am stating.
    Mr. Campbell. Well, I disagree with you on that statement.
    Mr. Grijalva. OK. I wanted to ask Supervisor--
Commissioner--is it Supervisor or Commissioner?
    Ms. Morris. In California we are ``Supervisor.''
    Mr. Grijalva. Yes.
    Ms. Morris. Yes.
    Mr. Grijalva. I used--back home in Pima County I was a 
supervisor. I share your pain on occasion, you know? Never a 
commissioner, always a supervisor. So I appreciate the--all the 
twists and turns you had to go through to get here. I know that 
my colleague, Congressman Huffman, thought it was very, very 
important that you share the perspective that you have.
    Let me just follow up a little more on the question. Talk a 
little more about the initial success of that collaborative 
effort, and how that is allowing you, at this juncture in time, 
to take on the bigger, more complex, and obviously, more 
controversial projects.
    Ms. Morris. Absolutely. Well, we have seen success in the 
Community Forest. Of course we had our challenges at that 
point, as well, but we moved through them. And I think, as a 
result of what we learned at that level, and the need to do 
more for all the issues that we have discussed here today, we 
have come together with many of the same folks at our steering 
committee. And of course, every member of the public who wants 
to attend and work with us is welcome to sit there with us. We 
will move forward and at a very local level, at stakeholder's 
level, to try and scale up what we have learned and have 
accomplished at the Community Forest.
    Of course, we will still encounter challenges. But I think 
our relationship has strengthened with the agency's. When we 
embarked on the Community Forest, at that point the Forest 
Service hadn't done that much on the collaborative effort in 
our local area. So we have all kind of learned together through 
the Community Forest, and hope to take what we have known and 
grow from there.
    We can't sit around and wait for all the finer details to 
get worked out. We need to keep working and help manage our 
forests for all the reasons we have talked about: 
environmental, health and safety, watershed protection, keep 
jobs--what few jobs we do have, hang on to them.
    Mr. Grijalva. Thank you very much. Thank you. And I just 
want to state that we might disagree--people might disagree 
with Chief Tidwell's management priorities, but certainly not 
his voracity. And he said that there is litigation on 6 percent 
of the projects and forest lands, and 1 to 2 percent of those--
that litigation does cause a delay. And I think that is 
important to keep reminding ourselves, and not overstate the 
issue.
    Mr. Daines. Thank you. The Chairman recognizes Mr. Bishop.
    Mr. Bishop. Commissioner Morris, I just wanted to ask you a 
couple of questions to make it worth your time coming back 
here, and I appreciate you coming back here. And I shouldn't 
ask questions I don't know the answer, but I am going to, 
anyway.
    Does California, on their education budget--and this may be 
out of your realm of competency, if you don't know, just tell 
me that--do they equalize their education funding--i.e., in 
many States that are enlightened, like Utah, if the local 
district cannot generate more than a set limit, there is a 
recapture from them, and it is given to the poor districts that 
can't generate up to that particular level. Does California do 
anything like that, which would help mitigate districts like 
yours, who have been harmed by, basically, the Federal 
Government's involvement?
    Ms. Morris. To my knowledge, no.
    Mr. Bishop. That is too bad. They should do that. Well, 
that answers----
    Ms. Morris. The other----
    Mr. Bishop. Then the follow-up questions don't make a bit 
of difference, anyway.
    I do have one question, though. In your written testimony 
you did say that you thought SRS should be established again 
for another year until an alternative revenue model is 
developed. In your mind, what is that alternative revenue 
model?
    Ms. Morris. Well, I have heard some great ideas here today, 
and the bills that have been forwarded. But my worry is that, 
from a county standpoint, budgeting standpoint, and school 
financing as well, is that is there a transition time. I mean 
if we go from, in my testimony, 0 to 100 in a different course 
of action, where will that leave our county, in terms of--will 
it still get hung up in lawsuits, and then we have no money 
coming in? And that could be a big disaster, is what my worry 
is. Is there phased-in steps that we could take that still 
secure funding for both county governments and schools?
    Mr. Bishop. Yes. I realize that is a legitimate fear, and I 
thank you for that. I think Congressman Hastings has also 
recognized that, and he has tried to make provisions for that 
kind of build-in time.
    But we are seriously looking at a major problem where the 
SRS funds are decreasing significantly. When they are not being 
asked to be returned, they are still decreasing significantly, 
and that does not give us a path to the future that gives a 
reliable funding. So, unless there is some big project above 
and beyond to what we are looking at right now that can be used 
on those type of lands, without going into a legal drag.
    So, with that, I yield back. We are voting right now, and I 
apologize. Thank you for your----
    Ms. Morris. Thank you.
    Mr. Bishop. And thank you, all of you, for your willingness 
to come here and testify on these issues.
    Mr. Daines. Yes, thank you for the testimony this morning. 
It was very informative. And it is not because of lack of 
interest it is down to Mr. Bishop and myself; there is a vote 
going on.
    So, we are going to head down to vote. So we will stand in 
recess for about 45 minutes, and then we will return.
    [Recess.]
    Mr. Bishop [presiding]. The Committee will now come to 
order. The Chair recognizes that, at many times during the 
past, we have had a quorum. But we have four other bills to 
deal with, and what I would like to do is try to combine some 
of these panels so that we can get through as much testimony as 
possible, and make sure that we have heard all of them.
    So, I would like those who are testifying on H.R. 1294 and 
H.R. 818 to come to the panel. So if I can ask Skip Brandt, who 
is a Commissioner from Idaho County, Idaho--got you there--
Chris--oh, I should have asked how to pronounce these--Maisch?
    Mr. Maisch. Maisch. You did good.
    Mr. Bishop. Maisch, State Forester from Alaska Department 
of Natural Resources, Division of Forestry; Cindy Dozier, who 
is a Commissioner at Hinsdale County in Colorado; John Martin, 
Commissioner from Garfield County in Colorado; and Jason 
Sibold, who is an Assistant Professor of Geography at Colorado 
State University in their anthropology department.
    So, we appreciate you being here. What we will do is simply 
ask all of you if you would give your opening statement. If you 
were here before, when Chairman Hastings was helping out--and I 
appreciate both Congressman Hastings and Congressman Daines 
organizing us in this particular seat.
    Five minutes, you have your written testimonies already in 
the record. We would ask you to add any oral comments to it. 
But, as you know, there is a 5-minute clock that is right 
there. And if you could please keep it within those 5 minutes, 
I will sound a lot nicer from this point.
    So, if we could just go down the row, let's deal with bill 
H.R. 1294 first. So I am going to ask Commissioner Brandt and 
then Director Maisch. They will talk. And then I will ask if 
the Committee has questions of those two on this particular 
bill. Then we will go down to the next bill and ask the round 
of questions again.
    So, Commissioner Brandt, if you would, please?

STATEMENT OF THE HON. SKIP BRANDT, COMMISSIONER, IDAHO COUNTY, 
                             IDAHO

    Mr. Brandt. Thank you, Mr. Chairman, and leftover Committee 
members. I look forward to this opportunity to visit on H.R. 
1294.
    H.R. 1294 was a brainchild of 5 Idaho County Commissioners. 
We sat down, recognizing that there is a serious budget issue 
coming down the pike for the Federal Government, and we 
recognized that the SRS payments were not going to continue 
forever. And I applaud the leadership of our representative, 
Raul Labrador, in authoring this legislation, which is our 
brainchild.
    Idaho County is a small, little county in Idaho, which is 
the largest county in Idaho. It consists of 5.5 million acres, 
which--4.5 million or managed--or not managed--by the Federal 
Government. So Federal lands is a really serious issue for my 
county, in aspects of services and roads and our schools.
    And the up-and-down reauthorization cycles of the SRS 
payments has really been hard, for budgeting purposes. In fact, 
my school back home just introduced their levy, not knowing 
what next year's payment is going to be, or if it is going to 
be.
    In the aspect of the testimony that I would like to make, I 
just note that we have worked very hard to try to find 
solutions. We have been very supportive of the SRS payment, and 
it is essential for continuing the necessary services.
    I, myself, participate in the Clearwater Basin 
Collaborative, a collaborative group that started 5 years ago. 
I have been participating for 4 years. And I am very supportive 
of it. However, 4 years down the line--literally 5 years for 
others--it still hasn't produced anything significant. And it 
hasn't--the collaborative process has brought a lot of players 
to the table. However, we are still bound by this broken 
Federal system which hinders the Forest Service.
    And I would just like to note that I do appreciate Chief 
Tidwell and his crew for their willingness to sit at the table 
with us and be a partner in trying to move things forward. 
However, I do recognize that their hands are tied by that 
broken system.
    One way or the other, the Federal lands are going to be 
managed. By Mother Nature and fire, or we can do it, and we can 
control the environmental issues that come along with massive 
fires. This last year--and it has been stated that we have 
canceled football games and practices because of air quality.
    And I want to note that this isn't just a place that I want 
to go visit. This is my backyard. I just got done planting 500 
white pine trees up above--beyond my house. I have the 
confluence of the South Fork and the Clearwater River down in 
front of my house. I love going fishing with my son. I want to 
protect the environment. But at the same time, we need to have 
active management so our communities will thrive.
    In closing, I am willing to come to the table and work with 
anybody to help find a final solution, other than standing 
around with our hands out and making multiple trips back here, 
trying to talk you folks into giving us more money. I grew up 
in an economy where the schools thrived when we were harvesting 
timber on national lands and we received money via the 25 
percent fund. So I know it will work. Our--if you hand us the 
authority to manage our lands, we will have a thriving economy, 
as well as we will protect our air, our water, our backyard.
    Thank you, Mr. Chairman, and I would stand for questions.
    [The prepared statement of Mr. Brandt follows:]

  Statement of The Honorable Skip Brandt, Commissioner, Idaho County, 
 Idaho, on Behalf of Himself and Jon Cantamessa, Former Commissioner, 
   Shoshone County, Idaho; Gordon Cruickshank, Commissioner, Valley 
County, Idaho; Dan Dinning, Commissioner, Boundary County, Idaho; Stan 
     Leach, Commissioner, Clearwater County, Idaho; and The Idaho 
                        Association of Counties

Introduction
    I am Skip Brandt, Commissioner, Idaho County, Idaho.
    I am pleased to be here today to testify in support of H.R. 1294 
The Self-sufficient Community Lands Act of 2013. H.R. 1294 is based on 
a Community Forest Trust concept developed by a bipartisan group of 
five duly elected county commissioners from throughout Idaho and 
subsequently endorsed by the Idaho Association of Counties.
    I submit this statement of support for H.R. 1294 on behalf of 
myself, my fellow commissioners identified on the cover page who helped 
initiate this concept, and the Idaho Association of counties.
    We applaud the leadership of our Representative Raul Labrador in 
authoring this legislation and his support for the rural forested 
communities of Idaho.
    H.R. 1294 will allow a transition path from the federal transfer 
payments of the Secure Rural Schools and Community Self Determination 
Act (SRS) program, to a sustainable and reliable program for revenues 
which do not depend on distributions from the U.S. Treasury. It would 
authorize our proposal for specific lands within the Idaho national 
forests to be designated as a Community Forest Trust pilot and that the 
resources on those lands be managed in an sustainable and 
environmentally sound manner for the purpose of generating resources 
for Idaho counties in lieu of transfer payments under the Secure Rural 
Schools program.
    We support the interim reauthorization of the SRS program in 2013 
as it is immediately essential to the funding of county government 
school and road programs throughout the country. However, as part of 
that reauthorization we are specifically proposing the Congress include 
H.R. 1294 which will allow us, and any other interested stated, to 
establish a Community Forest Trust pilot projects. These pilot projects 
will demonstrate the opportunity for the Community Forest Trust to 
provide a far superior alternative to the SRS federal transfer 
payments. Additionally, revenues generated from the Community Forest 
Trust pilot project would quickly begin to offset some of the federal 
government transfer payments under the SRS program, and thereby help 
immediately to partially reduce the impact to the federal treasury for 
SRS payments.
    We have developed the Community Forest Trust concept from our 
combined experience with local government and natural resource 
management, and with considered and ongoing input from natural resource 
management professionals. Each of our counties has voted formally in 
public meetings to embrace the Community Forest Trust concept for Idaho 
and to seek authorizing legislation from the U.S. Congress. So has the 
Idaho Association of Counties.
    We do appreciate the federal government's long standing obligation 
of support for counties with significant quantities of federal land. 
Congress has recognized, and we completely concur, that there must be a 
federal mechanism for contributing funds to local government where 
federal lands are not available for the local government tax base. The 
federal transfer payments of the SRS program have been essential for 
the last several years to maintaining threshold county government 
services for schools, roads, and public safety. However, the continuous 
uncertainty over whether the SRS program will continue and if so at 
what level, does not provide for stability, and makes it impossible for 
our counties to develop long term plans. We also believe the federal 
deficit is a significant problem for our entire country and a primary 
threat to our national security. H.R. 1294 will help address these 
paramount issues. Additionally, the pilot programs authorized by H.R. 
1294 have the opportunity to stimulate increased economic development 
and employment in our rural communities, and facilitate efficient 
prioritized treatments of unhealthy forests with high risk of fire and 
disease. These are priorities we also share with the U.S. Congress.
Community Forest Trust
    Our original proposal for a Community Forest Trust is described in 
detail in a hearing statement and concept paper we presented to this 
committee for the record in July, 2011. Basically the idea is for a 
Community Forest Trust to be designated by Congress from federal forest 
lands and further for Congress to provide those lands be managed in 
trust by the state for the benefit of county governments and local 
communities. In Idaho's case, professional forest management would be 
provided by the Idaho Department of Lands under the environmental laws 
as they apply to all Idaho state forest trust lands. Proceeds from 
management of the Community Forest Trust would be distributed to 
counties receiving Secure Rural Schools funding in lieu of transfer 
payments from the federal treasury, after having first reimbursed the 
managing agency for land management costs. Management of the Community 
Forest Trust would be overseen by a Board of elected officials and 
stakeholders as identified in H.R. 1294.
    H.R. 1294 pilot projects would be managed sustainably and with 
multi-stakeholder input and environmental monitoring.
    In Idaho, most of our counties are actively engaged in multi-
interest collaborative discussions on federal lands management 
projects. In Idaho County we helped organize and have continuously 
participated in the nationally acclaimed Clearwater Basin Collaborative 
to address forest management opportunities on federal forest lands in 
our area. We would build on these relationships to solicit input to 
help shape management plans and projects for pilot projects authorized 
by H.R. 1294.
    Our Clearwater Basin Collaborative Projects have also won support 
under the Collaborative Forest Restoration Act Program--competing 
against numerous collaborative projects nationally.
Pilot Project
    To demonstrate the benefits of the Community Forest Trusts as 
envisioned by H.R. 1294, we have proposed a 200,000 acre Idaho pilot 
project be initially and immediately approved, located in management 
blocks throughout the forested region of the state. This is a small 
pilot including less than 1% of the 20 million acres of national forest 
land in Idaho. While it is unreasonable to expect a pilot of this small 
size to fully offset established levels of SRS transfer payments, it is 
sufficiently sized to prove and fine-tune the Community Forest Trust 
model and, once functioning, we believe has the potential to generate 
up to $15 million annually to offset federal SRS transfer payments to 
Idaho counties.
Boundary, Clearwater, Idaho, Shoshone, and Valley Counties
    The counties we represent contain some of the largest percentages 
of federal forest lands in the country.
[GRAPHIC] [TIFF OMITTED] 80441.001


    .epsThe Secure Rural Schools and Self Determination Act program is 
an essential component of our county budgets for roads and schools.
[GRAPHIC] [TIFF OMITTED] 80441.002


    .epsFace the challenges of all rural America with declining 
economies, employment opportunities, and populations living below 
national standards. Particularly acute in counties with extensive 
federal forest lands
[GRAPHIC] [TIFF OMITTED] 80441.003


.epsConclusion
    Thank you for the opportunity to testify. We urge this Committee 
quickly approve H.R. 1294.
                                 ______
                                 
    Mr. Bishop. Thank you, I appreciate your testimony.
    Director Maisch.

    STATEMENT OF JOHN ``CHRIS'' MAISCH, STATE FORESTER AND 
 DIRECTOR, ALASKA DEPARTMENT OF NATURAL RESOURCES, DIVISION OF 
                            FORESTRY

    Mr. Maisch. Yes, thank you. Can I have the title slide up, 
please?
    Good morning, Mr. Chairman. My name is Chris Maisch, and I 
am the Alaska State Forester and Division Director for the 
Alaska Division of Forestry. On behalf of the Governor of 
Alaska, thank you for the opportunity to submit written and 
public testimony.
    I would like to begin my testimony by discussing a concept 
we believe is essential to considering legislation of this 
nature.
    Next slide. The State of Alaska embraces the concept of a 
working forest, which is further described as the utilization 
of forest resources to create jobs and healthy communities 
through active forest management.
    Next slide. The healthy environment should support a strong 
social structure, which will, in turn, support a robust 
economy. The State of Alaska and others use the phrase ``triple 
bottom line''--next slide--to reference this relationship, 
which is also described as sustainability. When any one of 
these elements is emphasized disproportionately, the other 
elements suffer in measures of quantity and quality.
    Next slide. Unfortunately, in Alaska, and other parts of 
the Nation, an unbalanced relationship between the three bottom 
lines is causing major challenges for State and local 
governments and communities. Federal policy on national forest 
system lands has shifted away from the working forest concept 
to disproportionately embrace a protection-oriented approach.
    Next slide. Graphically, this diagram represents what has 
happened to acreage available for timber management on the 
Tongass. The arrows proportionately show how acreage has been 
reduced for a variety of reasons. The dark green band 
represents the Tongass at 16.7 million acres. The take-home 
point is the small black and green column at the bottom of the 
graphic only represents 672,000 acres of land for timber 
management.
    Next slide. This graph demonstrates the decline of timber 
sale volume from 1996 to 2012 on Federal lands, with the State 
volume increasing slowly over the same period of time from a 
land base of only 50,000 acres.
    Next slide. Alaska Timber Jobs Task Force was convened by 
Governor Parnell in 2011 with Administrative Order 258, which 
established the Alaska Timber Jobs Task Force to recommend ways 
to revive Alaska's timber industry. The Task Force gathered 
information from numerous State and Federal agencies to capture 
the social implications of industry decline, and utilize 
measures of regional population and school enrollment.
    Twenty-four of 34 southeast communities, 71 percent, have 
lost population. Schools are the leading indicator of community 
health. In total, there has been a 15 percent decline in 
southeast student enrollment since 1990. And, more compelling, 
during the past 20 years, six communities have had to close 
their schools.
    Recent news from the Forest Service concerning the Secure 
Rural Schools payment and sequestration is an unwelcome 
development, and underscores the need for a better approach for 
funding school districts dependent on this income. H.R. 1294 
outlines a solid process for establishing a more consistent 
funding approach, while meeting the objectives outlined above.
    I offer the following observations concerning the benefits 
of State management, as opposed to Federal. In 1989, the Alaska 
Forest Resources and Practices Act was established, and governs 
forest practice on State, municipal, and private lands. The Act 
uses enforceable BMPs to protect fish habitat and water 
quality, and addresses other practices. Lands designated as 
State forest are managed per State forest purposes, as defined 
in Alaska statute. The statute states, ``The primary purpose is 
the establishment of State forest as timber management that 
provides for the production, utilization, and replenishment of 
timber resources, while allowing other beneficial uses of 
public land and resources.''
    In contrast, Federal lands have numerous conditions and 
guidelines that prevent the Forest Service from generating 
significant revenue from forest management activities. The new 
2012 national planning rule and the National Forest Management 
Act present significant hurdles to revenue production as a key 
objective for these lands. These conditions and numerous others 
complicate the timber sale process for the Forest Service and 
often result in below-cost sales or sales that are only 
marginally economic. Here, State management would offer clear 
advantages.
    The State of Alaska also supports the concept of Restoring 
Healthy Forests for Healthy Communities Act, as it could 
significantly increase timber harvests on national forests. 
Additionally, the State of Alaska would concur with the 
specific recommendations in H.R. 818 concerning Good Neighbor 
and stewardship contracting authorities. The National 
Association of State Foresters is also on record with support 
for these concepts.
    In closing, I would like to leave you with this thought. 
Alaska's Federal and State forests have the potential to be a 
model of sustainability, including environmental, social, and 
economic objectives. The working forest concept embraces 
diverse and broad objectives related to utilizing natural 
resources, providing jobs, stimulating local economies, and 
supporting communities. These broad objectives have the 
potential to unify diverse stakeholders and interest groups.
    Thank you again for the opportunity to discuss Federal 
forest management.
    One last point I would like to make is one of the key 
recommendations from the Alaska Timber Jobs Task Force was for 
the establishment of a 2-million-acre State forest in Southeast 
Alaska, which would entail a transfer of Federal lands. The 
Task Force made four recommendations on how that should occur. 
And if you have questions, I would be happy to go into detail 
on that for you.
    Mr. Chairman, this concludes my testimony, and I would be 
happy to address any questions.
    [The prepared statement of Mr. Maisch follows:]

 Statement of John ``Chris'' Maisch, C.F., State Forester and Division 
  Director, Department of Natural Resources, Division of Forestry, on 
                       Behalf of State of Alaska

    Good morning, Mr. Chairman, Ranking Member Mr. Grijalva, Mr. Young, 
and Members of the Subcommittee. My name is Chris Maisch and I am the 
Alaska State Forester and Division Director for the Alaska Department 
of Natural Resources, Division of Forestry. On behalf of the Governor 
of Alaska, thank you for the opportunity to submit written and public 
testimony to the House Committee on Natural Resources regarding the 
Self-Sufficient Community Lands Act (H.R. 1294) and other related 
legislation. We appreciate your attention to the important economic and 
environmental issue of national forest management. Modern forestry is 
the greenest of green industries and yet communities located in and 
near national forests are desperate for the restoration of green jobs 
that could result from proper stewardship of our nation's unmatched 
forest endowment.
    I would like to begin my testimony by discussing a concept we 
believe is essential to considering legislation of this nature, before 
describing the current situation in Southeast Alaska, and potential 
scenarios for State management.
    The State of Alaska embraces the concept of a Working Forest, which 
is further described as the utilization of forest resources to create 
jobs and healthy communities through active forest management. A 
healthy environment should support a strong social structure, which 
will in turn support a robust economy. The State of Alaska and others 
use the phrase ``Triple Bottom Line'' to refer to this relationship, 
which is also described as sustainability.\1\ When any one of these 
elements is emphasized disproportionately, the other elements suffer in 
measures of quantity and quality. Unfortunately, in Alaska and other 
parts of the Nation, an unbalanced relationship between the three 
``bottom lines'' is causing major challenges for state and local 
governments and communities. Federal policy on National Forest System 
lands has shifted away from the Working Forest concept to 
disproportionately embrace a protection-oriented approach.
---------------------------------------------------------------------------
    \1\ USDA, 2011. National Report on Sustainable Forests-2010, United 
States Department of Agriculture, Forest Service, FS-979.
---------------------------------------------------------------------------
    Alaska's forest endowment is massive. Alaska's two national 
forests, the Tongass and the Chugach, are the largest in the country. 
Together they are nearly equal in size to the 52 forests located in the 
Forest Service Eastern Regions' 8 and 9--over 22 million acres. 
Unfortunately, the economic ``bottom line'' of Alaska's federal forest 
endowment has been short-changed, to the detriment of Alaska's 
communities.
    This is illustrated by federal management of the Tongass National 
Forest in Southeast Alaska. The Tongass is the largest national forest 
and encompasses about 17 million acres of land. Not all of this land is 
suitable for timber management, but through a series of legislative 
withdrawals and policy changes, the suited timber base available for 
management has declined to only 672 thousand acres--or 4% of the 
Tongass acreage.
    Nearly six million acres are managed as wilderness in the Tongass. 
That is more wilderness acres than the Forest Service manages in 
Arizona, Florida, Nevada, New Hampshire, Pennsylvania and Oregon 
combined (4.8 million acres).
    The limitations mentioned, in combination with an unwieldy U.S. 
Forest Service policy, have led to a precipitous decline in timber 
volume offered for sale. At the same time logging and wood products 
employment remains a mere shadow of its past, falling from 4,600 jobs 
in 1990 to approximately 307 logging jobs and 150 wood products 
manufacturing jobs in 2011. Annual payroll lost since 1990 is well over 
$100 million. Payroll in recent years has fallen to approximately $21 
million for the logging and the forest products manufacturing 
sector.\2\ Conditions have continued to deteriorate since 2011 and the 
Southeast Alaska timber industry has nearly collapsed. The few jobs 
left are attributable to forest management activities by landowners 
such as the Sealaska Corporation and the State of Alaska. Since 2007, 
what remains of the timber industry in Southeast Alaska has lived from 
timber sale to timber sale.
---------------------------------------------------------------------------
    \2\ Alaska Department of Labor.
---------------------------------------------------------------------------
Alaska Timber Jobs Task Force
    In 2011, Governor Parnell issued Administrative Order 258 which 
established the Alaska Timber Jobs Task Force to recommend ways to 
revive Alaska's timber industry. The task force was a combined federal, 
state, private industry, and community group appointed by Governor 
Parnell. The Governor charged the task force with considering and 
attempting to address a number of specific tasks, several of which were 
directly related to timber management on federal lands and the need to 
utilize these renewable resources to benefit local, regional and 
national public interests. The final report from the task force was 
completed in 2012.\3\
---------------------------------------------------------------------------
    \3\ Available at http://forestry.alaska.gov/pdfs/
timber_jobs_task_force_report_final.pdf.
---------------------------------------------------------------------------
    The task force gathered information from numerous state and federal 
agencies to capture the social implications of developments in the 
Southeast timber industry. The task force found the decline in 
Southeast Alaska's timber industry impacted social measures, such as 
regional population and school enrollment. Statistics from the 2010 
U.S. Census show that total population has declined by 5% over the past 
decade. Furthermore, 24 out of 34 Southeast communities (71%) have lost 
population ranging from -2 percent (Hydaburg) to -57 percent (Point 
Baker).\4\ The Southeast region of Alaska, dominated by the Tongass 
forest, is the only region to lose population during the last two 
censuses.
---------------------------------------------------------------------------
    \4\ Alaska Timber Jobs Task Force 2012, Report to Governor Sean 
Parnell, Prepared By Alaska Timber Jobs Task Force, Administrative 
Order 258: Final Report, Appendix 8 p3.
---------------------------------------------------------------------------
    Schools are the leading indicator of community health. The Task 
Force found that while ``[n]early all (31 of 34) Southeast communities 
have had a public community school at one point in time . . . the 
majority of communities have experienced enrollment declines over two 
decades. In total, there has been a 15 percent decline in Southeast 
student enrollment since 1990. During the past 20 years, six 
communities (19%) have seen their school close (one school has since 
reopened in Kasaan). Of the 31 communities with schools, the majority 
(87%) have experienced a declining student enrollment sustained over 
nearly two decades; only (10%) have increasing school enrollments.'' 
\5\
---------------------------------------------------------------------------
    \5\ Alaska Timber Jobs Task Force 2012. Appendix 8 p 3-5.
---------------------------------------------------------------------------
    The Southeast Island School District serves residents of the 
islands of Prince of Wales, Baranof and Kosciusko--all located in the 
heart of the Tongass National Forest. Those islands were the most 
intensively managed during the peak of timber harvest. In 1995, the 
district served 381 students in 12 schools. Today, nine schools serve 
160 students.
    Recent news from the USFS concerning Secure Rural Schools payments 
and sequestration could exacerbate an already troubling situation. The 
State and school districts have received an invoice for $826,331 as a 
result of the 5.1 percent cut in funding in our Title I-III 
allocations.\6\ This unwelcome development underscores the need for a 
better approach to funding school districts dependent on this income.
---------------------------------------------------------------------------
    \6\ USDA Forest Service Correspondence, March 19, 2013.
---------------------------------------------------------------------------
    Despite these grim realities, the region is fighting to survive and 
reinvent itself. Federal legislation could help make this possible.
Self-Sufficent Community Lands Act (H.R. 1294)
    H.R. 1294 outlines a solid process for establishing a more 
consistent funding approach, while meeting the objectives outlined 
above. I offer the following observations concerning the benefits of a 
state-managed community forest demonstration area in comparison to the 
current form of management.
    The Alaska Forest Resources and Practices Act (FRPA) governs forest 
practices on state, municipal, and private land, including the Alaska 
Mental Health Trust and University of Alaska Trust lands. The Act, in 
place since 1989, has been updated several times as new science becomes 
available. Scientific findings are reviewed in a two-step process via 
Alaska's Board of Forestry. The Act includes effectiveness and 
implementation components to ensure the best management practices 
(BMPs) remain current.
    Lands designated as State Forest are managed per state forest 
purposes, as defined in Alaska statute (AS 41.17.200). The statute 
states, ``[t]he primary purpose in the establishment of state forests 
is timber management that provides for the production, utilization, and 
replenishment of timber resources while allowing other beneficial uses 
of public land and resources.'' The focus is on providing a consistent 
well managed supply of wood to private sector businesses that 
subsequently produce a range of products and services that will benefit 
local communities. The State has emphasized job creation over 
maximization of revenue in its management of state forests, but two 
State Trusts follow the maximum fiscal return approach to ensure 
beneficiaries are well served.
    In contrast, federal lands have numerous conditions and guidelines 
that prevent the USFS from generating significant revenue from forest 
management activities. The new 2012 National Planning Rule includes 
language that states: ``the plan must provide for ecosystem services 
and multiple uses . . .'' and contains additional language concerning 
integrated resource management planning that must address a long list 
of criteria, which in part include: aesthetic values, air quality, 
ecosystem services, habitat connectivity, scenery, view sheds, 
wilderness and other relevant resources and uses.\7\ The National 
Forest Management Act (NFMA) also includes a section to ``insure that 
timber will be harvested from the National Forest System lands only 
where the harvesting system to be used is not selected primarily 
because it will give the greatest dollar return or the greatest unit 
output of timber.'' \8\
---------------------------------------------------------------------------
    \7\ 36 CFR 219 Subpart A-National Forest System Land Management 
Planning (2012 National Planning Rule) Sec. 219.10 Multiple use (a) 
(1).
    \8\ U.S. Code 1604(g)(3)(iv) (National Forest Management Act 
(NFMA)).
---------------------------------------------------------------------------
    These conditions and numerous others complicate the timber sale 
process for the USFS and often result in below cost sales or sales that 
are only marginally economic. Here, state management would offer clear 
advantages. The State public process is less cumbersome which allows 
prompt reaction to market changes and the ability to offer long term 
timber sales up to 20 years or longer, which would encourage the 
investment of private capital and manufacturing facilities.
Restoring Healthy Forests for Healthy Communities Act, Healthy Forest 
        Management and Wildfire Prevention Act (H.R. 818), and Other 
        Matters
    The State of Alaska also supports the concept of the Restoring 
Healthy Forests for Healthy Communities Act, as it could significantly 
increase timber harvests on national forests. Additionally, the State 
of Alaska would concur with specific recommendations in H.R. 818 
concerning ``Good Neighbor ``(Sec. 8.) and Stewardship Contracting 
(Sec. 9.) authorities. The National Association of State Foresters is 
also on the record with support for these concepts. (See attached 
correspondence).
    Finally, the State of Alaska supports an equitable resolution of 
the Sealaska Corporation's land entitlement under the Alaska Native 
Claims Settlement Act and a proposed land exchange between the Alaska 
Mental Health Trust and the U.S. Forest Service. Resolving these issues 
is important to balancing the triple bottom line of Southeast Alaska.
Conclusion
    In closing, I would like to leave you with this thought: Alaska's 
federal and state forests have the potential to be a model of 
sustainability, including environmental, social, and economic 
objectives. The ``working forest'' concept embraces diverse and broad 
objectives related to utilizing natural resources, providing jobs, 
stimulating local economies and supporting communities. These broad 
objectives have the potential to unify diverse stakeholders and 
interest groups.
    Despite more than 50 years of timber harvest in the Tongass, a mere 
2.5 percent of the old growth forest has been harvested. The Tongass 
alone is roughly half the size of Pennsylvania and Massachusetts 
combined, yet today, more commercial harvest occurs in those states 
than in all of Alaska. By allowing another 4.5 percent of old growth to 
be harvested in the Tongass over the next 80 years, hundreds of jobs--
the equivalent of an auto factory--would be created and sustained 
forever--the ultimate green industry.
    Thank you again for the opportunity to discuss federal forest 
management. I urge you to act on these important pieces of legislation. 
Mr. Chairman, this concludes my testimony and I would be happy to 
address any questions the Committee may have.
                                 ______
                                 

   Response to Questions Submitted for the Record by John ``Chris'' 
                     Maisch, State Forester Alaska

    I appreciate your questions considering employment numbers in other 
segments of the Southeast Alaska economy. While the Timber Task Forces 
process was focused on the plight of the timber industry in southeast, 
the triple bottom line concept discussed in my testimony speaks to the 
need of having a diversified economy across many sectors to ensure 
communities and residents are not dependent on a single sector. The 
concept also embraces the need of a balance between the environmental, 
social and economic aspects of communities to encourage sustainability.
    While I can't corroborate the specific numbers you cited, I did do 
some research to document employment and fiscal contributions of these 
two sectors. I relied heavily on a report produced by the Alaska 
Department of Labor & Workforce Development for the fisheries 
information and excerpted freely from that document and used a report 
from Southeast Conference to help answer the tourism portion of your 
questions.
    Alaska's fisheries are some of the most sustainable, best managed 
in the world. Commercial fishing is one of the largest private-sector 
industries in the state, including all seafood harvesting and 
processing. Many of the processing jobs available in the seafood 
industry are in remote locations, such as Dutch Harbor and Naknek, or 
on at-sea processors in the Bering Sea.
    Thousands of visitors come to Alaska each year to enjoy world-class 
sort fishing and in the process contribute to the economy by supporting 
local business. Fishing also provides about 60 percent of subsistence 
foods taken each year by both Alaska Natives and non-Natives.
    Harvesting is highly seasonal with employment distributed among the 
following fisheries in 2010: salmon (50.2 percent), halibut (20.1 
percent), ground fish (8.1 percent), sablefish (7.4 percent), crab 5.4 
percent), herring (4.9 percent) and miscellaneous shellfish (3.9 
percent).
    Average monthly fish harvesting employment had declined nearly 
every year since 2005 and in 2010, hit its lowest level since the data 
series was created. In 2010, there were 6,915 harvesters working each 
month on average, a decline of 2.4 percent from the previous year and 
down 7.6 percent from 2005.
    It's important to note that declining average monthly employment is 
not necessarily an indicator of weakness in the industry. A better 
overall indicator of the harvesting industry's health is gross 
earnings, which grew modestly from 2005 to 2010.
    More specifically, the Southeast region had the largest fish 
harvesting workforce in 2010, but gross earnings ranked third behind 
Southcentral and the Aleutians and Pribilof Islands. Harvesting 
employment grew by 146 workers, reaching 9,182. Southeast had a record 
year for gross earnings ($208 million), $49 million more than in 
2005.\1\
---------------------------------------------------------------------------
    \1\ Alaska Economic Trends, November 2011, Volume 31, Number 11, 
Alaska Department of Labor & Workforce Development.
---------------------------------------------------------------------------
    The visitor industry (tourism) is an important component of the 
economy of southeast. More than a million visitors came to the region 
in 2011, with most (85 percent) on cruise ships. The volume of visitors 
attracted to the region has given rise to a rich variety of visitor 
focused businesses and when aggregated, the visitor industry is one of 
the region's largest private sector employers' accounting for 13 
percent (6,000 jobs) of all employment in the region. This activity 
brings in $164 million in employment income.\2\
---------------------------------------------------------------------------
    \2\ Visitor Industry includes leisure and hospitality businesses 
with others that specifically comprise the industry in Southeast Alaska 
such as jewelry stores, tour operators, air transportation businesses 
etc. For more detail on other businesses included in this sector see, 
Southeast Alaska by the Numbers, 2012, page 7, Southeast Conference. 
www.seconference.org.
---------------------------------------------------------------------------
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate both of you coming here 
and testifying.
    On this particular bill, Mr. Tipton, do you have questions 
on this one for these two witnesses?
    Mr. Tipton. Actually, I do have just one question. And I 
think that--let's see, I want to make sure I get the right one 
here with Mr. Maisch--is that correct?
    Mr. Maisch. That is correct.
    Mr. Tipton. You know, in your testimony you just noted 
that, with the three categories that you mentioned, that it is 
disproportionately tilting toward a protection-oriented 
approach that you had described. Would you describe your job as 
a State Forester to be able to protect the forests?
    Mr. Maisch. Yes. Our program does both wildland fire and 
forest management. So it is the same realm that the U.S. Forest 
Service has, in terms of their charge. And we do active 
management of our forest lands.
    A good example would be best interest--I signed just last 
week for a biomass project near the community of Tok. It is in 
a location of the State that has a lot of wildland fire. About 
every decade this community is threatened by rather large 
fires. And the idea there is the electric utility company is 
going to put in a facility that will use biomass instead of 
diesel fuel for this community, which is off the grid. They are 
not tied into the electric grid.
    At the same time, we are going to treat fuels that need to 
be treated right in the community. Currently it costs us $1,000 
to $1,500 an acre to treat those fuels. And now we will 
actually be generating some revenue from the same areas we 
would have previously paid to have treated. So that is one 
example of some of the kinds of----
    Mr. Tipton. Would it be kind of a fair characterization of 
what I believe you are trying to say that a lock-down and lock-
out approach, when it comes to responsibly treating these 
forests, is not appropriate, that we can better protect, 
actually, the environment and the overall health of our 
economies, our environment, and our communities by taking that 
active role?
    Mr. Maisch. That is correct, and that is that working-for-
us concept, that by doing active management on these lands, all 
three of those elements I mentioned will benefit and not to the 
detriment of any of the others.
    Mr. Tipton. Great. Thank you. I yield back, Mr. Chairman.
    Mr. Bishop. Thank you. Mrs. Lummis, do you have questions?
    Mrs. Lummis. Yes, thank you, Mr. Chairman. Question for 
Commissioner Brandt. I listened to your testimony and share 
very much your view of where you live and how the people who 
live there care more about it than anyone possibly could.
    Do you have any advice for us, those of us who just are 
here day in and day out, trying to get that point across to 
people that here we are, 50 years down the road from the times 
when there were ill-advised clear-cuts and timber run amuck, 
and yet people, it seems back east, and Federal land managers, 
and perhaps some environmental groups try to conjure up those 
images of the middle of the 20th century, long since dead and 
gone, to raising concerns that people who don't live--excuse 
me, the people who do live there somehow don't care.
    And I am so frustrated. And you heard some of those 
frustrations this morning by people on this panel who just 
cannot, for the life of them, figure out why people who don't 
live in the places that we live think that those of us who live 
there would do things to the land and the air and the water 
that we live with, around, and love? I am to this day, I am 
baffled about it.
    Do you have any insights that I don't have? Maybe I have 
been here in--breathing this air too long.
    Mr. Brandt. Thank you, Mr. Chairman and Congresswoman. I 
wish I did. It is just mind-boggling to me. Even in our 
collaborative groups--and I will probably have a discussion 
with those folks when I get back--but I am so frustrated at 
times. When you look at the conservation groups that 
participate in our collaborative group, they don't live there. 
We have a very radical environmental group that is called 
Friends of the Clearwater. They don't live on the Clearwater. I 
live on the Clearwater. They live in a college town, where they 
can make a good living. And they have great schools, because 
they have a tax base.
    And so, I don't know what to really tell you there, other 
than, as Congressman DeFazio stated, it is time for a change. 
And I have gotten to the point to where I don't believe you can 
change it back here. I think you just have to hand authority 
over to us to manage it under our State Forest Management 
Practices Act.
    Mrs. Lummis. Amen to that, and no further questions, Mr. 
Chairman.
    Mr. Bishop. Thank you. Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. Skip, Commissioner 
Brandt, thank you so much for being here. You have been a great 
defender of your county and of the State, and I appreciate 
everything you do for Idaho.
    I don't know if you were here when I was questioning Mr. 
Tidwell. I think you share the respect that I share--that I 
have for him. I think you have a lot of respect for him. But I 
was really frustrated today, because he seemed to indicate that 
the community was supporting his management practices. And I 
don't know where he got that information from. Do you share 
with him that the community actually wants the Federal 
Government to be handing money to them, and that the community 
actually wants the Federal Government to be managing the lands, 
and they don't really want the State to manage these lands?
    Mr. Brandt. No, I do not. No.
    Mr. Labrador. Can you explain what you feel about that, and 
how you felt today when you were listening to him?
    Mr. Brandt. Well, to a degree I felt sorry for Mr. Tidwell 
because, again, his hands and his folks, their hands are tied. 
A month doesn't go by that I don't talk to a Forest Service 
forester who is just quivering mad because they recognize that 
they have to get in there and have proper land management, but 
can't because of their top-down procedure and their need to 
study things to death.
    It doesn't matter what it is, if you sit down and study 
something long enough, you are going to find a reason why you 
shouldn't do it. And then, if you send out questionnaires to 
everybody and their dog, you are going to find a person 
somewhere in this Nation that doesn't think that you should 
pull that timber sale off, or whatever the restoration action 
is. And so it is very frustrating on our end. But I also see 
the frustration with several members of the Forest Service.
    Mr. Labrador. Now, you participate in the collaborative 
process that he was describing. Do you share with him the--he 
seemed to always go back to that as that it was being very 
successful. Do you think it is as successful as he was 
characterizing it today?
    Mr. Brandt. Not as successful as he was characterizing it. 
The collaborative process has been successful in aspects that 
it has all the players--or most of the players--at the table 
and talking. But again, we can only do what Federal law allows 
the Forest Service to do, because they are our partner.
    Mr. Labrador. OK. So last year in Idaho we had a record 
fire year. And the Federal Government expends more dollars to 
fight fires on Federal lands than on State-administered lands. 
Can you provide the Committee additional detail on why this is 
the case? Why would we be spending more money on Federal fires 
than State fires?
    Mr. Brandt. I have a very good friend who was a helicopter 
pilot for all the fire birds that go around and put out fires. 
And his best explanation was that his boss said, ``There are 
two kinds of fires. There is coffee-and-bagel fire and beer-
and-peanut fires.'' The coffee-and-bagel fires were the forest 
lands, where they would get up and they would have their 
opening status briefing, then they would have a safety meeting, 
and then they would have a strategy meeting, and the birds--the 
blades wouldn't turn until it was close to noon. Where if it 
was a fire on State land, or private land, those blades are 
turning 30 minutes before sunrise, and they would go out and 
put out the fire, and they would be drinking beer and eating 
peanuts at night, because it is all done.
    Mr. Labrador. And I want to clarify the coffee-and-bagel 
fire was on Federal land.
    Mr. Brandt. Federal lands.
    Mr. Labrador. OK.
    Mr. Brandt. While you are having those meetings----
    Mr. Labrador. Yes.
    Mr. Brandt [continuing]. To have meetings.
    Mr. Labrador. OK. Now, tell us why you support, then, the 
State management of lands, why you think it would be good to 
your county and, in essence, to the United States and the State 
of Idaho?
    Mr. Brandt. Well, I didn't bring that many notes with me. 
The core is, number one, environment. We will protect our 
environment better than the current regulations do. We will 
have an economy. We won't be coming back here and asking for 
the SRS and hand-outs as much. There is still the wilderness 
designation in those lands which will not be--have extraction 
on them.
    But also, it is key to note how much the Federal Government 
has to pay to harvest timber where, on private land and State 
land, we make money off of those logs, rather than needing more 
appropriations to go in and treat.
    Mr. Labrador. And do you, as a Commissioner, want to be 
waiting for----
    Mr. Bishop. Nothing personal, but we are over time.
    Mr. Labrador. All right, thank you.
    Mr. Bishop. I am sorry. We will come back to another round 
if you really want it.
    Mr. Grijalva, are you ready?
    Mr. Grijalva. Yes.
    Mr. Bishop. OK.
    Mr. Grijalva. Sorry. Thank you, Mr. Chairman. Commissioner 
Brandt, what is the status of efforts in the Idaho State 
Legislature to require the Federal Government to return title 
of Federal lands back to the State of Idaho? That is one 
question.
    And the second part of it is do you support that 
legislative effort.
    Mr. Brandt. OK. First is what is the status?
    Mr. Grijalva. Yes.
    Mr. Brandt. Yes. The legislature passed two resolutions, 
one to study the concept and the other to request that the 
public lands, minus national parks and wilderness, be deeded 
back to the State, as our founding fathers intended.
    Do I support it? Absolutely. That is the end result of 
where this bill needs to bring us, because the bill before us 
is a pilot project to just prove that we can----
    Mr. Grijalva. OK, I appreciate that.
    Mr. Brandt [continuing]. Manage.
    Mr. Grijalva. Under my friend Congress Labrador's 
legislation, how would the Federal Government ensure that 
tribal treaty agreements and rights and the very important 
tribal consultation of government-to-government, how would they 
be respected under your end game, where Idaho has all of it?
    Mr. Brandt. The same as they are now. They are a partner 
with the State. And even in our current collaborative process--
--
    Mr. Grijalva. No, I beg to disagree. Right now it is a 
government-to-government consultation with a constitutional 
Federal responsibility. I don't think you have that nexus in 
Idaho. Do you?
    Mr. Brandt. Technically, no. But we do.
    Mr. Grijalva. How can you have both? How can you--I will be 
glad to yield, sir. Let me--yes.
    Mr. Brandt. Again, the Tribes are our partners. And we 
always work close with the tribal actions.
    And I would note for the record that the Nez Perce Tribe, 
who--part of their Reservation is within my county--they manage 
their lands a heck of a lot better than the Federal Government 
does.
    Mr. Grijalva. And that is their sovereign right to do that.
    Mr. Brandt. Absolutely.
    Mr. Grijalva. That is why it is a government-to-government 
relationship with the Federal Government, as opposed to some 
other possible scenario that isn't protected by the 
Constitution.
    I yield to my friend.
    Mr. Labrador. Mr. Chairman, Member Grijalva, the 
legislation allows for the Tribes to keep that sovereignty that 
they have. We actually specifically drafted it that way to make 
sure that the Tribes would receive the same sovereignty that 
they have at this time under Federal law.
    Mr. Grijalva. Reclaiming, well, I will pursue that 
discussion with your office so that I can get that 
clarification. It is kind of important. And the reason I raise 
the question is because tribal representatives at a national 
level asked very specifically what that did, in terms of the 
government-to-government relationship.
    Mr. Labrador. If the gentleman would yield----
    Mr. Grijalva. Surely.
    Mr. Labrador. The legislation takes care of that, and I 
would love to have that discussion with you.
    Mr. Grijalva. Thank you very much.
    Mr. Bishop. Let me just take a couple of moments here for a 
couple of questions. And first of all, to my friend, 
Representative Grijalva, this is based on a Utah statute as 
well, which does exempt both military lands and tribal lands. 
They are not covered as part of what would be given to the 
States.
    I actually appreciate both of you and your testimony that 
you have given here. In fact, your answers to the other 
questions have basically covered everything I wanted to do. So 
let me ask one quick one.
    So, Director, for the State of Alaska, where you are, does 
the State forest in Alaska still provide opportunities for 
recreation and multiple-use purposes?
    Mr. Maisch. Yes, certainly. Those are some of the other 
uses that are allowed and, in fact, encouraged in State 
forests. It is just that the primary purpose is timber 
management, just like in a park the primary purpose is 
protection of resources and recreation and in a wildlife refuge 
the primary purpose is habitat. So it is no different than 
other types of lands.
    The State forest, in my opinion, is actually a more 
friendly place for many more multiple uses than some of those 
other types of designations.
    Mr. Bishop. Thank you. And both of you told why your lands 
are outperforming the Forest Service lands very clearly, as 
well as why your lands that you manage are actually in better 
health than the Federal lands that we have in that area.
    So, let me just take it one step lower, Commissioner, and 
ask you if you believe the counties would be able to manage 
those lands as effectively as the State of Idaho could.
    Mr. Brandt. Individually not. But as a group of counties, 
yes. And as this legislation would do, it would put the other 
board that would oversee the management, similar to what the 
Land Board does in the State.
    Mr. Bishop. All right. I appreciate that. I realize the 
common concept back here is that only something on the Federal 
level can have the scope to look at the entire Nation and do 
things in a positive way. I don't necessarily agree with that, 
for obvious reasons.
    Mr. Labrador, I know you had a couple of questions. I have 
3 minutes of my time left. Would you like to finish that off 
for me?
    Mr. Labrador. Actually, Mr. Chairman, I think I am done 
with my questions. Thank you very much.
    Mr. Bishop. Well, I will keep my 3 minutes, then. Thank 
you.
    To you two--do you have any more?
    Mr. Grijalva. No.
    Mr. Bishop. Any other questions?
    [No response.]
    Mr. Bishop. To you two, I would ask you if you would just 
stay right there for a second as we go through the next bill, 
but I appreciate you coming up here, and I appreciate your 
testimony. And both oral and written was extremely precise.
    Let me go now to H.R. 818, I believe. This is yours, Mr. 
Tipton, as well. We will go through with the testimony from our 
three witnesses. Same drill as before. Your written testimony 
is in the record. If you keep your oral testimony to 5 minutes 
or less, I would be very grateful.
    Let's start with--it is Commissioner Martin, right, from 
Garfield County?

       STATEMENT OF THE HON. JOHN MARTIN, COMMISSIONER, 
                   GARFIELD COUNTY, COLORADO

    Mr. John Martin. Thank you, Mr. Chairman, for recognizing 
me. Yes, I am John Martin. I am a County Commissioner from 
Garfield County, Colorado.
    Mr. Bishop. Can I interrupt you for just one second?
    Mr. John Martin. Yes.
    Mr. Bishop. I am sorry. I understand, Commissioner, that 
you have a flight you need to catch.
    Mr. John Martin. I do.
    Mr. Bishop. It will not be rude if you just walk away from 
us at any time.
    [Laughter.]
    Mr. John Martin. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you, OK. We will reset you to 5 minutes. 
Go ahead, Commissioner.
    Mr. John Martin. It does not offend me, either. Good luck 
on the flight.
    And Garfield County is an area of about 2,900 square miles 
of Western Colorado. I have been a County Commissioner for 17 
years. I have served as the Chairman of the Board for 15 of 
those years. I also serve as the Chair of the Colorado Public 
Lands Legislative Committee and in 2012 elected the first Vice 
President of the Western Interstate Region, a division of the 
National Association of Counties, which serves 14 States.
    And then again, in my attempt to earn a living, I am an 
everyday farmer growing peaches, apricots, and apples in 
Western Colorado. But I would like to point out that before my 
political career started I was a police officer for nearly 25 
years for the City of Glenwood Springs, which is the county 
seat of Garfield County. And, as you may surmise, I am here to 
support H.R. 818 for the following reasons.
    It declares Bark Beetle epidemic, drought, and 
deterioration of our national forests as high-risk and--I 
should say and high-risk wildfires as immediate threats. It 
allows the Governor of the State to designate high-risk areas 
within the national forest and public lands within the State. 
It also allows designation of those high-risk areas by Federal 
agencies within the Forest Service and public lands. It 
promotes good-neighbor cooperation between Federal, Indian, and 
State governments. It allows the use of emergency hazardous 
fuels reduction programs in high-risk areas, supports the 
request by the Colorado--I am sorry, by the National 
Association of Counties to extend the stewardship contracts 
from 10 years to 20 years.
    The bill uses common sense, and encourages Federal agencies 
to work with Indian, State, and county governments, but most of 
all, businesses, which is the true key to success.
    The bill supports a needed and new emerging forest 
restoration industry by supporting economic certainty so tools, 
manpower, and financial support can provide reduction of 
wildfire risks, reduction of hazardous fuels within our forests 
and public lands, which provide a safer area around our 
communities.
    In closing, I would like to offer the following views. 
Federal land managers know the highest-risk areas around us. 
This bill gives them another tool to work with local 
communities to address those risks. Educating the public on 
defensible space continues to be a top priority, and should be 
not overlooked. In fact, in Colorado, citizens can be 
reimbursed by the State up to 50 percent of the cost of 
improving that defensible space.
    The local use doctrine regarding public lands is extremely 
important to us. Nearly 70 percent of the lands in Garfield 
County are managed by the Federal agencies. Forest management 
practices are a crucial part of the picture. Vitality and 
strength of the Western United States is closely tied to the 
health of our public lands.
    And the key questions when considering legislation, rule, 
or regulation by Garfield County is called REAL, R-E-A-L, a 
concept that it is responsive. That--is it truly required by 
State and Federal law? Was comprehensive data used to define 
the problem, and the desired outcome? Were experts who 
administer the affected program engaged? Efficiency, will it 
streamline or add layers of bureaucracy? Is it redundant or 
ineffective? Are current staffing levels significant to comply 
with the added responsibilities or requirements? And 
accountability. Are there measured outcomes to be achieved by 
this change? Is there adequate funding to pay for all the 
direct costs? Are there models in existence that may provide 
better outcome? And local, State, and Federal partnership. Have 
all local elected officials been consulted? Has there been 
collaboration between agencies? Does it limit flexibility to be 
responsive to the community needs?
    Now, this bill answers these questions, and that is H.R. 
818. And Garfield County supports H.R. 818 for the reasons that 
I have just stated above. But, most of all, it will address 
wildfire risk in and around our communities, and promote a 
needed forest restoration industry. And I thank you.
    [The prepared statement of Mr. John Martin follows:]

     Statement of The Honorable John Martin, County Commissioner, 
                       Garfield County, Colorado

    Good day, Chairman and members of the Committee.
    My name is John Martin.
    I am a County Commissioner from Garfield County, Colorado, an area 
of 2,900 square miles in western Colorado.
    I have been a Commissioner for 17 years.
    I have served as the Chairman of our three member board for 15 
years.
    I also serve as Chair of the Colorado Counties Public Lands 
Legislative committee.
    In 2012, I was elected as First Vice-Chair of the Western 
Interstate Region, a division of the National Association of Counties, 
which serves 14 Western States.
    In my attempt to earn an income, I am an everyday farmer, growing 
peaches, apricots and apples in western Colorado.
    I would like to also point out that before life in politics, I was 
a police officer for nearly 25 years in Glenwood Springs, the County 
seat of Garfield County.
    I am here to speak in support of H.R. 818 for the following 
reasons:
    The Bill H.R. 818 ``Healthy Forest Management and Wildfire 
Prevention Act'':
        <bullet>  Declares bark beetle epidemic, drought, deteriorating 
        forest health and high risk wildfires as imminent threats.
        <bullet>  Allows The Governor of a State to designate high risk 
        areas within National Forests and Public Lands within their 
        State.
        <bullet>  Allows designation of high risk areas by Federal 
        agencies within National Forests and Public Lands.
        <bullet>  Promotes good neighbor cooperation between Federal, 
        Indian and State Governments.
        <bullet>  Allows the use of emergency hazardous fuels reduction 
        projects in high risk areas.
        <bullet>  Supports the request by NACO to extend the 
        Stewardship contracts from ten years to twenty.
        <bullet>  The bill uses common sense and encourages Federal 
        Agencies to work with Indian, State and County governments but 
        most of all, business, which is truly the key to success.
    The Bill supports a needed and new emerging forest restoration 
industry by supplying economic certainty so tools, manpower, and 
financial support can provide reduction of wildfire risks, reduction of 
hazardous fuels within our forest and public lands which provide safer 
area around our communities.
    In closing, I offer the following views:
        <bullet>  Federal land managers know the highest risk areas 
        around us; This Bill gives them another tool in working with 
        local communities to address those risks.
        <bullet>  Educating the Public on defensible space continues to 
        be a top priority and should not be overlooked. In Colorado, 
        citizens can be reimbursed by the State 50% of costs for 
        improvements to defensible space.
        <bullet>  The local use doctrine regarding public land is 
        extremely important to us. Nearly 70% of the lands in Garfield 
        County are managed by Federal agencies. Forest management 
        practices are a crucial part of the picture.
        <bullet>  The vitality and strength of the Western United 
        States is closely tied to the health of our public lands.
        <bullet>  Key questions when considering legislation, rule or 
        regulation used by Garfield County (REAL).
Responsive:
        Is it required by state of federal law?
        Was comprehensive data used to define the problem and desired 
        outcome?
        Were experts who administer the affected program engaged?
Efficient:
        Will it streamline or add layers of bureaucracy?
        Is it redundant or inefficient?
        Are current staffing levels sufficient to comply with 
        additional requirements?
Accountable:
        Are there measurable outcomes to be achieved by this change?
        Is there adequate funding to pay for all direct costs?
        Are there models in existence that may provide better outcomes?
Local-State-Federal partnerships:
        Have local elected officials been consulted?
        Has there been collaboration between agencies?
        Does it limit flexibility to be responsive to community needs?
    This bill answers those above questions so,
    The Garfield County Board of Commissioners supports this Bill to 
better the health of our Forests and Public Lands and address wildfire 
risk in and around our communities and promote a needed forest 
restoration industry.
    Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you. Thank you, Commissioner.
    We will turn to the other Commissioner now, Commissioner 
Dozier also from Colorado. You have 5 minutes.

       STATEMENT OF THE HON. CINDY DOZIER, COMMISSIONER, 
                   HINSDALE COUNTY, COLORADO

    Ms. Dozier. Good afternoon. I am Cindy Dozier, Commissioner 
from Hinsdale County, Colorado. I am honored to be here before 
you this afternoon to speak on behalf of House Resolution 818.
    Hinsdale County is one of the most beautiful places anyone 
would ever want to visit. It is also considered the most remote 
county in the lower 48 with 96.5 percent public land, less than 
1,000 full-time residents, and only 1 town and 1 school. We are 
very aware that the things that make our county wonderful for 
visitors and residents alike are the very things that can 
present challenges, challenges that come partly from being 
surrounded by forested land in our San Juan Mountain location.
    The health of our forests, which we all so love to enjoy, 
is paramount in importance to all of us, both in the west and 
across America. Our area is the place where folks come to find 
great remoteness and beauty. Forest health impacts many areas 
of the health, safety, and welfare of our people, including our 
watershed, air quality, and tourism-based economy.
    As you are aware, the State of Colorado and much of the 
western United States have been hit with severe drought 
conditions for several years. This, coupled with areas of 
extensive insect infestation and thick stands of forest 
overgrowth has created an environment ripe for intense wildfire 
activity. In fact, the summer of 2012 saw one of the worst fire 
seasons in recent memory.
    Hinsdale County had the largest fires in its known history, 
the Little Sand Fire, which burned nearly 25,000 acres in 
Archuleta and Hinsdale Counties at a cost of $7.5 million. We, 
therefore, support proactive measures to address forest health 
and mitigate the dangers intense wildfires pose to human 
safety, property, infrastructure, wildlife habitat, and water 
and air quality.
    Because we are primarily public land, the issues addressed 
in H.R. 818 are of extreme importance to us and, we think, to 
any other State or county with forested lands. Hinsdale County 
is a smaller picture of what is happening on a larger scale in 
forests all over the west.
    H.R. 818 specifically identifies the issue at hand, and of 
great importance, vests actual authority to identify high-risk 
areas and initiate mitigation measures to the respective 
States, in coordination with county governments.
    To those of us who locally are most able to recognize the 
risk, and with the most at stake should a wildfire erupt, I 
will refer you to a study requested by Senator Mark Udall 
published in 2011 on the Bark Beetle outbreak in Northern 
Colorado and Southern Wyoming. On pages 37 and 38 he says, 
``Expert local knowledge is needed to guide management,'' and 
that is in the appendix regarding fire risk and behavior.
    We further appreciate the expedited procedures allowed for 
in H.R. 818 for emergency hazardous fuels reduction projects in 
identified high-risk areas, while we emphatically support due 
diligence in preparation for fuels reduction projects, risks to 
property, infrastructure, irreplaceable historic and cultural 
sites, and life and limb, dictate a sense of urgency in 
mitigating nearby fuel load risk.
    With common-sense measures and caution, especially high-
risk areas can be protected in rapid fashion. It is the nature 
of the western United States climate to see cycles of ample 
precipitation and drought, and insect infestation will always 
be a part of that equation. We have been aware for a long time 
that the state of our forests' health was, in many areas, 
experiencing deterioration and a lack of diversity in tree age. 
This condition lends itself to large, intensive, and 
destructive wildfires, which we, unfortunately, have 
experienced recently.
    When I visit around my county and nearby counties, I see 
beetle devastation in many areas. The headwaters of the great 
Rio Grande River are surrounded by standing dead conifers, 
nearly 100 percent in that particular valley. Dead trees do not 
hold water.
    We all remember the terrible fires of 2002, the Hayman Fire 
and the Missionary Ridge Fire, especially. Predictions are that 
this year will be another very challenging year, as far as 
precipitation is concerned.
    The repercussions of our poor forest health are with us 
right now. We urge you to act now. If H.R. 818 were to languish 
this year, I believe, based on last year's wildfire season, we 
could possibly see even more devastating consequences this year 
in our county and all over the west. Please do not let that 
happen.
    It is our view that actions to combat the dangers posed by 
wildfires ought not to be reactive, but proactive. In that 
light, we view H.R. 818 as a valuable tool and much-needed step 
to address forest health and fire mitigation in both the short 
and long term. As a Hinsdale County Commissioner, I wish to 
express our full support of the bill. Please help give us the 
tools to do the right thing in our forests and for our people. 
Thank you very much.
    [The prepared statement of Ms. Dozier follows:]

        Statement of The Honorable Cindy Dozier, Commissioner, 
                       Hinsdale County, Colorado

    Good morning. I am Cindy Dozier, Commissioner from Hinsdale County, 
Colorado. I'm honored to be here before you this morning to speak on 
behalf of House Resolution 818.
    Hinsdale County is one of the most beautiful places anyone would 
ever want to visit.
    It is also the most remote county in the lower 48 states. With 
96.5% public land, less than 1,000 full-time residents, and only one 
town and one school, we are very aware that the things that make our 
county wonderful for visitors and residents alike, are the very things 
that can present challenges; challenges that come partly from being 
surrounded by forested land in our San Juan Mountain location.
    The health of our forests, which we all so love to enjoy, is 
paramount in importance to all of us, both in the West and across 
America. Our area is the place where folks come to find great 
remoteness and beauty. Forest health impacts many areas of the health, 
safety and welfare of our people including our watershed, air quality 
and tourism-based economy.
    As you are aware, the State of Colorado and much of the western 
United States have been hit with severe drought conditions for several 
years. This, coupled with areas of extensive insect infestation and 
thick stands of forest overgrowth, has created an environment ripe for 
intense wild fire activity. In fact, the summer of 2012 saw one of the 
worst fire seasons in recent memory. Hinsdale County had the largest 
wildfire in its known history, the Little Sand Fire, which burned 
nearly 25,000 acres in Archuleta and Hinsdale Counties at a cost of 
$7.5 million. We therefore support proactive measures to address forest 
health and mitigate the dangers intense wild fires pose to human 
safety, property, infrastructure, wildlife habitat, and water and air 
quality.
    Because we are primarily public land, the issues addressed in H.R. 
818 are of extreme importance to us and, we think, to any other state 
or county with forested lands. Hinsdale County is a smaller picture of 
what is happening on a larger scale in forests all over the West.
    H.R. 818 specifically identifies the issue at hand, and of great 
importance, vests actual authority to identify high risk areas and 
initiate mitigation measures to the respective states in coordination 
with county governments; to those of us locally who are most able to 
recognize the risk and with the most at stake should a wild fire erupt.
    The bill also recognizes the importance of cooperative mitigation 
efforts, in the spirit of which it provides for Good Neighbor 
authorities wherein the federal government may contract with the states 
to carry out forest health restoration activities. We support this 
heavy local involvement.
    The stewardship contracting time frame of up to 20 years allowed 
for in the bill is, in our view, a common sense measure fostering 
comprehensive, long term forest health projects.
    In the past, many contractors have been reluctant to set up long 
term solutions for dealing with timber because of the uncertainty of 
supply.
    We further appreciate the expedited procedures allowed for in H.R. 
818 for emergency hazardous fuels reduction projects in identified high 
risk areas. While we emphatically support due diligence in preparation 
for fuels reduction projects, risks to property, infrastructure, 
irreplaceable historic and cultural sites, and life and limb dictate a 
sense of urgency in mitigating nearby fuel load risk. With common sense 
measures and caution, especially high risk areas can be protected in 
rapid fashion.
    It is the nature of the western United States climate to see cycles 
of ample precipitation and drought, and insect infestation will always 
be a part of the equation. We have been aware for a long time that the 
state of our forests' health was, in many areas, experiencing some 
deterioration and a lack of diversity in tree age. This condition lends 
itself to large, intensive and destructive wild fires which we, 
unfortunately, have experienced recently.
    When I visit around my county and nearby counties, I see beetle 
devastation in many areas. The headwaters of the great Rio Grande River 
are surrounded by standing dead conifers, nearly 100% in that 
particular valley. And dead trees don't hold water.
    We all remember the terrible fires of 2002, the Hayman Fire and the 
Missionary Ridge Fire especially. Predictions are that this year will 
be another very challenging year as far as precipitation is concerned. 
The repercussions of our poor forest health are with us right now. We 
urge you to act NOW. If H.R. 818 were to languish this year, I believe, 
based on last year's wild fire season, that we could possibly see even 
more devastating consequences this year in our county and all over the 
West. Please do not let that happen!
    It is our view that action to combat the dangers posed by wild 
fires ought not be reactive, but proactive. In that light, we view H.R. 
818 as a valuable tool and much needed step to address forest health 
and fire mitigation in both the short and long term. As a Hinsdale 
County Commissioner, I wish to express our full support of the bill. 
Please help give us the tools to do the right thing in our forests and 
for our people.
                                 ______
                                 
    Mr. Tipton [presiding]. Thank you, Commissioner Dozier. And 
I would like to point out that the two Colorado testimonies 
here today were on time and ahead of time. So I appreciate 
that.
    Mr. Sibold, to you, please.

  STATEMENT OF JASON S. SIBOLD, PH.D., ASSISTANT PROFESSOR OF 
     GEOGRAPHY, DEPARTMENT OF ANTHROPOLOGY, COLORADO STATE 
                           UNIVERSITY

    Dr. Sibold. Thank you. Good afternoon, Chairman and 
Committee. My name is Jason Sibold. I am a forest scientist 
with 15 years of research experience in Lodge Pole Pine and 
Engelmann Spruce Forest in Colorado. My research is focused on 
fires, Bark Beetle outbreaks, and their interactions.
    I am an Assistant Professor at Colorado State University in 
Fort Collins. My objective today is to assess forest management 
policies in H.R. 818 in the context of the best available 
science.
    To help illustrate the scientific conclusions on the 
influence of Bark Beetles and fire, I would like to show a few 
maps of the recent Bark Beetle outbreaks, and three recent fire 
events.
    The first map up on the screen here just shows an overview 
of the Bark Beetle outbreaks from 1996 to 2012 in Colorado. 
This is a big deal, this is a lot of area. This is about 20 
percent of our forested land in the State.
    The next map shows this same overview of 1996 to 2012 Bark 
Beetle-affected stands, but it also includes fires from the 
2012 fire season, which are the red areas. So the brown areas 
are beetle, green areas are live forest, unaffected by beetle, 
and those red patches are fires from the 2012 fire season. The 
2012 fire season was a large fire season, about 250,000 
forested acres burned in the season.
    In the upper right-hand corner you can see a national-scale 
map of drought conditions. And if you look at Colorado, you can 
see that that dark red and kind of purple color indicates that 
we were experiencing high-severity drought. In this map I would 
like to point out two large, high-severity fires that were also 
highly destructive. The first is the High Park Fire to the west 
of Fort Collins in the north-central part of the State and the 
other is the Waldo Canyon Fire, just to the west of Colorado 
Springs.
    One interesting thing about these two fires is that the 
High Park Fire burned in about 50 percent affected stands from 
Bark Beetles. In contrast, the Waldo Canyon Fire burned in a 
forest that generally did not have Bark Beetle outbreak. This 
fact that the Waldo Canyon Fire did not burn in Bark Beetle-
affected forests indicates that Bark Beetles are not a 
necessary ingredient for wildfires. In contrast, this is 
indicating that drought is the common thread to these 
wildfires.
    In the next map we see the same situation, Bark Beetle 
outbreaks through the year 2011 and fires in the year 2011. And 
once again, in the upper right-hand corner you see drought 
conditions for June 2011 and only southern and southeastern 
Colorado is in that kind of red, extreme drought or severe 
drought situation.
    Interestingly, we had a very similar Bark Beetle situation 
as we had in 2012, but the fires did not occur in the Bark 
Beetle-affected forests. Instead, the fires occurred in areas 
without any Bark Beetles in the areas that actually had drought 
in the southeast, once again suggesting that drought and not 
Bark Beetles is the common thread and/or driver of fire risk in 
these forests.
    The next map shows the high-severity 2002 fire season. 
Actually, twice as much area burned in 2002 as in 2012. Once 
again, the drought severity map in the upper right-hand corner 
indicating that there is high-severity drought in Colorado in 
the summer of 2002. In contrast to 2012, though, we did not 
have extensive Bark Beetle outbreaks. So this is indicating 
that drought in all three of these situations is driving these 
wildfires not necessarily Bark Beetle-influenced fuels.
    So, in that context, this would suggest that forest-
thinning projects, and landscape-scales in particular, far from 
communities would not be likely to have the desired goal of 
reducing fire risk. The next map shows just the initial fire, 
where it started, the beetle outbreak extent over the State 
from 1996 through 2012.
    And if a second objective of H.R. 818 is to reduce the 
probability of future outbreaks like this, one of the really 
complex aspects of these outbreaks, while forest thinning would 
increase host vigor, tree vigor, and reduce that drought 
stress, we have these outbreaks that pop up all over the 
landscape. So treating the entire landscape of Colorado would 
be required. It seems a little like a challenging task.
    So, my take-home is that the best-available science does 
not demonstrate that widespread landscape-scale forest thinning 
is really going to reduce fire risk or future Bark Beetle 
outbreaks. We would be much better off focusing these efforts 
really close to communities, these fire-wise efforts that we 
have heard people talk about focusing in these areas. Thanks 
for your time.
    [The prepared statement of Mr. Sibold follows:]

 Statement of Dr. Jason S. Sibold, Assistant Professor, Colorado State 
University on the Healthy Forest Management and Wildfire Prevention Act 
                               (H.R. 818)

    Good morning Chairman Hastings, Chairman Bishop, Representative 
Grijalva, Representative Markey, members of the Committee. My name is 
Dr. Jason Sibold. I have been conducting forest ecology research in 
Colorado for 15 years, as a graduate research assistant at the 
University of Colorado and now as a professor at Colorado State 
University. My research is focused on wildfires and bark beetle 
outbreaks in subalpine forests that primarily consist of lodgepole pine 
and Engelmann spruce forests, which represent the vast majority of area 
affected by the ongoing mountain pine beetle and spruce bark beetle 
outbreaks in Colorado. My testimony today presents information from a 
variety of sources in the scientific literature focused on lodgepole 
pine and Engelmann spruce forest types in the Rocky Mountains. My goal 
is to summarize the best available science to evaluate the likely 
effectiveness of policies proposed in the ``Healthy Forest Management 
and Wildfire Prevention Act'' (H.R. 818) to reduce fire risk and 
mitigate future bark beetle outbreaks.
    The key points that I would like to leave you with are these: 
Wildfire risk in subalpine forests is extremely high during severe 
drought conditions with or without bark beetle outbreaks. Forest 
thinning projects would not be expected to reduce fire risk or mitigate 
against the likelihood of future bark beetle outbreaks in these 
forests. A forest thinning policy with the goal of reducing fire risk 
following bark beetle outbreaks would be moving into unknown territory, 
which means that both the normal review process and monitoring for 
effectiveness are essential.
1) What is the threat of wildfire?
    One of the central goals of H.R. 818 is to decrease the perceived 
elevated risk of wildfire to mountain communities as a result of recent 
and ongoing bark beetle outbreaks. The proposed solution to decreasing 
fire risk is to thin tree densities in beetle affected stands. This 
prescription assumes that fuels and/or fuel structure changes resulting 
from bark beetle outbreaks increases fire risk. Overall, the occurrence 
of forest fires in all forest systems is the result of the interplay 
between weather and fuels and in some forest types reducing fuel 
accumulation can significantly reduce fire risk. For instance, in 
forests such as Southwest ponderosa pine where summer season weather 
conditions are frequently hot and dry, the amount and connectivity of 
fuels is often more limiting to wildfires than climate conditions. In 
such a scenario, reducing fuel accumulation can decrease fire risk. In 
contrast, in forest types where fuels are abundant but often too wet to 
burn, fire occurrence can be considered as limited by weather 
conditions. In general, forest types where fire occurrence is limited 
by normally cool, wet climate typically experience fire less 
frequently, tend to have naturally dense stands and abundant fuel, and 
when fires occur they tend to be large and catastrophic. In other 
words, fire risk is dictated by climate and weather and risk is 
extremely high during severe droughts.
    Subalpine forests of lodgepole pine and Engelmann spruce, which are 
the focus of H.R. 818, fall into the weather-limited category where 
tree-thinning prescriptions would not be expected to significantly 
decrease fire risk. More specifically, fires in subalpine forest are 
naturally large, catastrophic, and relatively infrequent. Long periods 
between fires, from 100-300 years or longer, and the ecology of 
subalpine species create naturally dense stands with abundant live and 
dead fuels. As a result, fire occurrence in these forest types is not 
limited by inadequate amounts of fuel. In contrast, average climate 
conditions, which are characterized by snowpack that often persists 
well into spring and short cool summers, mean that extreme drought is 
required to sufficiently dry fuels to the point that wildfires are 
possible.
    The importance of drought as a central driver of wildfires in 
subalpine forests is strongly supported by numerous studies across the 
Rocky Mountains. Research comparing tree-ring records of fires and 
climate that span the last few centuries clearly demonstrates that for 
at least the last few centuries, infrequent extreme drought conditions 
created years with large, high-severity fires. A study comparing 
recorded fires with climate for western North America over the last 
several decades also implicates climate conditions and more 
specifically fire season length as central to the number of large fires 
and area burned in a given year. In the Rockies, the timing of spring 
snowmelt is a critical factor in determining fire season length and is 
clearly applicable to large areas burned in Colorado in 2002 and 2012, 
which both had abnormally low spring snowpack and early melt dates. In 
contrast, the record deep snowpack of 2011 set the stage for an almost 
non-existent fire season.
2) Have bark beetle outbreaks increased fire risk?
    Even though the big picture overview of wildfire in subalpine 
forests indicates that in the absence of bark beetle outbreaks fire 
risk is extremely high when drought conditions exist, it is still 
logical to ask if abundant beetle-killed trees might elevate this 
already high fire risk. While bark beetle outbreaks do not increase the 
amount of fuel, they do influence fuels in three ways, 1) green needles 
change to red and grey needles in the canopy in the two to four years 
after the initiation of an outbreak and then fall to the forest floor, 
2) fuels in the forest canopy decrease and canopy openings develop, and 
3) the amount of fuel on the forest floor increases. Researchers have 
investigated the influence of these fuel changes on fire risk primarily 
in two ways: measuring fuel changes at different stages of bark beetle 
outbreaks to use in fire simulation models, and observational studies 
looking at actual patterns of fire following bark beetle outbreaks.
    Research using fire simulations for various stages of mountain pine 
beetle outbreaks in lodgepole pine forests are in agreement for early 
stages of outbreaks, but there are still significant questions for 
later stages of outbreaks and in the years to decades following 
outbreaks. Studies agree that red needles have lower fuel moisture 
levels than green needles under similar weather conditions. As a 
result, fire risk is potentially elevated in the early stages of an 
outbreak while red needles are still present in the forest canopy. 
After needles turn grey and start to fall and more fuel moves from the 
canopy to the forest floor, identifying implications for fire are more 
complicated. While there is agreement that more fuels on the forest 
floor will increase fire intensity at the ground level, there is 
disagreement with respect to if this will increase or decrease the 
likelihood of fire spread from the forest floor to the forest canopy. 
Most studies suggest that decreased canopy fuels and open canopies will 
offset the increased intensity of surface fires and significantly 
decrease the likelihood of fire spread to the canopy for as long as 
several decades following beetle outbreaks. In contrast, one study, 
which used a different modeling approach, concludes that fire spread to 
the canopy will actually increase in post-beetle forests as compared to 
stands not affected by beetles. The fact that these studies can come to 
significantly different results even though similar fuel measurements 
were used in model runs demonstrates that model results on the 
interaction of beetle outbreaks with fire are largely the result of 
model assumptions. At this time it is not clear which modeling approach 
is a better representation of real world outbreak-fire interactions.
    In contrast to models, observational studies are based on 
documenting actual fire occurrence in forested areas with and without 
bark beetle outbreaks and as such their results are not contingent on 
model assumptions. Observational studies do not support the notion that 
bark beetle outbreaks increase fire risk even in the initial stages of 
outbreaks. Only two studies indicate that the probability of fire may 
increase slightly with increasing time from the outbreak, although the 
observed increases could have been related to factors other than 
outbreak influences of fuels. Furthermore, many observational studies 
stress the greater importance of other variables such as topography and 
drought on fire.
3) What are the policy implications for decreasing fire risk?
    In sum, the scientific evidence does not suggest that fire risk has 
increased as a result of recent and ongoing bark beetle outbreaks. In 
contrast, the vast majority of evidence suggests that bark beetle 
outbreaks have either no influence on fire risk or potentially decrease 
fire risk, and that weather (drought) is the dominate influence on fire 
risk in these forests. The extensive, high-severity fires of 2002 and 
2012 in Colorado that were coincident with two of the most extreme 
drought years in Colorado's recorded history clearly illustrate the 
importance of drought over fuels as the driver of destructive 
wildfires. Unfortunately, wildfires in years of severe drought are not 
only extremely difficult and hazardous to fight but they are also not 
the type of events that we can mitigate against by thinning forests. As 
a result, forest thinning throughout the landscape, much less in remote 
roadless areas far from communities, would not be expected to decrease 
fire risk to communities. On the other hand, significant gains would be 
expected from policies that focus on reducing fire hazard through fuel 
removal close to communities, following established ``defensible 
space'' guidelines such as removing fuels within a minimum of 100 feet 
adjacent to structures, and replacing flammable building materials such 
as wooden shingles with metal roofs.
4) Can forest thinning mitigate the risk of bark beetle outbreaks?
    The second goal of H.R. 818 is to mitigate the risk of future bark 
beetle outbreaks through forest thinning projects in stands where the 
risk of outbreaks is perceived as high. The development of mountain 
pine beetle outbreaks in lodgepole pine forests and spruce beetle 
outbreaks in Engelmann spruce forests is relatively complex but in 
general they can be attributed to prolonged drought conditions. 
Specifically, drought conditions stress trees and decrease their 
ability to resist beetle attack, and warmer conditions directly 
facilitate beetle population development though faster life cycles and 
higher over-winter survival. In the initiation of bark beetle 
outbreaks, increased tree vigor (decreased stress) can keep beetle 
populations in check and stop the development of an outbreak. However, 
once an outbreak has developed, beetle populations can overwhelm 
healthy vigorous trees. Thus, outbreaks have the ability to expand 
across the landscape irrespective of tree vigor and will likely 
continue until exhausting host trees or an extreme cold period kills 
off populations. There is little doubt that the ongoing extensive, 
high-severity mountain pine beetle and spruce beetle outbreaks in 
Colorado are primarily the result of the frequent severe drought 
conditions in the state over the last 12 years.
    Given the influence of tree stress on the development and spread of 
bark beetle outbreaks it is highly unlikely that forest-thinning 
projects would be able to mitigate the risk of future outbreaks. While 
in some cases forest thinning increases tree vigor and would be 
expected to constrain beetle outbreaks, this would only be possible if 
thinning projects were carried out in the exact location of beetle 
population development. Because outbreaks generally develop in many 
locations across the landscape synchronously and many of these 
locations would be expected to be in areas that are not covered by this 
legislation (national parks, monuments and wilderness areas), it is not 
reasonable to believe that forest thinning could mitigate against the 
likelihood of future beetle outbreaks. Moreover, thinning projects 
would not be expected to stop an outbreak once populations are at 
epidemic levels.
5) Conclusion
    Rocky Mountain subalpine forests of lodgepole pine and Engelmann 
spruce have experienced over a decade of extensive mountain pine beetle 
and spruce beetle outbreaks in addition to many large, destructive 
fires, which has raised questions and concerns about the potential role 
of outbreaks on elevating fire risk. However, the best available 
science suggests that the frequent severe drought conditions over this 
period are the reason for both the beetle outbreaks and fires. In other 
words, fire risk is extreme in these forests whenever severe drought 
conditions prevail regardless of recent bark beetle activity. 
Consequently, forest-thinning projects in beetle-affected stands would 
not be expected to decrease fire risk to communities. Moreover, it is 
unlikely that forest-thinning projects would stop the development or 
spread of future bark beetle outbreaks. In contrast, forest-thinning 
projects could result in several unintended consequences. The 
consequences of greatest concern for forests include: killing seedlings 
and saplings in beetle-affected stands that are critical components of 
forest recovery, and increasing the likelihood of wind toppling 
remaining trees, which often acts as a catalyst for the development of 
bark beetle outbreaks in these systems. Furthermore, the normal review 
process and long-term monitoring to investigate treatment effectiveness 
should be considered essential components of these projects because: 1) 
the high degree of variation in tree density, fuel conditions, outbreak 
severity and topography implies that prescriptions would need to be 
site specific, and 2) we have never attempted to use large-scale 
thinning projects to minimize the fire risk following bark beetle 
outbreaks, thus they are highly experimental in contrast to routine.
                                 ______
                                 
    Mr. Tipton. Thank you, Mr. Sibold. I apologize for 
mispronouncing your name to begin with.
    Dr. Sibold. No problem.
    Mr. Tipton. So at this time I would like to yield to the 
Ranking Member, Mr. Grijalva, for his questions.
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Sibold, first of 
all, let me thank you for making the trip here to D.C. from 
your home in Colorado. I know that Congressman Polis was happy 
to have your research shared with this Committee. And thank you 
for being here.
    And you mentioned that the discussion seems to focus about 
the Beetle infestation and that being the cause, or the 
correlation or connection. But how do you think we balanced 
the--I think the human impulse to do something with some 
scientific uncertainty on landscape efforts that are being 
authorized by my colleague's legislation, when it is human 
nature, you see an area that has been clear-cut, you see an 
area that is infested, and you want to say, ``Oh, we have to do 
something about it, and that becomes the human impulse. But 
there is scientific uncertainty, as you pointed out. How do you 
balance that impulse with the kind of authorization we are 
having here to do something on a landscape-scale?
    Dr. Sibold. I am not an expert on policy and how you would 
balance these things out. But it seems as though, if you do 
want to move forward with these types of policies, even though 
the science may suggest that it might not accomplish what your 
overall objectives and goals are, is that if you are going to 
move forward with something like that, you most certainly 
provide or include a range of perspectives, do careful 
planning, and I would really stress clear monitoring to find 
out, hey, are we achieving our goals? Maybe we have some test 
cases.
    It was mentioned earlier that there are some forest-
thinning projects that have great success. These are mostly at 
lower-elevation forests. And I know the project that was 
referred to earlier close to Pagosa Springs was a successful 
project. But these Bark Beetles are at higher elevations.
    I think the other thing I would stress is that you need to 
think about these--any sorts of treatments in the context of 
these trade-offs, that we get what we are looking for, number 
one. Number two, are there any indirect side-effects, 
unintended consequences of these treatments? And if we go in 
and we do extensive thinning, we also have to think about what 
is going to happen to our future forests, that there are a lot 
of seedlings and saplings out there right now. They are our 
future forest. And that would be one of the concerns, in terms 
of any sorts of treatments. So there are these trade-offs.
    I am a scientist, I will try to stick to the science and 
not weigh in on what direction you all should go.
    Mr. Grijalva. Science and fact-based decision-making hasn't 
always been the rule, in terms of legislation.
    Let me ask you. What trends are you starting to see, other 
than the types of beetles in the State? And is this getting the 
same kind of attention that it should?
    Dr. Sibold. With current trends with beetles?
    Mr. Grijalva. Yes.
    Dr. Sibold. We see the Mountain Pine Beetle outbreak really 
dying down at this point in time, although it is spreading into 
some lower elevation Ponderosa Pine forests. I have been mostly 
talking about higher-elevation Lodge Pole and Spruce Fir. The 
Spruce Beetle outbreak continues to expand dramatically across 
the State in the southwest.
    In the San Juans we see it spreading to the San Cristos in 
the south-central part of the State. We have had some extensive 
blow-downs potentially from insect outbreaks that, as the 
forest becomes thinned, it becomes more susceptible to blow-
downs. And this actually can dramatically ramp up these beetle 
populations. So, unfortunately, without some unforeseen severe 
cold snap or them, the beetles, running out of fuel, I foresee 
this continuing.
    We also have a Douglas Fir Bark Beetle that appears to be 
kind of ramping up in some areas.
    Mr. Grijalva. And those are the trends that should be 
getting our attention at this point.
    Dr. Sibold. Yes, at this point in time. Once these 
outbreaks get going, we are not in a situation where we can get 
out ahead and thin these forests, and that we can reduce their 
impact. Once their populations are as high as they are, they 
are just overwhelming trees. We even see in the San Juan 
Mountains of Southwest Colorado, where I have a lot of research 
going on, they are overwhelming, very small-diameter trees 
that, in theory, should not be susceptible to these Bark 
Beetles, that there are just so many of them out there that 
forest dress is not a part of the equation any more.
    Mr. Grijalva. I appreciate your testimony, Doctor. Thank 
you, I yield back.
    Mr. Tipton. Well, thank you. And again, I would like to be 
able to thank the two commissioners out of my district for 
making the trip back to Washington. I am sure you pretty much, 
like me, left in a snowstorm and came to 80-degree weather. So 
a little bit of a change.
    And I would like to be able to start with Commissioner 
Dozier, if I may. Could you describe how many acres of land 
that you manage that is separate but adjacent to Federally 
managed lands?
    Ms. Dozier. Sure. Basically, our county is about 3.5 
percent private land. So, of our approximately little under 
720,000 acres, 96.5 percent of that is Federal, the rest is 
adjacent to Federal, because you can't get away from being 
surrounded by it.
    Mr. Tipton. Right. Well, given the small, rural make-up of 
Hinsdale County, what level of funding does Hinsdale County 
receive annually, relative to the cost imposed by a destructive 
wildfire?
    Ms. Dozier. The entire budget of Hinsdale, being as small 
as we are, is just a little over $4.5 million a year. The fire, 
the Little Sand Fire last year, cost 7.5 million. That was on 
forest land, so it didn't impact us in the way that we had to 
finance the fire itself, and the fighting of it, even though we 
were intimately involved in the decisions and what was going on 
with that.
    Where our folks--ranchers and such--had expenses that they 
just bore themselves: moving cattle, moving horses, evacuating 
the area, and then having to come back in at a later time. So, 
as far as our county fighting it, we simply don't have funds 
for fighting a major catastrophic wildfire.
    Mr. Tipton. Significant cost. With so many of the acres of 
Forest Service-managed land around you, would you say that your 
efforts to properly manage Hinsdale County lands have been 
beneficial to the overall health of the forest?
    Ms. Dozier. Yes. I would say that in the little bit that we 
have control over, what we do does help the overall forest.
    But because we are so surrounded by forest, what is 
happening in the forest is overwhelming to what is happening in 
the rest of the county. So, when we go into the Rio Grande area 
of our county and we observe a virtually 100 percent red dead 
trees, we know that our folks living out in that valley are at 
risk.
    Mr. Tipton. You bet. Would greater discretion, in your 
opinion as County Commissioner, somebody who lives there and 
loves the land, to be able to have land management decisions 
affecting 96 percent of the county lands in your area, would 
that be a beneficial thing, to be able to play a role?
    Ms. Dozier. We really believe so. I agree with Dr. Sibold 
in that we are personally looking at a starting place. That is 
what this legislation would afford to us, beginning where the 
people live, and beginning to work out, doing things that make 
our people safer, our water quality better, our air quality 
safer. So, it is a small start.
    We really aren't talking about landscape-wide. We are 
talking about locally looking at what we know is the greatest 
risk and beginning to identify that and initiate those 
measures.
    Mr. Tipton. Great. I appreciate that. I would like now, 
Commissioner Martin, if you could maybe speak too. In the 2012 
fiscal year, the National Forest Service spent approximately 
$1.4 billion in wildfire suppression nationwide. In your 
opinion, would it be more proactive to manage these high-risk 
areas during seasons of extreme drought and dryness to help 
keep the communities safer and reduce the need for communities 
and the Forest Service to be able to react retroactively to 
these conditions?
    Mr. John Martin. Absolutely. And the example is what we saw 
on the map above, is that it is a little bit misleading. There 
were over 20 forest fires in Garfield County just last year. We 
responded and put them out. And again, that is on Federal land, 
as well as private land.
    So we feel that the management, the proactive approach, is 
a much better project than spending billions of dollars on 
suppressing that fire.
    Mr. Tipton. You know, as commissioners, you have to be able 
to look at kind of the 30,000-foot view. What effects, 
Commissioner Martin, do you see with the dead beetle-infested 
trees having on the recreational economy and on species 
habitat, as well?
    Mr. John Martin. Well, it is devastating. What it amounts 
to is it is an overgrowth. Too much flatter fuels underneath 
the existing forest, the dead and dying trees, not to mention 
the Aspen fungus that is killing just about everything. It 
moves out all of your game. It moves out the species that is 
trying to make that a habitat. And it is subject to extreme 
fires, extreme hot fires.
    It has devastated Garfield County and we depend on about 
$60 million a year from hunting. That has dropped to a third. 
The reason is they are all on private land and not on public 
land, simply because they cannot exist on those Federal lands 
any more.
    Mr. Tipton. As, Commissioner, as somebody who lives there 
and loves the land, would you find it valuable to be able to 
work with the Governor, to be able to go in and address these 
areas of concern?
    Mr. John Martin. Absolutely, as we are doing right at the 
present time, using biochar and revitalizing the grazing area, 
the forest floor, using the soil conservation folks and our CS 
folks and going in there and actually paying for it ourselves.
    We are a county that is fairly well off, we balance our 
budget, and we do have money in the bank. We are taking 
proactive approaches just to do that, so that we can show our 
Federal partners--we are not throwing rocks at anybody, we are 
trying to save the forest, the animals, and the habitat so that 
we can live and enjoy it.
    I have a great-great-grandfather who was the last 
territorial Governor of the State of Colorado, and the first 
Governor of the State of Colorado. He served twice. He was also 
a Senator. It means a lot to us. We have been there since, 
again, the 1860's. We know and we love the land. We take care 
of it. It is always amazing that some people come from wherever 
and say, ``What a beautiful place, you are destroying it, and 
now we are going to change it.''
    Mr. Tipton. Great. I appreciate that. I now yield to Mr. 
DeFazio for his questions. Have none? Mr. Grijalva, any further 
questions?
    Mr. Grijalva. No, thank you, Mr. Chairman.
    Mr. Tipton. OK. I will take the liberty of being able to 
sit in the big chair and to do just a little follow-up on this.
    Mr. Sibold, I was interested when you were giving some of 
your testimony you had said that drought was the common thread, 
not the Bark Beetle, that was going through. Just to be able to 
give you an example, if we piled up some paper on top of this 
desk and then we threw on some boxes and then we threw on some 
other combustible material, and then ignited it, would it burn 
hotter?
    Dr. Sibold. Would it burn hotter?
    Mr. Tipton. Yes.
    Dr. Sibold. Yes. I mean, I----
    Mr. Tipton. Probably would?
    Dr. Sibold. I think that there--do you want me to expand on 
the dynamics of fire a little bit?
    Mr. Tipton. I think--I am really trying to, I guess, 
basically get to the point to where you were talking about the 
Bark Beetle not being an issue. The real issue, I think, that 
H.R. 818 is trying to be able to address is, from the Forest 
Service, from the BLM, we have visited actually with the 
rangers on the ground. We have trees growing at elevations that 
they should not be growing at. We have overgrowth in the 
forests. And once that does catch fire, it expands and spreads.
    And when we are talking about drought, one of the best 
examples that you noted when we were down in Southwest Colorado 
and Pagosa Springs with one of the pilot projects that J.R. 
Ford is putting on, we actually had testimony from Forest 
Service rangers that were saying, ``With proper treatment''--we 
aren't talking clear-cutting, we are talking proper treatment 
going into these areas--groundwater increased 15 percent. The 
health of the trees that were there recovered within 2 weeks. 
And these are forest rangers that are giving this type of 
testimony.
    So, I am just a little curious when we just talk about 
drought. We have more trees growing than we should in those 
areas. The Forest Service itself has admitted and made the 
comment we are suffering now from 100 years of mismanagement of 
our forests. So, wouldn't it be an appropriate thing to get in 
and properly treat these areas? Not the steeps, but in those 
areas beyond the wild urban interface to actually address it.
    Dr. Sibold. Yes, I mean, I think, Mr. Tipton, we are on the 
same team here. I have tremendous concern for the forests of 
Colorado.
    One thing I would stress to you is that we are talking 
about very diverse forest types here. The great projects in 
Southwest Colorado are Ponderosa Pine forests. We do have 
evidence that in some Ponderosa Pine forests of Colorado fire 
suppression, other land-use practices have changed those 
forests. In contrast, the vast majority of the forests that are 
being affected by beetles, by Spruce Beetle and Mountain Pine 
Beetle, are Spruce Forest and Lodge Pile Pine forests.
    For an example, in Hinsdale County we have been working in 
there for 3 years now, in a lot of these different valleys. I 
would say probably the average tree age in those forests is 
about 300 years. Fire suppression for the last 60 years has not 
impacted that. Those forests are naturally dense, and a lot of 
those in the tree-ring record, we just can't find evidence of 
fire in a lot of those valleys. And/or if there is fire, the 
intervals on these kind of 250, 350 kind of return--year return 
intervals.
    So, I agree with you. In some cases we need a range of 
management options. We need to be able to go in and thin in 
certain sites. And I would be more than interested to help you 
try and identify different strategies and different areas, 
prescribed fire in other areas in higher-elevation forests 
would make a lot of sense.
    And I am not saying that logging is not off the table. 
Maybe it makes sense in some areas. I think significantly 
reducing fuels close to communities makes a lot of sense. But 
there is fire risk. I am not doubting that at all. But where we 
go about it--if the goal is accomplish reduced fire risk, I 
think that we can do that. But there is not a one-size-fits-all 
kind of policy for all of our diverse forest types in Colorado. 
We have a huge range of forest types.
    Mr. Tipton. I appreciate your coming, sir.
    Commissioner Dozier, I did have one other question for you. 
With the drought conditions that we do currently have out in 
Colorado, some of the challenges that you and I have both seen 
in Hinsdale County, what tools are currently available for you 
to be able to work with, as Commissioner?
    Ms. Dozier. As a Commissioner? We work with the forests 
that are within our county, we work with the BLM, we work with 
them on planning, we try to initiate and give them our input. 
There is a real difference between that and what this bill 
would afford us, however. And we would desire to have more 
input on the front side of these projects, rather than later 
giving comments after a great deal of time has been spent doing 
other work.
    Mr. Tipton. Great. And would you concur with that, 
Commissioner Martin?
    Mr. John Martin. Yes, sir, I would.
    Mr. Tipton. Great. Well, with that, my time has expired. 
And I would like to thank our panel for your testimony on this. 
This is important. This is going into the record, and will be 
going to--be an ongoing portion of some of the visiting that we 
are going to be having here in Washington as these bills move 
on to full Committee and ultimately to the floor.
    So, thank you so much for the time and the effort to be 
able to come here. I appreciate it.
    If we could have our last three panels come and be seated: 
Andy Groseta, Tommie Martin, Tom Tuchmann, Doug Robertson, and 
Dominik Kulakowski.
    Well, panels, I thank you for taking the time to be here. 
You may have sat in, I will just echo some of the words of 
Chairman Bishop with the timing lights that we have. When it is 
green, it is go. When it is yellow, you speed up. And when it 
is red, you stop. And so, I would appreciate your support on 
that. And thank you for taking the time to be here. And we will 
start with the testimony of Tommie Martin.

  STATEMENT OF TOMMIE MARTIN, DISTRICT 1 SUPERVISOR, AND VICE 
                  CHAIR, GILA COUNTY, ARIZONA

    Ms. Tommie Martin. Well, good morning, or good afternoon, 
Chairman Tipton, Ranking Member Grijalva, distinguished members 
of the Subcommittee. I am pleased to speak with you this 
afternoon about Federal land management in the west.
    Since 2004, I have been a member of the Gila County Board 
of Supervisors, located in the center of Arizona. We are a 
rural county with a population of 53,000. Within the county's 
4,800 square miles is the Tonto National Forest, with seven 
wilderness areas, one scenic river, and three Indian 
reservations. Ninety-six percent of our land base is exempt 
from local taxation because of its Federal designation. Of the 
remaining 4 percent, 2.5 percent is used for mine tailings and 
taxed at a significant reduction. And 1.5 percent represents 
our true tax base. The heavily forested northern .5 percent 
represents up to 70 percent of our total assessed valuation, 
and is 100 percent at risk from catastrophic wildfire.
    We once had a vibrant economy based upon the use of 
renewable and non-renewable natural resources. However, the use 
has been eroded over the last 40 years the restriction of 
access to resources on Federal lands, as well as overzealous 
interpretation of NEPA by the Federal planning processes.
    Our once-vibrant logging and ranching industries are almost 
extinct. Nearly all of our mines are closed. And many mineral-
bearing acres are now permanently locked away and grazing 
severely restricted in the 920 square miles of the wilderness 
areas.
    As for my background, when my great-grandmother drove her 
family in a wagon into the Rim Country in the latter part of 
the 1800's, she told me that the now-densely forested lands 
were ``open, rolling, grassy hillsides with trees in the 
canyons.'' She said she could take that wagon in any direction, 
and the boys could run a horse in any direction. And what she 
called a Ponderosa Savannah, she described 30 trees to the acre 
in the most forested areas, where we now have up to 3,000. The 
streams were perennial and full of native brown trout. Since my 
grandad's day we have lost over 1,000 miles of these same 
streams. And the forest was full of now long-gone birds and 
wild animals like wild canaries, grizzly bear, and wolf.
    My family homesteaded and ranched. They owned a saw mill 
and logged. The prospected and located mines. Once the area 
became the forest, we ranched on leased Federal lands, all the 
while using livestock to harvest, forage, and till the soils. 
The animals were constantly moved to maximize nutrition and 
avoid stressing any one area. Those pioneers, with their 
nomadic style of livestock handling knew intuitively and 
through experience that over-grazing was a function of time and 
not animal numbers.
    Prior to becoming Supervisor I enjoyed a 25-year career as 
a contract specialist in collaborative, holistic resource 
management. My path led me throughout the American West, 
western Canada, Mexico, and eastern Africa, primarily in 
Ethiopia and Somalia. Nowhere have I seen natural resources in 
worse condition than in our American West.
    By any honest measure of health, functioning, or 
productivity, our resources are dead or dying, due to 100 years 
of failed Federal policy. It doesn't have to be. There is a few 
bright lights in the west, where land is adaptively managed 
with true share decision-making among the Federal, State, local 
government, private land owners, neighbors, and special 
interest groups. This type of management produces abundant 
clean water, multiple diverse abundant species, and abundant 
true wealth. In one case, in Utah, the ranch produces hundreds 
of times the annual earnings of its neighbors.
    This management is not a function of eco-type or climate or 
land ownership. It is a function of trust and of shared 
collaborative goal-setting, decision-making, and monitoring by 
a diverse group of folks who owned the process. And if you were 
truly interested in this type of management, I invite you to 
come with me and see for yourself.
    The legislation you are reviewing today is a good start 
toward allowing for change, which we so desperately need. Some 
of the provisions I support, one, is maintaining, through SRS, 
an economic safety net for the counties while rebuilding the 
forest infrastructure. Two, bringing NEPA back as a useful 
management tool and stopping its use as a weapon by eliminating 
the opportunity for delay. Three, strengthening the stewardship 
contracting authority.
    I would also like to offer some suggestions for your 
legislation. One, ensure a meaningful role of consultation by 
local governments. Two, ensure the integration of social 
science and economic science and the best available scientific 
information, or BASE, that is used by the Forest Service now to 
make land management decisions. Define, and explore, and study 
the implications of requiring 25 percent of stewardship 
contract funding to be shared with the counties. How will this 
compare to the funding provided by timber sales? It could 
become a real red herring, or at least a mixing of apples and 
oranges. And I am concerned about the implications for the 
counties.
    The road to hell is paved with good intentions. And it is 
littered with unintended consequences. We need to take the time 
to think this through and do this right, rather than doing it 
over. Together we must change the way we manage our renewable 
natural resources. We must be more willing to let them earn and 
less willing to let them burn.
    There is not enough money in the treasury to solve this 
problem, but there is in the economy. We must allow industry to 
profit while using the wealth from these resources to pay for 
their restoration. The time is now--and tag, we are it--to 
figure out how to make this happen
    Thank you for the work you have done so far, knowing full 
well it is just the beginning. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Tommie Martin follows:]

    Statement of Tommie Martin, Gila County Supervisor, District One

    Good Morning Chairman Bishop, Ranking Member Grijalva, 
distinguished members of the Public Lands and Environmental Regulation 
Subcommittee. I am so pleased to speak with you this morning about my 
views on federal land management in the West, in particular in Arizona. 
Thank you for the invitation.
Introduction
    Since 2004, I have represented the citizens of District One on the 
Gila County Board of Supervisors. Gila County, Arizona, located in the 
center of Arizona just northeast of Phoenix, is a rural county with a 
population of 53,144, of which 12% are unemployed and 21% are living at 
or below 200% of the federal poverty level. Within the County's 
boundaries of 4,795.74 square miles, there is the Tonto National Forest 
with seven Federally-designated wilderness areas totaling 920 square 
miles and one Wild and Scenic River (the Verde), and three Federal 
Indian Reservations (Tonto Apache, San Carlos Apache and White Mountain 
Apache).
    Gila County government operates under the economic constraint that 
96% of the land within our boundaries is exempt from local taxation 
because it is under federal and/or tribal management. Of the remaining 
4% of the land base, 2.5% is property used for mine tailings which is 
taxed at a significant reduction. We operate on a full tax base of only 
1.5% of the land.
    Of that 1.5%, 1% lies in the desert and rangelands of the southern 
part of the county and the \1/2\% lies in the northern forested 
section. The heavily forested northern \1/2\% represents up to 70% of 
the county's total assessed valuation and is 100% at risk from 
catastrophic wildfire. In a bit, I will discuss how we as a County have 
been involved since 2006 in mitigating this risk.
    In Gila County, we work tirelessly to protect our natural 
resources. But we also recognize the importance of preserving, and 
maintaining access to, the western way of life that is evident in our 
multi-cultural activities, recreation, and natural resource-dependent 
industries located on federal lands. We believe that if we take care of 
the land, the land will take care of us. Over-protective federal land 
policies create an unsustainable environment for our western culture 
and economy.
    Not only must we deal with the steep challenge of managing a wide 
range of local governmental needs on such a limited tax base, we must 
also deal with the complications presented by the land management 
decisions made by our federal land management agency neighbors. For 
example, the risk to our citizens from wildfire grows annually. While 
we work closely with the U.S. Forest Service (USFS) to better manage 
the resource under their control, we are severely constrained in our 
ability to influence outcomes.
    In addition, our ability to maintain a robust and diverse economy 
in Gila County has been eroded over the last forty years, in large part 
due to the restriction of access to resources on the federal lands (as 
well as overzealous interpretation of NEPA by the federal planning 
processes). Because of this, the once vibrant logging and ranching 
industries in Gila County are now nearly extinct. Nearly all of the 
mines are closed. And many, many mineral bearing acres are now 
permanently locked away in the 920 square miles of Gila County's seven 
designated wilderness areas.
    And our latest challenge is that the federal government is treating 
what is essentially its property tax payment for federal lands in 
counties (which, as you know, is referred to as Payment in Lieu of 
Taxes and Secure Rural Schools funding from which we provide school 
funding and road maintenance services) as a discretionary obligation 
subject to the sequester and other general budget cuts. The federal 
government cannot balance its budget on the backs of the counties 
providing services. The federal government must meet its obligation to 
pay what is essentially a tax liability just as all its citizens are 
required to pay.
    Now, let me switch gears. Prior to becoming Gila County Supervisor, 
I enjoyed a 25 year career in Natural Resource Management, working 
primarily as a contract specialist in collaborative holistic resource 
management. My career path let me work throughout the American West, 
western Canada, Mexico and eastern Africa--primarily in the countries 
of Ethiopia and Somalia.
    This career choice arose out of my personal history.
Personal History
    When my ancestors came to Gila County in the later part of the 
1800's, the now densely forested lands were described to me by my 
great-grandmother as ``open, rolling, grassy hillsides with stringers 
of trees in the upper elevations and stringers of chaparral in the 
lower climes. She drove the wagon that her family came to the area in 
and said that she could take that wagon in any direction and the boys 
could run a horse in any direction in what she talked about as a 
``ponderosa savannah''. Never once did she describe it as a forest--she 
said there may have been 30 trees to the acre in the most forested 
areas (we now have up to 3,000 per acre in the same area she was 
describing)
    The streams were perennial and full of a native brown trout (since 
my grandfather's day we have lost over 1,000 miles of these same 
streams) and the forest was full of now long-gone birds and wild 
animals like wild canaries, grizzly bear and wolf.
    My family homesteaded and ran livestock on the homestead permit. 
They owned a saw mill and logged. They prospected and located mines. 
Once the United States Forest Service was established, we ranched on 
leased federal lands, all the while bringing cattle, goats, and pigs to 
eat the understory and grasses and naturally till the soils. The 
animals constantly moved to maximize the grazing and avoid stressing 
any one area because the pioneers, with their nomadic style of 
livestock handling, knew intuitively that overgrazing was caused by 
time and not animal numbers.
    Finally there is ``science'' to support this approach, but back 
then it was common sense. They understood that they needed the land to 
support them, and they had to take care of the land. Lightning strikes 
caused fires in the summer when the land was drier than during the 
rainier winters, but because the animals--wild and domesticated--grazed 
the land and reduced the potential fuel for the fires, the forest fires 
were not the deadly threat they are today. In fact, such fires served 
to maintain the forest ecosystem. In addition, today the USFS prefers 
to burn large swaths during the dead of winter in their ``returning 
fire to the ecosystem mantra.'' But that is exactly the time of year 
when all the little critters are snug in bed with their winter food 
storage. Just in time to get burned out of house and home and either 
starve or become coyote bait. This is more of what I call ``failed 
federal policy'' reaching all levels of the ecosystem.
    With the advent of the USFS, and then the Bureau of Land 
Management, came two of their dictates that became particularly 
devastating to our dry forests and rangelands (as opposed to the wet 
forests and rangelands of the eastern seaboard and the western 
peninsula of the U.S., and much of Europe)--a situation they neither 
recognized nor understood. They both stopped an historic, almost ever-
present fire within the forested areas and then they fenced up the open 
land stopping the nomadic livestock use of the browse and grasses that 
mimicked the historic use by wildlife. They also changed the wildlife 
free-range with these fences and have devastated whole herds through 
time.
    And so began 100 years of rule upon rule, policy upon policy (and 
continues to this day) to make these initial dictates ``work'' in an 
environment that has and will continue to die because of them. We are 
seeing the end game in our forests now, in fact.
    And over time, our ability to use the federal lands for support of 
our families became limited. Logging, mining, and grazing federal lands 
in Gila County has all but been completely eliminated. Environmental 
regulations and lawsuits created a business environment that shut down 
the industries that supported our families for generations. In the name 
of ``science,'' the logging mills are gone--that is both the 
infrastructure and the capability. As the federal leases for grazing 
were eliminated or severely curtailed, families that ranched for 
generations lost their herds and their livelihoods and sold out to 
folks that could afford a ranch for a lifestyle and did not have to 
depend upon them for a livelihood.
    As the forests were allowed to grow unchecked by the natural 
system, streams dried up and the water table was taxed due to 100 times 
as many ``straws'' taking up water--an acre with 30 trees vs. an acre 
with 3,000 trees turns every little dry spell into a drought. The drier 
conditions, and the artificial droughts, stressed the dense forest and 
laid the trees open to pests and disease. And the wildfire fuel build-
up is unprecedented. The threat we live in--virtually a sea of 
gasoline--is unfathomable and completely created by poor federal land 
management because of 100 years of failed federal policy. The stress on 
the ecosystem by this burden created by federal land management 
decisions over the last 10 decades, now compounded by a warming 
climate, must be addressed. We must start to restore our western 
landscapes for their own sake--for their health, functioning and 
productivity.
    But we must also restore them because they ARE our nation's basic 
wealth source--and our ONLY renewable wealth source. Managing renewable 
natural resources should NOT cost our nation money--it should, in fact, 
make money for our nation. Managing them as our federal government now 
does squander our basic wealth source--either we do not add wealth to 
the country's coffers or we outrageously cause cost in areas like 
`management', fire suppression and subsidized thinning.
Challenges
    As described above, we face many challenges living and surviving in 
our current environment. These challenges are both environmental and 
public safety oriented, as well as economic. In order to meet the 
challenges posed by a grossly-overgrown disease-laden forest, we must 
look at the environmental and economic causes together. This land was 
healthy and thriving not that long ago, and adding to the nation's 
treasury through the economy. It can be restored. But the needed 
restoration will require a major overhaul of federal land management 
policy and implementation. We have seen some improvements, but we have 
a long way to go.
    The following is a short list of the major reasons I see for the 
serious decline in our forests' health and the related health of the 
communities dependent on the forests for their livelihood--unchecked 
overgrowth:
        <bullet>  Reduced timber sales, and the resulting reduced 
        payments to the counties of 25% of the value of the sales. The 
        timber sales put people to work and help support our local 
        economies and governments.
        <bullet>  Insufficient funding for thinning allows chronic 
        overgrowth and building of wildland fire fuel that presents a 
        terrifying threat to our county's residents.
        <bullet>  Hijacked use of the National Environmental Policy Act 
        (NEPA) requirements delay needed thinning efforts. We have been 
        witness to the Forest Service and the environmental groups 
        battling over tree diameters while we burn. This cannot 
        continue.
        <bullet>  Entrenched bureaucracy limits the flexibility needed 
        to reach the creative solutions our landscape requires. The 
        willingness to work collaboratively that is so uniformly and 
        positively discussed in Washington needs to be effectively 
        implemented in the field.
Opportunities
    I am fond of saying that the federal budget does not have the 
needed resources to clean up the forest, but the economy does--i.e., 
there is not enough money in the Treasury to solve this problem--but 
there is in the Economy. We need to let the land once again support 
itself, and our western culture and ranching families.
    While the challenges are steep, there are a number of positive 
movements that can help guide more effective federal land management 
and best practices of local governments. Here are a few examples:
        <bullet>  Collaboration is critical to restore forest health. 
        We cannot afford to keep fighting about who has the right 
        approach. My world-wide, multi-cultural experiences and my 
        involvement with both 4FRI and the Forest Service's 
        Collaboration Cadre has shown me that we can save time and 
        money in making land management decisions with all parties 
        around the table from the beginning of the process to the end 
        and by having an open and respectful dialogue. By that I mean 
        that Forest Service management--from the Forest Supervisors to 
        the Regional Supervisors to Washington--must be on board.
        <bullet>  Stewardship contracts can allow the forests to pay 
        for their own restoration. This is an effective mechanism to 
        put the forests back to work. To best implement stewardship, I 
        believe that the contracts must be self-sustaining, that is, 
        not dependent on federal or state subsidies to make the 
        business work. From what I have seen from my experience working 
        around the White Mountain Stewardship contract, as well as 4 
        FRI, the Forest Service must cultivate and ultimately choose 
        self-sustaining businesses, but I am not sure the Forest 
        Service has the expertise to evaluate the business viability. I 
        recommend that Congress require that the Forest Service 
        evaluate, in an open manner, the economic health of the 
        potential contractors, as well as that of their proposals.
        <bullet>  Continue to include cellulosic targets in EPA biofuel 
        standards. On forests like the Tonto, where there is little 
        high quality lumber, but lots of ``fuel,'' the option of 
        turning the growth thinned from the forest for biofuels is very 
        attractive. Recently, attention has turned towards creating an 
        economically viable cellulosic ethanol process. As in all 
        developing industries, federal targets help create a market. If 
        a cellulosic biofuel market can be developed, the Tonto 
        Forest's thinning program could become self-sufficient.
Gila County's Response to Catastrophic Wildfire
    As promised earlier, let's visit about Gila County's response to 
having 70% of its assessed value being 100% vulnerable to wildfire--
    The geographical area known as Arizona's ``Rim Country'', which is 
northern Gila County, has experienced several massive and destructive 
forest fires over the years--beginning with the Dude Fire in 1990.
    Following the February Fire of 2006, I approached the local Ranger 
District of the U.S. Forest Service to see if there was any way the 
County could help mitigate these fires.
    The Forest Service suggested the best help Gila County could give 
would be to figure out how to locate or provide ``enough sources of 
adequate water that are helicopter-available for first strike resources 
so that all small fires can become non-fires and all medium fires can 
be held in place long enough for additional fire-fighting resources to 
arrive.''
    To make a long story short, Gila County used what we call our 
``redneck ingenuity.'' Our Public Works Department bought 20,000 and 
50,000 gallon fuel bladders from Desert Storm military surplus. They 
had about 80 feet of surplus 10-foot diameter culvert which they then 
cut into 10-foot lengths, plumbed with a 3 inch pipe and drain plug, 
welded on a steel bottom, hose-clamped used 3 inch hard plastic pipe 
around the top (to protect helicopter buckets and snorkels) and 
produced what we call a ``Hick's tank'' that holds another 6,000 
gallons of helicopter-available water. Initially, there was +/-232,000 
gallons of helicopter-available water ready for immediate fire-fighting 
use.
    Just imagine--a quarter of a million gallons of ``new,'' close, 
very strategically located, first response wildfire fighting water that 
can be accessed both by helicopters of all size buckets and nozzles, 
and also by regular fire-fighting apparatus! Our County Road Department 
provides support by placing these bladder-tank units and keeping them 
filled with water.
    These set-ups are located behind locked gates and are signed 
``Wildfire Protection Water--Do Not Disturb. Our ability to help 
protect your safety depends upon your helping us protect the safety of 
this water source.'' The Sheriff's Posse is making regular rounds to 
check on them.
    When all was said and done, the 25 set-ups have cost us right at 
$750,000 from our General Fund (property tax dollars from that very 
limited pool of 1\1/2\% private land in our County) and we spent 
another $250,000 of those same dollars to match 5 local communities in 
establishing a fuel break on their prevailing wind southwest sides for 
fire defensible space. While not completely protected from the 
tinderbox that our surrounding forest has become after 100 years of 
failed federal policy, our communities now do have a fighting chance of 
battling and surviving a forest fire. And we hope the odds of this 
County losing 70% of its assessed value in one fire are substantially 
lessened for now.
    We also hope that we have bought enough time for Industry to come 
back into play and let the products of the forest pay for its 
restoration. Again, we do not have enough money in the Treasury to 
solve this problem--but we do have enough money in the Economy. We MUST 
figure out how to use the Economy to pay for this restoration while 
also providing the environmental goals of a sustainably healthy, 
productive and functioning forest.
    But I digress--since initial placement in 2006, the dip tanks have 
been used hundreds (probably thousands) of times by helicopters 
extracting water to fight fires.
    One of our success stories happened on June 20, 2010. That was the 
same day the Schultz Fire started in Flagstaff. With the same fuel 
loads and the same weather conditions and within the same hour the 
Shultz Fire started--a fire began near Kohl's Ranch. Helicopters dipped 
out of a bladder-tank system placed just weeks before at the Zane Grey 
site. That fire was held to 4 scorched acres while the Schultz Fire 
burned 15,000 acres, caused at least one death, and lead to extensive 
flooding the following season.
    We now have dozens of these stories--each year our `fire-water 
system' is used to put out hundreds of fires.
    Our most recent success was the Poco Fire north of Young in the 
summer of 2012. By their own admission, the USFS predicted they had 
another 500,000 acre fire on their hands due to terrain, fuel load, 
weather conditions and time of year. Again, by their own admission, the 
fact that they were able to hold it to +/-30,000 acres was due entirely 
to Gila County's fire-water set-up and its commitment to minimize every 
fire.
    Eventually, I believe minimizing fires needs to be accomplished 
with what is called ``environmental economics'' whereby the clean-up of 
the forest pays for the restoration. This leads into discussions about 
social, economic and environmental sustainability (or the ``triple 
bottom line''), biomass industries, economic development, and so on. 
This is where the Four Forest Restoration Initiative (4FRI) comes in.
    But for now, our bottom Line is that we have experienced over 100 
fire-starts each fire season since 2006. Eighteen of them were 
classified ``catastrophic potential'' by the USFS. One of them burned 
150 acres up the face of the Mogollon Rim before it was put out. One 
became the 800 acre Water Wheel Fire. The Poco grew and was held at +/
-30,000 acres. ALL of the rest were held to 8 acres or less. There have 
now been thousands of helicopter water dips taken out of these tanks.
    We are happy to share our data, pictures, ideas and personal 
stories with anyone interested in this type of cooperative catastrophic 
fire prevention.
    We also know that, long-term, there is not enough money in the 
Treasury or the pockets of the local citizenry to solve this problem--
but that there is most certainly enough money in the Economy to do so.
    We also know that, long-term, there is not enough money in the 
pockets of the local citizenry to solve this problem--but that there is 
most certainly enough money in forest products for industry to do so.
    We also believe it is past time to stop being so willing to let our 
forests and watersheds catastrophically burn, and start being willing 
to let them earn.
Comments Legislative Proposals Before the Subcommittee
``Restoring Healthy Forests for Healthy Communities Act''
    Chairman Hastings's clearly appreciates that American communities 
would prefer to receive receipts from a working landscape, but that 
until we are allowed to effectively work the land again, that a bridge 
is necessary. For this same reason, I support the reauthorization of 
Secure Rural Schools (SRS) authority, especially in light of reduced 
timber harvests in the foreseeable future. Chairman Hastings' draft 
legislation will assist counties like Gila County manage our resources. 
I support this draft bill.
    Regarding more efficient implementation of NEPA, I offer two 
suggestions. First, I have found that lack of available funding for the 
required environmental analyses causes significant delays, so I suggest 
that the bill include a specific funding authorization for the needed 
NEPA analysis. Second, the 180 day deadline for completion of a NEPA 
analysis will be helpful, but it will only be effective if the agency 
completing the NEPA analysis cannot delay the tolling or start of the 
180 day period, which in this bill is the publication of the notice. I 
suggest including guidance in the bill to clearly describe when the 
notice is required to be published.
``Catastrophic Wildfire Prevention Act of 2013''
    Representative Gosar's bipartisan bill addresses many issues of 
great importance to Gila County and I strongly support it. Stewardship 
contracting is a valuable tool necessary to allow the forests to pay 
for their own restoration. Reauthorization of stewardship contracting 
is critical, as is authorization for 20 years contracts; I support 
both. Under existing authority, which permits 10 year contracts with a 
provision to extend another 10 years upon further approval, it is 
difficult for business to secure financing and create a viable business 
plan. I understand that 20 year contracts are necessary to allow 
businesses to recoup the needed infrastructure investments.
    I support payments to the counties from the stewardship contract, 
especially as I understand that stewardship contracting is a mechanism 
the Administration wants to expand. But I question the value of 
payments based on 25% of the timber sales receipts from stewardship 
contract. I do not believe the value to be comparable to the value of a 
timber sale, as timber sales are designed to pull high value product 
from the forest, while stewardship is designed to thin and restore the 
forests. Clarifying this value question will be important over time to 
ensure that counties are appropriately provided for where stewardship 
contracts are more widely used than timber contracts.
    Finally, I have two questions. First, who makes the determination 
of an ``at-risk forest?'' I suggest that local officials have some role 
in that process. Second, I appreciate the need for deadlines in the 
NEPA process, as we have all seen long delays blamed on NEPA, but I 
question whether or not this bill has given the agencies enough time to 
complete a meaningful analysis, which should include input from local 
officials. I suggest that the subcommittee consider taking into 
consideration the size of the parcel that is being analyzed in 
determining the length of time allowed to complete an environmental 
assessment or an EIS.
Conclusion
    On behalf of the residents of Gila County, I express my gratitude 
to the Subcommittee for taking up this very important set of issues. 
The West is in crisis, and there are only signs of it getting worse. 
Federal land management policies must change direction immediately. We 
have no time to waste. I urge the Subcommittee to move this legislation 
and work with the rest of Congress and the Administration to enact the 
changes discussed today to save the West.
                                 ______
                                 

     Attachment to Gila County Supervisor Tommie Martin's Testimony

        1.  Gila County location map
        2.  80 years of change
        3.  Smokey burning during the Willow Fire (2012)
        4.  Fire-fighting water site map
        5.  Water tank
        6.  Water bladders and helicopter
        7.  Helicopters and water tanks
        8.  Strategic Targets for Biomass supply
                                 ______
                                 
    Mr. Tipton. Thank you. And Mr. Groseta? Am I pronouncing 
that properly?
    Mr. Groseta. Correct.
    Mr. Tipton. We look forward to your testimony on H.R. 1345.

STATEMENT OF ANDY GROSETA, PUBLIC LANDS COUNCIL, ARIZONA CATTLE 
                      GROWERS' ASSOCIATION

    Mr. Groseta. Thank you, Chairman Tipton, Ranking Member 
Grijalva, and members of the Subcommittee. Thank you for 
inviting me to testify today on H.R. 1345, the Catastrophic 
Wildfire Prevention Act of 2013. My name is Andy Groseta, I 
serve as President of the Arizona Cattle Growers Association. I 
am a past president of the National Cattleman's Beef 
Association, and a member of the Public Lands Council. Today I 
am speaking on behalf of the livestock industry.
    I am a third-generation rancher and our family has been 
ranching in the Verde Valley, north-central Arizona, since 
1922. We operate on forest, State, and private lands, and take 
our jobs as stewards of the land very seriously. We collaborate 
with State and Federal agencies to maintain the working 
landscapes that are vital to Arizona's economy and its 
citizens.
    Livestock grazing represents the earliest use of western 
lands as our Nation expanded westward. Today those lands and 
resources found on them continue to be essential for livestock 
production, wildlife habitat, open space, and rural economies 
of the west. However, a hands-off management approach by the 
Federal agencies has led to severe damage of the resource.
    Regulations on public lands have all but eliminated logging 
and reduced grazing, allowing a build-up of fuels that has been 
causing devastating catastrophic wildfires year after year. 
When catastrophic wildfire breaks out, there are no winners, 
not the watershed, not the wildlife, not air quality, not the 
rural communities, and certainly not the taxpayer.
    While taxpayers may find staggering the nearly $2 billion 
price tag associated with suppressing wildfire last year, I 
think what would truly be a shock if a number could be 
calculated as the loss of valuable resources and property that 
our real communities depend upon. For ranchers, this includes 
death/loss of our livestock, displaced stock for which we must 
find new pasture, not only for the year of the fire, but also 
for several years thereafter, loss of fences, corrals, water 
structures, sometimes even barns and homes. I might add that it 
takes a heavy toll on your morale, watching several generations 
go up in smoke.
    In 2011 Arizona faced the most devastating fire season in 
history, with over a million acres burned, impacting over 100 
ranching families and displacing over 18,000 head of cattle. 
That is why we are here today to discuss the Catastrophic 
Wildfire Prevention Act of 2013, which would bring real, 
immediate relief to the dangerous situation on and near our 
public forest lands. It goes to the heart of the problem: the 
overgrowth of regulations that have led to the overgrowth of 
fuels.
    The bill removes the analysis paralysis that typically 
accompanies NEPA review on grazing and thinning projects in 
high-risk areas, and it allows fuels removal under existing ESA 
authorities. It will encourage free enterprise solutions and 
State collaboration, which are essential to reducing the threat 
of catastrophic wildfire.
    Wildfire doesn't wait for endless deliberation, and in 
high-risk situations neither should we. The wall of fire 
clearly demonstrated how ESA regulations can create 
destruction. Because of the Agency's protection of endangered 
fish, frogs, and owls in our forest, important fuel reduction 
projects were waylaid. When the wall of fire broke out, it 
killed a whole generation of these species and their offspring 
and caused massive destruction of their habitats. The wall of 
fire case study demonstrates how seemingly a never-ending 
process required by NEPA often does nothing to protect or 
conserve all of these resources, as it is intended to do.
    In fact, on the Wallow it did the exact opposite. In 
typical fashion, the agencies plan, they studied, they 
consulted, and as soon as they made any final decision that 
allowed for fuel reduction activities, they got sued by anti-
logging and anti-grazing environmental groups, usually based on 
technical and procedural points.
    The cycle of analysis and litigation repeats, only the 
agencies are now dealing with fewer resources. On the Wallow 
this cycle stymied timber thinning and forest management and 
fuels build-up to such a degree that the only possible outcome 
was a catastrophic wildfire.
    Given the current status of our economy and the huge size 
of our debt and deficits, two things should be clear to all of 
us. One, processes need to be put in place to allow us to save 
our forests. And, two, we cannot count on the Federal 
Government to single-handedly clean, thin, and properly manage 
our forests. The States and local citizens must play a role, 
and we must no longer allow the regulatory process to be abused 
by those who simply--who do not want us to live and work on the 
land. The only way we are going to be able to properly manage 
our forests is with private investment from the timber and 
ranching industries, which will also provide us with food and 
fiber from these lands.
    We will know that we are on the right track when we see 
wood mills in rural western towns again, and every Forest 
Service allotment with capacity for livestock grazing being 
grazed. Our forest communities will see increased jobs, 
employment opportunities, and economic activity, and our 
forests will be safer and healthier. The Catastrophic Wildfire 
Prevention Act of 2013 is common sense. Raging, 500,000-acre 
wildfires should scare us. But cows and chainsaws shouldn't.
    Again, thank you for the opportunity to testify today, and 
I look forward to your questions. Thank you.
    [The prepared statement of Mr. Groseta follows:]

  Statement of Andy Groseta, Public Land Rancher; President, Arizona 
  Cattle Growers Association; and Member of Public Lands Council and 
                 National Cattlemen's Beef Association

    Dear Chairman Bishop, Ranking Member Grijalva and Members of the 
Subcommittee:
    The Public Lands Council (PLC), National Cattlemen's Beef 
Association (NCBA), and Arizona Cattle Growers Association (ACGA) 
appreciate the opportunity to voice to the Subcommittee on Public Lands 
and Environmental Regulation our strong support for H.R. 1345, the 
Catastrophic Wildfire Prevention Act of 2013. PLC is the only national 
organization dedicated solely to representing the roughly 22,000 
ranchers operating on federal lands. PLC has as affiliates sheep and 
cattle organizations from thirteen western states, as well as three 
national affiliates: NCBA, the American Sheep Industry Association 
(ASI) and the Association of National Grasslands (ANG). NCBA is the 
nation's oldest and largest national trade association for cattlemen 
and women, representing more than 140,000 cattle producers through 
direct membership and their state affiliates. NCBA is producer-directed 
and works to preserve the heritage and strength of the industry by 
providing a stable business environment for its members. ACGA was 
founded over 100 years ago when a small group of concerned cattlemen 
took it upon themselves to help structure the future of the cattle 
industry in Arizona. Today, ACGA has grown into a vital organization 
representing more than 1,000 beef cattle producers and industry leaders 
throughout the state.
    H.R. 1345 was introduced by Congressman Gosar (AZ) to address the 
forest health, public safety, and wildlife habitat threats presented by 
the risk of catastrophic wildfire on public lands managed by the U.S. 
Forest Service (USFS) and the Bureau of Land Management (BLM). The 
legislation would require the Secretary of Agriculture and the 
Secretary of the Interior to expedite forest management projects 
relating to hazardous fuels reduction, forest health, and economic 
development. Timber thinning and livestock grazing projects aimed at 
reducing hazardous fuel loads on our Nation's forests would be 
expedited, particularly in forests surrounding communities.
Dire Situation Facing the Nation's Forests
    Fires are a natural occurrence in forest ecosystems in North 
America and, when occurring in healthy forests, should be considered 
beneficial. Fire acts to remove excess debris including dead and dying 
trees and herbaceous material, providing sunlight and nutrients for 
subsequent growing seasons. Removing young trees where sufficient 
canopy cover exists helps to maintain a balance within the forest 
system. However, while naturally occurring fire is good for healthy 
forests, catastrophic wildfire--a result of excessive forage and 
trees--causes great harm to forest ecosystems. Roughly four decades of 
severe mismanagement of our nation's publicly managed forests has 
resulted in vast areas that have either recently experienced or are at 
risk of experiencing catastrophic wildfire. According to the Evergreen 
Foundation, forest density has increased 40 percent in the U.S. over 
the last 50 years (http://evergreenmagazine.com/pages/Forest_Facts-
v2.html). Also on the rise, largely as a result of this overgrowth, is 
insect infestation. According to the USFS, thinning trees would help 
put a stop to the growing pine bark beetle epidemic, which in 2011 
affected over four million acres across South Dakota, Wyoming and 
Colorado alone (http://www.fs.usda.gov/Internet/FSE_DOCUMENTS/
stelprdb5337908.pdf). Under current management, however, the 
infestation is leading to dead trees, endangering the public with the 
imminent danger of falling trees, catastrophic wildfire, and blackouts 
due to power line damage.
    According the USDA Forest Service Rocky Mountain Research Station 
in Missoula, Montana, there are vast areas of federally managed land 
that are not meeting ``condition class I'' standards. ``Condition class 
I'' classification means fuel loads are within their historical range. 
According to the research station's data released in February 2001 (the 
most recent data available), only 31 percent or about 52 million acres 
of forested land managed by the federal government were classified as 
``condition class I,'' leaving more than two thirds of those forests 
with fuel loads exceeding historical levels. This puts those lands and 
the surrounding areas at risk of wildfires of such intensity that their 
impacts would be catastrophic to ecosystems and communities. 
Specifically, lands designated as ``condition class II,'' or lands 
characterized by vegetation that is moderately higher than historic 
levels, equated to about 66 million acres. Lands classified as 
``condition class III,'' or lands characterized by vegetation that is 
significantly higher than historic levels, consisted of about 50 
million acres (http://www.firelab.org/ScienceApps_Files/downloads/
coarsescale/data_
summary_tables.pdf--Rocky Mountain Research Station report).
    What are the effects? According to American Forest Resource Council 
(AFRC), ``Wildfires burned over 9 million acres in 2012 with a 
suppression price tag of almost $2 billion dollars'' (http://
www.amforest.org/images/pdfs/AFRC_Newsletter_1-23-13.pdf). This is only 
a fraction of the true cost. The January/February 2013 National Fire 
Protection Association Journal stated that ``Focusing solely on 
suppression costs can blind us to a long list of additional direct, 
indirect, and associated costs, including damages to utilities and 
other facilities, timber and agricultural losses, evacuation aid to 
displaced residents, long-term rehabilitation costs to watersheds and 
other affected areas, post-fire flooding mitigation and damage, 
business revenue and property tax losses, public health impacts from 
smoke, and, in some cases, the tragic loss of human life. Costs such as 
private property losses are often included in media coverage of fires, 
but even these figures can hide associated costs that are buried in the 
details or are difficult to calculate'' (http://www.nfpa.org/
publicJournalDetail.asp?categoryID=&itemID=59868&src=NFPAJournal).
    What are the impacts to livestock producers? Southeastern Oregon's 
2012 ``Long Draw'' fire, the biggest Oregon burn since 1865, spanned 
over a half-million acres and officially claimed 200 livestock; 400 
more cattle were reported missing. Ranchers in this area and across the 
west will be in dire need of pasture; forage for tens of thousands of 
cattle was destroyed. At least half a dozen ranching families were left 
wondering if they will be able to stay in business. Additionally, some 
30 percent of priority Greater Sage-Grouse habitat was destroyed by the 
fire.
    The 2012 Barry Point fire in south central Oregon and northern 
California, which was severe and extreme due to heavy fuel loads 
combined with extremely dry conditions, burned 93,000 acres. According 
to AFRC, ``In addition to the huge losses of timber, watershed, 
wildlife, and other values on national forest lands, there were at 
least six grazing permittees and 38 landowners in Oregon that were 
directly affected, with property in or adjacent to the fire perimeter. 
At least 24 had losses or damage in the fire or due to suppression 
activities. No homes were lost, but several were threatened and 
required structure protection. Private economic losses included 
livestock, (including injury, death of animals, and loss of animal body 
weight), forage, fences and corrals, and timber'' (http://
www.amforest.org/images/pdfs/AFRC_Newsletter_1-23-13.pdf).
    According to an Associated Press article authored in July of 2012--
only partway through the fire season--livestock losses were already 
reaching the hundreds in multiple states. Montana's Ash Creek Fire 
claimed roughly 400 cows and calves belonging to one ranching family. 
That family was later forced to shoot in mercy killings additional 
cattle due to severe burns. Less than half the family's herd remains. 
At AP's print time, 200 cattle had been killed in Wyoming and about 225 
in Oregon. In remote southeastern Oregon, one family lost a third of 
their 300-head cow-calf operation. (http://www.insurancejournal.com/
news/west/2012/07/27/257403.
htm).
    This is only a continuation of a trend: according to the National 
Institute for the Elimination of Catastrophic Wildfire, overstocked 
tree stands and dense canopies have contributed to ``such disastrous 
fires as the 2002 Hayman Fire in Colorado, the 2008 fires in Trinity 
and Siskiyou counties of California, and the 2011 New Mexico and 
Arizona fires; more than one million acres of valuable national forest 
resources have been destroyed by these wildfires alone.'' (http://
www.stopwildfire.org/). In Arizona in 2011, the Arizona Cattle Growers 
Association reported that major fires impacted at least 100 ranching 
families and displaced approximately 10,000 head of cows and 8,000 head 
of calves.
    The impact to rural communities, such as Oregon's Harney County 
where cattle outnumber the people nearly 10 to one, can hardly be 
measured. Across the West, hay is in short supply. Thousands of miles 
of fence and countless corrals and water improvements must be rebuilt. 
Thousands of head of displaced livestock have had to be shipped to 
temporary pastures. Dry conditions are expected to persist, delaying 
the recovery of burned area. This is expected to force livestock owners 
to sell their animals or seek more lasting alternatives to the private 
pastures and public lands on which they have operated for generations.
Why does this situation exist?
    It has become all too clear from the millions of charred acres 
across the west that the planning process currently in use by the 
federal agencies is woefully broken. Planning, studying, consulting, 
litigating, appealing then planning and studying more for months and 
even years on end is not working and must be changed. How long do we 
have to watch subdivisions go up in smoke on the nightly news before 
our country wakes up and stops the dangerous mismanagement of public 
lands?
    There are many reasons why the federal government finds itself in a 
situation where over two-thirds of the land it manages is at risk of 
catastrophic wildfire due to fuel loads in excess of historical norms. 
The various reasons for the burgeoning fuel loads have one common 
theme: overregulation and, as a result, environmental litigation that 
creates a self-perpetuating cycle. According to the BLM, livestock 
grazing has been reduced on BLM lands by as much as 50 percent since 
1971, while the timber industry has been nearly destroyed over the last 
30 years--all almost entirely due to federal laws and regulations and 
predatory environmental groups.
    For far too long we have allowed outside interests and bureaucratic 
paralysis to dictate the management of our Nation's forests. Our 
federal government needs to reduce the current bureaucratic planning 
process and litigious playing field that our forests have been subject 
to for most of the last 30 to 40 years. Radical environmental groups 
masquerading as government watchdogs or protectors of the wildlife and 
forests drive their anti-livestock, anti-logging agenda through endless 
lawsuits and appeals--oftentimes collecting attorney's fees and court 
costs in the process.
    One of the major impediments to efficient management of National 
Forest System Lands is the National Environmental Policy Act (NEPA), an 
act intended to require agencies to analyze alternatives when making 
major decisions. Unfortunately, the law has been abused to the point 
that NEPA has become an endless process, creating a state of gridlock. 
The excessive regulations resulting from NEPA have led to massive 
paperwork backlogs. On USFS grazing decisions alone, the agency 
estimates that there are currently approximately 2,600 grazing 
allotments that (as interpreted by the courts) ``need'' NEPA analysis. 
Such backlogs inevitably lead to litigation from extremist 
environmental groups, who wait in the wings to sue on process-based 
matters such as missed deadlines. Their lawsuits then suck up more 
resources, creating the aforementioned self-perpetuating cycle--and 
keeping agency personnel from doing the job we hire them to do: work 
with ranchers, the on-the-ground managers, to care for the land. 
Instead, our members' livelihoods are being jeopardized, as are the 
land, the environment and wildlife. Such ``management'' is 
unacceptable.
    In addition to NEPA, the Endangered Species Act (ESA) has been 
abused to drive the anti-livestock and anti-multiple-use agendas of 
special interest groups. The irony is that wildfire poses a great 
threat to many wildlife species, yet the ESA is often used to limit 
activities such as timber thinning and livestock grazing that reduce 
fuel loads and diminish the instances of wildfire. Critical habitat 
designations for the spotted owl have all but wiped out the timber 
industry in the northwest. Mexican Spotted Owl and Goshawk critical 
habitat designations have impacted ponderosa pine/conifer forests all 
over the West, and have resulted in substantial reductions in livestock 
grazing over the years (of note: over half of the Mexican Spotted Owl 
nesting sites were destroyed in the Wallow Fire). Heaven help the sage 
grouse, should the U.S. Fish and Wildlife Service decide to list it as 
a ``protected'' species: the listing has the potential to limit or 
remove the most important tool to reducing the threat of wildfire on 
the sage brush sea--grazing. How can we continue to allow species 
``protection'' to be the source of such destruction?
    A number of other laws and regulations limit the management of our 
nation's forests to little more than preserves devoid of sustainable 
resource management through multiple-use activities.
Grassroots effort to bring commonsense solutions forward
    In 2011, in an effort to respond to the problems and threats faced 
by the livestock industry and communities across the west and in 
Arizona particularly, ACGA drafted the ``Save Arizona's Forest 
Environment'' (SAFE) plan. This grassroots effort led directly to ACGA 
and the national livestock associations working together to pass policy 
and, ultimately, work with Congress to develop legislation to provide 
solutions.
    More than 25 entities, listed below, endorsed ACGA's original SAFE 
plan, including Arizona's state Senate and House. The plan's goal was--
and remains--to reduce fuel loads and take other appropriate actions so 
that the risk of catastrophic wildfire is reduced in Arizona's National 
Forests by providing for long-term, self-funding mechanisms and 
infrastructure to eliminate the dangerous accumulation of overgrown 
trees and forests. More specifically, the plan seeks to achieve forest 
health, protect adjacent communities from catastrophic fire, achieve 
other forest management goals, and maintain Arizona's Forest lands in 
an ecologically sustainable condition. The ACGA proposes to use proven 
silvicultural practices, prescribed fire and proper forage management 
to achieve these goals. The Catastrophic Wildfire Prevention Act of 
2013 shares the core principles of the SAFE plan.
[GRAPHIC] [TIFF OMITTED] 80441.012


.epsCatastrophic Wildfire Prevention Act of 2013
    In an effort to provide efficiencies to the regulatory process for 
reducing fuel loads on federal lands, Congressman Gosar has 
reintroduced the Catastrophic Wildfire Prevention Act of 2013. The 
proposed legislation will expedite projects (timber thinning and 
livestock grazing), encouraging free-enterprise solutions on federal 
lands to reduce the threat of catastrophic wildfire, ultimately 
reducing threats to communities, the landscape, and wildlife--including 
endangered species.
    The bill proposes to first and foremost address areas with homes in 
the wildland/urban interface (where federal lands are adjacent to 
communities.) This element is important, as an estimated 44 million 
homes in the United States are currently located in fire-prone 
wildland/urban interface areas, and the USFS predicts a 40 percent 
increase in new homes in similar areas by 2030 (http://
www.idahoforests.org/img/pdf/FUSEE.pdf). The legislation also focuses 
on the aforementioned ``At-Risk Forests,'' which include all federal 
land classified as condition II and III by the Rocky Mountain Research 
Station report titled ``Development of Coarse-Scale Spatial Data for 
Wildland Fire and Fuel Management.''
    In these at-risk areas and in areas where endangered species are 
found, the bill expedites projects that focus on surface, ladder, and 
canopy fuels-reduction activities and that enhance threatened and 
endangered species habitat. Informal consultation under the ESA would 
be completed under the emergency provisions of the Act. Prior to the 
listing of any species under the ESA, research would be conducted to 
measure the impact a listing will have on fuel loads. Recovery plans 
and critical habitat designations would have catastrophic fire risk 
assessment analyses included.
    Exemption from utilization standards would be made for livestock 
grazing for fuels-reduction projects in the at-risk areas. Timber 
harvesting and thinning would also be authorized projects. Resource 
management plans, land use plans and forest plans would not have to be 
amended while implementing authorized projects. The Secretaries would 
complete an environmental assessment within 60 days (or 90 days for an 
Environmental Impact Statement) after notice in the federal register 
for timber harvest and grazing projects. Failure to meet this deadline 
would deem projects compliant with all requirements under NEPA. Grazing 
projects would be approved for a minimum of 10 years and timber 
projects for a minimum of 20 years. In all cases, adequate public 
review (30 days) would be allowed. In order to prevent litigation, only 
those who commented on the draft documents would qualify to comment on 
the final decision.
    Adding to last year's iteration of the bill, the legislation now 
includes contract stewardship and good neighbor authority measures, 
which facilitate the completion of forest management projects through 
public-private partnerships and cooperation with state governments. For 
example, when in Colorado, between 2000 and 2008, the Good Neighbor 
Authority program was implemented, thorough engagement of all 
stakeholders provided a comprehensive analysis of management objectives 
prior to implementation and helped to ensure the most favorable 
management outcomes (http://www.fs.usda.gov/Internet/FSE_DOCUMENTS/
stelprdb5269069.pdf). Collaborative efforts increased agency 
accountability to local communities and facilitated more favorable 
relationships between state and regional partners. (http://www.gao.gov/
products/GAO-09-277)
Conclusion
    The National Forests are capable of providing the many values and 
benefits that people expect from our forests, but they need proper 
management in order to provide these values. The livestock industry 
supports prescribed fire, commercial timber harvest, noncommercial 
treatments and enhanced forage harvests on federally-managed forests. 
Further, we believe that commercial utilization payments could play a 
large role in bringing back private investment to help finance the many 
and extensive treatment needs of the forests.
    It will be through the empowerment of private investment, 
individuals and communities that we set the guidepost for future forest 
planning. We need to direct and see through the initiative to return 
people to work in the woods, protect habitats and communities and 
return to the days of 5,000 to 10,000 acre fires in our forests--not 
500,000 acre catastrophes.
    We urge the committee to advance the Catastrophic Wildfire 
Prevention Act of 2013 without delay, to enact commonsense solutions to 
reduce the threat of wildfire on public lands. H.R. 1345 will provide 
tools the agencies need to effectively manage the Nation's forests.
    Again, we thank you for the opportunity to provide these comments 
to the Subcommittee. If you have any questions concerning these 
comments or need further information, you may contact Dustin Van Liew 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8febf9eee1e3e6eaf8cfedeaeae9a1e0fde8">[email&#160;protected]</a>) at the Public Lands Council and National 
Cattlemen's Beef Association.
                                 ______
                                 

   Response to Questions Submitted for the Record by Andy Groseta on 
Behalf of Public Lands Council, National Cattlemen's Beef Association, 
                 and Arizona Cattle Growers Association

1.  As I understand it, the PLC has frequently engaged in litigation 
        against the federal government. How many times would you say 
        PLC has participated in a lawsuit against the federal 
        government in the last ten years?
    The Subcommittee has inquired as to the number of legal challenges 
to federal actions PLC has filed over the past 10 years. Over the past 
10 years, PLC has been plaintiffs in two cases against the federal 
government. PLC is the sole organization in Washington, DC dedicated to 
representing the some 22,000 ranchers who hold public lands grazing 
permits. Livestock grazing in the West predates the existence of U.S. 
``public lands,'' and our members are proud of their longstanding 
traditions of stewardship and hard work that, for generations, have 
combined to produce safe, healthy and affordable food and fiber for an 
ever-growing population. Despite their important roles as environmental 
stewards and producers, our members frequently find themselves under 
attack by predatory special-interest groups whose goal is to remove all 
livestock from public lands, regardless of the dire environmental and 
economic outcome. These groups use political and legal pressure to 
encourage the federal agencies to act outside their statutory authority 
in ways that harm PLC members. In most cases, PLC intervenes on the 
side of the federal government. However, there have been limited 
instances where PLC has challenged federal agency actions when we 
believed the agencies acted outside their statutory authority. PLC 
files lawsuits against the federal government when all other avenues 
have been exhausted. We work through the public comment process and 
with Congress to clarify/reassert their intent when we find error with 
agency actions; only after having made these efforts do we resort to 
the courts for relief. This is in stark contrast to radical groups who 
head straight to the courtroom to drive an anti-multiple-use agenda. 
Their challenges are oftentimes process-based and include recovery of 
attorneys' fees directly to the organization via an in-house lawyer. 
This strategy is used as part of their business plans.
    As mentioned above, we have been plaintiffs in two cases against 
the federal government in the past 10 years:
        1.  U.S. Forest Service Planning Rule (Federal Forest Resource 
        Coalition et al v. Vilsack) (D.C. District Court)
           Federal Statutes at Issue: Organic Administration Act, 
        National Forest Management Act, Multiple-Use Sustained-Yield 
        Act, Administrative Procedures Act
           Summary: PLC joined a diverse multiple-use coalition to file 
        a complaint against the U.S. Forest Service Planning Rule based 
        on what we believe to be violations of the statutes listed 
        above. We filed extensive comments expressing our concerns with 
        the draft rule, which, in our eyes, the agency subsequently 
        ignored or did not sufficiently respond to. By our estimation, 
        the final rule was not brought into compliance with federal 
        statute. We were very engaged in the rulemaking process and 
        litigated only as a last resort.
        2.  U.S. Forest Service Payette Plan (Idaho Wool Growers 
        Association et al v. Vilsack et al) (Idaho District Court)
           Federal Statutes at Issue: National Environmental Policy 
        Act, Federal Advisory Committee Act, Administrative Procedures 
        Act
           In this second case, we joined other livestock industry 
        groups in challenging the U.S. Forest Service's decision to cut 
        domestic sheep grazing by nearly 70 percent on the Payette 
        National Forest, a decision based on spurious science. Industry 
        was not provided the opportunity to engage in the development 
        of the risk assessment that ultimately led to the removal of 
        domestic sheep; therefore, working with Congress was our only 
        option to ensure sheep ranchers would not be arbitrarily 
        removed from national forest lands for the supposed protection 
        of big horn sheep. When this avenue was exhausted, PLC's only 
        option was to challenge the agency in court.
2.  When asked if PLC has ever been a plaintiff in a case against the 
        federal government where attorneys' fees through Equal Access 
        to Justice were requested you responded ``No.'' We have found 
        at least two instances where PLC has requested recovery of 
        attorney fees. Please provide the Committee with a complete 
        list of where you have sought recovery fees and indicate if you 
        have done that through Equal Access to Justice Act.
    The Subcommittee inquires about PLC's request for and collection of 
attorneys' and other court fees under the Equal Access to Justice Act 
(EAJA). I appreciate the opportunity clarify that, when I responded 
``no'' to the Honorable Rep. Grijalva's in-person inquiry, I was 
responding to whether PLC, as a plaintiff, has ever received fee 
reimbursement under EAJA, not whether PLC had requested reimbursement. 
PLC formally sought EAJA fees in 1999, Forest Guardians v. U.S. Forest 
Service. There are two ongoing cases where PLC has included EAJA fees 
in the initial complaint (Federal Forest Resource Coalition et al., v. 
Vilsack et al.; and Idaho Wool Growers Association et al v. Vilsack et 
al.); however to date PLC has not filed a Motion seeking EAJA fees in 
either case, because doing so would be premature given the status of 
litigation in both.
    It is important to draw a distinction between PLC's rare requests 
for EAJA reimbursement and the abuse of EAJA regularly practiced by 
wealthy radical environmental groups. We have consistently honored the 
law's intent, which is to protect small entities in cases where they 
must defend themselves against actions of the federal government. As 
such, we have supported legislation that would disqualify for payments 
organizations whose net worth exceeds $7 million. This $7 million-or-
less requirement currently applies to for-profit entities and 
individuals, but does not apply to wealthy ``nonprofits''. 
Additionally, we have supported measures to require groups or 
individuals to have direct monetary interest in the federal 
government's action in order to be eligible for payments. We also 
support capping the exorbitant attorney fees these groups claim to be 
owed, which are sometimes as much as $700 per hour.
    We have also supported efforts to make EAJA payments transparent to 
the public. According to attorney Karen Budd-Falen, in 2011, 12 
environmental groups alone had filed more than 3,300 lawsuits over the 
previous decade, recovering over $37 million in EAJA funds. Budd-Falen 
said that this was a conservative estimate, as accounting of EAJA 
expenditures has been scant, at best. With no accounting of these 
payments, abuse by well-heeled groups will only increase.
3.  The disclosure form asks you to list ``all lawsuits or petitions 
        filed by the organizations you represent at the hearing against 
        the federal government in the current year and the previous 
        four years.'' Yet, while your disclosure lists the Federal 
        Forest case, it does not list a case that was filed against the 
        government in the District of Idaho, Idaho Wool Growers 
        Association versus Vilsack. I have the complaint right here, in 
        fact, I downloaded it from your organization's own website, and 
        it clearly lists the Public Lands Council as a plaintiff. Why 
        was this case omitted from your disclosure? What other cases in 
        which PLC sued the government were similarly omitted?
    On behalf of PLC, I apologize for this oversight. As you will note, 
subsequent disclosure forms (filed with the Subcommittee for hearings 
on 4/16 and 4/18) on behalf of other PLC witnesses did include a 
complete list of challenges filed against the federal government in the 
current and previous four years. This included just one additional 
case, the U.S. Forest Service Payette Plan challenge (Idaho Wool 
Growers Association et al v. Vilsack et al).
4.  Isn't it true that the PLC is a plaintiff in at least one lawsuit 
        against the federal government under NEPA and right now? Has 
        PLC ever been a plaintiff in a case that includes the claims 
        under the Endangered Species Act?
    As mentioned above, PLC is engaged in a lawsuit against the U.S. 
Forest Service regarding NEPA (Idaho Wool Growers Association et al v. 
Vilsack et al in the Idaho District Court). In this case, we joined 
other livestock industry groups in challenging the U.S. Forest 
Service's decision to cut domestic sheep grazing by nearly 70 percent 
on the Payette National Forest, a decision based on spurious science 
that in our view violated NEPA, among other statutes. Neither industry 
nor the public were provided the opportunity to engage in the 
development of the risk assessment model that ultimately led to the 
removal of domestic sheep. The NEPA process, done to identify and 
assess the reasonable alternatives to proposed actions that will avoid 
or minimize adverse effects of proposed actions, was not done at this 
stage. NEPA must be done before taking action to assist or approve a 
proposed action or project that may significantly affect the 
environment. Additionally, in its final decision, the Forest Service 
failed to adequately consider and evaluate the direct and indirect 
impacts of the proposed action on bighorn sheep, on other wildlife, and 
on the human environment.
    As for the second question, in reviewing PLC's case history (over 
the last 10 years), I do not believe PLC has been a plaintiff against 
the federal government where claims were brought under the Endangered 
Species Act.
                                 ______
                                 
    Mr. Tipton. Thank you for your testimony. And did you have 
any questions?
    Mr. Grijalva. No, I will just wrap--I am going to have just 
one series when we are all done. I am fine.
    Mr. Tipton. Very good. Mr. DeFazio?
    Mr. DeFazio. No, I am waiting for the----
    Mr. Tipton. All right. Did we want to wait for Mr. Gosar? 
Pardon? OK.
    I will go ahead and fill in for Mr. Gosar. I know he is on 
the way back.
    Mr. Grijalva. Oh, you wanted to do one at a time?
    Mr. Tipton. Yes, sir.
    Mr. Grijalva. OK, I can----
    Mr. Tipton. Do you want to jump in?
    Mr. Grijalva. Yes, please.
    Mr. Tipton. OK. Great. I will defer to the Ranking Member.
    Mr. Grijalva. Yes, thank you. I appreciate that, Mr. 
Chairman.
    Supervisor Martin, welcome. And what were your initial 
concerns regarding the contract award for Pioneer Forest 
Products, can you share that with us?
    Ms. Tommie Martin. You bet I can.
    Mr. Grijalva. OK, thank you.
    Ms. Tommie Martin. I felt like they did not have a good 
business plan. And without a good business plan they were not 
going to get financing. And they haven't yet. And I feel that 
it is way too important, the whole 4FRI conversation. It rested 
on a good contractor and told the Forest Service if they didn't 
have a good contractor they needed to go back out and get one, 
if they felt like they didn't have one of the two that they 
had, but to please do not pick a contractor that could not 
fulfill the contract.
    Mr. Grijalva. And I think you--in your testimony you speak 
about the 4FRI effort, how it can work, and the opposition to 
the contract was being able to perform. And your point----
    Ms. Tommie Martin. Oh, I don't know if they could perform 
or not. I didn't believe they had--well, actually, I felt like 
the products that they had picked to say that they were going 
to sell, one of them was cellulosic biofuel.
    Mr. Grijalva. Yes.
    Ms. Tommie Martin. There is no such thing at this point. 
They're in the laboratory. Second, it was finger-jointed panels 
to make furniture out of. And that industry had shipped 
overseas 10 years ago. We have a lot of that kind of product 
coming back out of Asia, but we don't have much of that product 
coming out of the United States. So I felt like, in fact, their 
products left a lot to be desired.
    Mr. Grijalva. Thank you very much, Supervisor. Mr. Groseta, 
you talked a lot about the impacts of litigation and the 
ability of Federal land managers to act. So I want to ask you a 
few questions about the lawsuits that Public Lands Council has 
been involved with against the Federal Government.
    I understand that the Public Lands Council is frequently 
engaged in litigation against the Federal Government. So how 
many times would you say the organization participated in 
lawsuits against the Federal Government the last 10 years, just 
a question.
    Mr. Groseta. To answer your question, I honestly don't know 
how many lawsuits the organization has been involved in the 
last 10 years. I do know now that presently we are involved in 
litigation regarding the new Forest Planning Rule. And the 
reason we are involved in that litigation is that the Forest 
Service, under the new proposed rule, is not following their 
charge of implementing the multiple-use concept.
    Mr. Grijalva. If you wouldn't mind, sir, at some point, for 
the Committee's edification, if you could get us a number on 
the lawsuits that the Council might be involved with at this 
point?
    Mr. Groseta. That is the only one that I am aware of.
    Mr. Grijalva. OK, equal access to justice, another 
question. I don't think you--you don't think very highly of 
this Act, I gather, because according to your Web site it says, 
``Unfortunately, it had become the means of a radical 
environmental groups to target private citizens by challenging 
in court their rights to natural resource uses such as 
livestock grazing.'' Strong words about the Act, and 
particularly about the Act's attorney fee provision.
    Has your organization, PLC, ever been a plaintiff in a case 
against the Federal Government where attorney's fees were 
requested?
    Mr. Groseta. First of all, with the Equal Access to Justice 
Act, that Act has been abused by----
    Mr. Grijalva. But my point is, have you accessed any of the 
attorneys fees.
    Mr. Groseta. No, we haven't.
    Mr. Grijalva. OK. It is my understanding that PLC is the 
plaintiff in at least one lawsuit against the Federal 
Government under the NEPA, is that happening right now? And has 
PLC ever been the plaintiff in a case that includes claims 
under the Endangered Species Act, two other areas in which you 
outlined as impediments to real management and productivity 
from our public lands?
    Mr. Groseta. As I said earlier, the only lawsuit I am aware 
that we are involved with is the Forest Planning Rule lawsuit.
    Mr. Grijalva. Well, in your review there is additional----
    Mr. Groseta. We can get back to you.
    Mr. Grijalva [continuing]. I believe there is, and if you 
can share that with the Chairman and the Committee. I would 
appreciate that very much.
    My question is just, I guess, a goose-and-gander question 
that sometimes we complain a lot about the litigation from 
certain groups, but it is a democratic, due process mechanism 
available to all of us. And I am glad PLC has been one of the 
organizations that has availed itself of that right. With that 
I yield back.
    Mr. Tipton. Thank you, Ranking Member. I now yield to 
Representative Gosar for his questions.
    Dr. Gosar. Well, first of all Tommie and Andy, thank you 
very much for traveling and spending a long day in a hearing 
room. At least it has aired out a little bit.
    Andy, one of the things I know the Ranking Member was 
talking about, Equal Access to Justice. And, I mean, we can all 
understand where a lot of this litigation is going to. We want 
to identify it. In fact, the Department of Justice has not even 
provided us with the documentation on who accesses that, and we 
are doing that now in our committees. That is how bad we don't 
have the numbers. But from what we have seen, it is much more 
on the environmental groups than any of the others, in 
combination.
    My question to you is that a lot of the litigation that you 
actually have to come forward with is actually survival, is it 
not?
    Mr. Groseta. That is correct.
    Dr. Gosar. So, let me ask you another question. Have you 
ever had and been afforded a private meeting with the 
Department-- the Secretary of the Interior?
    Mr. Groseta. No, I haven't.
    Dr. Gosar. Are you aware of other groups that were afforded 
that for endangered species and for specialized groups, for 
environmental groups?
    Mr. Groseta. Yes.
    Dr. Gosar. Yes, that would be the answer. So, I think from 
the standpoint of holding our own, we have to have an equal 
balance across the board. And the facts set you free.
    And so, Supervisor Martin, you are in a--especially out in 
the west, but more importantly, you and your aspect as a 
Supervisor, I know the burden of the Federal Government's 
failure to properly manage our public lands frequently falls on 
you and the local government, and particularly county 
supervisors. You are not only economically strained by the lack 
of a tax base--probably less than 10 percent taxable base, 
right, in your county----
    Ms. Tommie Martin. One-and-a-half percent.
    Dr. Gosar. Wow. Could you say that a lot louder?
    Ms. Tommie Martin. One-and-a-half percent.
    Dr. Gosar. Wow. But frequently local governments have to 
spend scant funds to address emergency situations. Is that 
true?
    Ms. Tommie Martin. That is true.
    Dr. Gosar. How has Gila County specifically responded to 
the continuing fire threat posed by the severely overgrown 
Tonto Forest? I think everybody needs to hear this, a very 
great----
    Ms. Tommie Martin. In 2006 we were rated number one for 
fire threat in the southwest region. And the one-half percent 
that is our land base in the north, in the northern end of that 
county, is 70 percent of our assessed valuation. So we are 100 
percent vulnerable to wildfire.
    We immediately began--we built a collaborative team of all 
the fire chiefs, anybody that had a stake in this, and from 
that, the county put together what we called firewater. We went 
and got 20 to 50,000-gallon fuel bladders, surplus, took a 10-
foot culvert and cut them in 10-foot lengths. We all came off 
of ranches and we would do that with 3-foot culvert pipe and 
make horse troughs and cow troughs.
    So we said we would make a helicopter trough, and we have a 
10-foot culvert, 10 foot tall, and what we wound up doing was 
having 30,000 gallons of water sitting out there, at the 
minimum, helicopter-ready, whether it was a type 1, 2, or 3 
helicopter, filled them with water. We have our sheriff's posse 
monitor them. I have pictures, if you want them. It is part of 
my written testimony, also. We wound up spending about $1 
million in putting 25 of those set-ups out plus matching the 
communities up to $50,000 a piece to cut a fire break on their 
southwest side, which is the vulnerable side in our county, for 
fire coming their way, to have a fuel break that they could at 
least backfire away from and not burn the community down. Did 
those on Federal land.
    There are other costs there, we bought 11 Honda pumps to 
hook everything up together so that there was water available 
all the time. Our most recent success story was last year on 
the Poco Fire around Young. We were able to help the Forest 
Service hold that fire to 30,000 acres. They thought every day 
it would go to 500,000. And when it was all said and done we 
all got plaques about, ``Yay, you gave us water.'' But we ran 
water into those bladders and into those tanks for those type 1 
helicopters to pull 2,500 gallons at a time out, and keep that 
fire surrounded. Otherwise, we would have had the last piece of 
that rim burn last year.
    Dr. Gosar. Yes. Well, thank you very much for your 
ingenuity. I mean that is the one thing----
    Ms. Tommie Martin. I call it our redneck ingenuity, OK?
    Dr. Gosar. Before I wrap up--I have 25 seconds here--Andy, 
in the President's budget, once again we are in this process of 
taxes and spending. I see that the tax increase, as the 
President has proposed, has been proposed on an increase in 
grazing fees. This is an arbitrary tax that I oppose. Andy, 
would you tell me just a little bit about how this would affect 
the ranchers, if it was implemented?
    Mr. Groseta. Well, Congressman Gosar, I guess the short 
answer is it will put a lot of family ranches out of business. 
In these times of economic uncertainty, with ranchers facing 
drought throughout different pockets in the West, with ranchers 
taking voluntary reductions, with ranchers taking forest 
reductions implemented by the agency because of ESA issues, 
NEPA issues, whatever the issue may be, our capacity to produce 
wealth, to produce income, has been diminished over the past 
several years.
    And we all know what state the economy is in right now. So 
this is the worst thing that can happen to the cattle industry 
out in the West. It will put a lot of family ranches out of 
businesses.
    Dr. Gosar. Thank you. Mr. Chairman, I would like to do 
some--put some statistics into the record for if we were to 
mitigate, and one of the smaller fires up by the Schultz Pass 
Fire in Flagstaff, if we would have mitigated that, the cost 
would have been a minimum of one-tenth, at least one-tenth less 
than what we saw in mitigation charges for fighting a fire. So 
I would like to make sure that is in the record.
    Mr. Tipton. I appreciate that. Without objection, that will 
be noted for the record.
    And, Congressman Gosar, I am happy to yield my time, even 
though you have already used a minute of it, back to you if you 
did have a couple of other questions.
    Dr. Gosar. Oh, I do. Thank you, Mr. Chairman.
    If we were to actively--now everybody understands the 
situation in Gila County, OK. With a massive amount of land, if 
we were to get this project off, what would this mean 
financially, potentially, to Gila County?
    Ms. Tommie Martin. It would depend upon the value of the 
product, I think, at this point in time. It could mean a great 
deal to us, and it could not. And that was one of my comments, 
what I would like to really take a good, hard look at is there 
money there to be had at a 25-percent level, or do we need to 
do something else. Is there a creative--the product that Gila 
County has, we have some timber but we have mostly brush. OK?
    And can I finish answering a question a while ago? I have a 
picture that I want to share with you all. We call it smoky 
burning, OK? It is what led to that set-up. And I would like to 
hand these pictures off to you, also. All righty?
    Dr. Gosar. We would love to have them for the record.
    Ms. Tommie Martin. To go into this record. Back to the 
answer to your question, I would like to know more about 
exactly what the value of the product is. If it is in power, 
that is one thing. If it is in chip board, that is a whole 
different thing. It just depends on the product.
    Dr. Gosar. Now--I am sorry, I missed your comments earlier, 
I was stepping out. I couldn't help myself. There was a moment, 
so I had to run out and grab another witness.
    But you shared a story up in Utah about a ranch that 
actually is a model.
    Ms. Tommie Martin. Oh, it is.
    Dr. Gosar. Can you tell us a little bit more about it?
    Ms. Tommie Martin. You bet I can. It is the place that I 
know of in the inner-mountain west that has a building Sage 
Grouse population, building Pronghorn population, Cutthroat 
Trout population Sand Hill Crane population, Willow Flycatcher 
population. Any endangered species that is on the neighbors is 
a building population on that place. They do it in the presence 
of up to 11,000 head of livestock cattle, goats, sheep, buffalo 
at one time. They net--the last time I looked, they net $7 to 
the acre off of their livestock operation, and 3 on their 
wildlife operation. So not only is it giving us abundant water, 
abundant species, it also is giving us true wealth.
    That is not a climate consideration, eco-type 
consideration. It is strictly a matter of management. It is a 
thinking, decision-making situation. It could happen on any 
ranch: Andy's, mine, the gentleman that was here that talked 
about ranching. But it comes from shared goals and shared 
decisions, true shared decision-making. When we have to give 
our decision-making up to a monopoly decision-maker from folks 
who may not have lived in our area even a year, it certainly 
takes away the opportunities. And Andy and I are left with 
people that--I hate to say this, but we are now ranching for 
lifestyle, not livelihood. And we could be ranching for 
livelihood.
    Again, these lands are our basic Nation's wealth.
    Dr. Gosar. Yes.
    Ms. Tommie Martin. And we use money to manage them, instead 
of taking money from them. We are so upside down in this 
conversation.
    Dr. Gosar. That is absolutely true. My grandfather was a 
sheep and cattle rancher. And he was a true environmentalist, 
just like--I have been out to your ranch, Andy. You can't 
overdo things, otherwise you stymie yourself the following 
year. People don't really understand that.
    I want to ask you, when you are talking about the royalties 
from not only forest thinning but also grazing, does that not 
go into the State land fund, Andy?
    Mr. Groseta. The fees off the Federal lands go to the 
Federal coffers. And when we graze on State trust lands, those 
fees go to the State trust, which goes to education.
    Dr. Gosar. Goes to education.
    Mr. Groseta. Right.
    Dr. Gosar. So this is a possible boon-boon for our 
educational systems.
    Mr. Groseta. It would be a major windfall.
    Dr. Gosar. Wow. Let me ask you a question. In Yavapai 
County in the fires last year, what kind of economic set-backs 
did it have in Yavapai County?
    Mr. Groseta. Well, in our particular county we didn't have 
any major, major fires like they had on the Kaibab. On the 
Prescott National Forest they did have some prescribed burns.
    About 3 or 4 years ago south of Prescott they had the 
Indian Creek Fire, and that was on the verge of maybe wiping 
out the southern part of the City of Prescott. And so there are 
impacts from fires, but not particular to Yavapai County on the 
Prescott. But once you get up on the rim, on the Kaibab, on the 
Coconino, that is where the bulk of the timber is in Arizona, 
and that is where we need some relief. We need regulatory 
relief so we can actually go out and produce new wealth off the 
land.
    Dr. Gosar. Thank you very much, Mr. Chairman, for yielding 
me that time.
    Mr. Tipton. Thank you, Mr. Gosar. And, panel, thank you for 
taking the time to be able to be here. And if you need to go 
ahead and leave, we are going to go ahead and move to our next 
panel, and we certainly appreciate your time and your 
contribution to this.
    So, our next bill is going to be the draft bill by Mr. 
DeFazio, and we will begin with Mr. Robertson for your 
testimony. Thank you for being here, sir.

 STATEMENT OF THE HON. DOUG ROBERTSON, COMMISSIONER, DOUGLASS 
                         COUNTY, OREGON

    Mr. Robertson. Thank you very much, Mr. Chairman, members 
of the Committee. I am Doug Robertson. I am Chairman of the 
Board of Commissioners in Douglass County, Oregon, and also 
President of the Association of O&C Counties. Thank you for 
giving me the opportunity to be here and testify on the O&C 
Trust, Conservation, and Jobs Act sponsored by Congressmen 
DeFazio, Schrader, and Walden.
    The O&C Trust, Conservation, and Jobs Act is an attempt to 
solve a 20-plus-year jobs, forest health, and funding quagmire. 
The Oregon California Railroad Grant lands have played a unique 
and critical role in the fabric of Western Oregon communities. 
The O&C lands only exist in the State of Oregon and were at one 
point all in private ownership.
    This land base grows approximately 1.5 billion board feet 
of timber every year, and used to have a harvest level of 
roughly 1.1 billion board feet. Half of the revenue generated 
from the sale of this timber goes to the O&C counties' general 
fund, unlike Forest Service revenues, which receipts are shared 
at 25 percent and are dedicated to schools and roads.
    Unlike the laws governing other Federal forest lands, the 
1937 O&C Act is a dominant-use statute which places management 
jurisdiction of these lands under the United States Department 
of the Interior. These lands are not national forest and are 
not managed under the principle of multiple use. These lands 
are managed by the Bureau of Land Management under a dominant-
use statute. And that dominant use is timber production within 
the principle of sustained yield for the benefit of the 
counties in which they are located.
    Due to the listing of the Spotted Owl and the adoption of 
the Northwest Forest Plan, timber harvest from these lands have 
been reduced by more than 80 percent. Today the BLM is 
incapable of coming up with a workable management plan or path 
forward to meet the stated goals of the O&C Act. Much like 
other projects on Federal lands, O&C timber sales are 
continuously protested, appealed, and litigated. And this 
uncertainty is crushing rural Oregon counties, communities, and 
economies.
    The O&C Trust, Conservation, and Jobs Act places a surface 
estate of roughly 1.4 million acres of O&C land into a trust to 
be managed by a Board of Trustees under State and Federal laws 
that currently apply to private and State lands in Oregon. This 
trust concept works very well in the Chairman's own State of 
Washington, where the Washington Department of Natural 
Resources produces roughly $125 million annually for the 
benefit of their communities. This is all accomplished while 
protecting fish, wildlife, and water resources, as would be the 
case under the O&C Trust, Conservation, and Jobs Act.
    This bipartisan proposal is a unique approach to solve the 
management issues on a very unique landscape, and was initiated 
out of the desire, need to find balance, and to provide 
something of substance for all interested parties, while 
continuing to observe the principles contained in the 1937 O&C 
Act.
    We recognize it is no longer 1937. And we don't expect to 
return to harvest levels of 1,100,000,000 feet per year. But we 
also recognize the Act's sustained yield management principles 
are as relevant today as they were then. Our goal has been to 
blend those principles with the changing attitudes of today 
into a management regimen that provides the balance the public 
is seeking. This balance includes designating areas for active 
timber management and other areas for conservation purposes.
    Finally, Mr. Chairman, let me just say this. I have been an 
elected County Commissioner in Douglass County for over 32 
years. Many of those years have been spent working on this 
issue. I have never seen the discussion of Federal forest 
management with its emotion and suggested solutions and concern 
elevated to this level before. Clearly, fire, insect 
infestation, disease, the declining health of our Federal 
forests, and long-term funding of our county governments have 
struck a note with you and many of your colleagues.
    Having said that, it is absolutely imperative that Federal 
forest management legislation be passed by the House of 
Representatives and moved to the Senate. For if it is not, the 
discussion of improving management on our Federal forest lands 
will end here. And that is something we cannot and must not 
allow to happen.
    Finally, a wise man faced with similar problems as we face 
today once said, ``We can no longer afford to sacrifice the 
good in pursuit of the perfect.'' There is no perfect solution 
to this. We all wish there was, but there isn't. But there are 
good solutions. And this is one of them. Thank you for your 
time and consideration.
    [The prepared statement of Mr. Robertson follows:]

              Statement of The Honorable Doug Robertson, 
                  Douglas County (Oregon) Commissioner

    Mr. Chairperson and Members of the Committee:
    Thank you for asking me here today to testify on the O&C Trust 
Conservation and Jobs Act (OCTCJA) sponsored by Congressmen DeFazio, 
Schrader and Walden.
    The O&C Trust, Conservation and Jobs Act (``OCTCJA'') is an attempt 
to solve a 20+ year, jobs, forest health and county funding quagmire. 
The Oregon and California (``O&C'') Railroad Grant Lands have a unique 
history and play a critical role in the fabric of Western Oregon 
Communities. The O&C Lands only exist in Oregon and were, at one point, 
in private ownership. This land base grows approximately 1.5 billion 
board feet of timber every year and used to have a harvest level of 
roughly 1.1 billion board feet. Half of the revenue generated from the 
sale of this timber goes to the O&C Counties to fund county general 
funds (unlike Forest Service receipts which are shared at 25% and are 
dedicated to schools and roads). Unlike the laws governing other 
federal forestlands, the 1937 O&C Act is a dominant use statute which 
places management jurisdiction of the lands under the United States 
Department of the Interior, and directs that the timberlands ``shall'' 
be managed:
        . . . for permanent forest production, and the timber thereon 
        shall be sold, cut, and removed in conformity with the 
        principal of sustained yield for the purpose of providing a 
        permanent source of timber supply, protecting watersheds, 
        regulating stream flow, and contributing to the economic 
        stability of local communities and industries, and providing 
        recreational facilities . . . (43 U.S.C. Sec. 1181a)
    Due to the listing of the spotted owl and the adoption of the 
Northwest Forest Plan, which has failed to produce even its modest 
targets, timber harvests from these lands have been reduced by more 
than 80%. Today the BLM is incapable of coming up with a workable 
management plan or path forward. Much like other projects on Federal 
lands, O&C timber sales are continuously protested, appealed and 
litigated. This uncertainty is crushing rural Oregon counties, 
communities and economies.
    The OCTCJA places the surface estate of roughly 1.4 million acres 
of the O&C lands into a trust to be managed by a board of trustees 
under State and Federal laws that currently apply to private, local and 
state lands in Oregon. This trust concept works very well in the 
Chairman's own State of Washington where the Washington Department of 
Natural Resources produces roughly 125+ million dollars, annually, for 
the benefit of their communities. This is all accomplished while 
protecting fish, wildlife and water resources . . . as would be the 
case under the OCTCJA.
    This bipartisan proposal is a unique approach to solve the 
management issues on a very unique landscape. Once again, these lands 
only exist in the State of Oregon, and yet the catalyst that initiated 
this discussion was the requirement to find balance, and to provide 
something of substance for all interested parties while continuing to 
observe the principles contained in the 1937 O&C Act. We recognize that 
this is no longer 1937, and we do not expect to return to harvest 
levels of 1.1 billion board feet per year. But we also recognize the 
Act's sustained-yield management principles are as relevant today as 
they were then. Our goal has been to blend those principles with the 
changing attitudes of today into a management regime that provides the 
balance the public is seeking. This balance includes designating areas 
for active timber management and other areas for conservation purposes.
    Finally Mr. Chairman, let me just say this; I have been an elected 
Commissioner in Douglas County, Oregon for 32 years. Many of those 
years have been spent working on this issue. But I have never seen the 
discussion of Federal forest management with as many suggested 
solutions and concern on this level. Clearly jobs, fire, insect 
infestation, disease, the declining health of our Federal forests, and 
the long-term funding of our local, county governments after the loss 
of secure rural schools payments, have struck a note with you and many 
of your colleagues. Having said that, it is absolutely imperative that 
Federal forest management legislation be passed by the House of 
Representatives and move to the Senate, for if it does not, the 
discussion of improving management on our federal lands will end here 
and we cannot and must not allow that to happen.
    Someone much wiser than I once said . . . we can no longer afford 
to sacrifice the good in pursuit of the perfect. There is no perfect 
solution to this issue, but there are good solutions, and this is one 
of them. Thank you for your time and attention.
                                 ______
                                 
    Mr. Tipton. Good testimony. Thank you, Mr. Robertson. We 
appreciate that.
    Now proceed to Mr. Tuchmann for your testimony, please.

 STATEMENT OF TOM TUCHMANN, FORESTRY AND CONSERVATION FINANCE 
 ADVISOR, OFFICE OF GOVERNOR JOHN A. KITZHABER, STATE OF OREGON

    Mr. Tuchmann. Thank you, Mr. Chairman, members of the 
Committee. My name is Tom Tuchmann and I serve as Governor John 
Kitzhaber's Forestry and Conservation Finance Advisor. The 
Governor thanks you very much for the invitation to participate 
today. I think you know he is unable to do so, as the Oregon 
Legislature is in session.
    The Governor would also like to recognize Congressman Peter 
DeFazio, Congressman Walden, and Congressman Schrader for their 
strong leadership on this very, very difficult issue. 
Oregonians--indeed, all Americans--feel very strongly about 
their public lands, and it takes real courage to step forward 
and propose changes that are reflected in the O&C Trust, 
Conservation, and Jobs Act. And your leadership is greatly 
appreciated back home.
    Mr. Chairman, the Governor holds very strong conservation 
values and believes public lands can and should be managed to 
provide clean water, threatened-endangered species habitat, 
recreational values, and a diversity of forest types and ages. 
Yet he also believes a portion of these lands can 
simultaneously provide some sustainable level of timber to 
support local communities and regional economies. Some say 
these are mutually incompatible goals. But given our large, 
resource-rich public land system, the Governor respectfully 
disagrees.
    Commissioner Robertson went into detail on the background 
of the O&C Act and I would like to really cut to the chase here 
and say that the Governor feels that the pendulum has swung 
from harvest levels in the 1980s that largely did not sustain a 
wide array of conservation attributes to current practices that 
forecast only a 15- to 25-year window of thinning sales that 
are left.
    Timber volume produced from thinnings is good. It provides 
valuable resource to mills, but does not provide adequate 
quantity and quality of logs to local mills, nor do they 
produce adequate funds for basic public services in the 18 O&C 
counties that Commissioner Robertson referenced.
    The Northwest Forest Plan is working with regard to 
conservation objectives, but it is not working with regard to 
its timber objectives. While increased Federal timber harvests 
will not solve all of Oregon's economic challenges, it can and 
should serve as the foundation for doing so.
    So, where do we go from here? While the Governor would like 
to work with Congress to make changes that incorporate broader 
conservation protections, he appreciates that the O&C 
discussion draft provides predictability for local timber 
industry, county governments, and for old growth protection. 
The Governor stands ready to do his part, has already been 
deeply involved in this issue. His written statement summarizes 
both a report based on the results of a panel convened--this 
panel included conservation, timber, and county 
representatives--and also his recommendations based on that 
report.
    The Governor encourages Congress to use elements of the O&C 
Act discussion draft, the panel report, and his recommendations 
to craft a bill that can be signed into law this session. He 
feels confident that if we think creatively and outside the 
box, as he says, that we can optimize what everybody wants from 
our O&C forests.
    Thank you again for this opportunity. I will be happy to 
answer any questions you might have.
    [The prepared statement of Governor Kitzhaber follows:]

      Statement of Governor John A. Kitzhaber, MD, State of Oregon

    Mr. Chairman and members of the Subcommittee, I am Governor John 
Kitzhaber and I am pleased to provide my perspective on issues related 
to the Oregon and California (O&C) lands in Oregon.
    I would like to thank you Mr. Chairman and members of the 
subcommittee for taking the time to address this important and unique 
issue in my state. I would also like to recognize Congressman Peter 
DeFazio, Congressman Greg Walden and Congressman Kurt Schrader for 
their strong leadership on this very difficult issue. Oregonians, 
indeed all Americans, have strong and diverse views regarding how 
public forests should be managed. It takes real courage to step up and 
propose the changes that are reflected in the O&C Trust, Conservation 
and Jobs Act. Thank you for your leadership and please know it is 
appreciated back home.
    Mr. Chairman, I hold very strong conservation values. I believe 
that our public lands can and should be managed to provide a diversity 
of forest types, including ecosystems ranging from early to late 
successional stages and preserving old growth. Our forests should 
provide clean water for domestic uses and for aquatic ecosystems to 
flourish. Our forests should be managed so that Americans have places 
to recreate and come to appreciate the tremendous natural values of our 
forests, grasslands and waterways. Yet, I also believe a portion of 
these public lands can simultaneously provide some sustainable level of 
timber to support local and regional economies.
    Some say these are mutually incompatible goals, but given our 
large, resource rich public lands system, I respectfully disagree. We 
are currently at a place regarding Oregon's O&C lands where the 
pendulum has swung from harvest levels in the 1980s that largely did 
not sustain a wide array of conservation attributes to current practice 
that only forecasts a 15 to 25 year window of thinning sales. Timber 
volume levels from thinning alone do not provide adequate quantity and 
quality of logs to local mills, nor do they produce adequate funds for 
basic public services in the 18 O&C Counties.
    So where do we go from here? The status quo is not working and 
while increasing federal timber harvest will not solve all of rural 
Oregon's economic challenges, it can serve as a foundation. Congress 
should act to find a solution for O&C lands that helps Oregon counties 
improve financial stability, ensures adequate supplies of timber to 
support mills and jobs, and continues to meet aquatic and land 
conservation goals.
    I am a strong supporter of our nation's environmental laws, but I 
believe it is time to modernize the O&C Act and to update the 
application of the Northwest Forest Plan in a manner that provides more 
certainty for conservation, timber supply and County revenues. The O&C 
Act was written decades ago and the Northwest Forest Plan is now 20 
years old and has not delivered on all of its timber supply 
commitments. I believe we can adapt the O&C Act and the Northwest 
Forest Plan in a manner that optimizes what we conserve and produce 
from our public lands. In the case of the O&C forests, here is our 
story and here are some ideas for the Committee's consideration on how 
you might build on the O&C Trust, Conservation and Jobs Act moving 
forward.
O&C Lands--A Brief Background
    The Oregon and California Revested Lands Sustained Yield Management 
Act of 1937 (O&C Act) revested 2.6 million acres of forestland in 
western Oregon to the Federal government. The O&C Lands had been 
intended as compensation for the construction of a railroad but were 
revested after discovery that sales of the O&C Railroad Company 
violated Federal law. After revestiture, the Federal government agreed 
to share timber revenue, in lieu of foregone property taxes, with the 
18 counties within which the O&C lands were located. In addition to 
establishing a fiscal relationship, the O&C Act included a mandate to 
provide a sustained level of timber harvest and a community stability 
clause to ensure the economic viability of local economies. The Act 
also included conservation requirements in calling for the protection 
of watersheds and regulations of stream flows.
    Through the late 1980s, the O&C Lands were managed by the Bureau of 
Land Management (BLM) to produce timber under the sustained yield 
mandate. For a 30 year period through 1989, timber harvests on the O&C 
Lands averaged 1.1 billion board feet (BBF). The resulting payments to 
the O&C Counties over the same time period averaged $151 million (in 
2011$). Figure 1 shows annual timber harvest and payments derived from 
the O&C lands from 1960-2011. Note that even prior to significantly 
reduced timber harvest levels beginning in the early 1990s that timber 
harvest levels and total payments to counties (blue shaded area) 
demonstrate appreciable annual fluctuation due primarily to conditions 
in timber markets. Most notable is the recession that spanned the late 
1970s and early 1980s. One can speculate that if payments were coupled 
to timber harvests today, a similar response would have occurred during 
our recent economy.
[GRAPHIC] [TIFF OMITTED] 80441.004

.epsO&C Lands Sustain Multiple Values
    In its original interpretation, sustained yield is a relationship 
where the volume of timber harvest equals the volume of forest growth 
on an annual basis. During the 1960s and 1970s, many American's felt 
that the concept of sustainability, particularly as it relates to the 
management of our federally-owned forests, should be broadened to 
incorporate not just fiber supply but other forest attributes. The 
Multiple Use Sustained Yield Act (1960) required federal agencies to 
manage for non-timber values in addition to producing forest products. 
The Federal Land Management Policy Act (1976) and the National Forest 
Management Act (1976), along with the Endangered Species Act (1973) and 
Clean Water Act (1972), collectively broadened sustainability criteria 
in forest planning and management.
    Throughout the mid-to-late 1980s, a series of lawsuits sought to 
further interpret these environmental laws regarding forest management 
practices in the Pacific Northwest. Litigants sought injunctions 
against the harvest of timber in northern spotted owl (NSO) habitat. 
Between 1985 and 1990, Congress bypassed court-granted injunctions and 
provided certainty of timber harvests in the region through so-called 
``sufficiency language''. This language declared certain federal 
actions (i.e. USDA Forest Service timber sales) ``sufficient'' to meet 
existing environmental laws. New information indicating the decline of 
NSO population ultimately led the U.S. Fish and Wildlife Service 
(USFWS) to list the NSO as `threatened' under the Endangered Species 
Act (ESA) in 1990. Subsequently, U.S. District Courts entered 
injunctions barring timber harvests on forests managed by both the U.S. 
Forest Service (1991) and Bureau of Land Management (1992).
    The Courts required that the BLM maintain habitat for threatened 
and endangered species per the ESA. To simultaneously satisfy these 
requirements, the Clinton Administration initiated the development of 
the NW Forest Plan that applied the same Standards and Guidelines on 
both USFS and BLM jurisdictions.
    The NW Forest Plan created and applied two unique conservation 
strategies in an attempt to remove the injunctions on timber harvests: 
1) the role and allocation of late-successional old-growth forest 
reserves and 2) the development of an Aquatic Conservation Strategy 
(ACS)--a holistic approach to manage water quality and quantity by 
implementing a watershed analysis and restoration strategy. These 
strategies were integrated into a mix of land allocations, including 
old growth/habitat, riparian reserves and Matrix lands for timber 
production. The majority of O&C Lands are in some form of reserve, 
leaving 25% available for timber production.
    Under the NW Forest Plan, conservation objectives have trended 
upward. Results from a 15-year monitoring report \1\ underscore the 
role of federal forests in maintaining old-growth in western Oregon. 
Old-growth has experienced a slight net loss but that loss is well 
below the projected 2.5% decadal loss rate projected when the NW Forest 
Plan was written. Watershed evaluation showed that 69% of watersheds 
\2\ have experienced a positive change. Populations of and habitat for 
NSO and marbeled murrelets are still in decline across the region 
largely due to the fact that recruitment of suitable habitat is slow, 
often requiring 100+ years to develop from young forests. Projections 
of trends show substantial representation of 150+ year old stands by 
2050.
---------------------------------------------------------------------------
    \1\ http://www.reo.gov/monitoring/reports/15yr-report/index.shtml.
    \2\ Watersheds were analyzed at 6th field hydrologic units (HUC), 
approximately equivalent to 20,000 acres.
---------------------------------------------------------------------------
    Average annual timber supply from the O&C Lands was projected at 
203 million board feet (MMBF).\3\ Since 1995, the BLM has offered for 
sale 84% of that volume target.\4\ Actual average annual harvest on O&C 
lands has averaged 120 mmbf/year,\5\ ranging from 38 mmbf (2001) to 288 
mmbf (1996). Figure 2-a shows annual timber metrics since 1995. Note 
that Congress measures the BLMs annual performance against `Volume 
Sold' and that timber purchases typically have 3-5 years to conduct 
harvests.
---------------------------------------------------------------------------
    \3\ All volume numbers included here are for `long logs' for 
comparison with the NW Forest Plan. The BLM standard is to report in 
`short logs'. To convert to short logs, divide by 0.825.
    \4\ Since 1995, the BLM has offered 96% of the volume Congress has 
funded them to produce.
    \5\ From 1962-1990, the BLM timber harvest averaged 1.0 billion 
board feet per year. Annual harvest under the NW Forest Plan is only 
12% of this historical volume.
---------------------------------------------------------------------------
    More recently, primarily resulting from a 2006 settlement,\6\ O&C 
timber volume has matched the NW Forest Plan projections. However, 
Figure 2-b shows that thinning volume has increasingly constituted the 
majority of total volume sold. In contrast, the NW Forest Plan 
projected that 80% of timber volume would result from regeneration 
harvests. A little-known accompanying report to FEMAT \7\ showed a 
potential increase in timber harvest after initial implementation as 
second-growth forests matured and became economically-available for 
harvest.
---------------------------------------------------------------------------
    \6\ In 2004, the USFS and BLM issued a Record of Decision (ROD) 
attempting to remove Survey & Manage from the NW Forest Plan entirely 
but it was overturned in 2006. As part of this decision, parties agreed 
to the `Pechman exemptions' whereby four categories of actions, 
including thinning of forest stands less than 80 years old, would be 
permitted.
    \7\ The Forest Ecosystem Management Assessment Team conducted a 
risk analysis for management of forests in the region of the Northern 
Spotted Owl which became the foundation for the NW Forest Plan.
[GRAPHIC] [TIFF OMITTED] 80441.005

.eps[GRAPHIC] [TIFF OMITTED] 80441.006

    .epsFuture thinning opportunities on O&C Lands vary by BLM 
District, resulting in geographic disparity and generally reduce the 
size, quality and species diversity of timber supply. At current, mills 
in western Oregon report an additional 1 billion board feet (BBF) of 
milling capacity, however, issues such as log exports and the housing 
market also have an effect 0n capacity.
    While thinning is a valuable ecological forest management tool and 
provides fiber for manufacturing facilities, the economics of thinning 
operations make it difficult to simultaneously achieve County payment 
objectives. Although impacted by the economy, harvest volume between 
2004-2010 would have yielded only $12.9 million in payments to O&C 
Counties (compared against $113.9 million funded through Secure Rural 
Schools). The O&C Counties indicate that this total is roughly one-
tenth of the revenue needed to fund basic services provided by local 
governments. Not surprisingly, O&C Counties are facing unprecedented 
financial challenges with 5 or 6 counties facing insolvency and another 
5 or 6 facing significant challenges.
    With this in mind, I believe it is time modernize the O&C Act and 
The Northwest Forest Plan in a manner that provides more certainty for 
conservation, timber supply and county revenues. I believe we can draw 
upon our experience implementing these guiding laws and administrative 
actions to adapt them without weakening their intent though I know that 
some may feel differently.
Exploring Potential Management Scenarios for the O&C Lands
    In October 2012, I convened a panel to address challenges related 
to O&C issues and to advise me on potential O&C solutions. The O&C 
Trust, Conservation and Jobs Act along with a set of principles drafted 
by Senator Ron Wyden and another set drafted by myself served as the 
starting point for our discussions. The Panel met 15 times over a 3-
month period and my staff published a report based on these meetings 
that can be downloaded at http://www.oregon.gov/gov/GNRO/docs/
OCLandsReport.pdf.
    While most people think of O&C lands as those 2.1 million acres 
managed by the BLM, there are additional categories of O&C and BLM 
lands that the Panel chose to include in its analysis. Table 1 provides 
a breakdown of these 2.8 million acres.
[GRAPHIC] [TIFF OMITTED] 80441.007

    .epsThe Panel agreed to analyze a range of management scenarios 
including the current ``thin only'' approach, two runs based on the O&C 
Trust Act concepts, two ecological forestry runs, and options that 
included a small land sale and community forestry component. More 
description of the modeling runs is included the report.
    Modeling results demonstrated a wide range of potential timber 
harvest and associated county revenues. Table 2 shows that continuing 
the ``thin only'' approach (Run A) would generate the current timber 
volume for less than 25 years and only return less than $15 million 
annually to the O&C Counties. On the high end of the range, a Trust 
authorized by the O&C Trust Act managed under the Oregon Forest 
Practices Act (Run B) would generate 700 MMBF of timber supply and $165 
million of county revenues annually.
    The runs that included some kind of ecological forestry component 
(Runs D, E, F, G) generated slightly increased annual timber supply 
volumes in excess of NW Forest Plan timber targets. Revenue projections 
were similar among this group with the exception of Run F that 
evaluated the sale of 200,000 acres of O&C Lands. The thinking is that 
sale proceeds would be used to create a financial trust for benefit of 
the O&C Counties. Analysis suggested the sale would generate $910 
million that, if placed in a financial fund with a conservative rate of 
return at 5%, would produce consistent annual revenue of $46 million 
for the O&C Counties. Timber receipts would generate the additional 
revenue projected to meet the total shown in Table 2.
[GRAPHIC] [TIFF OMITTED] 80441.008

.epsEcological Effects
    A major challenge given the Panel's timeframe was completing a 
robust analysis of the ecological effects of these management 
scenarios. Relating to habitat for the Northern Spotted Owl (NSO) and 
marbeled murrelet (MAMU), the Panel did undertake an analysis of the 
intersection of proposed harvest units to two measures: Suitable 
Habitat and Critical Habitat. Due to time and budget constraints, the 
Panel contracted this analysis for selected runs (Run A, Run C, Run D, 
and Run F).
    Suitable habitat is assessed at the stand level and combines an 
array of measurements including canopy closure, tree diameter, and 
structural diversity. A rough approximation for suitable habitat is any 
native forests older than 120 years although stands between 80-120 
years serve as habitat where distribution of older forest is limited.
    Our analysis showed that suitable habitat for NSO increased as 
after 50 years of implementation for all runs. However, projection of 
suitable habitat for MAMU declined when applying the Trust in Run C but 
increased under Runs D & F.
    In the midst of the Panel's work, the U.S. Fish and Wildlife 
Service (USFWS) released their final Critical Habitat rule for the 
Northern Spotted Owl (NSO). Critical habitat is a network of large 
landscape areas designed specifically to fulfill an endangered specie's 
range of needs, including nesting, roosting and foraging habitat.
    In general, implementation of Run C as modeled would have 
significant impact on Critical Habitat as identified by USFWS. For Run 
C, approximately 27% of the identified Critical Habitat acres on the 
O&C Lands were scheduled for a regeneration harvest over the first 50 
years of management. With additional thinning, 55% of Critical Habitat 
on O&C Lands would experience a harvest in the first 50 years. By 
design, no regeneration harvests were scheduled in Critical Habitat for 
Runs A, D & F. Thinning was prescribed however and was scheduled in 35% 
of stands identified by the USFWS. Due to time constraints, the Panel 
was not able to conduct population modeling as used by USFWS but 
ultimately it would be important to do so to understand the risk of 
increased harvest to future species viability.
Conclusions and Recommendations \8\
---------------------------------------------------------------------------
    \8\ See letter submitted to the Oregon Congressional Delegation on 
February 6, 2013. http://www.oregon.gov/gov/GNRO/docs/
OCDelegationLetter.pdf
---------------------------------------------------------------------------
    Given the short timeframe allowed and recognizing the inherent role 
of Congress in the ultimate resolution, development of a detailed 
proposal proved difficult for the O&C Panel. However, I believe 
significant process was made in three important areas:
        <bullet>  First, a foundation of understanding and trust was 
        created between Panel participants.
        <bullet>  Second, it is clear that federal legislation is 
        needed to achieve any significant progress.
        <bullet>  Third, O&C Lands Report contains an array of ideas 
        that could be integrated in different ways to create a durable 
        solution for all parties.
    Based on the Panel's consideration and these conclusions, I believe 
a legislative solution can and should be passed into law that includes 
the following equally important elements.
        <bullet>  Stable Timber Supply--Stable and predictable timber 
        sale levels above current harvest levels can and should be 
        achieved with minimal impact old growth and aquatic ecosystems.
        <bullet>  Adequate County Funding--Timber harvest and/or 
        revenues generated from land disposition can significantly 
        improve the stability of O&C counties. Oregon and state and 
        local governments should share in the responsibility to fill 
        any gap that may remain between timber revenues and the funding 
        required to keep counties fiscally viable.
        <bullet>  Protect Unique and Special Places--There are 
        approximately 118,000 acres deserving of wilderness protection 
        and an additional 30,000 acres worthy of protection as part of 
        a conservation network. Additional acres should be considered 
        for protection as priority watersheds for fish habitat as 
        salmon strongholds and Wild and Scenic River designation.
        <bullet>  Durable and Adaptive Conservation Standards--To 
        achieve timber harvest goals on Federal land, ecological 
        forestry-based regeneration harvest should be used in stands 
        120 years old or younger, and certain riparian buffers should 
        be modified in recognition of evolving science that concludes 
        such modifications can be made. Once these modifications have 
        been made, the late successional old growth strategy and 
        aquatic conservation strategy components of the Northwest 
        Forest Plan should be institutionalized in a manner that 
        dedicates those areas to the conservation of endangered species 
        and other conservation values as the dominant use. And adaptive 
        management process should be developed to incorporate future 
        scientific findings where and when appropriate.
        <bullet>  Achieve Certainty--The O&C Act should be amended to 
        include some combination of a dominant use mandate on certain 
        acres for timber production and on other acres for 
        conservation. In addition, a reallocation of some non-strategic 
        acres should be made to a trust and/or sold to a community 
        nonprofit or private buyer. Together such actions would create 
        certainty for an array of different forest uses and outputs.
        <bullet>  Tribal Considerations--A number of tribes exist with 
        ceded lands and ancestral history tied to the O&C land area. I 
        believe an O&C solution should consider land management impacts 
        on these tribes' ancestral lands, participation in management 
        authority and/or land restoration requests.
    In closing Mr. Chairman, I would strongly encourage the Committee 
to pass legislation that includes the elements outlined above and then 
work with your colleagues in the Senate to craft a balanced long-term 
solution. I feel confident that if we think in creative new ways that 
we can provide for most of what everybody wants from our O&C forests. 
Conversely, failure to act is bad for our rural communities and in the 
long run bad for our conservation efforts as well.
    Thank you again for this opportunity to testify and I would be 
happy to answer any questions you may have.
Appendix
Item A. Governor Kitzhaber's O&C Lands Principles
        <bullet>  Stable County Funding--Recognize the O&C Act's unique 
        community stability mandate and provide adequate and stable 
        county revenues sufficient to meet needs for basic public 
        services.
        <bullet>  Stable Timber Supply--Provide adequate and stable 
        timber supply that will provide for employment opportunities, 
        forest products and renewable energy.
        <bullet>  Protect Unique Places--Permanently protect 
        ecologically unique places.
        <bullet>  Durable & Adaptive Conservation Standards--Maintain 
        Northwest Forest Plan forest management standards--Late 
        Successional/Old Growth Reserves & Aquatic Conservation 
        Strategy--in an adaptive manner where and when required to 
        comply with environmental laws.
        <bullet>  Conservation Opportunities--Promote conservation 
        advances on private ``checkerboard'' lands through voluntary, 
        non-regulatory incentives--financial, technical, regulatory 
        relief, etc.
        <bullet>  Federal Budget Neutral--Recognize that O&C solution 
        will need to be budget neutral or positive at the Federal 
        level.
        <bullet>  Achieve Certainty--Develop a policy framework that 
        will provide for certainty in achieving all of these 
        principles.
Item B. Participants on Governor Kitzhaber's O&C Panel
        <bullet>  O&C County Representatives
                  Jamie Damon--Clackamas County Commissioner
                  Doug Robertson--Douglas County Commissioner
                  Simon Hare--Josephine County Commissioner
                  Tony Hyde--Columbia County Commissioner
        <bullet>  Conservation Representatives
                  Sybil Ackerman--Sybil Ackerman Strategies
                  Greg Block--Wild Salmon Center
                  Bob Davison--Defenders of Wildlife
                  David Dreher--Pew Charitable Trust
                  John Kober--Pacific Rivers Council
                  Jack Williams--Trout Unlimited
        <bullet>  Timber Industry Representatives
                  Allyn Ford--Roseburg Forest Products
                  Ray Jones--Stimson Lumber Company
                  Jennifer Phillipi--Rough and Ready Lumber Company
                  Dale Riddle--Seneca Sawmill Company
                                 ______
                                 
    Mr. Tipton. Thank you very much, Mr. Tuchmann. And Mr. 
Kulakowski--did I get that right?
    Dr. Kulakowski. You did.
    Mr. Tipton. Great. If you would like to give us your 
testimony.
    Dr. Kulakowski. Thank you.

 STATEMENT OF DOMINIK KULAKOWSKI, PH.D., ASSISTANT PROFESSOR, 
SCHOOL OF GEOGRAPHY, ADJUNCT ASSISTANT PROFESSOR, DEPARTMENT OF 
                   BIOLOGY, CLARK UNIVERSITY

    Dr. Kulakowski. Thank you, Mr. Chairman, members of the 
Committee. My name is Dominik Kulakowski. I have been 
researching insect outbreaks and fires in the Rocky Mountain 
Forest for 15 years. I have authored numerous peer-reviewed 
scientific papers on these topics. During this time I have 
worked as a research scientist at the University of Colorado, 
and I am now a professor at Clark University, where I continue 
this research.
    In recent decades wildfires have burned millions of acres 
of forests, and insect outbreaks have killed trees over an even 
larger area. My research, as well as that of many other 
scientists, indicates that both of these disturbances are being 
driven by climate.
    A critical issue in this context is whether and to what 
degree outbreaks may heighten the risk of active crown fires, 
which are particularly dangerous, due to their high intensity 
and rate of speed.
    The answer to this question is complex. But the bottom line 
is that any influence of outbreaks on fire risk is small 
compared to the overarching influence of weather, which is much 
more important.
    For example, my research group recently completed a study 
in which we examined the occurrence of severe wildfires in 
Lodge Pole Pine forests in Colorado over the past century. We 
found no detectable increase in the occurrence of high-severity 
fires following Mountain Pine Beetle outbreaks. Instead, we 
found that wildfires have overwhelmingly occurred in years of 
drought. We also found a similar overarching influence of 
drought on fires in spruce forests that had been affected by 
outbreaks. In sum, catastrophic fire is not an inevitable 
outcome of Bark Beetle outbreaks. Instead, climate exerts the 
dominant influence on fire risks in these forests.
    Given prolonged and recurring drought conditions, there is 
a need to protect homes and communities from wildfire. Previous 
research has shown that reducing flammable material in the 
immediate vicinity of structures and replacing flammable 
building materials such as wooden decks with non-flammable 
alternatives most effectively protects structures against fire.
    Our research has found that focusing fuel-reduction 
treatments in the immediate vicinity of structures rather than 
in remote forests would not only be more effective at reducing 
fire risk to those structures, but would also involve treating 
less land, and thus would lead to lower financial and 
ecological costs.
    Furthermore, much of the land that primarily determines 
flammability of homes is not in national forests but, rather, 
is private land that is adjacent to homes and communities. It 
is on that private land that fire hazard mitigation is likely 
to be most effective for protecting structures.
    The larger context is that, as a Nation, we are 
increasingly building homes in fire-prone ecosystems. This type 
of development in the wildland-urban interface, especially when 
coupled with prolonged drought, is putting homes and lives at 
risk. Therefore, an important way of reducing this risk would 
be to reduce the number of structures that are being built in 
harm's way.
    In addition to protecting communities from wildfire, 
another important goal of forest management is promoting 
ecosystem resilience. Over the past century, forests of the 
Rocky Mountains have been resilient to both wildfires and Bark 
Beetle outbreaks. Currently, it is unknown whether forest 
resilience has been compromised by the magnitude and extent of 
these disturbances, and by an unfavorable post-disturbance 
climate. Nevertheless, following even very severe Bark Beetle 
outbreaks, some trees and seedlings survive, and viable seeds 
remain in the soil. Therefore, promoting ecosystem resilience 
should complement existing resilience and natural regeneration.
    Although ongoing outbreaks understandably have led to 
widespread public concern about increased fire risk, the 
effects of outbreaks are not as important as the controlling 
influence of weather and climate. During drought the risk of 
fires is often high. And the most effective way of protecting 
homes from that risk is by treating land in their immediate 
vicinity.
    More broadly, any comprehensive forest management plan will 
eventually need to address housing development in the wildland-
urban interface, as well as trends in climate. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Kulakowski follows:]

    Statement of Dr. Dominik Kulakowski, Assistant Professor, Clark 
  University, on H.R. _ Depleting Risk From Insect Infestation, Soil 
               Erosion, and Catastrophic Fire Act of 2013

    Chairman Bishop, Ranking Member Grijalva, members of the Committee: 
My name is Dominik Kulakowski. I have been researching insect outbreaks 
and fires in Rocky Mountain forests for fifteen years. During that time 
I have worked as a research scientist at the University of Colorado and 
I am now a professor at Clark University where I continue this 
research. I have authored numerous scientific papers on these topics, I 
have peer-reviewed numerous scientific studies and research proposals, 
and I have testified before subcommittees of the United States House of 
Representatives and the United States Senate. My testimony is based on 
the findings of my own research as well as on the research of other 
scientists.
Climate is driving outbreaks and fires
    In recent decades wildfires have burned millions of acres of 
western forests and insect outbreaks have killed trees over an even 
larger area. My research as well as that of many other scientists 
indicates that both of these disturbances are being driven by climate. 
Mountain pine beetle and spruce beetle are responsible for most insect-
caused mortality across the western United States. Both of these insect 
species are native to the region and have been important in the 
development of these forests for centuries. However, recent climatic 
conditions have favored the growth of beetle populations and have at 
the same time stressed trees and reduced their capacity to defend 
themselves against attack. This perfect storm has contributed to the 
largest outbreaks of bark beetles in recorded history. As with bark 
beetle outbreaks, large severe wildfires have been important in the 
development of many western U.S. forests for centuries. However, recent 
warm and dry conditions have been particularly conducive to wildfires. 
It is these climatic conditions that are driving the increase in 
wildfires over the past decades.
    A critical issue in the context of recent increases of outbreaks 
and wildfires is whether, and to what degree, outbreaks may heighten 
the risk of active crown fires, which are particularly dangerous due to 
their high intensity and rate of speed. The answer to this question is 
complex and contingent on the type of forest, the time since the 
outbreak, as well as the particular fire characteristics in question. 
Studies based on mathematical models disagree about whether bark beetle 
outbreaks may increase the risk of fire in some forest types and under 
very specific weather conditions. While more research remains to be 
done, it is important to stress that any influence of outbreaks on fire 
risk appears to be small compared to the overarching influence of 
weather, which is much more important. Furthermore, modeling results 
may be highly contingent on the type of model used and the assumptions 
upon which that model is built. In contrast, empirical research that 
has examined how beetle outbreaks have affected actual wildfires has 
overwhelmingly deemphasized the importance of outbreaks versus other 
variables, including weather. For example, my research group recently 
completed a study in which we examined the occurrence of severe 
wildfires in lodgepole pine forests in Colorado over the past century. 
We found no detectable increase in the occurrence of high-severity 
fires following mountain pine beetle outbreaks. Instead, we found that 
wildfires have overwhelmingly occurred in years of drought.
    Another example is that of a major outbreak of spruce beetle in 
spruce and fir forests in Colorado in the 1940s, following which there 
was substantial concern about increased risk of fire. But although over 
300 fires occurred in that region in the decades that followed, our 
research found that the forests affected by beetles were no more likely 
to have burned than other forests. Furthermore, no major fires occurred 
in those beetle-affected forests in the years and decades that followed 
the outbreak despite the abundance of dead trees. The most likely 
explanation for this lack of large severe fires is that climatic 
conditions in these forests are a more important factor in determining 
fire risk than is the presence of dead trees. In fact, it was not until 
a severe drought in 2002 that a large fire affected these forests. 
During that year there were many wildfires in Colorado, the majority of 
which burned forests with no recent history of outbreaks.
    During the drought of 2002, wildfires also burned some forests in 
northern Colorado that were attacked by beetles just prior to 2002. The 
potential increase of fire risk immediately following bark beetle 
outbreaks is the subject of active research. During this so-called 
``red phase'' dry red needles persist on recently killed trees. It has 
been hypothesized that the risk of active crown fire may therefore 
increase during and immediately after outbreaks of bark beetles. 
Relatively little research has examined fires during the red phase of 
outbreaks and more research is necessary. However, our examination of 
the 2002 fires found that outbreaks that immediately preceded those 
fires affected neither the extent nor severity of fires, most likely 
because changes in fuels brought about by outbreaks were overridden by 
weather conditions and other variables.
    In sum, catastrophic fire is not an inevitable outcome of bark 
beetle outbreaks. Instead climate exerts the dominant influence on fire 
risk in these forests. Therefore, it is primarily climate that we 
should be focusing on if we want to assess and mitigate fire risk. If 
conditions are dry enough then the risk of fire is likely to be high 
and if conditions are not dry enough then the risk of fire is not 
likely to be high, regardless of the effect of outbreaks. Even when 
lodgepole pine and spruce forests are made up of live green trees and 
may not appear to be flammable, the fact is that during drought 
conditions the risk of wildfire can be extremely high. Although it may 
be possible that under certain particular conditions there may be a 
minor increase in the likelihood of fire following outbreaks, the 
larger and more important context is that the effects of outbreaks are 
not as important as the controlling influence of weather.
Protecting homes and communities by reducing fire hazard in their 
        immediate vicinity
    Given prolonged and recurring drought conditions there is a need to 
protect homes and communities from wildfire. Generally speaking, fuel-
reduction strategies designed to protect homes and communities from 
wildfire risk can be categorized as those that primarily aim to reduce 
fuels in remote forest lands or in the immediate vicinity of homes and 
communities. Previous research has shown that reducing flammable 
material in the immediate vicinity of structures and replacing 
flammable building materials such as wooden decks with non-flammable 
alternatives most effectively protects structures against fire.
    Our recent research indicates that almost all of the forests 
affected by outbreaks are in remote areas rather than in the wildland-
urban interface. Furthermore, in the context of limited resources and 
the goal of protecting homes and communities from wildfire, our 
research found that focusing fuel reduction treatments in the immediate 
vicinity of homes and communities, rather than in remote beetle-
affected forests, would not only be more effective at reducing fire 
risk to those homes and other structures, but would also involve 
treating less land and thus would lead to lower financial and 
ecological costs. Furthermore, most of the land that primarily 
determines flammability of homes is not in National Forests, but rather 
is private land that is adjacent to homes and communities. It is on 
that private land that fire hazard mitigation is likely to be most 
effective for protecting homes and other structures.
    By focusing treatments in remote forests, we will be using up 
limited funds and resources while leaving homes and communities at risk 
of wildfire. Overall, it is going to be more effective and less 
expensive to focus fire-hazard reduction efforts around homes and 
communities as opposed to making a wholesale modification of forest 
structure over large landscapes. Pine branches touching wooden decks 
are much more relevant to community fire risk than are beetle outbreaks 
in remote forests. Replacing wooden shingles with a metal roof will do 
much more to protect homes than treating remote beetle-affected 
forests.
    A larger context is that as a nation, we are increasingly building 
our homes in fire-prone ecosystems. This type of development in the 
wildland-urban interface, especially when coupled with prolonged 
drought, is putting homes and lives at risk. Therefore, an important 
way of reducing this risk would be to reduce the number of structures 
that are being built in harm's way.
Promoting existing ecosystem resilience
    In addition to protecting communities from wildfire, another 
important goal of forest management is promoting ecosystem resilience. 
Over the past centuries, forests of the Rocky Mountains have been 
resilient to both wildfires and bark beetle outbreaks. Currently, it is 
unknown whether forest resilience has been compromised by the magnitude 
and extent these disturbances and by an unfavorable post-disturbance 
climate. Nevertheless, following even very severe bark beetle 
outbreaks, some trees and seedlings survive and viable seeds remain in 
the soil. Therefore, promoting ecosystem resilience is likely to be 
most effective if it complements existing resilience and natural 
regeneration.
Conclusion
    Although ongoing outbreaks understandably have led to widespread 
public concern about increased fire risk, the effects of outbreaks are 
not as important as the controlling influence of weather and climate. 
The ongoing outbreaks have not increased the risk of wildfire as much 
as they have drawn attention to the risk that is there due to recurring 
and prolonged warm, dry conditions. During drought, the risk of fires 
is often high and the most effective way of protecting homes from fire 
risk is by removing flammable material from the immediate vicinity of 
homes and communities and by using fire resistant building materials, 
not by modifying forest structure in remote areas that have been 
affected by outbreaks. The former approach would be less expensive, 
much more effective at protecting public safety interests, and 
consistent with the best available science. More broadly, any 
comprehensive forest management plan will eventually need to address 
housing development in the wildland-urban interface as well as trends 
in climate.
                                 ______
                                 
    Mr. Tipton. Thank you, Doctor, for your testimony. And we 
will now move on to the questions. And I will go ahead and 
start.
    And, Doctor, I probably just have one question, really, for 
the panel. We have covered a lot of ground here today during 
the course of these hearings. But you, like previous panelists, 
seem to suggest that the beetle outbreaks do not contribute to 
the fire danger. But what about simple overstocking of the 
forests? We can't control the weather, we certainly can, 
though, control the fuel that is going to be available to burn. 
Wouldn't it be prudent to undertake forest thinning to be able 
to reduce the intensity of the fires, rather than just to sit 
back and blame change for the uncharacteristic fires that have 
resulted from forest overgrowth?
    Dr. Kulakowski. Yes. In principle that makes sense. But 
when we examine how fires have actually behaved in areas that 
have been thinned, we actually don't see any meaningful effect 
of those thinning treatments.
    So, for example, in the Hayman Fire in Colorado, there were 
areas that had burned that were treated prior to that fire. And 
when researchers examined the behavior of the fire, they found 
actually no effect of those thinning treatments.
    Similarly, in Northern Colorado there was quite a large 
area that was treated after the wind storm that blew down 
forests in 1997. Again, when wildfires occurred in that area in 
2002, our own research found that fires were just as extensive 
and just as severe in areas that had been treated versus areas 
that had not been treated.
    The reason, I would guess, is because timber harvesting, by 
design, is intended as an economic endeavor. The small 
branches, twigs, et cetera, are not as valuable as the larger 
stems. So the finer fuels are essentially left behind. During 
wildfire it is those fine fuels that carry fires through 
treated forests.
    Mr. Tipton. You know, and that's a great point. It is 
always interesting on studies to where you can find to be able 
to support your position. One that you might want to actually 
take a look at--you have been in Colorado--it was a 2010 study 
of the Tripod Fire. It was published by the Forest Service and 
the Joint Fire Science Program. And it found that 57 percent of 
the trees survived in areas where recent mechanical thinning 
combined with the prescribed burns had occurred, and only 14 
percent of the trees survived in areas where no timber 
management had actually taken place.
    And so it is probably trying to find that actual good, 
common-sense balance to be able to get in and address these 
areas and to look for the win-win to be able to turn some of 
these biofuels actually into usable electricity, as well. So, I 
appreciate your comments.
    I would now like to yield to Mr. DeFazio for his questions.
    Mr. DeFazio. Thank you, Mr. Chairman. And I thank the panel 
for sitting through a long day and traveling a long way to give 
your testimony.
    There are some policymakers--and I just already saw a quote 
in a story regarding today's hearing from the Pacific Rivers 
Council--saying that, in fact, under status quo, we could 
produce more timber and more revenues for the counties. And I 
direct my question first to Mr. Tuchmann.
    I believe the Governor's task force looked at this issue. 
And what conclusions did they come to regarding that?
    Mr. Tuchmann. Congressman DeFazio, thank you for that 
question. As I mentioned in our written testimony, we looked at 
seven different runs we called them, different options for 
managing the O&C forests, and Run A was the status quo. It was 
not how the Northwest Forest Plan was originally intended, but 
how it is currently being operated on the ground, and that is 
primarily through thinnings. And that produced about 185 
million board feet for probably 15 to 25 years, depending on 
one's perspective, and I think around $13 million to counties. 
That is not Secure Rural Schools money, that is if it was just 
completely dependent on timber harvest and the revenues 
generated from that.
    And with that in mind, I mean, that is an area where the 
Governor feels the status quo was not working, that O&C Act and 
the Northwest Forest Plan need to be modernized, modernized in 
a way that increases Federal timber supply, payments to 
counties, and also institutionalizes the conservation 
components of the plan, as well.
    Mr. DeFazio. OK, thank you. Institutionalizes, meaning 
permanent protections?
    Mr. Tuchmann. Yes.
    Mr. DeFazio. OK. The riparian issue was discussed by the 
panel, or the task force, as I understand it. And there were 
some comments and concerns about the riparian provisions. Could 
you address that briefly?
    Mr. Tuchmann. Congressman, yes. The conservation strategy 
in the Northwest Forest Plan is a success story. We have seen 
increases in water quality. The 1998 monitoring report has some 
statistics on that. And some of the concerns--I don't want to 
speak for the panel members--the concerns from the conservation 
panelist was that the current discussion draft does not include 
protections within the trust for riparian areas, and there was 
a robust discussion of that.
    The Governor feels that is an area that he would like to 
see improved and strengthened in any final resolution to this 
issue, and it is something that I think would be rationalized 
not just by the monitoring report, but also new science that 
shows that--let me back up.
    These buffers were interim buffers. And so, there was the 
thought when the Northwest Forest Plan was passed that over 
time there would be more watershed analysis. And based on the 
particular watershed, that would be increased or decreased. 
That never happened. And there is some science that is evolving 
that says, ``Hey, we should be doing that. You can reduce a 
portion of the buffers.'' Not all of them, but a portion of 
them, 20 to 60 percent, I think, based on the watershed, and 
not have an effect on water quality.
    Mr. DeFazio. And I believe you looked at an option that 
would incorporate some of additional public domain lands which 
are interspersed----
    Mr. Tuchmann. That is right.
    Mr. DeFazio. And applied, then, those buffers, and that did 
get both a higher water quality and higher harvest levels.
    Mr. Tuchmann. That is right.
    Mr. DeFazio. That is correct.
    Mr. Tuchmann. Mr. Robertson, do you have any comment on 
that issue, on the water issue, riparian?
    Mr. Robertson. Congressman DeFazio, there is no question 
that water is a very serious topic for all Oregonians. And as 
Mr. Tuchmann pointed out, it was a robust discussion within the 
panel. We feel there is an opportunity for movement to increase 
protection without having a negative impact on outputs on the 
land.
    Mr. DeFazio. OK, thank you. Quickly, and I will have a 
second round, if I can, Mr. Chairman.
    Mr. Tipton. Sure.
    Mr. DeFazio. This is very important to us. The discussion 
draft did not include the recent legislation introduced by 
Senators Wyden and Merkley regarding settlement with two Tribes 
that has never been brought to fruition. Do either of you have 
a comment on the inclusion of those in a final version of this 
bill?
    Mr. Robertson. Congressman DeFazio, Senators Wyden and 
Merkley have introduced a discussion draft, as you know, 
proposing something in the neighborhood of 32,000 acres divided 
between the two unlanded Tribes left in the State of Oregon.
    Our concern initially was that if that land was going to 
come from the O&C land base, that there be something in the way 
of equal acres value or volume to replace it. In other words, a 
no-net-loss to the O&C land base. Through discussions 
subsequent to the release of the draft, Senator Wyden has 
agreed to that, and we are confident that there will be no 
negative impact on the O&C land base.
    Mr. DeFazio. OK, thank you. And the Governor would favor--
--
    Mr. Tuchmann. Congressman, the Governor would favor that, 
as well.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman. I will 
have another round. Thank you.
    Mr. Tipton. Thank you. Congressman Walden?
    Mr. Walden. Thank you, Mr. Chairman. And I certainly 
appreciate the great work that you are doing on these issues. 
Long ago and far away, when this room was of a different color, 
I want to commend you, by the way, with what you have done with 
the room. It looks pretty nice. I served on this Committee and 
know its importance to our State and our country.
    And I want to thank our witnesses today for your testimony 
and your collaboration and your help with us on this 
legislation.
    Mr. Robertson, Commissioner, you have certainly been on the 
forefront of this. I think it sort of sprung from an idea that 
you had many, many years ago, or the O&C counties did. Are you 
confident there is the right balance here between the lands 
going into trust and not going into trust, in terms of the 
ability to actually produce the revenue and the jobs while 
operating under Oregon Forest Practices Act, which is a--I 
think a very responsible statute, when it comes to stewardship 
of Federal forests? Is this going to get the job done to give 
you the certainty, as you represent communities all over 
Oregon, as our witness today, is this going to give you the 
certainty?
    Mr. Robertson. We feel if this proposal were adopted in its 
current form, it would do that.
    As you know, you and your staff, Congressmen DeFazio and 
Schrader, have worked very hard with many others in trying to 
ensure that the outputs do meet the requirements both of the 
counties providing a predictable supply of raw material for the 
industry, and ensuring significant conservation gains. 
Understanding that all of those sectors had to be addressed, 
our feeling is, representing the Association of O&C Counties, 
that this would get us there. We feel confident it would.
    Mr. Walden. So you are--and, Mr. Tuchmann, does the 
Governor feel that way, as well, that we have struck the right 
balance here, realizing I know you have some suggestions here.
    Mr. Tuchmann. Congressman, this is an area that the 
Governor would like to work with you more on, over 50 percent 
of the land base. There are no numbers in the bill, as you 
know. Some models that we have seen and projected are that over 
50 percent of the land base would be put in this type of 
management. It is an issue that causes great concern to a 
number of Oregonians, and we would like to work with you on 
that.
    Mr. Walden. I appreciate that. Obviously, I assume the 
Governor supports the Forest Practices Act in the State of 
Oregon as a responsible management tool for our Federal 
forests--or our State and county and local forests, private 
forests, right?
    Mr. Tuchmann. Yes.
    Mr. Walden. And do you feel--I mean, because that is kind 
of why we went there as the overriding management tool. Because 
I feel that. I mean I think it is a responsible way to manage. 
I am a lifelong, native-born Oregonian.
    And so, I think we have to keep in mind that part of the 
trade-offs here is that there is a chunk of O&C land that then 
would not be necessarily active managed, and this would be. And 
what I want to guard against, because I have seen it happen 
over time, is the lands we set aside for active management, 
then get a whole new layer of restrictions, and eventually you 
haven't accomplished a thing. And that is why there are some 
interesting handcuffs and release points in here, that if this 
is thrown out, then the O&C Act comes back, and the wilderness 
comes back out, and all of those.
    Are you all comfortable with those provisions, the sort of 
handshake provisions?
    Mr. Tuchmann. Congressman, the Governor came out with a 
report that has seven different options. He thinks that some 
combination of a trust, a land sale, or dominant use would 
provide a solution that would be acceptable to all parties. He 
has not specified what he thinks that right mix is.
    I mean, frankly, the view is that the foundation we set 
with our panel in Oregon should also be brought to Washington 
and we should finish the job here.
    Mr. Walden. Well, and that is obviously what my colleague 
from Lane County and I have tried to do with our colleague from 
Clackamas County over the years, is come to something we think 
can move here, in this environment. And so we have made a lot 
of trade-offs to get to this point. And we will continue to 
work that. As Peter said this morning, there are things in here 
he doesn't like, things in here I don't like, and I can tell 
you some of my constituents don't like and some of his don't 
like.
    So, I am just sort of laying out there I don't know how 
much more wiggle room there is, but obviously we are open, 
and--as we have been in the meetings in Portland we had with 
you and the Governor and others. We are willing to continue the 
discussion. But I would just caution that this is about trying 
to get certainty for jobs, certainty for management, certainty 
for revenues before these counties go broke. And I am committed 
to continuing in that effort, as I have in the past on 
legislation like forest restoration and others that became law, 
that we just have to get this done.
    So I appreciate the Governor's leadership on it. I know he 
has taken some knocks as well. And the Commissioner, thank you 
for your leadership. And my time has expired. Thank you, Mr. 
Chairman.
    Mr. Tipton. Thank you, Mr. Walden. And we will go to a 
second round. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Just in following up 
on that, you mentioned the new science, Mr. Tuchmann. As I 
understand it, you are probably referring to Gordon Reeves' 
work at OSU, which has looked at the Northwest Forest Plan 
where the interim standards were two mature tree-lengths in all 
areas, and has concluded that in many areas that could be 
reduced to one. Not necessarily all areas, but depending upon 
the sensitivity, the slopes, the soils, et cetera, et cetera. 
Is that what you are referring to there?
    Mr. Tuchmann. That is what I am referring to. And I think 
it is important to clarify that, as we have heard on panels 
past, this is not a one-size-fits-all solution. What I think 
Dr. Reeves and his colleagues would recommend is that we need 
to go in on a watershed-by-watershed basis. And, based on that 
watershed and what that analysis provides, you can, on these 
riparian areas make that reduction on--the number I have heard 
is 20 to 50, 60 percent. But some riparian areas it may be 0 
and some riparians it might be 80 percent, it depends on the 
particular condition of that watershed.
    Mr. DeFazio. One idea which has been put forward would be 
the idea to use potentially some of the revenues to work with 
willing private property owners in critical areas and enhance 
riparian buffers in those areas. And, I mean, are the 
commissioners--that made sense that would be coming out of some 
of your potential revenue. Have the commissioners taken a 
position on that, Mr. Robertson?
    Mr. Robertson. We support that. The reality is that the 
physical nature of these lands are in a checkerboard. You have 
industrial owners contiguous to BLM contiguous to industrial 
owners and so on. It is very difficult to manage a watershed in 
that regard.
    So, the possibility of using some of the resources that 
come from management of the lands to address this issue working 
with private land owners, willing private land owners, is 
something under consideration.
    Mr. DeFazio. OK, thank you. And I assume the Governor would 
be supportive of that?
    Mr. Tuchmann. Not only supportive, but strongly supportive, 
and would also like to participate both through the State's 
agencies and financially in contributing, as well. We want to 
be part of the solution.
    Mr. DeFazio. That would be great. Now, as Greg mentioned, 
there are parts that cause us each some heartburn. And one area 
would be the wilderness protection for the Rogue, in 
particular. And I know, Commissioner Robertson, you are perhaps 
not a tremendous fan of wilderness designations--not saying 
that you are against them, but--as the--have the O&C counties 
evaluated this package as a whole, looking at the inclusion of 
the wilderness?
    Mr. Robertson. That has been a difficult area for us, as 
you pointed out. However, understanding the discussions that 
have gone on for many years, the identification of sensitive 
areas surrounded by O&C lands, and the opportunity to reach an 
agreement and move forward in terms of management, and 
recognizing protecting some of these special areas, our board 
has accepted that and is prepared to move forward.
    So, it is a tough discussion, as you know. We have been 
involved in it for many, many years. It seems that at a time 
when counties are struggling, industry is struggling, forest 
health is declining, that simply putting more land in a reserve 
status not to be managed, perhaps, is not the right decision to 
make. However, understanding also the dynamics that we are 
dealing with, and our commitment to address the issues of all 
stakeholders, we are prepared to move forward with the 
provisions that are in the Act.
    Mr. DeFazio. OK. Mr. Tuchmann, is the inclusion of those 
provisions important to the Governor, from his----
    Mr. Tuchmann. They are.
    Mr. DeFazio. And to the task force?
    Mr. Tuchmann. They were. Yes, they were.
    Mr. DeFazio. And I believe that the industry--I mean I 
guess we can--I don't know who is confident, but I have not 
heard that the industry objected to those provisions.
    Mr. Tuchmann. Well, let me clarify. The report that was 
drafted was a staff report that my colleague and I drafted. And 
the panel members did not take a position on the particular 
components. They did release a statement. Each individual 
panelist has their own position on a wide array of these 
issues.
    Mr. DeFazio. OK.
    Mr. Tuchmann. As far as the Governor, his position is that 
he thinks additional protections for special places as outlined 
in our testimony, in his testimony, should be included in any 
final bill.
    Mr. DeFazio. OK, thank you. And just--if I could, the 
indulgence of the Chairman, just one question for Dr. 
Kulakowski. And I appreciate his contributing to the debate.
    We have some communities that have adopted--well, it is 
actually required in some areas, like where I have a cabin in 
Central Oregon--what are called fire-wise steps. Have you seen 
a significant difference in terms of destruction of property 
and/or those areas which have taken these preventative steps?
    Mr. Kulakowski. I have. And everything I have seen 
indicates that these fire-wise practices, which involve 
treating the land in the immediate vicinity of homes and 
communities, is the best way to go, if our goal is to protect 
those homes and communities.
    Mr. DeFazio. So this would be sort of along the lines of 
the original provisions of HFRA, where we were going to start 
in what is called the ``wooies'' and kind of work our way out 
from there, and emphasize the area within the wooies to protect 
communities and individual properties.
    Mr. Kulakowski. Exactly. Everything I have seen indicates 
that if we want to prioritize protecting homes from wildfires, 
we should start in the wildland-urban interface and start by 
creating defensible space in the immediate vicinity of 
structures.
    Mr. DeFazio. And so your concerns that you expressed about 
using harvest as a mechanism, which is considered a bit 
unsettled to deal with fire and intensity, but at least in this 
limited instance you would support that because that is what 
this does involve, is getting a certain setback and----
    Mr. Kulakowski. Right. I didn't intend to express an 
opinion against harvest. Instead I am thinking about what are 
our real goals. If our goals are to harvest forests, we should 
do that. If our goals are to protect homes and communities from 
wildfires, we should do that. And if we are talking about the 
latter case, it makes the most sense to begin in the wildland-
urban interface and by creating defensible space.
    Mr. DeFazio. OK. Thank you. Thank you, Doctor. Thank you, 
Mr. Chairman.
    Mr. Tipton. Thank you, Mr. DeFazio. And are there any other 
questions?
    [No response.]
    Mr. Tipton. With none, I certainly want to thank you. You 
are the most hearty of all. You sat through the entire 
afternoon. And we certainly appreciate your testimony, taking 
the time to be able to be here. These are important issues, and 
I think we can obviously see the passion that exists here, with 
the goal of getting healthy forests, to be able to address the 
threat of wildfire and how best to be able to proceed. And so, 
thank you for being able to be here. And I would again thank 
all of our witnesses today for their valuable testimony and 
patience, and to the Members for their participation.
    Members of the Subcommittee may have additional questions 
for the witnesses. And if there are, we ask that those be 
submitted in writing, and get the responses back for those. The 
hearing record will be open for 10 days to receive the 
responses.
    If there is no further business to come before the 
Committee, without objection the Subcommittee stands adjourned.
    [Whereupon, at 4:32 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    Responses Submitted for the Record to The Honorable Tom Tidwell

Questions submitted by Representative Rob Bishop
Question 1. What is the sustained yield of timber in the National 
Forest System?
    Answer: Long-term sustained yield has been the term used in forest 
planning for estimating sustained yield of timber, defined as the yield 
that a forest can produce continuously at a given intensity of 
management, though it implies continuous production so planned as to 
achieve, at the earliest practical time, a balance between growth and 
cutting. (Dictionary of Forestry, Society of American Foresters). Long 
term sustained yield (LTSY) is only calculated when plans are initially 
developed or revised, which was mostly in the 1980s and early 1990s. 
The sum total of long term sustained yield estimates published with 
initial and revised forest plans is approximately 12.5 billion board 
feet, including firewood. It is important to note there have been many 
changes affecting land management on national forests since these 
initial plans were developed or revised. These changes, which do not 
trigger adjustments in the underlying plans' LTSY data, tend to reduce 
the significance of the cumulative total of the LTSY in our existing 
plans. Some of these changes include:

   The Northwest Forest Plan that amended forest plans to protect old 
        growth, northern spotted owls, marbled murrelets, and aquatic 
        species such as salmon in Washington, Oregon, and Northern 
        California.
   The Sierra Nevada Framework that amended forest plans to provide 
        for old growth and California spotted owls, and to reduce the 
        risk of wildfire.
   Amendments and other changes to address other listed species such 
        as Canada lynx, grizzly bear, Mexican spotted owl, and others.
   New knowledge and understanding of the ability to harvest timber 
        while managing national forests for multiple use.
   The Roadless Area Conservation Rule and the State Roadless rules 
        for Idaho and Colorado.
   Major fires and fire behavior that have altered potential for long-
        term timber production.

Question 2. What is the sustained yield of the agency's commercial 
timber land capable of producing twenty cubic feet of timber per acre, 
excluding lands that have been designated by Congress as a component of 
the National Wilderness Preservation System?
    Answer: The long term sustained yield total in response to question 
1 is based on lands that can produce twenty cubic feet per acre per 
year and excludes wilderness areas that were in existence when the 
initial plans were developed or revised. The estimates also excluded 
other lands that were not suitable for timber production when the plan 
was developed or revised. The long term sustained yield estimates were 
not revised for added wilderness areas or other lands removed from 
timber production after initial development or revision of land 
management plans.
Question 2a. Please provide a map of the commercial timber land meeting 
the description described above.
    Answer: We do not have a national map of such lands.
Question 3. In response to a question from Ranking Member Grijalva, you 
stated that the Forest Service currently manages ``20 million acres of 
roaded lands that is more work than we can do.'' Can you please provide 
a map identifying these acres as well as provide the sustained yield of 
those areas?
    Answer: We do not have such a map. The Chief was referring to the 
2012 Report, ``Increasing the Pace of Restoration and Job Creation on 
our National Forests'', in which we have identified over 12.5 million 
acres of roaded national forests, located throughout the national 
forest system, that need mechanical treatment (timber harvest) to 
restore the forest resiliency. Just to complete this restoration work 
on these roaded acres will take decades.
Question 4. You cited ``public comments'' received in explaining the 
Agency's rationale for increasing land acquisition funding by 10% while 
significantly cutting a number of land management line items, including 
a 37% reduction in hazardous fuels reduction funding. You also cited 
``public comments'' received in defending the agency's current approach 
to managing these forests, which has caused severe economic harm in 
many neighboring rural communities. Please provide a detailed 
description of how the agency collects and analyzes public comments in 
determining its management and budget priorities.
    Answer: At all levels of the organization, the Agency works to 
communicate, both formally and informally, with citizens regarding 
management of their national forests. Depending on the circumstance, 
news releases, websites, visitor information centers, open houses, 
public comment periods, conferences and day to day meetings and 
telephone conversations with citizens and elected officials are some of 
the many ways the Forest Service reaches out to the public, and also 
receives public comment.
Question 4a. Since you also indicated that your budget request 
reflected a balanced approach, please also provide specific examples of 
public comments that the agency received that support the 
Administration's proposed budget request to increase land acquisition 
funding and decrease land management funding, including hazardous fuels 
reduction activities.
    Answer: Over the summer of 2010, the Administration America's Great 
Outdoors (AGO) initiative held 51 public ``listening sessions'', an 
extensive public conversation about conservation. More than 10,000 
Americans participated in these live sessions and more than 105,000 
comments were provided. According to the multi-agency February 2011 AGO 
report, support for full funding of the Land and Water Conservation 
Fund (LWCF) for land acquisition was one of the most common comments 
received during these listening sessions.(See America's Great Outdoors: 
A Promise to Future Generations (February 2011) pg. 32 available at 
(http://www.fs.usda.gov/Internet/FSE_DOCUMENTS/stelprdb5333333.pdf.)
    Land acquisitions directly address public demand, as outlined in 
the America's Great Outdoors (AGO) Initiative. Acquisitions support 
access, restoration, and can improve management effectiveness. The 
competitive LWCF funding process, which is the Forest Service's primary 
source for funding for land acquisition, requires that National Forests 
seeking funding for a project demonstrate evidence of public support. 
Public support is most often demonstrated through funding from broad 
based interest groups including conservationists, outdoor recreation 
enthusiasts and traditional sportsmen's groups representing hunting and 
fishing interests. Support is also demonstrated in requests from 
Members of Congress and in the appropriation of funding. Local support 
often comes from communities and state and local governments and their 
agencies. Examples of this local support include: a letter from County 
Commissioners in Lake County Montana supporting the Montana Legacy 
Completion acquisition project; a resolution of the Teton County Board 
of County Commissioners offering ``full and enthusiastic support'' to 
the Greater Yellowstone acquisition project.
Question 5. What is your agency's policy regarding when an event or 
public notice should be placed in the Federal Register?
    Answer: There are several laws and regulations that govern when 
public notice should be placed in the Federal Register.
    The Administrative Procedures Act (APA) (5 U.S.C. 551 et. seq.) is 
the basic government-wide authority for rulemaking. It specifies 
procedures to be followed in the rulemaking process, including the 
requirement to give public notice of and the opportunity to comment on 
proposed rules (5 U.S.C. 533). The APA exempts from the notice and 
opportunity to comment requirements interpretative rules, general 
statements of policy, or rules of agency organization, procedure, or 
practice. However, it is USDA policy to require that the public be 
given notice of proposed rules and the opportunity to comment on them.
    Forest Service regulations at 36 CFR Part 216 implement section 11 
of the National Forest Management Act and generally require the Agency 
personnel to publish for notice and comment proposed ``standards, 
criteria, and guidelines'' issued through the Forest Service Manual.
    Forest Service Handbook (FSH 1909.15) provides guidance for 
implementing the NEPA. Under our NEPA guidance we must publish notices 
in the Federal Register for Environmental Impact Statements (EIS) at 
the beginning of the NEPA process, with a Notice of Intent, and twice 
during the process with draft and final documents using a Notice of 
Availability.
    The Federal Advisory Committee Act requires that the advice 
provided by a committee as defined by this Act be objective and 
accessible to the public. The Forest Service (FSM 1356) policy for 
publishing a committee meeting in the Federal Register requires that 
the notice must be published at least 15 and not more than 45 calendar 
days prior to the date of the meeting; ``every portion of every meeting 
of an agency shall be open to public observation'' (5 U.S.C. 552b(c)). 
FACA also requires Federal Register notice of the establishment of a 
committee.
Question 6. Please specifically describe what kinds of activities are 
and are not subject to a public comment period, with notice published 
in the Federal Register.
    Answer: Meeting notices are the only publications not subject to 
the public comment period requirements identified in question 5.
    Notices of Availability of Environmental Statements, advance 
notices of rulemaking, notice of proposed rulemaking, or notices of 
intent to prepare an EIS are initiated and information about the scope 
and purpose of action invite the public to comment and provide 
suggestions in www.regulations.gov. The Forest Service also publishes 
in the Federal Register notices of Records of Decision and significant 
new or revised policy or procedure that will be issued in the Forest 
Service's Directive System.
    Under exigent circumstances, the Forest Service may implement a 
notice for an interim directive or directive supplement upon 
publication for public notice and comment. This notice must identify 
the exigent circumstances. (36 CFR Part 216.4)
Question 7. Are there times when an event is not required to be 
noticed?
    Answer: An event notice is generally not required, except when the 
proposed directive or regulation will:

   Alter budget impact of user fee programs,
   Have a large or negative impact on the economy, or
   Raise legal controversy.

Question 8. Does your agency have a specific policy of waiting for the 
event to be physically published in the register before releasing 
details to the public via other means?
    Answer: No.
Question 9. What are the repercussions of improperly noticing an event?
    Answer: The failure to properly notice an advisory committee 
meeting would violate the Federal Advisory Committee Act (FACA). Any 
repercussions related to improperly noticing other types of events--
such as public meetings related to a rulemaking or a tribal 
consultation session--would depend on the circumstances.
Question 10. In response to a question from Ranking Member Grijalva, 
you quoted statistics on the number of Forest Service projects that are 
appealed and litigated. Specifically, you stated that an average of 6% 
of all Forest Service projects are appealed and an average of 2%are 
litigated. Do those percentages include projects in which there is no 
merchantable material (i.e., timber sales and stewardship contacts with 
merchantable timber)? If so, please provide the percentages of all 
projects with merchantable materials that are appealed and litigated.
    Please also list these percentages by Forest Service region.
    Answer: The percentages provided include statistics on appeals and 
litigation as a percentage of all Forest Service decisions analyzed 
under the National Environmental Policy Act, including those analyzed 
in an Environmental Impact Statement (EIS), Environmental Assessment 
(EA), or those categorically excluded from analysis and documented in a 
Decision Memo. Not included are those projects categorically excluded 
from analysis in an EIS or EA but not documented in a decision memo. 
These numbers include projects with and without merchantable material, 
and moreover included decisions where timber and other merchantable 
material was not under consideration at all (for example, decisions 
related to recreation, grazing, fish stocking, invasive species 
management, land exchanges, etc.)
    In response to Chairman Bishop's question regarding appeals 
percentages, the Forest Service project planning, appeals, and 
litigation system (PALS) was queried for appeals on decisions involving 
green or salvage timber sale activities for Fiscal years 2008-2012. 
PALS does not yet track all current litigation records, so litigation 
data were derived from Agency litigation case files for the same years. 
It should be noted that the numbers and percentages of lawsuits include 
wins, losses, and settlements.
[GRAPHIC] [TIFF OMITTED] 80441.014


.epsQuestion 11. At several points in response to questions you 
indicated that the timber market remained depressed and that stumpage 
values were low for Forest Service timber sales. The Committee has 
reviewed stumpage rates from state timber sale programs in Washington, 
Idaho and Montana. These values have stayed relatively constant during 
the downturn and remain quite strong today. Can you please clarify your 
statements related to a weak timber market by indicating whether the 
reason for the low values received by the Forest Service are primarily 
due to weaker timber markets or the low value of the materials the 
Forest Service includes in its timber sales.
    Answer: It is a combination of both. Forest Service timber stumpage 
prices (Figure 1) are following timber industry price trends (Figures 2 
and 3), although there can be local variance. Figure 1 shows Forest 
Service timber stumpage prices from Fiscal Years 2005 to 2012. stumpage 
value declines from just above $100 per thousand board foot in 2005 to 
a low of approximately $50 per thousand board foot in 2009. However, 
stumpage prices are now increasing. The lower value, nonsawlog stumpage 
actually declined at a lower rate than the sawlog stumpage value.
    Figures 2 and 3 show similar industry trends.
    [GRAPHIC] [TIFF OMITTED] 80441.015
    

    .eps[GRAPHIC] [TIFF OMITTED] 80441.016
    

    .eps[GRAPHIC] [TIFF OMITTED] 80441.017
    

.epsQuestion 12. What is the cost per acre for the Forest Service to 
conduct a hazardous fuels reduction project?
    Answer: Mechanical treatment of hazardous fuels ranges from $50/
acre to more than $4,000 per acre. Prescribed fire treatment of 
hazardous fuels ranges from $30/acre to $1,900/acre. Prices vary 
considerably because of many factors, including but not limited to type 
of vegetation, steepness of terrain, proximity to structures, type of 
equipment needed, marketability of product, and the remoteness of the 
site.
Question 13. What is the cost per acre for a vegetation management 
project involving commercial wood products?
    Answer: We do not have a cost per acre, but we do have cost per 
thousand board feet. That figure is approximately $157/thousand board 
feet (mbf), a decrease of approximately 23% when adjusted for inflation 
over the last 14 years; this, despite a 31% decrease in funding, and a 
49% reduction in forest management staff. The $157/mbf figure includes 
all timber sale related costs at the regional, forest and district 
offices. It also includes: cost of surveys, inventories, environmental 
analysis and disclosure (NEPA), sale layout, volume and value 
determination, contract preparation and award, and sale administration; 
costs associated with appeals and litigation, rework of timber sales, 
and administration of personal use for firewood and special forest 
products.
Questions submitted by Representative Matt Cartwright
Question 1. There has been considerable emphasis on the timber 
potential in our Forests but our National Forests are more than timber 
factories. They provide critical clean drinking water supplies for the 
country. They also provide world-class recreational opportunities for 
all Americans and the economic benefits that come from those 
opportunities to local communities.

According to the Forest Service, about 124 million people nationwide 
rely on national forest watersheds for their drinking water. That's 
roughly /1/3/ of the entire U.S. population. The estimated value of 
that potable water is between $4 and $27 billion annually. Is there a 
link between intensive logging and declines in water quality, Chief 
Tidwell?
    Answer: First, let me clarify the statistics in your question. EPA 
estimated that 66 million U.S. citizens (approximately 20%) get their 
water from the National Forests. The annual marginal economic value of 
water from the National Forests is approximately $7.2 billion.
    National Forest System lands are managed using a multiple-use 
approach with the goal of sustaining healthy terrestrial and aquatic 
ecosystems while addressing the need for resources, commodities, and 
services for the American people. We developed the Watershed Condition 
Framework (WCF) as a comprehensive approach for proactively 
implementing integrated restoration on priority watersheds on national 
forests and grasslands.
    The mix of multiple use benefits is influenced by public input 
during the development of forest plans. With a growing population and a 
finite fresh water resource, providing high-quality fresh water 
supplies is more critical than ever to the social and economic well-
being of the United States.
    In response to your question on logging and water quality, if 
timber sales are appropriately designed with mitigation measures and 
Best Management Practices (BMPs), there is no measurable decline in 
water quality. Forests and grasslands generally produce high-quality 
water, especially when the ecosystems are healthy and functioning 
properly. Water quality is influenced by the pattern, magnitude, 
intensity, and location of land use and management activities. Some 
land uses can protect or restore water quality, while others may 
degrade or pose risks to clean water.
    Preventing negative water quality impacts is more efficient and 
effective than attempting to restore the damage. To ensure water 
quality is protected, the Forest Service has developed procedures, 
methods, and controls, consistent with Federal and State requirements, 
to address potential pollutants and pollution at their source. 
Implementation and monitoring of these Best Management Practices is the 
fundamental basis of the Forest Service water quality management 
program to protect, restore, or mitigate water quality impacts from 
activities on National Forest System lands.
Question 2. What about recreation? Outdoor recreation industry supports 
nearly 6.1 million jobs andcontributes over $646 billion annually to 
the U.S. economy, according to the Outdoor Industry Association. And, 
according to the Forest Service, visitor spending in communities near 
national forests sustain more than 200,000 full and part time jobs. If 
that is correct, would there be overlap between areas identified for 
logging in the bills with areas currently used for recreational access, 
Chief Tidwell?
    Answer: Yes there could be some overlap in some areas. However, 
restoration work is not necessarily incompatible with recreation 
visitation, especially in the long run. Restoration work can enhance 
visitor safety through reduction of wildfire threats, improve access by 
removing hazardous trees, as well as improve both visual quality and 
wildlife habitat. All of these are very important to our visitors. In 
addition, restoration work diversifies and strengthens the economies of 
local communities, which in turn has positive effects on both 
visitation and its economic contributions.
                                 ______
                                 
    The documents listed below have been retained in the Committee's 
official files.
        <bullet>  Action 22 Southern Colorado, H.R. 818 Support Letter
        <bullet>  American Farm Bureau Federation, American Forest 
        Foundation, Association of Fish and Wildlife Agencies, et al., 
        H.R. 818 Support Letter
        <bullet>  Association of O&C Counties, Letter of support for 
        ``O&C Trust, Conservation and Jobs Act''
        <bullet>  Baertschiger, Hon. Herman E,, Oregon State Senate, 
        SJM10 Draft
        <bullet>  Baertschiger, Hon. Herman E,, Oregon State Senate, 
        ``O&C Trust, Conservation and Jobs Act'' Support Letter.
        <bullet>  Colorado Timber Industry Association, H.R. 818 
        Support Letter
        <bullet>  Delta County, Colorado, H.R. 818 Support Letter
        <bullet>  Eagle County (Colorado) Board of Commissioners, H.R. 
        818 Support Letter
        <bullet>  Environmentalist Groups Comments For the Record
        <bullet>  Graham, Owen, Executive Director, Alaska Forest 
        Association, H.R. 1294 Support Letter
        <bullet>  Hinsdale County, Colorado, H.R. 818 Support Letter
        <bullet>  Huerfano County Board of Commissioners, Colorado, 
        H.R. 818 Support Letter
        <bullet>  Intertribal Timber Council, Letter submitted for the 
        record on Federal forest management bills: H.R. 1294, H.R. 818, 
        H.R. 1354, H.R. 1442, and draft bills by Chairman Hastings, 
        ``the Restoring Healthy Forests for Healthy Communities Act'' 
        and by Rep. Peter DeFazio, ``the O&C Trust, Conservation and 
        Jobs Act.''
        <bullet>  Kitazhaber, John, Governor of Oregon, National Forest 
        Health Restoration
        <bullet>  Maisch, Chris, Administrative Order 258: Final Report
        <bullet>  Maisch, Chris, NASF Resolution No. 2011-2: Landscape-
        Scale Forest Management in the Vicinity of Federal Lands
        <bullet>  Mesa County Board of Commissioners, Colorado, H.R. 
        818 Support Letter
        <bullet>  Moffat County Commissioners, Colorado, H.R. 818 
        Support Letter, FTR
        <bullet>  Montrose County Board of Commissioners, Colorado, 
        H.R. 818 Support Letter
        <bullet>  The Pew Charitable Trusts, Mike Matz, Director, U.S. 
        Public Lands Conservation, Letter expressing concerns on draft 
        legislation entitled ``Restoring Healthy Forests for Healthy 
        Communities Act''
        <bullet>  Pueblo County Board of Commissioners, H.R. 818 
        Support Letter
        <bullet>  Routt County Board of Community Commissioners, H.R. 
        818 Support Letter
        <bullet>  San Luis Valley County Commissioners Association, 
        H.R. 818 Support Letter
        <bullet>  San Luis Water Conservancy District, H.R. 818 Support 
        Letter
        <bullet>  Trinity County Board of Supervisors, Letter submitted 
        for the record on reauthorization of Stewardship Contracting 
        Provisoins of Secure Rural Schools
        <bullet>  Trout Unlimited, Letter submitted for the record on 
        ``the O&C Trust, Conservation and Jobs Act.''

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
